<html>
<title> - VA/DOD RESPONSE TO CERTAIN MILITARY EXPOSURES</title>
<body><pre>[Senate Hearing 111-437]
[From the U.S. Government Publishing Office]





 
                      VA/DOD RESPONSE TO CERTAIN 
                           MILITARY EXPOSURES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                             Together with

             ADDITIONAL STATEMENTS SUBMITTED FOR THE RECORD


                            OCTOBER 8, 2009

                               ----------                              

       Printed for the use of the Committee on Veterans' Affairs
             VA/DOD RESPONSE TO CERTAIN MILITARY EXPOSURES




                                                        S. Hrg. 111-437

                      VA/DOD RESPONSE TO CERTAIN 
                           MILITARY EXPOSURES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
53-367                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9aeb9a689aabcbabda1aca5b9e7aaa6a4e7">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                            October 8, 2009
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     2
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     6
Burris, Hon. Roland W., U.S. Senator from Illinois...............     6
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia...   105
    Prepared statement...........................................   105
        Attachments..............................................   107

                               WITNESSES

Hagan, Hon. Kay R., U.S. Senator from North Carolina.............     7
Wyden, Hon. Ron, U.S. Senator from Oregon........................     8
Partain, Mike....................................................    10
    Prepared statement...........................................    12
        Attachment...............................................    17
    Response to post-hearing question submitted by Hon. Daniel K. 
      Akaka......................................................    64
        Enclosures...............................................    66
Nuckols, John R., Professor, Department of Environmental and 
  Radiological Health Sciences, Colorado State University........    71
    Prepared statement...........................................    72
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    75
Pennington, Stacy, Sister of SSG. Steven Gregory Ochs, Iraqi 
  Operation Freedom and Operation Enduring Freedom Veteran.......    75
    Prepared statement...........................................    78
Miller, Robert F., M.D., Associate Professor of Pulmonary and 
  Critical Care Medicine, Vanderbilt University Medical Center...    80
    Prepared statement...........................................    82
Paganelli, Laurie, Mother of Jordan Paganelli, Childhood Cancer 
  (Sarcoma) Warrior and Past President of U.S. Naval Air Facility 
  (NAF), Atsugi, Japan...........................................    83
    Prepared statement...........................................    86
Feigley, Charles E., Ph.D., Professor, Environmental Health 
  Sciences, Public Health Research Center, Arnold School of 
  Public Health, University of South Carolina; Chair, 
  Subcommittee on the Atsugi Incinerator Committee on Toxicology 
  Board on Environmental Studies and Toxicology Division on Earth 
  and Life Studies, National Research Council, The National 
  Academies......................................................    88
    Prepared statement...........................................    90
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    92
Gibb, Herman, Ph.D., M.P.H.......................................    92
    Prepared statement...........................................    95
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    96
Powell, Russell, Former U.S. Army Staff Sergeant.................    97
    Prepared statement...........................................    99
Peterson, Michael, DVM, M.P.H., DRPH, Chief Consultant, 
  Environmental Health, Strategic Healthcare Group, Office of 
  Public Health & Environmental Hazards, Veterans Health 
  Administration, Department of Veterans Affairs.................   115
    Prepared statement...........................................   116
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   121
      Hon. Richard Burr..........................................   123
Postlewaite, R. Craig, DVM, M.P.H., Acting Director, Force Health 
  Protection and Readiness Programs, Office of the Assistant 
  Secretary of Defense (Health Affairs), U.S. Department of 
  Defense........................................................   125
    Prepared statement...........................................   126
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   128
      Hon. Richard Burr..........................................   131
Gillooly, Paul B., Ph.D., CAPT, Medical Services Corps, U.S. Navy 
  (Ret.), Navy/Marine Corps Public Health Center.................   132
    Prepared statement...........................................   134
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   139
      Hon. Richard Burr..........................................   290
Payne, Eugene G., Jr., Major General, Assistant Deputy 
  Commandant, Installations and Logistics (Facilities), 
  Headquarters, U.S. Marine Corps................................   291
    Prepared statement...........................................   292
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   296
      Hon. Richard Burr..........................................   298
Resta, John J., Scientific Advisor, U.S. Army Center for Health 
  Promotion and Preventative Medicine............................   299
    Prepared statement...........................................   301
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   305
      Hon. Richard Burr..........................................   310
    Response to request arising during the hearing by Hon. 
      Richard Burr...............................................   324

                                APPENDIX

Akers, Paul C., BS, MS, MD, Camp Lejeune, NC (1954-60); prepared 
  statement......................................................   327
Agency for Toxic Substances and Disease Registry (ATSDR); 
  prepared statement.............................................   328
Camp Lejeune Community Assistance Panel (CAP); prepared statement   336
Aschengrau, Ann, Sc.D., Professor, Associate Chair of the 
  Department of Epidemiology, Boston University School of Public 
  Health; accompanied by four other signers; prepared statement..   342
Briscoe, David A., U.S. Marine (Ret.); prepared statement........   343
Little, Candy; prepared statement................................   344
O'Dowd, Robert, Somerdale, NJ, Marine Veteran, Former Financial 
  Manager, Defense Logistics Agency; accompanied by nine other 
  signers; letter................................................   345
        Attachment...............................................   347
Parulis, Shelly, Jacksonville, NC; letter........................   351
Sims, Sam; letter................................................   355


                      VA/DOD RESPONSE TO CERTAIN 
                           MILITARY EXPOSURES

                              ----------                              


                       THURSDAY, OCTOBER 8, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room 562, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Brown, Burris, Hagan, 
Wyden, Burr, and Isakson.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. The Senate Committee on Veterans' Affairs 
will come to order. Aloha and welcome to today's hearing where 
we will focus on how the Departments of Veterans Affairs and 
Defense respond to in-service exposures.
    As the Committee charged with oversight of the Department 
of Veterans Affairs, we must be certain that VA is providing 
appropriate health care and compensation to those who are 
harmed by exposures while serving in the military. In order for 
VA to do that, DOD must first determine who was exposed, what 
they were exposed to and the health consequences of such 
exposures. The information must then be shared with VA.
    Two of the matters we will look at today relate to claimed 
exposure of members of the Armed Forces during the current 
conflicts. The other two involve claimed exposures in the past 
and relate not only to members of the Armed Forces, but also to 
family members. These are very different issues and as such, 
require different 
approaches.
    As to the question of who might have been exposed in the 
present conflict, current DOD records should be available to 
answer that question. If they are not, then the Committee must 
know why not. For the earlier exposures, DOD must pull together 
records to provide some estimation of potentially exposed 
populations.
    I believe that the overall issue of providing intervention 
on exposures is vital. DOD should commit to ensuring that going 
forward no one will leave active duty without a detailed record 
of where the individual was stationed and a comprehensive 
physical that might identify any health concerns related to 
possible in-service exposures.
    VA's role is to merge the information regarding potential 
exposure and the scientific analysis so as to craft an 
appropriate response. This effort must be carried out, giving 
the benefit of the doubt to the veterans concerned. In some 
cases, there has been an absence of reliable information on 
exposures, including health consequences. In other cases, it is 
not possible to achieve consensus on the science.
    One thing is clear, those harmed by an in-service exposure 
to environmental hazards should receive a timely and 
appropriate response from the government. Because Congress is 
not the ideal forum for seeking to resolve complex and often 
emotional issues related to potential exposures, we must be 
sure that DOD and VA are working together effectively on such 
issues.
    I look forward to the testimony of the many witnesses that 
we have here this morning. I now turn to Senator Burr, for his 
opening statement.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Aloha, Mr. Chairman.
    Chairman Akaka. Aloha.
    Senator Burr. And good morning. I want to thank you for 
calling what I think is an extremely important hearing. I want 
to welcome our witnesses and to recognize all of the veterans 
and their family members who have joined us here today for this 
hearing.
    I also want to give a special welcome to two North 
Carolinians, Jerry Ensminger and Shelly Parulis and to thank 
them for their tireless leadership and advocacy on behalf of 
veterans and their families. Your interest in this hearing only 
serves to underscore the importance of the issues we are 
discussing today.
    Over the years, thousands of military personnel and their 
families have been exposed to dangerous chemicals where they 
were living and working while serving our country. Today we 
will hear about some of those exposures, including: the plumes 
from an incinerator near a base in Japan; smoke from burn pits 
being used in Iraq and Afghanistan; dust from a facility in 
Iraq coated with a known carcinogen; and contaminated drinking 
water at a base in North Carolina.
    I want to express my sincere appreciation to the veterans 
and family members on our first panel for your willingness to 
share with us your painful experiences about your exposure. 
Your perspectives will help guide our efforts to find answers 
for veterans across the country about how these exposures may 
have affected their health or the health of their loved ones. 
More importantly, your testimony will help us determine what 
steps we need to take to protect and improve the lives of those 
who have been harmed.
    Mr. Chairman, my remarks will focus on one exposure issue 
that is very personal to me, the contaminated drinking water at 
Camp Lejeune in my home State of North Carolina. I know we will 
hear from several witnesses about this issue, but I also would 
like to acknowledge two former Marines, Jerry Ensminger, who is 
here today, and David Briscoe, who could not be here today.
    They both lived at Camp Lejeune during the years that the 
water was contaminated and have their own painful stories. 
David, who lived in Camp Lejeune in the 1980s, was later 
diagnosed with cancer of the hard pallet and underwent 
treatment that reduced his ability to eat, speak and work. 
Jerry's daughter, who was born at Camp Lejeune in 1975, was 
diagnosed with leukemia at age six and tragically died 3 years 
later. Jerry, I commend you for your personal strength in the 
face of such tragedy and appreciate you being here today.
    Unfortunately, Jerry and David's heart-wrenching stories 
are not unique for veterans who served on Camp Lejeune between 
1957 and 1987. The residents of Camp Lejeune didn't know it at 
the time, but the water they were drinking, cooking with, and 
bathing in contained harmful chemicals, including TCE, PCEs, 
benzene and vinyl chloride, which are known or probable human 
carcinogens.
    Some of them are now living with rare cancers, like one of 
our witnesses today. Mark Partain is a son of a Marine, a 
former resident of Camp Lejeune, and one of over 20 former 
Lejeune residents diagnosed with a rare male breast cancer at 
an unusually young age. He was just 39 years old. This 
condition usually strikes less than 2,000 men each year and 
most are over the age of 55.
    Although a number of studies have suggested a possible link 
between the water and Camp Lejeune and these types of 
conditions, we still do not have the answers about what made 
Jerry's daughter or Mike or David sick or what has caused our 
former Lejeune residents to become ill. The government's role 
in scientific discovery is clear; Camp Lejeune was designed by 
the EPA as a national priority list site.
    Under Title 42 of the U.S. Code, the Agency for Toxic 
Substance and Disease Registry is conducting a number of 
studies of the Camp Lejeune contamination. These studies 
include sophisticated computer modeling and future mortality 
and health surveys. It is unfortunate that ATSDR was not 
invited to provide a witness for this hearing so that they 
could respond to testimony being given by our witnesses and 
answer questions from this Committee.
    Mr. Chairman, I hope in order to strike a balance of the 
scientific opinion on what I think is an important issue, I 
would ask that ATSDR's official response to the National 
Research Council's report on Camp Lejeune be included in the 
record today.
    Chairman Akaka. It will be included in the record.
    [The information referred to appears in the Appendix.]
    Senator Burr. I thank the chair for that. We have an 
obligation to figure out how much of these dangerous chemicals 
veterans and their families were exposed to at Camp Lejeune and 
what impact these exposures had potentially on their health. 
For these patriots who have endured unbearable heartache and 
suffering, they deserve no less than our best effort to provide 
them with the answers about why they are sick.
    Also, we must always make sure that the claims these 
families have pending are not prematurely denied by the 
government before science has had the opportunity to provide 
more answers. Let me stress, before science has had the 
opportunity. While we wait for science, we must deal with the 
fact that many of these exposed veterans and their families 
continue to suffer from devastating conditions.
    It is simply not right for us to continue to tell our 
veterans and their families to just wait for another study. 
They have already waited two decades. We owe them much more 
than that. That is why I have introduced, along with my 
colleague from North Carolina, Senator Hagan, legislation--the 
Caring for Camp Lejeune Veterans Act, S. 1518--which would 
allow veterans stationed at Camp Lejeune while the water was 
contaminated to get medical care from the VA.
    Perhaps more importantly, it would also allow the VA to 
treat their families for conditions associated with exposure to 
contaminated water. Providing health care to veterans and their 
families would be one step toward meeting our moral obligation 
to those who have put more at risk. As we will discuss today, 
there are many other veterans and their families who may have 
been exposed to dangerous chemicals in other places around the 
world. For all of them, it is important that we have a 
framework in place to determine in a fair and hassle free and 
timely matter what benefits and services they need and deserve.
    To that end, we will have a candid and productive 
discussion today about what is currently working well and where 
improvements are needed. Mr. Chairman, for veterans and their 
families put at risk by exposure, whether in Japan, 
Afghanistan, Iraq or North Carolina, we have a solemn duty to 
take care of those who were put in harm's way while serving 
this Nation. I hope we will work together, and I think we will, 
to provide these veterans and their families with the answers 
they deserve and more importantly, the help they need.
    I thank the chair.
    Chairman Akaka. Thank you very much, Senator Burr. Now we 
will have the opening statement of Senator Brown.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman, Ranking Member 
Burr, and Senator Hagan, too, for your good work on this very 
important issue.
    Today's hearing is about toxic exposure, elusive science 
and earned compensation. It is about our servicemembers and 
their families and how we will resolve the difficult challenges 
that exposure issues present. When there is doubt, we must take 
the side of the servicemember.
    Yesterday I met with Mary and Jeff Byron. Jeff is a former 
Marine who served at Camp Lejeune from 1982 to 1985. Mary and 
Jeff were at Camp Lejeune when their first baby was born and I 
believe their second child was born. We discussed their family 
and the impact that living at Camp Lejeune had on this family's 
lives through that generation and even the next generation.
    Jeff is one of more than 5,900 Ohio veterans whose families 
are part of the Marine Corps Registry for potential exposure at 
Camp Lejeune. Jeff and Mary are here today. At one point, Jeff, 
in recalling what had transpired with his family during their 
time at Camp Lejeune and soon after and the problems that his 
family was facing, told me he turned to his wife and asked, 
what is happening to our family?
    Connecting the dots between service and exposure is a 
complicated process. Helping these families should not be 
complicated. In tough cases like this, we have to ask 
ourselves, what is the greater sin? Do we refuse benefits to a 
servicemember or a veteran or a servicemember's family or a 
veteran's family who may be suffering from service-connected 
exposure to cancerous toxins? Or do we provide benefits to a 
servicemember or veteran or servicemember's family or veteran's 
family whose health care challenges may not be service-
connected?
    Do we save a few bucks or do we save a few lives? 
Scientific certainty should not trump human decency. There is 
another point here that cannot be overlooked. Our military now 
is working to connect the dots, but private contractors are 
not. From the exposures of Camp Lejeune to the burn pits in 
Iraq, to the emissions at Atsugi Naval Air Station, we found 
the military working to find the answers.
    It has not been the smoothest journey to where we are 
today. For too long, the Department of Defense fought and 
denied exposure claims, but the military, again, finally now is 
working with the VA to serve the best interests of our 
servicemembers, our veterans and I hope their families.
    I spoke this week with the Marine commandant, General James 
Conway, who has pledged his cooperation and who has pledged 
that the military will do much better at meeting its 
obligations than it has in the past. This cooperation though, 
has not been the case with the sodium dichromate exposure at 
the Qarmat Ali Water Treatment Plant.
    What is the difference? The difference is the water 
treatment plant was run by a private contractor, KBR. In a 
recent hearing, soldiers testified they were never offered any 
kind of protective clothing or masks or other protections by 
the company. They were never told about the presence of one of 
the most hazardous carcinogens. Hexavalent chromium is a 
general toxic carcinogen and inhalation leads to lung cancer, 
yet the company either dismissed these concerns, or worse, 
intentionally mislead our military personnel. It is a lousy way 
to turn a profit.
    So, while I am not happy at the speed and the progress of 
the Department of Defense and the VA, I am outraged at the 
behavior of private contractors, especially KBR. We should all 
be outraged by the behavior of KBR and like-minded contractors 
who take the money from our taxpayers, who take the money from 
our military, but fail its members. That is not the focal point 
of this hearing, but it is an issue Congress must confront.
    As we consider how to ensure members of our military who 
have been harmed by environmental hazards benefits they 
deserve, we should learn from the rocky road former nuclear 
workers have been forced to travel to prove they have been 
harmed by their jobs.
    The Department of Labor is charged with addressing work-
connected health care issues affecting our former nuclear 
workers, many of whom are in my home State of Ohio. It has been 
an unjustifiably steep, red-taped-ridden battle for these 
workers and I welcome my colleagues' assistance and efforts to 
improve that program. We must not repeat the mistakes of that 
program as we address the concerns of servicemembers.
    We must cut through the bureaucracy and focus on delivering 
both help and hope to men and women and their families who 
served our Nation and now are suffering because of it. That is 
why the work of this Committee and the leadership of the 
Chairman and the Ranking Member on this issue are so important. 
That is why the testimony of our witnesses is so vital and 
appreciated.
    Thank you.
    Chairman Akaka. Thank you very much, Senator Brown. Senator 
Isakson, your opening statement.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman. In 
deference to the witnesses, I will be very brief. I want to 
thank you at the outset for calling what I consider to be a 
most important hearing and I look forward to hearing the 
testimony of each and every witness.
    I would like to thank each of the witnesses for helping to 
shed light on this very serious matter. I would particularly 
like to thank the witnesses who will be sharing their deeply 
personal stories. You not only put a face on the consequences 
of these exposures, but also help us as we determine the 
correct path for us to follow. I thank you for your service to 
our country and I thank you for being here today to testify.
    Chairman Akaka. Thank you very much, Senator Isakson. 
Senator Burris, your opening statement.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman. I would like to 
also thank you for holding this hearing on the important issue 
of exposure to environmental hazards to our servicemembers. 
When we ask the brave men and women of this country to risk 
their lives in service to this country, the country in turn has 
an obligation to protect them from exposure and environmental 
hazards and provide information and treatment.
    I am deeply concerned whether there have been adequate 
studies and reporting of environmental hazards in places abroad 
where we are fighting two wars and in other military bases both 
abroad and here in the U.S. In addition, as this body debates 
the reform and expansion of our Nation's health care system and 
the quality of care that is provided for our citizens, we need 
to ensure that our soldiers and veterans receive the care that 
they need from health problems resulting from these exposures.
    I want to thank our witnesses today, some of them who have 
experienced or have loved ones who have experienced severe 
problems that are caused by some of these hazards. So, I will 
have a few questions, Mr. Chairman, after we finish our 
statements. Thank you.
    Chairman Akaka. Thank you very much, Senator Burris. I see 
my distinguished colleague, who, like our Ranking Member, 
represents the State of North Carolina. Senator Hagan has 
joined us. I would like to invite her to share a statement at 
this time.

                STATEMENT OF HON. KAY R. HAGAN, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Hagan. Thank you very much, Mr. Chairman. I would 
like to begin by thanking you for holding this important 
hearing and for giving me the courtesy of allowing me to make a 
brief statement concerning an issue that is so important to me 
and many of my constituents.
    I also want to thank the Ranking Member, Senator Burr, for 
his leadership on this issue. He has been discussing this issue 
of water contamination at Camp Lejeune for many years and since 
I have been sworn in, he and I have worked very closely 
together on this issue. I have greatly appreciated his guidance 
and tenacity in pursuing closure for the affected families.
    Mr. Chairman, between 1957 and 1987, Marines and their 
families at Camp Lejeune drank and bathed in water that was 
contaminated with toxins at concentrations up to 280 times what 
is currently considered safe by the Environmental Protection 
Agency. My heart certainly goes out to the Marines and their 
families who were exposed and affected.
    A compelling CNN piece just last month highlighted cases of 
former Marines and their families who have been diagnosed with 
male breast cancer. Today there are over 40 individual cases, 
all of whom at one point or another served on base or lived at 
Camp Lejeune during the contaminated years. These service men 
and women, as well as so many, have spent their careers working 
to successfully finish the mission that they started. I think 
it should be our mission to get these families complete 
answers.
    Marines and their families who were exposed to dangerous 
chemicals over several decades deserve to know if this exposure 
had an effect on their health. They cannot get closure until 
the remaining CDC studies, which are in progress, are complete; 
and these CDC studies are to be done by the Agency for Toxic 
Substances and Disease Registry, the ATSDR. I am looking 
forward to working with the Navy and the Marine Corps to fully 
fund these human health and water modeling studies, which will 
hopefully give us answers. It has received a lot of attention.
    I would like to address the conclusion of the National 
Academy of Science literature review which was recently 
completed. Well respected scientists from across the country, 
including officials at the ATSDR, have openly challenged the 
validity of this review. This review significantly downplayed 
the level of exposure Camp Lejeune residents had to TCE and PCE 
chemicals found in the Camp Lejeune's water--potable water--
system and it also did not take into account the EPA's draft 
health risk assessments for these chemicals. It also 
significantly downplayed the adverse health effects resulting 
from such exposure and did not assess scientific associations 
between benzene and vinyl chloride in adverse health effects.
    Benzene, a chemical, was leaking into the water supply at 
Camp Lejeune at a rate of 1,500 gallons per month. Furthermore, 
we all understand that there were no specific Federal 
regulatory standards regarding volatile organic compounds until 
the late 1980s. However, I think it is important to note that 
the Navy and Marine Corps had their own regulations regarding 
the operation of drinking water systems and the disposal of 
contaminants and hazardous waste.
    It is impossible to know with 100 percent certainty what 
happened over 25 years ago, but I think it is important that 
the most comprehensive understanding possible of the actions 
that were taken and not taken during the contamination period, 
the origins of the contamination, as well as where the 
contamination sites were located, be given. Even more 
importantly, I believe that this information must be explained 
to the public in an understandable fashion.
    I believe that Congress, the Navy, and the Marine Corps 
need to work together to develop an action plan to take care of 
the victims that were exposed to this contaminated water. While 
this is happening, I encourage the Chairman and the Committee 
to consider legislation introduced by Senator Burr, which I co-
sponsored along with five other senators. It provides veterans 
and their families who are suffering from adverse health 
effects associated with Camp Lejeune's contaminated water to 
obtain health care from the VA.
    This issue is not just about North Carolina. These men and 
women are living all over our country now. We cannot leave 
these families with mounting medical problems and half answers.
    Thank you, Chairman Akaka and Senator Burr for the 
opportunity to speak today.
    Chairman Akaka. Thank you very much, Senator Hagan. I am 
delighted to have my friend from Oregon here, Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGAN

    Senator Wyden. Thank you very much, Mr. Chairman, for your 
thoughtfulness, and Senator Burr, and for the opportunity to 
spend a few minutes here. I would ask unanimous consent that my 
full remarks go into your record and would just touch on a 
couple of issues this morning.
    Chairman Akaka. Without objection, it will be included in 
the record.
    Senator Wyden. Mr. Chairman and colleagues, I am very glad 
that you are looking at this critically important issue. 
National Guard soldiers from my home State have told me about 
their exposure to hexavalent chromium at Qarmat Ali in Iraq. 
The soldiers have told me about how their rooms were filled 
with toxic smoke from open air burn pits and they have told me 
about their struggles with the agency trying to secure benefits 
and health care. I very much appreciate, Mr. Chairman, your 
putting a spotlight on this issue, and particularly working to 
make sure that the Department of Veterans Affairs gets our 
veterans the benefits they need and that they are treated with 
respect and attention.
    Mr. Chairman and colleagues, I think we all understand that 
nobody at the VA gets up in the morning and says, I want to 
spend my day being rotten to veterans. They all mean well. They 
care about our veterans deeply, yet, so often the system can be 
inflexible and our veterans get caught in red tape.
    On September 19, I received what I felt was a positive 
letter from then Secretary of the Army, Pete Geren, who told 
me, I quote, ``The VA is working internally to use the registry 
and the list of possible medical issues from chromium exposure 
to establish a service connection.''
    Yet, because a service connection has not been established 
by DOD and the VA, some of our veterans get caught in this 
morass of red tape when they ought to be receiving treatment 
for respiratory problems, skin and eye problems, and even 
cancer that they picked up as a result of their exposure to 
chromium.
    One Oregon National Guard soldier was told, and I quote, 
``Exposure is not a disability, nor does the VA pay 
compensation for exposure.'' Then that soldier was told to go 
out and produce 15 pieces of evidence if he hoped to receive 
any kind of treatment for his illness. I think our colleagues, 
whether you are a Democrat or Republican, would agree that 
veterans should not be subjected to this kind of merry-go-round 
approach.
    It is not enough for the agencies to say they want to help 
and then, when the soldiers have to find their way through the 
bureaucracy, there is nobody there to get them their benefits. 
They face enough when they go into combat; they should not have 
to battle their government to get medical care when they return 
home.
    I know you are going to hear from a variety of very 
thoughtful witnesses this morning who are going to talk about 
what is needed to make sure our veterans are properly cared 
for.
    Mr. Chairman and colleagues, thank you very much for the 
chance to come and offer the vantage point from some Oregon 
National Guard members who have reported to me. We have one of 
the highest levels of participation in the Guard in the 
country. We feel very strongly in our State about ensuring that 
they receive adequate medical care when they have been injured, 
when in harm's way, and we thank you for your thoughtfulness to 
be able to come and spend a few minutes and lay out their 
concerns.
    Chairman Akaka. Thank you very much, Senator Wyden, for 
your statement.
    I want to now welcome our first panel this morning. Our 
first witness is Mike Partain, who is testifying in regard to 
Camp Lejeune. We have Dr. John Nuckols, who is a professor at 
Colorado State University and a member of the Committee on 
Contaminated Drinking Water at Camp Lejeune.
    Next we have Stacy Pennington, sister of SSG. Steve Ochs, 
who was exposed to burn pits and died in 2008. She is followed 
by Dr. Robert F. Miller, who is an associate professor of 
pulmonary and critical care medicine at Vanderbilt University 
Medical Center and has studied health effects of environmental 
exposures like burn pits.
    We also have Laurie Paganelli, who will testify in regard 
to the Atsugi Naval Air Facility in Japan. She will be followed 
by Dr. Charles Feigley, who is a professor at the University of 
South Carolina and was also the chair of the subcommittee on 
the Atsugi incinerator for the National Resource Council.
    Our final witnesses are Dr. Herman Gibb, who will testify 
in regard to health effects related to Qarmat Ali; and Russell 
Powell, who will testify about his experiences at the same 
facility. I want to thank the Veterans of Foreign Wars for 
making it possible for Mr. Powell to share his story with the 
Committee today.
    I thank you all for being here this morning. Your full 
testimony will, of course, appear in the record. Mr. Partain, 
will you please begin?

                   STATEMENT OF MIKE PARTAIN

    Mr. Partain. Good morning, Mr. Chairman.
    Chairman Akaka. Good morning.
    Mr. Partain. Good morning, Mr. Chairman. I would like to 
thank you, the Ranking Member, and Members of the Veterans' 
Affairs Committee for permitting me to testify this morning.
    My name is Michael Partain and I am son and grandson of 
U.S. Marine Corps officers. My parents were stationed at Marine 
Corps Base Camp Lejeune shortly after my father graduated from 
the U.S. Naval Academy. My father chose to live in base housing 
because he trusted the Marine Corps would protect his family.
    I was conceived and carried while my parents lived on the 
base. During the time of my mother's pregnancy, we were exposed 
to high levels of tetrachloroethylene, trichloroethylene, 
dichloroethylene, benzene and vinyl chloride in the tap water 
provided to my family by the Marine Corps.
    I was born at the base naval hospital in January 1968. Two 
years ago, I was diagnosed with male breast cancer at the age 
of 39. It is rare for this disease to strike men, especially 
young men such as myself. In fact, I am one of 40 men who share 
the unique commonality of male breast cancer and exposure to 
contaminated tap water aboard Camp Lejeune. Fortunately, I have 
health insurance which provides treatment for my disease. Even 
then, my battle with cancer has been a traumatic, emotional, 
physical, and a financial ordeal for my family.
    Over the past 2 years, I have been in contact with numerous 
other families who are suffering from illnesses related to 
their exposures at Camp Lejeune. Many of these people do not 
have adequate health care or are now uninsurable because of 
their diseases. These families supported their Marines in body 
and spirit and now they have been left behind to suffer and die 
by the very organization they trusted and served faithfully.
    Beginning on 31 October 1980, Navy and Marine Corps 
officials received what would later become a litany of warnings 
that the base's drinking water supply was highly contaminated 
with chlorinated hydrocarbons. The U.S. Army Environmental 
Hygiene Laboratory was tasked to analyze the base's tap water 
for trihalomethanes in preparation for a new EPA safe drinking 
water regulation. The Army lab warnings were repeated three 
more times between December 1980 and March 1981.
    For some unknown reason, the Army lab further spelled out 
the issue by placing the word ``solvents'' with an exclamation 
point at the end of their March 1981 warning. Curiously, this 
key word was omitted from the 2007 Government Accountability 
Office review of the Camp Lejeune drinking water contamination. 
There was no documented action taken to identify the source of 
the contamination at that time.
    On 6 May, 1982, Mike Hargett, co-owner of Grainger 
Laboratory, phoned the base chemist, Elizabeth Betz, and 
advised her that PCE and TCE contamination was found in the tap 
water samples sent for TTHM analysis. Ms. Betz then notified 
her immediate supervisors. A week later, Ms. Betz was summoned 
to a briefing involving the base's facilities command staff. 
That is documented in her memorandum for the record. ``It 
appeared to me that they had not been informed about the 
findings. I did not inform them.''
    Further testing revealed continued contamination. Grainger 
then wrote the commanding general of Camp Lejeune. 
``Interferences which were thought to be chlorinated 
hydrocarbons entered the quantization of certain 
trihalomethanes. These appear to be at high levels and hence, 
more important from a health standpoint than the total 
trihalomethane content. For these reasons, we called the 
situation to the attention of Camp Lejeune personnel.''
    The Grainger memo documented in writing that the 
contamination present in the potable water systems aboard the 
base was a serious issue. Grainger's chemist correctly 
concluded that the contaminants were located in the well fields 
for both Tarawa Terrace and Hadnot Point. No further action was 
taken by the Navy or Marine Corps officials.
    Several months ago, I spoke to Mr. Hargett, former co-owner 
of Grainger Lab. He indicated to me that he had secretly tipped 
off the State of North Carolina that there was a problem with 
the TTHM testing program at the base. Shortly after this 
revelation, a State of North Carolina environmental engineer 
wrote to the base's assistant chief of staff facilities 
requesting the Grainger analytical data sheets which contained 
their notations of the contamination.
    This request was ignored and then denied. It was not until 
30 November 1984, that the Marine Corps officials began to 
finally close the contaminated wells at Camp Lejeune. Two weeks 
later, an article appeared in the base's newspaper. The article 
advised residents and personnel that four wells were removed 
from service due to traces of organic compounds which were 
unregulated by the Safe Drinking Water Act.
    What the article failed to mention was that on 6 July 1984, 
Hadnot Point Well HP-602 was sampled and found to be highly 
contaminated with benzene. The base environmental engineer also 
failed to disclose to the readers the presence of a 20,000- to 
30,000-gallon unreported and unremediated fuel leak dating back 
to 1979 which occurred on Hadnot Point. This fuel plume was in 
the groundwater and was 15 feet thick.
    The minimization and deception did not end there. On 30 
April 1985, the commanding general of Camp Lejeune advised the 
residents of Tarawa Terrace that two wells were taken offline 
because of minute trace amounts of--several organic chemicals 
were detected in the water. In September 1985, the base 
environmental engineer, Robert Alexander, was directly quoted 
in a newspaper that people had not been directly exposed to 
pollutants.
    In November 1985, base officials, including Robert 
Alexander, informed the EPA that the contamination had not 
reached the distribution plants. What the Marine Corps has 
failed to disclose to Members of Congress, the media, and the 
public was that the Marine Corps was in violation of their own 
orders which date back to 1963. These orders, if followed, 
would have prevented most of the human exposures of Camp 
Lejeune.
    One of these orders is the Bureau of Medicine and Surgery 
instruction known as BUMED 6240.3B. The purpose of the BUMED 
was to establish standards for water for drinking throughout 
the naval establishment, including Camp Lejeune. ``Substances 
which may have a deleterious physiological effect or for which 
the physiological effect are not known shall not be introduced 
into the system in a manner which would permit them to reach 
the consumer.''
    There is also a Marine Corps order that specifically 
addresses safe disposal of chemicals on the base. In the 
interest of time, I will not go into the details during my 
opening statement. However, I am prepared to answer questions 
on both these documents.
    In closing, I note at the table is a former member of the 
National Resource Council committee which produced the report 
that downplayed the health effects resulting from our exposures 
at Camp Lejeune. I also note with great concern, as Senator 
Burr indicated, the ASTDR, the agency statutorily tasked by 
Congress to assess health effects for national priority sites 
such as Camp Lejeune, is not represented in this hearing.
    The NRC's report contains numerous flaws, including the 
committee's failure to assess our exposures to benzene and 
vinyl chloride. I respectfully submit that the Senate Veterans' 
Affairs Committee seek out the professional recommendations of 
the project manager in charge of ATSDR's Camp Lejeune studies.
    I thank you for your time.
    [The prepared statement of follows:]

               Prepared Statement of Michael Sean Partain

    Good Morning Mr. Chairman. I would like to thank the Chairman, 
Ranking member and members of the Veteran's Affairs Committee for 
permitting me to testify this morning.
    My Name is Michael Partain and I am the son and grandson of U.S. 
Marine Corps Officers. My parents were stationed aboard Marine Corps 
Base Camp Lejeune shortly after my father graduated from the United 
States Naval Academy. I was conceived, carried and then born at the 
base Naval Hospital while my parents lived in base housing. During the 
time of my mother's pregnancy, we were exposed to high levels of 
tetrachloroethylene (PCE), trichloroethylene (TCE), dichloroethylene 
(DCE), benzene and vinyl chloride in the tap water provided to my 
family by the Marine Corps. Two years ago, I was diagnosed with male 
breast cancer at the age of thirty nine. In fact, I am one of about 
forty men who share this unique commonality of male breast cancer and 
exposure to contaminated tap water aboard Camp Lejeune.
    Beginning on 31 October 1980, Navy and Marine Corps officials 
received what would later become a litany of warnings that the base's 
drinking water supply was highly contaminated with chlorinated 
hydrocarbons (see chronology, Oct 30 1980). The United States Army 
Environmental Hygiene Agency (USAEHA) laboratory located at Ft. 
McPherson, Georgia was tasked to analyze the base's tap water for 
trihalomethane's (TTHMs) in preparation for a new EPA Safe Drinking 
Water regulation. As part of their analysis for Hadnot Point's tap 
water, the laboratory stumbled across interferences caused by 
chlorinated hydrocarbons which inhibited the laboratory's ability to 
quantify the chemical they were testing for in the samples. The 
laboratory's supervisor documented these findings upon the analytical 
results sheet provided to Navy and Marine Corps officials. He advised 
that the base's tap water samples from Hadnot Point were highly 
contaminated with chlorinated hydrocarbons and they needed to test 
their water by Gas chromatography-mass spectrometry. This machine is 
used by scientist to identify specific compounds while in solution. The 
Army lab's warnings were repeated three more times between December 
1980 and March 1981. For some unknown reason, the Army lab further 
spelled out the issue by placing the word (SOLVENTS!) at the end of 
their March 1981 warning (see chronology, March 9, 1981). Curiously, 
this key word was omitted from the 2007 Government Accountability 
Office (GAO) review of the Camp Lejeune Drinking water contamination 
when this document was cited on the GAO's timeline of events. Between 
October 1980 and December 1981, no documented action was taken by Navy 
or Marine Corps officials to identify the source of the contamination. 
Later the following year, the Army lab reports were referred to in the 
base's Initial Assessment Study (IAS) draft report being prepared for 
the Navy's NACIP program. The Army lab's reliability was called into 
question in the review comments submitted by the base's Assistant Chief 
of Staff for Facilities, Colonel John T. Marshall,

        ``it is important to note that accuracy of data provided by the 
        U.S. Army laboratory is questionable. It is recommended that 
        the TTHM information be de-emphasized throughout the report.''

How could these reports be questionable if they were never investigated 
or verified? Oddly enough, Colonel Marshall's review was written 
fifteen days after the base received a written report from yet another 
lab verifying the legitimacy of the Army lab warnings. The other lab's 
data was not included in the final IAS report released in April 1983. 
The IAS report concluded that none of the twenty sites aboard Camp 
Lejeune slated for further study posed an immediate threat to human 
health.
    The Navy and Marine Corps' lack of action was not the case for the 
entire base. Within weeks of the March 1981 USAEHA warning that 
solvents were contaminating Hadnot Point's water, Navy and base 
officials discovered organic contamination at the base's Rifle Range 
water distribution system located near the base chemical dump. Between 
March and May 1981, Navy and base officials sampled the Rifle Range's 
tap water and the system's potable water wells for contamination. Then 
on 31 July 1981, J.R. Bailey from the Navy's Facilities Engineering 
Command wrote to the Commanding General of Camp Lejeune advising the 
General that Rifle Range potable water well RR-97 contained organic 
contamination and that two other wells should be used in preference 
over this well due to lower levels of contamination found in those 
wells. The Rifle Range water distribution system only served a handful 
of permanent residents, unlike Hadnot Point's system which served 
enlisted barracks, bachelor officer's quarters, the base Naval Hospital 
and other facilities located on Hadnot Point. What is puzzling is why 
the Navy and Marine Corps went through the trouble of testing specific 
potable water wells for a remote potable water system on the base and 
then failed to test the other systems serving the vast majority of 
people on the base for another three and a half years. Why were the 
USAEHA lab warnings to the base ignored?
    In September 1981 the USAEHA Lab experienced equipment problems and 
a back log of tests. As a result, the lab was unable to perform further 
TTHM testing for Camp Lejeune. A replacement was needed. In April 1982, 
Grainger laboratory was contracted to perform TTHM testing for Camp 
Lejeune. At this time, the testing was expanded to include a new water 
distribution system aboard the base. That distribution system was for 
the Tarawa Terrace (TT) family housing area. The initial samples were 
collected in April 1982 and analyzed by the laboratory. Then on 6 May 
1982 Mike Hargett, co-owner of Grainger Laboratory, phoned the base 
chemist, Elizabeth Betz and advised her that PCE and TCE contamination 
was found in the tape water samples sent for TTHM analysis. Ms. Betz 
then notified the Supervisory Ecologist, Danny Sharpe, of the Grainger 
findings and these findings were then sent up the chain of command to 
Billy Elston, Deputy Base Maintenance Officer and to the Utilities 
Director, Fred Cone. A week later, on 14 May 1982, Betz was summoned to 
a briefing involving the base's facilities command staff. The purpose 
of the briefing was to explain April's TTHM analysis results to Colonel 
Millice, the Assistant Chief of Staff, Facilities, and Lt Colonel 
Fitzgerald, Deputy Base Maintenance officer. Betz documented in her 
memorandum for the record that

        ``it appeared to me that they had not been informed about the 
        findings. I did not inform them.''

The findings mentioned in the memorandum were the existence of PCE and 
TCE in the tap water for Hadnot Point and Tarawa Terrace's potable 
water distribution systems.
    Shortly after the briefing, a second round of TTHM sampling was 
collected for Camp Lejeune. However, some of these samples had problems 
with air bubbles and interfered with the testing performed by Grainger 
Labs. A new round was collected and sent to Grainger. Nonetheless, Mike 
Hargett and Grainger labs found that the solvent peaks discovered in 
the April samples were still present but the comparison with the 
duplicate samples indicated poor repeatability. Betz and Hargett agreed 
to collect yet another sample for testing. This sample was taken at the 
end of June. The Grainger Lab report indicated interference in one of 
the samples but there is no explanation of what was causing the 
interference. As a result of the continued interference, Betz 
specifically collected samples from both the Tarawa Terrace and Hadnot 
Point water treatment plants for special testing of these two systems. 
One sample was taken from the raw water entering the plant which 
represented the well fields providing untreated water to the plants and 
the other from the treated water distributed from the plants to the 
consumers. One can logically conclude that the ensuing test results 
from these samples would clearly demonstrate whether the interference 
problem was emanating at the water treatment plant(s) or in well(s) 
supplying raw water to the treatment plants. The samples were collected 
and packed in ice and then shipped to Grainger Labs in Raleigh North 
Carolina.
    Immediately following the sample shipment, Betz called the state of 
North Carolina and spoke to Linda Sewall concerning TTHM reporting 
requirements. At the end of the conversation, Betz asked Linda Sewall 
which Safe Drinking Water Act secondary contaminants were required to 
be reported. PCE and TCE were not listed among the SDWA secondary 
contaminants. Betz did not inform Ms. Sewall that PCE and TCE were 
found in the potable water aboard the base.
    The Grainger report arrived at the base on August 10th 1982:

        ``Interferences which were thought to be chlorinated 
        hydrocarbons hindered the quantization of certain 
        trihalomethanes. These appeared to be at high levels and hence 
        more important from a health standpoint than the total 
        trihalomethane content. For these reasons we called the 
        situation to the attention of Camp Lejeune personnel.''

The Grainger Lab memo documented in writing that the contamination in 
the potable water systems aboard the base was a serious issue. 
Grainger's chemist, Bruce Babson, correctly concluded that the 
contaminants were in the well fields for both Tarawa Terrace and Hadnot 
Point. If the contamination was emanating from wells there could be but 
one logical conclusion. The groundwater supplying the wells aboard the 
base was contaminated! No further action was taken by Navy or Marine 
Corps officials.
    In her 19 August 1982 memorandum for the record, Betz incorrectly 
states the presence of PCE in the base's potable water is linked to the 
presence of vinyl lined asbestos coated pipes in the base's water 
distribution system. This scenario was based on a 1980 Suggested Action 
Guidance Report on Tetrachloroethylene issued by the EPA, that the 
contamination could be a result of vinyl lined asbestos coated water 
pipes. There was no documented action taken to test this theory. In 
fact, according to base records dating back to 1983, vinyl lined 
asbestos cement pipes were not used as construction materials for any 
of the base's water distribution systems. The question remains, after 
the 10 August 1982 warning from Grainger laboratory, why did Navy and 
Maine Corps officials fail to go out and test the individual wells 
supplying the water distribution systems for Hadnot Point and Tarawa 
Terrace?
    Then on 1 June 1983, Colonel Marshall compiled data for what was 
supposed to be a routine report on the TTHM analysis for the State of 
North Carolina. He sent the data in the form of a table contained in a 
letter to Charles Rundgren of the State's Water Supply Branch. The 
original analytical Grainger lab TTHM data sheets were not included in 
this letter. These data sheets contained Grainger's findings for the 
TTHM readings including notations that PCE and TCE were contaminating 
the samples. Several months ago I spoke to Mr. Hargett, former co-owner 
of Grainger Laboratory, and he indicated to me that he had secretly 
tipped off the state of North Carolina that there was a problem with 
the base's TTHM testing program. Colonel Marshall's letter was supposed 
to be a routine communication to document base compliance with the new 
TTHM regulations slated to take effect by November 1983. Later that 
month, Colonel Marshall received a reply from the State's Environmental 
Engineer, William Elmore. Mr. Elmore thanked Colonel Marshall for the 
data compilation but informed him that the State required the raw 
analytical data on the actual forms used by Grainger Laboratory. The 
reports requested by Mr. Elmore were the very same reports upon which 
Grainger Lab had documented the existence of tetrachloroethylene and 
trichloroethylene within the potable water supply systems for Hadnot 
Point and Tarawa Terrace beginning in 1982. Colonel Marshall stalled 
and did nothing. His successor, Colonel Lilley then inherited the 
problem of what to do with Mr. Elmore's request. On 30 November 1983, 
Colonel Lilley called the North Carolina's water supply branch and 
spoke with Dick Caspers. We do not know what was said in the 
conversation with Mr. Caspers, but two weeks later, Col Lilley wrote 
Mr. Elmore and advised him that per this conversation with Mr. Caspers, 
Marine Corps Base Camp Lejeune was not required to provide the 
requested Grainger Laboratory reports and thus they were not submitted 
to the State.
    It took another year before the drinking water contamination aboard 
Camp Lejeune was ``officially discovered''. Today the Marine Corps 
maintains that ``once the source of the chemicals was determined to be 
the wells, the wells were immediately taken out of service.'' The 
Marine Corps also now states that ``taking care of Marines, Sailors, 
their families and civilian workers is our top priority.'' My previous 
testimony belies the former statement and the following will cast 
serious doubt on the latter.
    Two weeks after the first well was removed on service on at Hadnot 
Point, an article appeared in the base's newspaper. The article advised 
the reader that as a result of samples taken on 3 December 1984, four 
wells were removed from service due to traces of organic compounds. The 
article also read that none of the organic compounds were listed under 
the Safe Drinking Water Act. The article went on to quote the Base 
Environmental Engineer, Robert Alexander:

        ``every effort will be made to maintain the excellent quality 
        water supply traditionally provided to residents of Camp 
        Lejeune.''

What the article failed to mention was that on 6 July 1984, Hadnot 
Point well HP-602 was sampled and found to be highly contaminated with 
benzene. This well remained operational until November 1984. The well 
was situated down gradient from the Hadnot Point fuel farm and thus 
exposed to the fuel leaking from the underground tanks. The Base 
Environmental engineer also failed to disclose to the readers the 
presence of a 20,000-30,000 unreported and un-remediated fuel leak 
dating back to 1979. This fuel plume was in the ground water and was 
fifteen feet thick! Environmental Engineering Company's report warned 
the presence of benzene far exceeded the human health risk and 
therefore the use of the well (HP-602) should be discontinued 
immediately.
    The deception did not end there. On 30 April 1985, the Commanding 
General of Camp Lejeune advised that residents of Tarawa Terrace that 
two wells had to be taken of line because minute (trace) amounts of 
several organic chemicals were detected in the water. The General also 
stated:

        ``There are no definitive State of Federal regulations 
        regarding a safe level of these compounds, but as a precaution, 
        I have ordered closure of these wells.''

Four months later, the Base Environmental Engineer, Robert Alexander, 
was directly quoted in a newspaper article:

        ``people had not been directly exposed to the pollutants.''

The misrepresentation did not end with the public and the media, it 
extended to the EPA. On 1 November 1985, there was a meeting at Camp 
Lejeune between base officials and EPA Representatives. During this 
meeting, base officials including Robert Alexander told the EPA that 
the contamination had not reached the distribution plants. Three years 
later another base official, Assistant Chief of Staff Facilities, 
Colonel Thomas J Dalzell was quoted in the media that prior to 1983:

        ``At that time we were not aware of any of these particular 
        compounds that might have been in the ground water and we have 
        no information that anyone's health was in any danger at that 
        time.'' The Colonel also stated that the sources of the 
        contamination were the base's motor pools and that these 
        compounds were being dumped in the ground or in the sewers and 
        that they were not really aware of the effects on ground water 
        back in the 1960's and 1970's.

    Beginning with the very first public announcement of the drinking 
water contamination aboard Camp Lejeune, there has been a constant drum 
beat by the Marine Corps that they did not violate any Federal Safe 
Drinking Water Act standard or any State of North Carolina standards. 
On September 24th 2009, Maj-General Jensen appeared on CNN's Campbell 
Brown show and reiterated the Marine Corps official position. What the 
Marine Corps has failed to disclose to Members of Congress, the media, 
the public and prior investigations into the Camp Lejeune's drinking 
water contamination was that the Marine Corps was in violation of their 
own orders dating back to 1963. These orders if followed would have 
prevented most of the human exposures at the base.
    In September 1963, the Navy's Bureau of Medicine and Surgery issued 
a set of instructions known as BUMED 6240.3B. These instructions were 
revised in 1972 with version C and then replaced in 1988. The purpose 
of BUMED 6240.3B was to establish standards for water for drinking 
throughout the Naval establishment including Camp Lejeune. Contained 
within the instructions were preventive measures, including the 
requirement for frequent surveys to locate and identify health hazards 
which might exist in the system. Health Hazards were specially defined 
within the instructions as to be any conditions, devices, or practices 
in the water supply system and its operation which create or may create 
a danger to the health and well being of the water consumer. Supply 
wells were also defined as part of the water supply system. Pollution 
was defined as the presence of any foreign substance (organic, 
inorganic, radiological or biological) which tended to degrade its 
quality so as to constitute a hazard or impaired the usefulness of the 
water. Perhaps the most disturbing part of the regulation is found 
under the chemical characteristics limits. Paragraph 7 subparagraph C:

        ``Substances which may have deleterious physiological effect, 
        or for which the physiological effects are not known, shall not 
        be introduced into the system in a manner which would permit 
        them to reach the consumer.''

These standards have yet to be publicly addressed or explained by the 
Navy. Instead the Navy and Marine Corps summarily dismisses this 
potable water regulation as being to general to be a standard of care.
    During our research of Navy and Marine Corps documents we 
discovered another key document which undermines the Marine Corps and 
Navy's official statements that they had little knowledge that these 
chemicals could contaminate the ground water at Camp Lejeune. Base 
Order 5100.13B was the third revision of an order from the Commanding 
General of Camp Lejeune. The order dates back to June 1974 and may date 
back to the creation of the base's chemical dump in 1959. We will not 
know the actual beginning date of the order until the Marine Corps 
produces the prior two versions of the order and the higher headquarter 
guidance which created the order in the fist place. The purpose of Base 
Order 5100.13B was for the safe disposal of contaminants or hazardous 
wastes. The order identified organic solvents as hazardous materials 
and ominously warned that improper disposal of contaminants and 
hazardous materials created hazards such as contamination of drinking 
water. As I read BUMED 6240.3B and Base Order 5100.13B a line from a 
famous movie called ``A Few Good Men'' comes to mind. ``We follow 
orders, or people die. It's that simple.'' At Camp Lejeune, orders were 
not followed and people have died or were made sick due to the 
negligence of the United States Marine Corps.
    Submitted with this testimony is our copy of the historical time 
line of events for the Camp Lejeune drinking water contamination. The 
time line was painstakingly researched using authentic Navy and Marine 
Corps documents. Each entry is referenced to an actual document. We 
have also provided a copy of the document library for Members of the 
Committee and their staff. The document library was provided to us by 
the ATSDR.
                                 ______
                                 
    Attachment: Historical Time Line of Events for the Camp Lejeune 
                      Drinking Water Contamination

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Post-Hearing Question Submitted by Hon. Daniel K. Akaka to 
                          Michael Sean Partain

    Question 1. You stated during the hearing that you have found 
approximately 40 men who were stationed or lived at Camp Lejeune who 
have breast cancer. Have you shared this information with the Marine 
Corps and the National Research Council, and if so, when?
    Response. As of November 2009, we have identified a total of 53 men 
with male breast cancer who either served aboard Camp Lejeune or were a 
dependent living on the base during the time of the drinking water 
contamination. The existence of this cluster was first revealed to the 
National Research Council (NRC) in November 2007 when Mr. Kris Thomas, 
a dependent exposed while living at Tarawa Terrace in the 1960's and 
1970's, addressed the NRC's Camp Lejeune committee in Jacksonville 
North Carolina. Mr. Thomas informed committee members that there were 
at least two cases of male breast cancer in children from the base. The 
next day, the Jacksonville Daily News printed a story with this 
information, including the names of former residents with male breast 
cancer.
    In January 2009, I traveled to Washington, D.C., to speak before 
another NRC committee reviewing the EPA's Draft Risk assessment for 
tetrachloroethylene (PCE), one of the chemicals found in our water at 
Camp Lejeune. My presentation included the revelation that our number 
had increased from two to nine men with breast cancer from Camp 
Lejeune. The project director for this Committee was Susan Martel. Ms. 
Martel also concurrently served as the project director for the NRC's 
Camp Lejeune committee during the time period when both committees were 
empanelled. The Camp Lejeune male breast cancer issue then received 
increased media attention following the retraction of the ATSDR's 1997 
Public Health Assessment for Camp Lejeune. We identified a total of 20 
cases of male breast cancer originating from the base during the time 
between November 2007, the first announcement of the existence of the 
male breast cancer cases, up until the end of June 2009.
    Since the release of the NRC's Camp Lejeune report, we have 
identified 33 additional cases for the total of 53 men. The NRC's final 
report mentions male breast cancer at Camp Lejeune only in passing (See 
Enclosure A, Public Summary and Context section, page 7, of the NRC 
Report on Camp Lejeune) and the disease was summarily dismissed from 
their conclusions and recommendations. The NRC report also failed to 
recommend any future studies into this unusual and emerging cancer 
cluster. On July 23, 2009, the National Resources Defense Council urged 
ATSDR to disregard the NRC's inattention toward the male breast cancer 
cases at Camp Lejeune and stated ``the prevalence of male breast cancer 
among former and current Lejeune residents should be given particular 
attention because of its rarity in the general population.'' (Enclosure 
B)
    The Agency for Toxic Substances and Disease Registry (ATSDR) was 
also notified about the existence of male breast cancer at Camp 
Lejeune. ATSDR is the government agency mandated by Congress under 
Title 42 of the U.S. Code to conduct research into health effects due 
to environmental exposures at National Priority List sites such as Camp 
Lejeune. On October 14, 2009, the ATSDR Community Assistance Panel 
(CAP) discussed the existence of the male breast cancer cluster aboard 
the base. Unfortunately, the Marine Corps is unable or unwilling to 
provide this agency with an accurate number of men stationed aboard the 
base during the contamination period so that epidemiologists such as 
Dr. Frank Bove (ATSDR), Dr. Richard Clapp (CAP Member) or Dr. Devra 
Davis (CAP Member) can estimate the number of cases of male breast 
cancer expected to occur in the population. Without these critical 
data, it is difficult to precisely evaluate the significance of the 
number of cases we have discovered over the past two years. According 
to the National Cancer Institute's Surveillance, Epidemiology and End 
Results (SEER) Program, the occurrence rate of male breast cancer in 
the U.S. general population is about 1 in 100,000. Most of the cases 
are diagnosed occur in men over 70 years in age. The median age of 
diagnosis for breast cancer in men is about age 67. More than half of 
the men identified from Camp Lejeune were diagnosed under the age 56, 
and several cases were in men in their twenties and thirties.
    The Marine Corps was first made aware of the existence of male 
breast cancer at Camp Lejeune when I was nominated as a member to the 
ATSDR CAP in December 2007. I am not aware of any action taken by the 
Marine Corps concerning the existence or significance of the cluster 
other than a series of communications from Headquarters Marine Corps 
Public Affairs the day I testified before this Committee in October 
2009.
    It is my understanding that on this date, Major Dent from the 
Public Affairs Office contacted news agencies to inform them that the 
expected occurrence rate for male breast cancer was 1 in 1,000 and that 
based on a population of 400,000 men from Camp Lejeune, there should be 
approximately 400 cases of male breast cancer from the Camp Lejeune 
population. The email went on to suggest that the media outlet was not 
accurately reporting the story and that there was no significant male 
breast cancer cluster at Camp Lejeune. I have attached a copy of this 
email from Major Dent, with the recipient's name redacted for the 
Committee as Enclosure B. Neither I nor the Marine Corps are certified 
in epidemiology.
    The significance of this rare cancer is best assessed by 
epidemiologist familiar with drinking water contamination at Camp 
Lejeune including those who work at Federal agencies such as ATSDR/CDC 
or the EPA. Unfortunately, until the Marine Corps can provide an 
accurate number of the men exposed, we may never know the significance 
of all the cases of male breast cancer from Camp Lejeune we have 
discovered so far. In fact, Drs. Davis and Clapp have since confirmed 
that the statement that the expected rate of male breast cancer is 1 in 
1,000 is incorrect. They advise that the lifetime risk of any man 
developing breast cancer by the time he reaches age 85 is 1 in 1,000. 
As a result this lifetime estimate is not relevant to the population 
risk of the thousands of young men who lived at Camp Lejeune during 
peak periods of contamination of the drinking water.
    We continue to find men with the disease as time passes. Male 
breast cancer is typically found in the later stages of the disease and 
thus more fatal. It is unknown just how many men may have already 
succumbed to their cancer. We have heard from a few families with 
deceased servicemembers who succumbed to the disease. One ATSDR future 
proposal for Camp Lejeune, is a mortality study for the servicemembers 
exposed at the base. A mortality study would be a potential tool to 
help us identify deceased victims of male breast cancer for future 
studies. It is frightening to think of how many men could be out in the 
general population who were at Camp Lejeune during the drinking water 
contamination may still be unaware about their potential risk for this 
deadly disease. Male breast cancer is also a clear indication that our 
exposures aboard Camp Lejeune have affected our health. Otherwise, why 
is there such an unusual number of men with the disease whose only 
commonality is that we all, at one point in our lives, either lived or 
served aboard Camp Lejeune during the contamination and we all have 
male breast cancer?

Enclosures
                                 ______
                                 
          Enclosure A: Excerpt from NRC Report on Camp Lejeune

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
            Enclosure B: NRDC Letter to ATSDR July 23, 2009

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Enclosure C: Email from USMC Public Affairs to Media Outlet (Redacted)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Mr. Partain, for your 
testimony. Dr. Nuckols, will you please begin your testimony.

    STATEMENT OF JOHN R. NUCKOLS, PROFESSOR, DEPARTMENT OF 
ENVIRONMENTAL AND RADIOLOGICAL HEALTH SCIENCES, COLORADO STATE 
                           UNIVERSITY

    Mr. Nuckols. I believe a copy of my full testimony has been 
submitted by the National Research Council and I have prepared 
a summary in my own hand. I would be happy to share it with the 
Committee if you would like a paper copy.
    Chairman Akaka. Thank you.
    Mr. Nuckols. In 1984, evidence of contamination of the 
water distribution system serving the Tarawa Terrace area 
within Camp Lejeune, NC, was discovered. It was one of six 
water distribution systems serving different areas on the camp.
    Since that time, contamination of another water 
distribution system serving the Hadnot Point area and 
contamination of the natural source for all water systems on 
the base, the Castle-Hayne Aquifer, has been documented. Many 
former residents and employees of the base have raised 
questions about whether health problems they or members of 
their families have experienced could be related to exposure to 
the contaminated water.
    At the request of Congress, the Navy sponsored a study by 
committee of the National Research Council to review the 
scientific evidence on associations between adverse health 
effects and historical data on pre-natal, childhood and adult 
exposures to contaminated drinking water at Camp Lejeune.
    In September 2007, the NRC convened a committee of experts 
in epidemiology, toxicology, exposure analysis, environmental 
health, groundwater modeling, biostatistics, and risk 
assessment for this purpose. In or about August 2009, the NRC 
review document, Contaminated Water Supplies at Camp Lejeune, 
Assessing Potential Health Effects, was published.
    I served as one of the volunteers on the NRC committee, 
primarily as the chair of a subcommittee that was responsible 
for chapter two, Exposure to Contaminants in Water Supply at 
Camp Lejeune. In that chapter, we described the scenarios of 
exposure to contaminants in the water supply and identified 
gaps in understanding of exposure to people who lived or worked 
there.
    There were three other working subcommittees, epidemiology, 
toxicology and risk communication. The internal process used by 
the committee was as follows: we gathered information on the 
chemicals present in the Camp Lejeune water supply, including 
magnitude of contamination, geographic extent and timing; we 
ascertained reported health concerns from people who lived or 
worked at Camp Lejeune.
    Based on published toxicology and epidemiology studies, we 
gathered scientific evidence of causation or association of 
diseases with the predominant chemical contaminants that were 
present in the water supply and compared these to health 
outcomes reported by the affected population. We ascertained 
whether conclusions could be drawn that any adverse health 
outcomes could be attributed to the water contaminants at Camp 
Lejeune and whether additional health studies would be more 
likely to provide such a definitive conclusion. And finally, we 
made recommendations as to further actions concerning studies 
of adverse health effects and water contamination at Camp 
Lejeune.
    In short, these recommendations were that new health 
effects studies of persons who lived or worked at Camp Lejeune 
and their families should be undertaken only if their 
feasibility and promise of providing substantial improved 
knowledge are established in advance.
    Second and foremost, the decisions regarding the 
appropriate policy response to health concerns about exposure 
to contaminated water at Camp Lejeune should not be delayed or 
await the results of epidemiological studies that are in 
progress or planned. My testimony today is derived strictly 
from the content of the report by the NRC Committee on 
Contaminated Drinking Water at Camp Lejeune, which I fully 
support.
    Thank you for your invitation and your attention.
    [The prepared statement of Mr. Nuckols follows:]

Prepared Statement of John R. Nuckols, Ph.D., Professor, Department of 
    Environmental and Radiological Health Sciences, Colorado State 
                      University, Fort Collins, CO

    Good morning Mr. Chairman and Members of the Committee. My name is 
John Nuckols. I am a professor in the Department of Environmental and 
Radiological Health Sciences at Colorado State University. I was a 
member of the Committee on Contaminated Drinking Water at Camp Lejeune, 
a committee of the National Research Council. The Research Council is 
the operating arm of the National Academy of Sciences and the National 
Academy of Engineering. I'm pleased to appear before you today to 
discuss our committee's recent report Contaminated Water Supplies at 
Camp Lejeune--Assessing Potential Health Effects.
    At the request of Congress, the Navy sponsored a study by a 
committee of the Research Council to review the scientific evidence on 
associations between adverse health effects and historical data on 
prenatal, childhood, and adult exposures to contaminated drinking water 
at Camp Lejeune. For each health effect reviewed, the Committee was 
asked to evaluate the available scientific literature concerning 
evidence of a statistical association between contaminants found or 
likely to have been in the water supply at Camp Lejeune and adverse 
health effects. The Committee was also asked to review whether there 
was any evidence to suggest any causal relationships between the 
exposures and health outcomes.
    Let me begin with the Research Council study process. As you are 
aware, the Research Council is a non-governmental institution 
originally chartered by President Lincoln to provide independent 
scientific advice to the Nation. That scientific advice is usually in 
the form of consensus reports produced by expert, unpaid committees. In 
the case of the Camp Lejeune study, the Committee was comprised of 13 
members with expertise in epidemiology, toxicology, exposure 
assessment, environmental engineering, clinical medicine, 
biostatistics, and risk assessment. The Committee's report was 
developed through an established study process designed to ensure the 
Committee and the report were free from actual or potential conflicts 
of interests, were balanced for any biases, and were independent of 
oversight from the sponsoring agency.
    Our committee reviewed the relevant scientific literature, heard 
from experts, met with former residents and workers to hear their 
concerns, and deliberated for two years. Once the Committee reached its 
consensus, but prior to the report being released, the draft report was 
subjected to a formal, peer-review process overseen by the National 
Academies Report Review Committee. The report was released only after 
the Review Committee was satisfied that all review comments had been 
appropriately considered and addressed.
    Copies of the final report were sent to the sponsor immediately 
prior to public release. The sponsor was not provided an opportunity to 
review the report or any portions of the report, or to suggest changes 
to the NRC report prior to its release.
    To address the specific charge of the Camp Lejeune study, our 
committee divided the review into two major categories: (1) evaluating 
the potential for exposure of former residents and workers to 
contaminants in the water supply source and distribution systems at 
Camp Lejeune, in particular the Tarawa Terrace and Hadnot Point water-
supply systems; and (2) evaluating the potential health effects 
associated with these water contaminants based on epidemiological and 
toxicological evidence. The two assessments were then considered 
together to ascertain whether conclusions could be drawn about whether 
any adverse health outcomes could be attributed to the water 
contamination.
    In reviewing the available exposure information, the Committee 
agreed with previous assessments that the primary contaminant of the 
Tarawa Terrace water system was perchloroethylene (PCE), a solvent that 
was improperly disposed of by an off-base dry-cleaner. Other 
contaminants were also identified as being of concern, including 
trichloroethylene (TCE), dichloroethylene, benzene, toluene, and vinyl 
chloride. Sophisticated computer modeling techniques were used by the 
Agency for Toxic Substances and Disease Registry (ATSDR) to make 
predictions about the monthly concentrations of PCE to which residents 
of Tarawa Terrace were exposed. The Committee questioned the degree of 
accuracy that could be achieved from the modeling because no 
contaminant measurements were available for the first 30 years of the 
contamination, so it was not possible to verify model predictions. In 
addition, assumptions had to be made about how the water system was 
operating over the potential exposure period, as no records were 
available at the time of the development of the model reviewed by the 
NRC committee. Given these uncertainties, the Committee concluded that 
the Tarawa Terrace modeling predictions should only be used to provide 
general estimates of the timeframe and magnitude of exposure.
    The contamination of the Hadnot Point water system was more complex 
than Tarawa Terrace. There were multiple sources of pollutants from on-
base activities, such as storage and disposal practices. To date, no 
groundwater modeling has been performed for this water system. Based on 
the records the Committee reviewed, trichloroethylene appeared to be 
the primary contaminant of concern, but other contaminants were also 
detected in the water supply, including dichloroethylene, methylene 
chloride, and vinyl chloride. Because groundwater modeling of the 
Hadnot Point system will be fraught with considerable difficulties and 
uncertainties (similar to, but much more complex than those associated 
with the Tarawa Terrace models), the Committee recommended that simpler 
models be used to assess the extent of water supply contamination and 
potential exposures. Simpler models will not reduce the uncertainty 
associated with the estimates, but they have the advantage of providing 
a broad picture of the timeframe and magnitude of exposure with less 
resources than complex modeling exercises. More complex predictive 
models for exposure assessment should be used only if justified by more 
straightforward analytical methods.
    To evaluate the potential health effects to exposed residents, the 
Committee undertook four kinds of reviews to determine what kinds of 
diseases or disorders have been found to result from exposure to TCE 
and PCE. The first was a review of epidemiologic studies of solvents 
and their effects, including studies in occupational and industrial 
settings and community studies. The second was a review of 
epidemiologic studies of other communities with solvent-contaminated 
water supplies. The third was a review of toxicologic studies conducted 
in animals and humans to test for health effects. And the fourth was a 
review of studies conducted specifically on the Camp Lejeune 
population.
    For the first review of epidemiologic studies, we used a 
categorization process established by the Institute of Medicine to 
evaluate risks to veterans of the Vietnam War and Gulf War. The 
Institute's approach is to evaluate the available epidemiologic 
literature involving exposures to specific chemicals in any setting, 
but mainly occupational settings, to determine whether a ``statistical 
association'' exists between specific chemicals and diseases and 
disorders. A statistical association means that people who are exposed 
to the chemicals are more likely to have or develop the disease or 
disorder than people who are not exposed. A statistical association, 
however, does not establish that the chemicals cause the disease or 
disorders. On the basis of the Committee's review, all the health 
outcomes were placed into one of two categories. The strongest evidence 
was in the category of limited/suggestive of an association, which 
means there is some evidence that people who were exposed to TCE or PCE 
were more likely to have the disease or disorder but that the studies 
were either few in number or had important limitations. In many cases, 
the study subjects were exposed to multiple chemicals, so it was not 
possible to separate out the effects of individual chemicals. Fourteen 
of the 59 outcomes reviewed by the Committee were placed in this 
category. The other 35 health outcomes reviewed by the Committee were 
placed in the category of inadequate/insufficient evidence to determine 
whether an association exists, which means that the studies were too 
few in number, limited in quality, inconsistent, or inclusive in 
results to make an informed assessment. It also means that such an 
association cannot be ruled out.
    The Committee decided to consider the subset of epidemiologic 
studies that were conducted in communities exposed to solvents in their 
water supplies in more detail. We felt these studies involved 
populations and exposure situations that more closely resemble those at 
Camp Lejeune. Overall, the Committee found the evidence from this 
subset of studies to be inconsistent and that there were a variety of 
limitations with the studies that did not allow any conclusions to be 
drawn about what effects might be related to the exposures. Some of the 
limitations were a lack of data on the levels of contaminants in the 
water, lack of adequate information about diseases and disorders in the 
population, and relatively small populations. These factors limit the 
capacity of such studies to detect associations.
    In animal experiments, a variety of adverse health effects were 
observed following relatively high exposures to TCE and PCE. It is 
difficult to determine whether the health effects observed in 
laboratory animals are predictive of effects in humans. There are 
differences in how TCE and PCE are handled in the body by rodents and 
humans that affect biological responses. However, it is clear that TCE 
and PCE do have toxic effects in laboratory animals and that some of 
them may be of concern to humans. Similar health effects found in 
epidemiology and toxicologic studies were kidney cancer, liver and 
kidney toxicity, neurotoxicity, and immunotoxicity.
    Only a few studies have been conducted on the Camp Lejeune 
population, and these have focused on health effects in people who were 
exposed as children or while their mothers were pregnant with them. Two 
studies performed by ATSDR did not find any clear associations between 
birth outcomes (mean birth weight, preterm birth, or small for 
gestation age). However, a comparison of subgroups within the Tarawa 
Terrace population found a weak association between PCE exposure and 
small for gestational age children of women over the age of 35 or who 
had prior miscarriages. The findings from these evaluations are no 
longer valid. After the evaluations were completed, ATSDR discovered 
that a residential area it classified as unexposed received water from 
the Hadnot Point system, so the study results must be reanalyzed to 
correct for this mistake in classification. ATSDR also has a study 
underway on prenatal exposure to water-supply contaminants and birth 
defects and childhood cancer. The outcomes in the study are rare, and 
given the number of study participants, it appears that the statistical 
power of the study could limit its ability to detect associations.
    The Committee also looked into the feasibility and utility of 
future studies of the Camp Lejeune population, including a health 
survey and epidemiologic studies of mortality and morbidity in the 
population. The Committee noted many difficulties with performing the 
studies, such as the difficulty with identifying, locating, and 
recruiting the study participants and obtaining reliable health 
information on them in an efficient manner. It is questionable whether 
there will be enough participants to ensure there is adequate 
statistical power to detect associations, and the Committee was 
concerned about the possibility of bias in the survey and studies, as 
people who have experienced disease or illness are more likely to 
participate.
    After reviewing the preliminary plans and feasibility assessments, 
the Committee concluded that most questions about whether exposures at 
Camp Lejeune resulted in adverse health effects cannot be answered 
definitively with further scientific study. There are two reasons for 
this. First, it would be extremely difficult, if not impossible, to 
reliably estimate the historical exposures experienced by people at the 
base. Second, it will be difficult to detect any increases in the rate 
of diseases or disorders in the study population. Most of the health 
effects of concern are relatively rare, which means that very large 
numbers of people are needed to detect increased cases. Although the 
total number of people who lived at Camp Lejeune while the Tarawa 
Terrace and Hadnot Point water supplies were contaminated was sizable, 
the population is still unlikely to be large enough to detect effects. 
Another factor is that the people tended to live on the base for a 
relatively short period of time, making it difficult to rule out other 
exposures or factors that could have contributed to the disease or 
illness. Most chronic diseases are thought to have a latency period of 
years, if not decades, which means that exposure needs to be assessed 
over this same time period. All these factors make it unlikely that the 
proposed studies, even if the notable uncertainties about feasibility 
are resolved favorably, will produce a result of sufficient certainty 
to resolve the question of whether Camp Lejeune residents suffered 
adverse health effects (especially chronic diseases) from exposure to 
contaminated water at Camp Lejeune. Thus, our committee's conclusion 
was that there is no scientific justification for the Navy and Marine 
Corps to wait for the results of additional health studies before 
making decisions about how to follow up on the evident solvent 
exposures on the base and their possible health consequences. The 
services should undertake the assessments they deem appropriate to 
determine how to respond in light of the available information.

    With that, I would once again like to thank you for inviting me to 
testify before this Committee, and I look forward to your questions.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
 John R. Nuckols, Ph.D., Professor, Colorado State University, Member, 
        Committee on Contaminated Drinking Water at Camp Lejeune

    Question 1. You heard testimony from Michael Partain during the 
hearing. He stated that he has identified 40 men from Camp Lejeune who 
have breast cancer. Did the National Research Council consider that 
when they wrote their report? Does that number by itself raise any red 
flags with you? Is that something that you think merits further 
investigation?

    Question 2. You stated that ATSDR has a study underway on prenatal 
exposure to water-supply contaminants and birth defects and childhood 
cancer, but that the statistical power of the study could limit its 
ability to detect associations. Is there a better way, or better study 
to undertake, to determine a possible connection between water-supply 
contaminants and birth defects and childhood cancer?

    Question 3. What steps did the National Research Council and the 
ATSDR take in determining prenatal exposure to water-supply 
contaminants?

    Question 4. What exactly was the charter of the National Research 
Council when asked to conduct your study?

    Question 5. How did the National Research Council select scientific 
studies to review? How many of the studies did you review? How rigorous 
was your review, and how did you review them (e.g. did everyone on the 
Committee read the same studies, did one person read one and brief the 
rest of the group, etc.)?

    [The Committee had not received the requested information 
by press time.]

    Chairman Akaka. Thank you very much, Dr. Nuckols. Now we 
will hear the testimony from Ms. Pennington.

 STATEMENT OF STACY PENNINGTON, SISTER OF SSG. STEVEN GREGORY 
 OCHS, IRAQI OPERATION FREEDOM AND OPERATION ENDURING FREEDOM 
                            VETERAN

    Ms. Pennington. Aloha, Honorable Chairman Akaka.
    Chairman Akaka. Aloha.
    Ms. Pennington. And honorable Members of the Committee, 
good morning. It is an honor to be sitting before the U.S. 
Senate Committee on Veterans' Affairs. Thank you for your 
leadership in acknowledging the exposures happening to our 
troops.
    I have been asked to speak to you from a victim's 
standpoint of the effect of exposure to dangerous toxins 
produced by burn pits that are used to dispose of such items as 
medical waste, fuel, plastic, vehicles, trash and ammunition. I 
sit here in front of you with a heavy heart to share the 
stories of two families who know how it feels to have a burning 
pit in our souls.
    My brother, SSG. Steven Gregory Ochs chose the military as 
his career, serving our country for 14 years. SSG. Matt Bumpus 
served his country for 8 years and 9 months. Both were called 
to fight in Operation Iraqi Freedom. Staff Sergeant Ochs served 
three tours in 12- to 15-month intervals from 2003 to 2007, and 
Staff Sergeant Bumpus served his tour onset of the war in 2003. 
Both of these brave soldiers you see before you dodged bullets, 
mortar attacks, roadside bombs, and suicide bombers, yet 
eventually their tours would take their lives.
    The ultimate sacrifice of a soldier for his country is 
death. However, their deaths did not show up in the manner you 
may assume. In Balad is the site of the infamous, enormous burn 
pit that has been called by Darrin L. Curtis, lieutenant 
colonel of the U.S. Air Force of Bioenvironmental Engineering 
and Flight Commander, the worst environmental site he had ever 
visited.
    Staff Sergeant Ochs and Staff Sergeant Bumpus were both 
stationed in Balad and war, as strategic as it is, followed 
them home. Death lay dormant in their blood and waited for them 
to return safely home and into the arms of their loved ones. 
And like every silent ticking time bomb, it eventually 
exploded.
    On September 28, just months after Steve's return home from 
his third tour, he was diagnosed with acute myeloid leukemia, 
also known as AML. He spent the next 10 months as a patient, 
more like a resident, at Duke University Hospital. Doctors at 
Duke said his aggressive form of AML was definitely chemically 
induced and like Steve, both agreed it was due to the exposures 
he experienced while in Afghanistan and Iraq.
    However, the doctors refused to go on record, citing as the 
reason that they could not prove it. The aggressive AML that 
Steve endured was similar to bullets ricocheting in the body, 
causing tortuous pain. The graphic images embedded in my mind 
are Steve's last screams for air as he was rushed into ICU. 
Forgive me.
    Steve waved goodbye to my husband. Steve, with very little 
strength, his last words to me were, I love you, Sis. And my 
mom kissed his forehead and said, we will see you when they get 
you comfortable. Not 5 minutes later, while we were in ICU 
waiting room, the nurse came in to tell us that Steve went into 
cardiac arrest and they were working to revive him now. My mom 
ran into ICU. She fell to her knees as she realized her son was 
dying.
    Screams filled the air as we begged God to keep Steve here 
with us. We know Steve heard us as tears were in Steve's eyes. 
Doctors and nurses pumped on Steve's chest trying to revive 
him, but I knew immediately he was gone. His spirit that 
surrounded my dear sweet little brother of 32 years old, was 
gone.
    We were left alone with Steve's body for hours as we were 
all in pure shock. My mom looked upon my brother's face and 
wiped away the tears puddled in his eyes. And at that very 
moment, our lives were changed forever. Steve died on July 12, 
2008.
    Two weeks later on the opposite side of the coast, Staff 
Sergeant Bumpus would succumb to the same fate. For Staff 
Sergeant Bumpus, the ticking time bomb exploded with a 
vengeance on July 31, 2006. Matt was rushed to the hospital by 
ambulance with acute appendicitis. In Matt's own words, ``the 
next thing I remember is hearing that I had been diagnosed with 
AML.''
    Doctors declared that there was chromosome damage due to 
exposures he must have come in contact with while in Iraq. Matt 
ended his prestigious service to the Army one short year before 
the war zone--chemical warfare showed signs of its presence. As 
if this was not enough suffering, Staff Sergeant Bumpus' family 
was met by the VA with harsh claims of denial to benefits. This 
battle continues to this day as Lisa, Staff Sergeant Bumpus' 
wife, is left alone with two small children to raise with no 
military or VA benefits for her family.
    The aggressive assault of the AML in Matt's body was taking 
claim. Jo, Matt's mother, recalls the haunted look in Matt's 
eyes as he revealed to her the AML invasion was back. Matt's 
mother never forgot the discouragement and sadness that 
overwhelmed Matt as he realized that promises he made to his 
wife and children--to provide for his family, to love and 
protect them--that his sacred word was broken.
    He knew now that the battle was over and he would be 
leaving his family behind. Tuesday, July 29, 2008, Matt once 
again entered the hospital with fever and septic infection that 
discharged throughout his entire body. Doctors notified the 
family that it would just be days before his demise.
    Matt was heavily sedated as the pain and incubation was 
unbearable. Nate, Matt's 10-year-old son, bravely entered his 
father's room to lay on his daddy's chest to say his final 
goodbye. Nate curled up by his dad and cried and cried and 
despite Matt's heavy sedation, Matt too was crying. Matt being 
a devoted Christian, appropriately passed away on a Sunday 
morning surrounded by his wife, mother, father, sister as they 
expressed to Matt their everlasting love.
    They too were in shock and stayed with Matt's body as they 
realized and were overwhelmed that Matt was not coming home. 
Matt died on August 3, 2008. You have to know that while 
serving in Iraq, both of these soldiers complained of ailments 
such as colds, major fatigue, headaches, sinus problems, loss 
of hearing, and Staff Sergeant Ochs contracted TB while in 
Afghanistan due to the massive exposure to dead bodies.
    Both men were of strong stature, standing over six feet 
tall, weighing over 200 pounds and both men were the perfect 
image of Army-strong soldiers. Two men, brave, who served their 
country courageously and committed to the cause, dedicated to 
our country and entrusted the military.
    Grief, sadness, and depression have gripped our entire 
families. Their wives are emotionally broken and incomplete, 
their mothers are emotionally unstable and engulfed with grief 
and their fathers are lost; and worst of all, their children 
are fatherless.
    Sadly, Steve and Matt are not alone. Laura Bumpus and I 
have spoken to over hundreds of families suffering the same 
fate. We are aware of hundreds more suffering similar ailments. 
These men are casualties of war. They deserve the respect of 
that fact to reflect on the Army records.
    My family, the Ochs family, proudly display our gold pin 
presented to us by Steve's commander at his funeral. 
Unfortunately, the Bumpus' family does not have that same 
privilege and this too must be rectified. We are proud military 
families and we will continue to be in the future. And you have 
to know, we both have members currently serving this country 
now. We deserve to display the gold flag in homage of our 
beloved. This too has been a benefit denied to both of our 
families.
    We would like to thank the Department of Defense for 
recently installing the necessary incinerators at the Balad 
base. However, we are concerned, as other toxic burn pits 
continue burning 24/7 throughout Iraq and Afghanistan and we 
ask the Committee for your support to correct the problem.
    In conclusion, our families will continue to live with 
emotional battle scars caused by the terminal injuries our 
beloved ones suffered as a result of the exposures of burn 
pits. I assure you it is a heavy cross to bear. Our wish is for 
this Committee to begin the actions it takes to stop this 
nightmare. You have the power to save our courageous heroes who 
serve our country and who protect me and who protect you.
    Thank you for your time in hearing our voices.
    [The prepared statement of Ms. Pennington follows:]

 Prepared Statement of Stacy Pennington, Sister of SSG Steven Gregory 
 Ochs, Iraqi Operation Freedom and Operation Enduring Freedom Veteran 
   and Representing SSG Matt Bumpus, Iraqi Operation Freedom Veteran

    Honorable Chairman Akaka and Honorable Members of the Committee: 
Good Morning. It is an honor to be sitting before the U.S. Senate 
Committee on Veterans' Affairs. Thank you for your leadership 
acknowledging the exposures happening to our troops. My name is Stacy 
Pennington and I was asked to speak to you from a victim's standpoint 
of the affects of exposure to dangerous toxins produced by burn pits 
that are used to dispose of such items as medical waste, fuel, plastic, 
vehicles, trash and ammunition. I sit here in front of you with heavy 
heart to share the stories of two families who know how it feels to 
have a ``burning pit'' in our souls.
    My brother, SSG Steven Gregory Ochs, chose the military as his 
career serving our country for 14 years. SSG Matt Bumpus served his 
country for 8 years and 9 months. Both were called to fight in 
Operation Iraqi Freedom. SSG Ochs served 3 tours in 12-15 month 
intervals from 2003-2007 and SSG Bumpus served his tour onset of the 
war in 2003.
    Both of these brave soldiers you see before you dodged bullets, 
mortar attacks, road side bombs and suicide bombers. Eventually their 
tours of duty would take their lives. The ultimate sacrifice for a 
soldier, for his country is death. However, their deaths did not show 
up in the manner you may assume.
    In Balad is the site of the infamous enormous burn pit that has 
been called by Darrin L. Curtis, Lt. Col., USAF and Bioenvironmental 
Engineering Flight Commander as ``the worst environmental site'' he had 
ever visited. SSG Ochs and SSG Bumpus were both stationed in Balad and 
war as strategic as it is followed them home. Death lay dormant in 
their blood and waited for them to return safely home and into the arms 
of their loved ones. Like every silent ticking time bomb, it eventually 
exploded.
    On September 28, 2007, just months after Steve's return home from 
his 3rd tour, he was diagnosed with Acute Myeloid Leukemia, also known 
as AML. He spent the next 10 months as a patient, more like a resident, 
at Duke University Hospital. Doctors at Duke said his aggressive form 
of AML was definitely chemically induced and like Steve both agreed it 
was due to the exposures he experienced while in Iraq and Afghanistan. 
However, the doctors refused to go on record citing as the reason that 
they could not prove it.
    The aggressive AML that Steve endured was similar to bullets 
ricocheting in the body causing torturous pain. The graphic images 
embedded in my mind are of Steve's last screams for air as he was 
rushed into ICU. Steve waved goodbye to my husband. Steve with very 
little strength said, ``I love you sis'' and my Mom kissed his forehead 
and said we will see you when they get you comfortable. 5 minutes later 
while in the ICU waiting room the nurse came in to tell us Steve went 
into cardiac arrest and they were working on him now. My mom ran into 
ICU; fell to her knees as she realized her son was dying. Screams 
filled the air as we begged God to keep Steve here with us. We know 
Steve heard us as tears were in Steve's eyes. Doctors and nurses pumped 
on Steve's chest trying to revive him. But I knew immediately he was 
gone. His spirit that surrounded my dear sweet brother was gone. We 
were left alone with Steve's body for hours as we were all in pure 
shock. My mom looked upon my brother's face and wiped away the tears 
puddled in his eyes. And at that very moment our lives were changed 
forever. Steve died on July 12, 2008. Two weeks later on the opposite 
side of the coast SSG Bumpus would succumb to the same fate.
    For SSG Bumpus, the ticking time bomb exploded with a vengeance on 
July 31, 2006. Matt was rushed to the hospital by ambulance with acute 
appendicitis. In Matt's own words I quote, ``the next thing I remember 
is hearing that I had been diagnosed with AML.'' Doctors declared that 
there was chromosome damage due to exposures he must have come in 
contact with while in Iraq. Matt ended his prestigious service to the 
Army one short year before the war zone chemical warfare showed signs 
of its presence.
    As if this was not enough suffering, SSG Bumpus' family was met by 
the VA with harsh claims of denial to benefits. This battle continues 
to this day as Lisa, SSG Bumpus' wife, is left alone with two small 
children to raise with no VA or military benefits for her family.
    The aggressive assault of the AML in Matt's body was taking claim. 
Jo, Matt's mother recalls the haunted look in Matt's eyes as he 
revealed to her that the AML invasion was back. Matt's mother will 
never forget the discouragement and sadness that overwhelmed Matt as 
the realization that promises he made to his wife and children to 
provide for his family, to love and protect them and that his sacred 
word would be broken. He knew now that the battle was over and he would 
be leaving his family behind. Tuesday, July 29, 2008, Matt once again 
entered the hospital with fever and septic infection that discharged 
throughout his body. Doctors notified the family that it would just be 
days before his demise.
    Matt was heavily sedated as the pain and incubation was unbearable. 
Nate, Matt's 10 year old son, bravely entered his father's hospital 
room to lay on his Daddy's chest as he said his final goodbye. Nate 
curled up by his Dad and cried and cried. Despite Matt's heavy 
sedation, Matt too was crying. Matt being a devoted Christian 
appropriately passed away on a Sunday morning surrounded by his wife, 
mother, father and sister as they expressed to Matt their everlasting 
love. They too, were in shock and stayed with Matt's body as the 
realization overwhelmed them that Matt would not be going home. Matt 
died on August 3, 2008.
    While serving in Iraq both soldiers complained of ailments from 
colds, major fatigue, headaches, sinus problems, loss of hearing, and 
SSG Ochs contracted TB while is Afghanistan due to exposures to masses 
of dead bodies. Steve and Matt were men of large strong stature, 
standing over 6 feet tall, weighing over 200 pounds and both men were 
the perfect image of Army strong soldiers. Two brave men, who served 
their country courageously, committed to the cause, dedicated to our 
country and entrusted the military.
    Grief, sadness and depression have gripped our entire families. 
Their wives are emotionally broken and incomplete. Their mother's are 
emotionally unstable and engulfed with grief. Their father's are lost. 
Their children are fatherless.
    Sadly, Steve and Matt are not alone. Laura Bumpus and I have spoken 
to over a hundred families suffering the same fate. We are aware of 
hundreds more suffering similar ailments. These men are casualties of 
war. They deserve the respect of this fact to reflect in their Army 
records. My family, the Ochs family, proudly displays our Gold Star pin 
presented to us during Steve's funeral by his Commander. Unfortunately, 
SSG Bumpus' family does not have this same privilege. This must be 
rectified. We are proud military families and will continue to be in 
the future. We both have family members currently serving our country. 
We deserve to display the gold flag in homage of our beloved. This too 
has been a benefit that both of our families have been denied.
    In conclusion, our families will continue to live with the 
emotional battle scares caused by the terminal injuries our loved ones 
suffered as a result of the exposures of the burn pits. I assure you it 
is a heavy cross to bare. Our wish is for this Committee to begin the 
actions it needs to take to stop this nightmare. You have the power to 
save our courageous heroes who serve our country and who protect me and 
who protect you.

    Thank you for your time and for hearing our voices.

    Chairman Akaka. Thank you very much, Ms. Pennington, for 
your testimony. Dr. Miller, your testimony, please.

  STATEMENT OF ROBERT F. MILLER, M.D., ASSOCIATE PROFESSOR OF 
  PULMONARY AND CRITICAL CARE MEDICINE, VANDERBILT UNIVERSITY 
                         MEDICAL CENTER

    Dr. Miller. Chairman Akaka, Ranking Member Burr, and 
Members of the Committee, I thank you for the opportunity to 
testify today. My comments will focus on a group of U.S. 
soldiers with permanent respiratory impairment following 
service in Iraq and Afghanistan.
    In early 2003, 20,000 soldiers from the 101st Airborne out 
of Fort Campbell, KY, were deployed to Northern Iraq as part of 
Operation Iraqi Freedom. In June 2003, opposing forces set fire 
to the Mishraq Sulfur Mine approximately 25 kilometers from 
Camp Q West, a major military supply air strip and primary area 
of deployment for the 101st Airborne.
    At that time, the Mishraq Sulfur Mine was the largest 
sulfur mine in the world. It burned for over 4 weeks and caused 
the release of 42 million pounds of sulfur dioxide per day. 
This represents the largest manmade release of sulfur dioxide 
on record. Satellite imaging documented that the sulfur dioxide 
plume extended north and south over the city of Mosul and Camp 
Q West.
    Sulfur dioxide is the gas that you and I associate with 
striking a match. It is a potent lung toxin and has been shown 
to cause lung injury at levels as low as .1 part per million. 
Our soldiers were exposed to levels many times higher than 
this. Skin, eye and airway irritation reported by soldiers in 
the area suggests levels in excess of 50 parts per million. 
Random sampling by the U.S. Army documented toxic levels of 
over 100 parts per million.
    Most of the 101st Airborne deployed in early 2003 returned 
to Fort Campbell in 2004. This is when Vanderbilt University 
began receiving referrals from providers at Fort Campbell 
asking for assistance in evaluating soldiers complaining of 
shortness of breath on exertion, soldiers who could no longer 
pass physical training--physical fitness testing.
    The typical soldier had been able to complete a two-mile 
run in exemplary time within regulation. Now these soldiers had 
to walk much of the course. In almost all cases, standard 
respiratory evaluations had been normal. X-rays, chest CT 
scans, and pulmonary function testing were all normal or nearly 
normal.
    None of these routine tests explained the cause for the 
soldiers' limitation. Vanderbilt physicians ultimately referred 
patients for surgical lung biopsy and I must emphasize that it 
is very uncommon to perform a surgical biopsy to evaluate 
shortness of breath when standard testing is normal. You just 
do not send a patient to the operating room for a surgical lung 
biopsy when pulmonary function tests and x-rays fail to 
indicate some type of cause.
    But the degree of exercise limitation and sulfur dioxide 
exposure were compelling enough for us to apply this aggressive 
approach. In almost every case, surgical biopsy showed 
constrictive bronchiolitis, a condition associated with damage 
or destruction affecting more than 50 percent of the small 
airways of the lungs.
    This abnormality causes pulmonary limitation, but is not 
detectable on x-ray. Between 2004 and 2009, Vanderbilt 
physicians performed surgical biopsies on 45 of 70 soldiers 
referred for unexplained shortness of breath. All of the 
biopsies except one demonstrated some form of bronchiolitis. 
This condition has no known treatment and has resulted in Med 
boards from almost all of those affected.
    While the majority of patients diagnosed with constrictive 
bronchiolitis were exposed to sulfur dioxide from the sulfur 
mine fire, 25 percent of those biopsies served at a time or a 
place incompatible with this exposure. They had similar 
exercise limitation, test results and biopsies showing 
bronchiolitis, but they did not report any extraordinary 
exposures that would distinguish them from other soldiers. 
However, almost all reported inhalational exposures that were 
common to the Iraqi experience, including fumes from burn pits, 
burning human waste, fires and dust from combat, burning oil 
and diesel exhaust.
    Consider the example of a 42-year-old physician who was 
deployed to Northern Iraq in 2007. She had been an avid 
marathon runner prior to deployment and ran regularly during 8 
months--her 8 months tour of duty. Upon return, she was too 
short of breadth to run a mile. Her x-rays, pulmonary function 
tests were normal and her lung biopsy showed constrictive 
bronchiolitis, the same abnormalities seen in the other 
soldiers. She remains limited and now finds it difficult to 
climb stairs and walk up inclines.
    Up to this point, almost all of the soldiers diagnosed with 
constrictive bronchiolitis have been referred from Fort 
Campbell, but we have received a number of communications from 
soldiers and providers throughout the country, leading us to 
believe that this condition is present but not being diagnosed 
at other facilities.
    As noted previously, this diagnosis can only be established 
by surgical lung biopsy and most clinicians would hesitate to 
recommend this procedure. Military and VA officials have had a 
difficult time rating disability in this population. In most 
cases, the affected soldiers are comfortable at rest and are 
able to perform their activities of daily living. They have 
normal or near normal pulmonary function tests, but at the same 
time, they cannot meet the physical training requirements and 
are considered unfit for duty.
    This unique circumstance has challenged those who want to 
determine disability. Pulmonary function testing is the 
standard for rating respiratory problems, but how does one rate 
a soldier who is too short of breath to serve yet has a normal 
pulmonary function test? Unfortunately, the ratings applied 
thus far have not been standardized. We have seen many examples 
of a soldier receiving a rating from the U.S. Army only to have 
it downgraded by the VA.
    More research is needed to understand the cause and 
prevention of this disease. There is little doubt that the 
cause of bronchiolitis and those exposed to the Mishraq Sulfur 
Mine fire was due to inhalational toxin. There is also little 
doubt that those not exposed to sulfur fires suffer from a 
disease caused by toxic inhalation.
    We must determine what these other toxins are to prevent 
those serving from being exposed. We must also consider 
baseline pulmonary function testing prior to deployment, 
knowing that our soldiers too often encounter inhalational 
toxins. And finally, I urge the development of standards for 
evaluating this condition that I have described today.
    Thank you for your attention.
    [The prepared statement of Dr. Miller follows:]

 Prepared Statement of Robert F. Miller, M.D., Associate Professor of 
  Pulmonary and Critical Care Medicine, Vanderbilt University Medical 
                                 Center

    Chairman Akaka, Ranking Member Burr, and Members of the Committee, 
I thank you for the opportunity to testify today. My comments will 
focus on a group of United States soldiers with permanent respiratory 
impairment following service in Iraq and Afghanistan.

                               BACKGROUND

    In early 2003, 20,000 soldiers from the 101st Airborne from Ft. 
Campbell, KY were deployed to northern Iraq as part of Operation Iraqi 
Freedom. In June 2003, opposing forces set fire to the Mishraq Sulfur 
Mine, approximately 25 miles north the Qayyarah Airfield West (Camp Q 
West), a major military supply airstrip and the primary area of 
deployment for the 101st Airborne.
    At that time, the Mishraq Sulfur Mine was the largest sulfur mine 
in the world. It burned for over 4 weeks and caused the release of 42 
million pounds of sulfur dioxide (SO2) per day. This represents the 
largest man-made release of SO2 on record. Satellite imaging documented 
that the SO2 plume extended in a Southeast direction over the city of 
Mosul and Camp Q West.
    SO2 is the gas that you and I would associate with striking a 
match. It is a potent lung toxin and has been shown to cause lung 
injury at levels as low as 0.1 PPM. Our soldiers were exposed to levels 
many times higher than this. The skin, eye and airway injury irritation 
noted by almost everyone in the area suggests levels in excess of 50 
PPM. Random sampling by the US Army documented toxic levels of SO2.

                         CLINICAL PRESENTATIONS

    Most of the 101st Airborne deployed in early 2003 returned to Ft. 
Campbell in early 2004. This is when Vanderbilt began to receive 
referrals from providers at Fort Campbell, asking for assistance in 
evaluating soldiers who complained of shortness of breath on exertion 
and could no longer pass physical fitness testing. The typical soldier 
previously had been able to complete a two mile run within regulation 
time, but now had to walk much of the course. In almost all cases, 
standard respiratory evaluations obtained at Fort Campbell had been 
normal, including chest x-rays, chest CT scans and pulmonary function 
testing. None of these routine tests could explain the cause for the 
soldiers' limitations.
    Vanderbilt physicians ultimately referred patients for surgical 
lung biopsy. I must emphasize that it is very uncommon to obtain 
surgical biopsies to evaluate shortness of breath with exertion when 
standard testing is normal. But the degree of exercise limitation and 
SO2 exposure were compelling enough for us to apply an aggressive 
approach. In almost every case, surgical biopsy showed constrictive 
bronchiolitis, a condition associated with damage or destruction 
affecting more than 50% of small airways. This abnormality causes 
pulmonary limitations, but is not detectable on x-ray.
    Between 2004 and 2009 Vanderbilt physicians performed surgical 
biopsies on 45 of 70 soldiers referred for unexplained shortness of 
breath on exertion. All of the biopsies except one demonstrated some 
form of bronchiolitis. This condition has no known treatment and has 
resulted in medical boards for almost all of those affected.
    While the majority of the patients diagnosed with constrictive 
bronchiolitis were exposed to SO2 from the Mishraq sulfur mine fire, 
25% of those biopsied served at a time or place incompatible with this 
exposure. They had similar exercise limitations, test results, and 
biopsies showing bronchiolitis, but they did not report any 
extraordinary exposures that would distinguish them from other 
soldiers. However, almost all reported inhalational exposures that were 
common to the Iraqi combat experience. These include fumes from burn 
pits burning human waste, fires and dust from combat, burning oil and 
diesel exhaust.
    Consider the example of a 42 year-old physician who was deployed to 
northern Iraq in 2007. She had been an avid marathon runner prior to 
deployment and ran regularly during her 8 months in Iraq. Upon return, 
she was too short of breath to run a mile. Her X-rays and pulmonary 
function testing were normal and she ultimately had a surgical lung 
biopsy showing constrictive bronchiolitis, the same abnormality seen in 
most of the other soldiers. She remains limited and now finds it 
difficult to climb stairs and walk gentle inclines.
    Up to this point, almost all of the soldiers diagnosed with 
constrictive bronchiolitis have been referred from Ft Campbell. 
However, we have begun to receive communications from soldiers and 
providers throughout the country, leading us to believe that this 
condition is present but not being diagnosed at other military 
facilities. As noted previously, this diagnosis can only be established 
by surgical lung biopsy and most clinicians would hesitate to recommend 
biopsy when x-rays and pulmonary function tests are normal.

                  RATING DISABILITY FOR BRONCHIOLITIS

    Military and VA officials have had a difficult time rating 
disability in this population. In most cases, the affected soldiers are 
comfortable at rest and are able to perform the activities of daily 
living. They have normal or near normal pulmonary function tests, but 
at the same time they cannot meet physical training requirements and 
are considered unfit for deployment. This unique circumstance has 
challenged those who must determine a disability rating. Pulmonary 
function testing is the usual standard for rating respiratory 
disabilities, but how does one rate the soldier who is too short of 
breath to serve and yet has normal test results? Unfortunately, the 
ratings applied thus far have not been standardized. Additionally, we 
have seen many examples of soldiers who received one rating from the US 
Army only to have it downgraded by the VA.
    More research is needed to understand the cause(s) and prevention 
of this disease. There is little doubt about the cause of bronchiolitis 
in those who were exposed to the Mishraq Sulfur Mine fire. There is 
also little doubt that those not exposed to the sulfur fires suffer 
from a disease caused by toxic inhalation. We must determine what these 
other toxins are so that preventive measures can be employed. We should 
also consider baseline pulmonary function testing prior to deployment 
knowing that our soldiers too often encounter inhalational toxins. And 
finally, I urge the development of standards for evaluating the 
condition that I have described today.

    Thank you for your attention and I would be glad to answer any 
questions.

    Chairman Akaka. Thank you very much, Dr. Miller, for your 
testimony. Now we will receive the testimony of Mrs. Paganelli.

  STATEMENT OF LAURIE PAGANELLI, MOTHER OF JORDAN PAGANELLI, 
 CHILDHOOD CANCER (SARCOMA) WARRIOR AND PAST RESIDENT OF U.S. 
             NAVAL AIR FACILITY (NAF) ATSUGI, JAPAN

    Mrs. Paganelli. Thank you. Good morning, Chairman and 
Members of the Committee. Thank you for this opportunity to 
present my testimony on behalf of my family and as a 
representative for hundreds of sailors, Marines, and civilians 
who were unknowingly exposed to and have been adversely 
affected by contaminated air, soil, and water at U.S. Navy Air 
Facility Atsugi, Japan.
    My name is Laurie Paganelli and I am a former resident of 
Atsugi. My husband was an active duty Navy servicemember and we 
were given orders to report to Atsugi in 1997. Our tour of duty 
was from 1997 to 2000. Our only son, Jordan, was 5 years old 
when we arrived. While stationed at Atsugi, he attended Shirley 
Lanham Elementary School, played soccer, T-ball, and attended 
many sporting and cultural events throughout our time there.
    On January 11--excuse me--2008, our lives changed forever. 
Jordan, then 16 years old, was diagnosed with a rare, vicious 
and highly aggressive form of cancer, so aggressive in fact 
that by the time he displayed any symptoms, his cancer had 
already progressed to Stage IV.
    The name of his cancer is Alveolar Rhabdo-Myo-Sarcoma, as 
known short, ARMS. ARMS is considered extremely rare and there 
are only about 350 cases each year in the United States, and 
because of its rarity there is a severe lack of funding for 
this type of cancer. Only 3 percent of research money goes 
toward childhood cancer research, making a 5-year survival rate 
dismally low.
    Jordan's protocol was an intensive multi-agent therapy, 
including dose compressed cycles which had us calling Walter 
Reed Army Medical Center home for most of the 15 months of 
continuous treatment. Jordan also battled through 12 total 
weeks of daily radiation, 7 weeks to his torso and lungs, and 
then five more weeks to his entire head following the discovery 
of additional cancerous lesions that had spread to his brain.
    Additionally, due to cancer-based damage to his hips, he 
spent 10 months on crutches and the rest with a cane. Quite the 
contrast to the young boy who played at Atsugi base and the 
high school cross country star he had been just months earlier.
    During our stay at Atsugi, we were aware of the 
incinerator. It smelled, burned our eyes and sometimes added a 
greenish glow to the air around us. We certainly were not aware 
of the effects it would have on our family years later. As most 
military families do, I trusted that the Navy wouldn't let us 
live somewhere that was a danger to our health. I was wrong.
    From 1983 to 2001, sufficient and compelling evidence 
showed that the blend of high toxic chemicals were released 
from the Shinkampo Incinerator Complex, labeled SIC, at levels 
that far exceeded the EPA's health risk-based guidelines. These 
chemicals severely contaminated the residential area of Atsugi. 
A partial list of chemicals include: volatile organic 
compounds, poly-chlorinated bi-phenyls, pesticides, 
polycyclic--excuse my pronunciations--aromatic hydro-carbons, 
dioxins, furans, particulates, and heavy metals.
    In 1990, U.S. Department of the Navy documents referred to 
this plume of smoke as ``witch's brew of toxic chemicals.'' 
During the operation of SIC, the Navy spent approximately $18 
million dollars, performing numerous ambient air and health 
studies at Atsugi. The data repeatedly confirmed that Atsugi 
was being polluted by carcinogenic and non-carcinogenic 
chemicals, which are categorized by the EPA to have long 
latency periods, meaning that the effects would be evident 
years after exposure.
    In 1997, the Navy began to communicate health risks to 
Atsugi residents. However, during the initial 12 years of 
incinerator operations, personnel had little to no knowledge of 
the potential health risks in toxic exposures. A review of the 
Navy's human risk assessment of Atsugi prepared in 2001 by the 
Committee of Toxicology stated, ``there does not seem to have 
been a coordinated strategy for risk communication.''
    In 1997, risk communication efforts included instructions 
for residents and school children to stay indoors while the 
plume of toxins blew toward the base. A standard Form 600 was 
added to personnel medical records stating that we were exposed 
to 12 toxic chemicals and exceeded the maximum contamination 
levels.
    Although the Navy had no control over the missions of the 
SIC, they did have the ability to avoid exposing thousands of 
children to toxic chemicals. By 1990, the base residents were 
being exposed to dioxin and other toxic chemicals. In 1997, the 
Navy Inspector General reported that ``the Navy must act 
decisively to reduce personnel exposure to incinerator 
contaminants. A range of options to accomplish this include, 
but not limited to, moving U.S. personnel to other locations, 
must be examined.''
    The 1999 study conducted by the government of Japan and the 
U.S. Navy found dioxin levels in the air to be dangerously 
high. By 2000, Defense Secretary William Cohen and chief of the 
Japanese Defense Agency agreed that Japan would provide 
temporary off-base housing and that Japan would not object to 
the U.S. Government's efforts to sue SIC for violating 
environmental laws.
    In 2001, the U.S. Department of Justice brought suit 
against a private incinerator in a Yokohoma court. A lawsuit 
claimed that toxic chemicals severely polluted the air, soil 
and groundwater and interfered with U.S. Government rights of 
property and possession. The SIC was closed when the government 
of Japan decided to pay the incinerator owner the equivalent of 
$42 million to shut down and dismantle the incinerators.
    The Navy had knowledge that Atsugi residents were being 
exposed to dioxin in the SIC emissions in the early 1990s and 
they knew what detrimental effects such exposure would have to 
the human body. As you remember, dioxin is what made Agent 
Orange so toxic. So, it is no surprise that by 1998, the Navy 
recognized their liability and instituted a one-page waiver 
that did not convey any information of known long-term risks 
associated with the SIC.
    We were required to sign the waiver. In 2007, after 
complaints of former residents, the Navy provided a public Web 
site with some study-based information. However, the Web site 
has not been widely publicized and many former Atsugi residents 
do not have knowledge of its existence.
    Recently the Navy started--stated that the 2009 Atsugi 
health study produced a registry. However, the study confirms 
that approximately 75 percent of the Atsugi population in the 
study was lost to follow-up, which adversely affects the 
study's end result, specifically because of the documented 
latency period of toxic exposure.
    Over the last 3 years, an estimated 750 former residents, 
including retired and former active duty personnel and their 
families, have come together for support outside the realm of 
the Navy. Within this group, at least 61 cancer cases have been 
reported, all of which have been directly associated with 
dioxin exposure. They include: brain, thyroid, cervical/
ovarian, colorectal, leukemia, lymphoma, and various other 
cases of sarcoma, many of which involve innocent children, like 
our son, Jordan, who lived at Atsugi while their mothers and 
fathers faithfully served the United States of America while 
stationed in Japan.
    Besides cancer, many former residents suffer from 
illnesses, including nervous system disorders, liver and kidney 
damage, auto-immune diseases, neurological disorders, cardiac 
irregularities, and other toxic-related diseases as defined by 
the Agency of Toxic Substances and Disease Registry.
    In closing, I would like to state that I had the basic 
human right not to be exposed to the types of toxic chemicals 
that were highly prevalent at Atsugi. Our military members are 
proud to dedicate their lives in defense of this great country 
and we support them in their mission every day. However, we 
trusted the Navy to provide a safe environment for our family 
members, but they failed to do so, knowingly housing our 
families in a toxic waste zone.
    We look to you, Committee Members, to rectify this gross 
misconduct and to take action to ensure that the VA is provided 
with an appropriate registry and an accurate risk of cancer and 
non-cancerous illnesses associated with the SIC. We urge you to 
ensure that all former residents are notified.
    Finally, we urge you to introduce a bill to enact a new law 
that allows former Atsugi residents and dependents to receive 
appropriate VA benefits, to include medical care and disability 
compensation. My son has been fighting for his life and the 
journey so far I would not wish on any parent or family.
    We will never know if this disease was caused or brought 
about by the exposure of the toxic chemicals at Atsugi. 
However, the risk imposed to him and my family and lack of 
proactive risk mitigation is an absolute tragedy. I pray that 
no other family has to endure the pain of watching their child 
fight for it's life.
    Thank you for allowing me to speak today.
    [The prepared statement of Mrs. Paganelli follows:]

  Prepared Statement of Laurie Paganelli, Mother of Jordan Paganelli, 
Childhood Cancer (Sarcoma) Warrior and Past Resident of U.S. Naval Air 
                      Facility (NAF) Atsugi, Japan

    Good morning Mr. Chairman and Members of the Committee: Thank you 
for this opportunity to present testimony on behalf of my family and as 
a representative for hundreds of Sailors, Marines, and civilians who 
were unknowingly exposed to and have been adversely affected by the 
contaminated air, soil, and water at U.S. Navy Air Facility Atsugi, 
Japan.
    My name is Laurie Paganelli and I am a former resident of Atsugi. 
My husband is an active-duty Navy servicemember and we were given 
orders to report to Atsugi in 1997. Our tour of duty was from 1997-
2000. Our only son, Jordan, was 5 years old when we arrived. While 
stationed at Atsugi, he attended Shirley Lanham Elementary School, 
played soccer, t-ball, and attended many other sporting/cultural events 
on the base throughout our time there.
    On January 11, 2008 our lives changed forever. Jordan (then 16-
years old) was diagnosed with a rare, vicious, and highly aggressive 
form of cancer--so aggressive in fact, that by the time he displayed 
any symptoms, his cancer had already progressed to a STAGE 4 condition. 
The name of his cancer is: Alveolar Rhabdo-Myo-Sarcoma (``ARMS'' for 
short). ARMS is considered extremely rare because there are only about 
350 cases diagnosed each year in the United States. And, because of its 
rarity, there is a severe lack of awareness and funding for this type 
of cancer. Only 3% of research money goes toward childhood cancer 
research, making the 5-year survival rate dismally low. Jordan's 
protocol was an Intensive Multi-Agent Therapy, including Dose-
Compressed Cycles which had us calling Walter Reed Army Medical Center 
``home'' for most of the 15 months of continuous treatment. Jordan also 
battled through 12 total weeks of DAILY radiation: 7 weeks to his torso 
and lungs; and then 5 more weeks to his entire head following the 
discovery of additional cancerous legions that had spread to his brain. 
Additionally, due to cancer-based damage to his hips, he spent 10 
months on crutches and the rest with a cane--quite a contrast to the 
young boy who played at ``Atsugi Base'' and the high school cross 
country star he had been just months prior to diagnosis. During our 
stay at Atsugi we were aware of the incinerator. It smelled, burned 
your eyes, and sometimes added a greenish glow to the air around us. We 
certainly were not aware of the effects it would have on our family 
years later. As most military families do, I trusted that the Navy 
wouldn't let us live there if it was a danger to our health. I WAS 
WRONG.
    From 1983 until 2001, sufficient and compelling evidence showed 
that a blend of highly toxic chemicals were released from the Shinkampo 
Incineration Complex (labeled the ``SIC'') at levels that far exceeded 
the EPA's health-risk-based guidelines. These chemicals severely 
contaminated the residential area of Atsugi. A partial list of 
chemicals included: volatile organic compounds, poly-chlorinated bi-
phenyls, pesticides, polycyclic aromatic hydro-carbons, dioxins, 
furans, particulates, and heavy metals. In 1990, U.S. Department of the 
Navy documents referred to this plume of smoke as a ``witch's brew of 
toxic chemicals.''
    During the operation of the SIC, the Navy spent approximately 18 
million dollars performing numerous ambient air and health studies at 
Atsugi. This data repeatedly confirmed that Atsugi was being polluted 
with carcinogenic and non-carcinogenic chemicals, many of which have 
been categorized by the EPA to have long-latency periods--meaning that 
their affects would be evident years after the exposure.
    In 1997, the Navy began to communicate health risks to Atsugi 
residents. However, during the initial 12 years of incinerator 
operations, personnel had little or no knowledge of the potential 
health risks of their toxic exposure. In fact, a review of the Navy's 
Human Health Risk Assessment of Atsugi (prepared in 2001 by the 
Committee of Toxicology) stated: ``There does not seem to have been a 
coordinated strategy for risk communication.''
    In 1997, risk communication efforts included instructions for 
residents and school children to stay indoors when the plume of toxins 
blew toward the base. A ``Standard Form 600'' was added to personnel 
medical records stating that we were exposed to 12 toxic chemicals that 
exceeded Maximum Contamination Levels.
    Although the NAVY had no control over the emissions of the SIC, 
they did have the ability to avoid exposing thousands of children to 
toxic chemicals. By early 1990, it was evident that base residents were 
being exposed to Dioxin and other toxic chemicals. In 1997, the Navy 
Inspector General reported that ``The Navy must act decisively to 
reduce personnel exposure to incinerator contaminants. A range of 
options for accomplishing this, including (but not limited to) moving 
U.S. personnel to other locations, must be examined.''
    The 1999 study conducted by the Government of Japan and the U.S. 
Navy, found dioxin levels in the air to be dangerously high. By 2000, 
Defense Secretary William Cohen and the Chief of the Japanese Defense 
Agency agreed that Japan would provide temporary off-base housing and 
that Japan would not object to the U.S. government's efforts to sue the 
SIC for violating environmental laws.
    In 2001, the United States Department of Justice brought suit 
against the private incinerator in a Yokohoma Court. The lawsuit 
claimed that toxic chemicals severely polluted the air, soil, and 
ground water and interfered with the U.S. Government rights of property 
use and possession. The SIC was closed when the Government of Japan 
decided to pay the incinerator owner the equivalent of 42 million 
dollars to shut down and dismantle the incinerators.
    The NAVY had knowledge that Atsugi residents were being exposed to 
Dioxin in the SIC's emissions by the early 1990's; and they knew what 
detrimental affects such exposure would do to the human body. As you 
remember, Dioxin is what made ``Agent Orange'' so toxic. So, it's no 
surprise that by 1998, the NAVY recognized their liability and 
instituted a one page waiver that did not convey information of the 
known long-term risk associated with the SIC. We were all REQUIRED to 
sign this waiver.
    In 2007, after complaints of former residents, the NAVY provided a 
public Web site with some study-based information. However, the Web 
site has not been widely publicized and many former Atsugi residents 
still do not have knowledge of its existence.
    Recently, the NAVY has stated that the 2009 Atsugi Health Study 
produced a registry. However, the study confirms that approximately 75% 
of the Atsugi population in the study was lost to follow-up, which 
adversely affected the study's end result--specifically because of the 
documented latency period of the toxic exposure.
    Over the last three years, an estimated 750 former residents 
(including retired and former active duty personnel and their families) 
have come together for support outside the realm of the NAVY. Within 
just this group, at least 61 cancer cases have been reported--all of 
which have been directly associated with Dioxin exposure. They include 
Brain, Thyroid, Cervical/Ovarian, Colo-Rectal, Leukemia, Lymphoma and 
various other cases of sarcoma--many of which involve innocent children 
(like our son Jordan) who lived at Atsugi while their mothers and 
fathers faithfully served the United States of America while stationed 
in Japan.
    Besides cancer, many former residents suffer from illnesses 
including; nervous system disorders, liver and kidney damage, auto-
immune diseases, neurological disorders, cardiac irregularities, and 
other toxic related diseases as defined by the Agency for Toxic 
Substances and Disease Registry.
    In closing, I would like to state that we had the basic human right 
not to be exposed to the types of toxic chemicals that were highly 
prevalent at Atsugi. Our military family members are proud to dedicate 
their lives in defense of our great county; and, we support them and 
their mission each and every day. However, we trusted the Navy to 
provide a safe environment for our family members. But, they failed to 
do so by knowingly housing our families in a toxic waste zone.
    We look to you, committee members, to rectify this gross misconduct 
and to take action to ensure that the VA is provided with an 
appropriate registry and an accurate list of cancer and non-cancerous 
illnesses associated with the SIC exposure. We urge you to ensure that 
all former residents are notified. Finally, we urge you to introduce a 
bill to enact a new law that allows former Atsugi residents and 
dependents to receive the appropriate VA benefits to include medical 
care and disability compensation.
    My son has been fighting for his life; and his journey thus far is 
one that NO parent should ever have to take with their child. We will 
never know if his disease was caused (or brought about) by the exposure 
of toxic chemicals at Atsugi. However, the risk imposed to him and my 
family, and the lack of proactive risk mitigation, is an absolute 
tragedy. I pray that no other family has to endure the pain of watching 
their child fight for their lives.

    Thank you for allowing me to speak to you today.

    Chairman Akaka. Thank you very much, Mrs. Paganelli. Now we 
will receive the testimony of Dr. Feigley.

      STATEMENT OF CHARLES E. FEIGLEY, Ph.D., PROFESSOR, 
 ENVIRONMENTAL HEALTH SCIENCES, PUBLIC HEALTH RESEARCH CENTER, 
 ARNOLD SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF SOUTH CAROLINA; 
  CHAIR, SUBCOMMITTEE ON THE ATSUGI INCINERATOR COMMITTEE ON 
   TOXICOLOGY BOARD ON ENVIRONMENTAL STUDIES AND TOXICOLOGY 
DIVISION ON EARTH AND LIFE STUDIES, NATIONAL RESEARCH COUNCIL, 
                     THE NATIONAL ACADEMIES

    Mr. Feigley. Good morning, Mr. Chairman and Members of the 
Committee. Thank you for your concern about the health of 
veterans.
    My names is Charles Feigley. I am professor of 
environmental health sciences at the University of South 
Carolina, Arnold School of Public Health. I am also principal 
investigator of a DOD-sponsored contract testing the use of 
copper in air conditioning systems to improve air quality and 
reduce illness in the military.
    As well, I am principal investigator of the University of 
South Carolina Center for Public Health Preparedness, which is 
funded by the Centers for Disease Control and Prevention. We 
assist State, local, and tribal health agencies and their 
community partners to prepare for a wide range of public health 
emergencies.
    In addition, I have served on a number of committees of the 
National Research Council, or NRC, including as chair of the 
NRC subcommittee that prepared the report titled, ``Review of 
the U.S. Navy's Health Risk Assessment of the Naval Air 
Facility at Atsugi.''
    The National Research Council is an operating arm of the 
National Academy of Sciences, not part of the government, and 
it is--it was established in 1863 by Congress and under 
President Lincoln to advise the government on matters of 
science and technology. I am here before you today because of 
my experience as a volunteer serving on that NRC committee.
    The NRC report titled, Review of the U.S. Navy's Health 
Risk Assessment of the Naval Air Facility at Atsugi was 
prepared in response to requests from the U.S. Navy for an 
independent review of the final draft of the Navy Environmental 
Health Center's report on the risk assessment at Atsugi which 
was in 2000, the year 2000.
    The NEHC, that is, the Naval Environmental Health Center, 
that prepared the risk assessment report that we reviewed, had 
conducted a risk assessment because of concerns that were 
raised by residents of Atsugi, the U.S. Navy personnel, and 
their families regarding health effects of what came to be 
called Enviro-Tech Incinerator--the Enviro-Tech Incinerator, 
formally called Shinkampo or Jinkanpo Incinerator Complex.
    That complex was adjacent to the U.S. Naval Air Facility 
which is located southwest of Tokyo, and when I say adjacent, 
one of the critical things that really is not mentioned in my 
written statement is that the incinerator is at a much lower 
elevation than the base facility. The stacks from the 
incinerator discharged just above the level of the naval air 
facility so that when the air is--when the bin is blowing, as 
it frequently is, from the incinerator to the base, they were 
directly downwind and at really pretty much the same level of 
discharge.
    The concerns were related to the exposure to emissions from 
the incinerator and to chemicals resulting from the storage 
handling and disposal of waste material at the facility. The 
risk assessment was conducted after a previous NRC committee 
recommended that a comprehensive health study at NAF at Atsugi 
be conducted.
    The NRC subcommittee on Atsugi consisted of members 
selected for their expertise in toxicology, epidemiology, 
industrial hygiene, engineering, exposure assessment, and risk 
assessment. We were specifically asked to do two things. This 
is our charge: review the adequacy of the methods used to 
assess risks, the uncertainty is identified, the risk to 
susceptible subpopulations, such as pregnant women and young 
children, and the scientific validity of the conclusions drawn.
    Second, to recommend research to fill data gaps and options 
for mitigating risks associated with exposure to the 
incinerator emissions. It is important to note that you can see 
from these specific tasks that the subcommittee was not asked 
to determine the potential health effects from the incinerator, 
but to review the assessment that was conducted by the Naval 
Environmental Health Center.
    In its review, the subcommittee identified a number of 
aspects of the risk assessment that were exemplary and others 
that needed improvement. The subcommittee noted that the NEHC 
risk assessment included a rigorous quality assurance and 
quality control program and the subcommittee, therefore, had 
confidence in the accuracy of the data collected.
    The subcommittee was pleased with a broad number of air 
pollutants that were monitored and the collection of 
meteorological data. It also commended the NEHC for calculating 
risks of acute and chronic toxicity endpoints of the different 
subpopulations.
    The subcommittee was concerned however about 
inconsistencies in the objectives of the risk assessment, some 
technical aspects regarding how the collected data was used in 
the risk assessment, and the interpretation of data and risk 
assessment findings by the NEH. The subcommittee also commented 
on the lack of analysis and characterization of uncertainty in 
the risk assessment.
    The subcommittee concluded that the NEH had collected a 
large amount of sampling data at NAF Atsugi. If analyzed and 
interpreted appropriately, the data might have been adequate to 
determine whether the air pollution at NAF Atsugi poses a 
health risk and how much the incinerator facility contributes 
to that pollution.
    However, the analyses of the data were inadequate to draw 
conclusions about the health risks of the persons residing at 
NAF Atsugi and about the contributions of the incinerator to 
those risks. In addition, the NEHC had interpreted some of the 
results of the risk assessment without taking into account the 
meaning and limitations of the risk assessment process.
    The subcommittee concluded that aspects of the analyses and 
interpretation of the data, not the underlying data themselves, 
constituted the main limitation of the risk assessment. The 
committee provided recommendations to improve the NEH risk 
assessment, including recommendations for the planning of the 
risk assess--of risk assessments, determination of attributable 
risk, analysis of air monitoring data, interpretation of risk 
assessment, treatment of uncertainty and information gaps that 
should be filled, and improvements in the presentation and 
organization of the NEH draft summary report itself.
    Given the aforementioned limitations of the Navy's risk 
assessment draft summary report, the subcommittee found that 
the analyses presented did not determine reliably whether 
military personnel and their families incurred health risks by 
living at NAF Atsugi, nor did the analyses represent reliably 
the contribution of the incinerator to those health risks.
    With that, I once again thank you for inviting me to 
testify before this Committee. I appreciate the important work 
that the Committee does for veterans' affairs and welcome any 
questions you might have.
    [The prepared statement of Mr. Feigley follows:]

      Prepared Statement of Charles E. Feigley, Ph.D. Professor, 
 Environmental Health Sciences, Public Health Research Center, Arnold 
         School of Public Health, University of South Carolina

    Good morning Mr. Chairman and Members of the Committee. Thanks to 
Senator Akaka and Members of the Committee on Veterans' Affairs for 
your concern about veteran's health.
    My name is Charles Gene Feigley. I am a professor of environmental 
health sciences at the University of South Carolina, Arnold School of 
Public Health.. I am Principal Investigator of a DOD-sponsored project 
testing the use of copper in air conditioning systems to improve air 
quality and reduce illness in the military. I am also Principal 
Investigator of the University of South Carolina's Center for Public 
Health Preparedness funded by the Centers for Disease Control and 
Prevention to assist State, local, and tribal health agencies and their 
community partners prepare for response to a wide range of public 
health emergencies. In addition, I have served on a number of 
committees of the National Research Council (NRC), including as Chair 
of the NRC Subcommittee that prepared the report Review of the U.S. 
Navy's Health Risk Assessment of the Naval Air Facility at Atsugi. The 
National Research Council is the operating arm of the National Academy 
of Sciences, National Academy of Engineering, and the Institute of 
Medicine of the National Academies, chartered by Congress in 1863 to 
advise the government on matters of science and technology. I am here 
before you today because of my experience as a volunteer serving on 
that NRC Committee.
    The NRC report, Review of the U.S. Navy's Health Risk Assessment of 
the Naval Air Facility at Atsugi, was prepared in response to a request 
from the US Navy for an independent review of the Navy Environmental 
Health Center (NEHC) report NAF Atsugi, Japan Human Health Risk 
Assessment Summary of Findings, Conclusions and Recommendations, Draft 
Final, January 2000, as well as a number of supporting documents for 
that risk assessment. The NEHC had conducted that risk assessment 
because of concerns that had been raised by the residents of NAF 
Atsugi--US Navy personnel and their families--regarding the health 
effects of the Enviro-Tech incinerator facility (formerly called the 
Shinkampo or Jinkanpo incinerator complex). That complex was adjacent 
to the US Naval Air Facility (NAF) at Atsugi, Japan, southwest of 
Tokyo. Enviro-Tech was a privately owned waste-combustion facility that 
consists of three incinerators, a waste-staging area, and an ash-
holding area. The concerns were related to exposure to emissions from 
the incinerators and to chemicals resulting from the storage, handling, 
and disposal of waste material at the facility. The risk assessment was 
conducted after a previous NRC subcommittee had recommended that a 
comprehensive health risk assessment of NAF Atsugi be conducted.
    The NRC Subcommittee on the Atsugi Incinerator--which consisted of 
members selected for their expertise in toxicology, epidemiology, 
industrial hygiene, engineering, exposure assessment, and risk 
assessment--was specifically asked to:

    1. Review the adequacy of the methods used to assess risk, the 
uncertainties identified, the risks to susceptible subpopulations (such 
as pregnant women and young children), and the scientific validity of 
the conclusions drawn.
    2. Recommend, depending on its evaluation, research to fill data 
gaps and options for mitigating the risks associated with exposure to 
the incinerator emissions.

    It is important to note that, as you can see from those specific 
tasks, the Subcommittee was not asked to determine the potential health 
effects from the incinerator, but to review the assessment that was 
conducted by the NEHC. In its review the Subcommittee identified a 
number of aspects of the risk assessment that were exemplary and others 
that needed improvement.
    The Subcommittee noted that the NEHC risk assessment included a 
rigorous quality-assurance and quality-control program, and the 
Subcommittee therefore had confidence in the accuracy of data 
collected. The Subcommittee was pleased with the broad number of air 
pollutants that NEHC monitored and the collection of meteorological 
data. It also commended the NEHC for calculating the risks of acute- 
and chronic-toxicity end points for different subpopulations.
    The Subcommittee was concerned, however, about inconsistencies in 
the objectives of the risk assessment, some technical aspects regarding 
how the collected data was used in the risk assessment, and the 
interpretation of the data and risk assessment findings by the NEHC. 
The Subcommittee also commented on the lack of uncertainty analysis or 
characterization in the risk assessment.
    The Subcommittee concluded that NEHC had collected a large amount 
of sampling data at NAF Atsugi. If analyzed and interpreted 
appropriately, those data might have been adequate to determine whether 
air pollution at NAF Atsugi poses a health risk and how much the 
incinerator facility contributes to that pollution. However, the 
analyses of the data were inadequate to draw conclusions about the 
health risks for persons residing at NAF Atsugi and about the 
contribution of the incinerator to those risks. In addition, NEHC had 
interpreted some of the results of the risk assessment without taking 
into account the meaning and limitations of the risk-assessment 
process. The Subcommittee concluded that aspects of the analyses and 
interpretation of the data, not the underlying data themselves, 
constituted the main limitation of the risk assessment. The 
Subcommittee provided recommendations to improve the NEHC risk 
assessment, including recommendations for the planning of risk 
assessments, determination of attributable risk, analysis of air-
monitoring data, interpretation of the risk assessment, treatment of 
uncertainty, information gaps that should be filled, and improvements 
in the presentation and organization of the NEHC draft summary report 
itself. Given the aforementioned limitations of the Navy's risk 
assessment draft summary report, the Subcommittee found that the 
analyses presented did not determine reliably whether military 
personnel and their families incur increased health risks by living at 
NAF Atsugi. Nor did the analyses presented reliably determine the 
contribution of the incinerator facility to health risks.

    With that, I would once again like to thank you for inviting me to 
testify before this Committee. I appreciate the important work 
conducted by the Committee on Veterans' Affairs and welcome any 
questions you may have.
                                 ______
                                 
Post-hearing Questions Submitted by Hon. Daniel K. Akaka to Charles E. 
    Feigley, Ph.D., Professor, University of South Carolina, Chair, 
                 Subcommittee on the Atsugi Incinerator

    Question 1. Please provide the Committee with the best estimate of 
the size of population that was at Atsugi between 1983 and 2001. Of 
this population, how many were servicemembers and how many were 
dependents, both adult and children? Please also provide the ages of 
the children.

    Question 2. Is there a study that can be done that will provide 
more accurate data than those done in the past? What would that look 
like?

    [The Committee had not received the requested information 
by press time.]

    Chairman Akaka. Thank you, Dr. Feigley. Dr. Gibb, your 
testimony, please.

            STATEMENT OF HERMAN GIBB, Ph.D., M.P.H.

    Mr. Gibb. Good morning. Thank you for the opportunity to 
testify this morning. I will be testifying on the subject of 
Qarmat Ali. I am testifying in my personal capacity and do not 
in any way represent the interest, beliefs or opinions of my 
employer.
    I presented similar testimony to the Senate Democratic 
Policy Committee hearing on August 3, 2009. The subject of that 
hearing was, ``The Exposure at Qarmat Ali--Did the Army Fail to 
Protect U.S. Soldiers Serving in Iraq?'' I have a Ph.D. in 
epidemiology from the Johns Hopkins University and an MPH in 
environmental health from the University of Pittsburgh.
    I spent 29 years at the U.S. Environmental Protection 
Agency. Most of my time at the EPA was spent at the National 
Center for Environmental Assessment where I served in the 
capacities of assistant center director and associate director 
for health. Based on my experience working at EPA on risk 
assessments of hexavalent chromium and my study of chromate 
production workers, I can state that the symptoms reported by 
the soldiers who served at Qarmat Ali are consistent with 
significant exposure to sodium dichromate.
    Sodium dichromate--and I may use the term hexavalent 
chromium and sodium dichromate interchangeably--but sodium 
dichromate is a hexavalent chromium compound. EPA maintains an 
online database of risk assessments on over 500 substances, 
including an evaluation of the potential of these substances to 
cause cancer in humans. Hexavalent chromium is classified as a 
human carcinogen.
    Among those substances that the EPA has classified as 
carcinogenic to humans, and it is estimated a cancer inhalation 
unit risk, the highest risk is that for hexavalent chromium. In 
other words, it is the most carcinogenic.
    In 2000, while at the EPA, I was the senior author of two 
publications on the health risks experienced by chromate 
production workers at a facility in Baltimore, MD. The first 
publication reported the results of a mortality study. The 
second examined the risk of clinical irritation experienced by 
the workers.
    The hexavalent chromium exposure at the facility was 
primarily from sodium dichromate, which is the same exposure 
that the soldiers experienced at Qarmat Ali. From my work on 
these studies, the EPA awarded me the Agency Scientific and 
Technological Achievement Award. I became interested in 
studying the group of workers in Baltimore because of the 
considerable amount of exposure data available for the 
facility. The group was relatively large, 2,357 workers. There 
were 122 deaths from lung cancer.
    Hexavalent chromium was found to be significantly 
associated with an increased risk of lung cancer even after 
controlling for smoking. Half of those who developed lung 
cancer had worked at the facility for less than 10 months. And 
I might add that one quarter of the lung cancer cases had 
worked at the facility for 2 months or less.
    In 2006, based in large measure on our study, the 
Occupational Safety and Health Administration set a permissible 
exposure limit for hexavalent chromium of 5 micrograms per 
cubic meter for--as an 8-hour time weighted average. This new 
OSHA PEL reduced the previous PEL by over 10-fold.
    Clinically diagnosed symptoms of irritation were found to 
occur in our study population within a relatively short time 
period after beginning employment. The medium time to develop 
an irritated nasal septum was only 20 days. That means that 
half of the workers developed it in less than 20 days and half 
developed it in more than 20 days: an ulcerated nasal septum, 
22 days; a bleeding nasal septum, 92 days; a perforated nasal 
septum 182 days.
    We recorded 10 different types of clinically diagnosed 
irritation. What was also remarkable was the higher percentage 
of the group that was diagnosed with signs of irritation. For 
example, 68 percent of the group was diagnosed at one time or 
another with nasal irritation. The signs of irritation which 
the soldiers and workers experienced at Qarmat Ali are 
consistent with what we reported in our study.
    The testimony by Russell Powell in the hearing today, by 
the soldiers in the hearing held by the Democratic Policy 
Committee on August 3, and by the civilian workforce in the 
previous hearing held on this subject suggests that they are 
experiencing signs of hexavalent chromium exposure.
    A report from the Army Center for Health Promotion and 
Preventive Medicine, CHPPM, indicated the blood samples were 
collected from 137 potentially exposed soldiers and DOD 
civilians. CHPPM's description of these results is confusing 
and lacks sufficient detail. CHPPM suggests that the chromium 
and the red blood cells of the vast majority of the individuals 
in their study are within normal ranges. However, CHPPM notes 
in italicized print that there are some other literature 
references that have lower limits.
    Unfortunately, CHPPM does not specify the literature 
sources, nor do they indicate how low these lower limits are. 
Where did CHPPM get their reference values and how good are 
they? Although CHPPM reports that nearly all of the test 
results were below the limit of detection, CHPPM also reports 
that 98 percent of the samples showed chromium levels within 
the range of four to five micrograms per liter. How is it 
possible that 98 percent of the samples could be within the 
range of four to five micrograms per liter when they report 
that nearly all of the results were below the limit of 
detection?
    In 1987, an article cited by the National Institute for 
Occupational Safety and Health, Dr. Angerer and others found 
that exposures 10 times the current OSHA limit will result in a 
concentration of chromium in red blood cells of .6 micrograms 
per liter. Assuming Angerer and his coauthors are correct, and 
accounting for at least the 40-day delay in CHPPM's collection 
of blood samples, the air concentration which the Qarmat Ali 
soldiers were exposed could be estimated to be approximately 80 
to 200 times the current OSHA limit.
    Why did CHPPM fail to explore inconsistencies in its data 
with that of other literature? These limitations call for 
greater scrutiny of the CHPPM results. The samples drawn from 
some of the soldiers and workers at Qarmat Ali were reported by 
CHPPM to have been taken approximately a month after 
remediation measures were taken to limit the exposure.
    At the Democratic Policy Committee meeting on August 3, 
there were four soldiers attending. Only one of them had had 
their blood drawn and I asked when it was drawn and he said it 
was 60 days after exposures ended. In its draft, Toxicological 
Profile on Chromium, the Agency for Toxic Substances and 
Disease Registry reports that the half life of chromium in red 
blood cells is 30 days. In other words, 30 days after the 
exposure has ended, we expect to see only 50 percent of the 
chromium in the volume of red blood cells that would have been 
there initially.
    The measurements of chromium in red blood cells is an 
insensitive method of detecting hexavalent chromium exposure. 
The measurement of chromium in the red blood cell only captures 
the hexavalent chromium that makes its way into the cell. It 
does not measure how much hexavalent chromium may have been 
inhaled and remains in the nose or lung or was reduced in the 
body to trivalent chromium, which is not getting to the red 
blood cell; nor does it measure the chromium that was 
eliminated from the body.
    It should be noted that NIOSH in its draft update on 
hexavalent chromium states the biomarkers, which would include 
blood tests, are of uncertain value as early indicators of 
potential hexavalent chromium-related health effects. ATSDR 
reports that 90 percent of absorbed chromium is eliminated 
within 24 hours. Nevertheless, CHPPM still put a great deal of 
emphasis on the red blood cell analyses from samples taken at 
least 4 weeks and maybe 2 months after possible exposure to 
hexavalent chromium.
    An analogy would be like giving a breathalyzer to a person 
3 days after they were pulled over for erratic driving. The 
toxin would have been eliminated from the body in the 
intervening period. Given the limited usefulness of these red 
blood cell tests, they should not be used as a bottom-line 
indicator of the hexavalent chromium exposure that the soldiers 
and workers experienced and they certainly should not be 
extrapolated to other individuals who were exposed at Qarmat 
Ali.
    Nasal perforations, bloody noses and skin irritation would 
be far more telling about the soldiers and workers' exposures 
that measures the chromium and red blood cells taken 1 month or 
maybe 2 months after remediation has taken place.
    In summary, the symptoms that have been reported by the 
soldiers and civilian workers are consistent with what has been 
experienced by other workers exposed to hexavalent chromium. 
Judgment on whether these soldiers and civilian employees were 
exposed should not be based on measurements of red blood cells 
taken 1-2 months after remediation measures were taken, nor 
should such results be extrapolated to other individuals who 
were present at the facility.
    Again, I thank you, Mr. Chairman, for the opportunity to 
testify today.
    [The prepared statement of Mr. Gibb follows:]

            Prepared Statement of Herman Gibb, Ph.D., M.P.H.

    Good afternoon. I am Dr. Herman Gibb. Thank you for the opportunity 
to testify before you today. I am testifying in my personal capacity 
and do not in any way represent the interests, beliefs or opinions of 
my employer. I presented similar testimony to the Senate Democratic 
Policy Committee hearing on August 3, 2009. The subject of that hearing 
was ``The Exposure at Qarmat Ali: Did the Army Fail to Protect U.S. 
Soldiers Serving in Iraq?''
    I have a Ph.D. in Epidemiology from the Johns Hopkins University 
and an M.P.H. in Environmental Health from the University of 
Pittsburgh. I spent 29 years at the U.S. Environmental Protection 
Agency (EPA). Most of my time at the EPA was spent at the National 
Center for Environmental Assessment where I served in the capacities of 
Assistant Center Director and Associate Director for Health. Based on 
my experience working at the EPA on risk assessments of hexavalent 
chromium and my study of chromate production workers, the symptoms 
reported by some of the soldiers who served at Qarmat Ali are 
consistent with significant exposure to sodium dichromate.
    EPA maintains an online database of risk assessments on over 500 
substances, including an evaluation of the potential of these 
substances to cause cancer in humans. Hexavalent chromium is classified 
as a human carcinogen. Among those substances that the EPA has 
classified as carcinogenic to humans and has estimated a cancer 
inhalation unit risk, the highest risk is that for hexavalent chromium. 
In 2000, while at the EPA, I was the senior author of two publications 
on the health risks experienced by chromate production workers at a 
facility in Baltimore, MD. The first publication reported the results 
of a mortality study, the second examined the risk of clinical 
irritation experienced by the workers. The hexavalent chromium exposure 
at the facility was primarily from sodium dichromate. For my work on 
these studies, the EPA awarded me the Agency's Scientific and 
Technological Achievement Award.
    I became interested in studying the group of workers in Baltimore 
because of the considerable amount of exposure data available for the 
facility. The group was relatively large--2,357 males; there were 122 
deaths from lung cancer. Hexavalent chromium was found to be 
significantly associated with an increased risk of lung cancer, even 
after controlling for smoking. Half of those who developed lung cancer 
had worked at the facility for less than ten months.
    In 2006, based in large measure on our study, the Occupational 
Safety and Health Administration (OSHA) set a Permissible Exposure 
Limit (PEL) for hexavalent chromium of 5 micrograms per cubic meter 
(mg/m3) as an 8-hour time-weighted average based on the carcinogenic 
dose response. The new OSHA PEL reduced the previous PEL by over 10-
fold.
    Clinically diagnosed symptoms of irritation were found to occur in 
our study within a relatively short time period after beginning 
employment. The median time to develop an irritated nasal septum was 
only 20 days, an ulcerated nasal septum 22 days, a bleeding nasal 
septum 92 days, a perforated nasal septum 182 days. We recorded 10 
different types of clinically diagnosed irritation. What was also 
remarkable was the high percentage of the group that was diagnosed with 
signs of irritation. For example, sixty-eight percent of the group was 
diagnosed at one time or another with nasal irritation.
    The signs of irritation which the soldiers and workers experienced 
at Qarmat Ali are consistent with what we reported in our study. The 
testimony by Russell Powell in the hearing today, by the soldiers in 
the hearing held by the Democratic Policy Committee on August 3, and by 
the civilian workers in the previous hearing held on this subject 
suggest that they are experiencing signs of hexavalent chromium 
exposure.
    A report from the Army's Center for Health Promotion and Preventive 
Medicine (CHPPM) indicated that blood samples were collected from 137 
potentially exposed soldiers and DOD civilians. CHPPM's description of 
these results is confusing and lacks sufficient detail.

    <bullet> CHPPM suggests that the chromium in the red blood cells of 
the vast majority of the individuals in their study are within normal 
ranges. However, CHPPM notes, in italicized print, that ``there are 
some other literature references that use lower limits.'' 
Unfortunately, CHPPM does not specify the literature sources nor do 
they indicate how low these ``lower limits'' are. Where did CHPPM get 
their reference values and how good are they?
    <bullet> Although CHPPM reports that nearly all of the test results 
were below the limit of detection, CHPPM also reports that ninety-eight 
percent of the samples showed chromium levels within the range of 4 to 
5 micrograms per liter (mg/L). How is it possible that ninety-eight 
percent of the samples could be within the range of 4 to 5 micrograms 
per liter when they report that nearly all the results were below the 
limit of detection?
    <bullet> In a 1987 article cited by the National Institute for 
Occupational Safety and Health (NIOSH), Dr. Angerer and others found 
that exposures 10X the current OSHA limit will result in a 
concentration of chromium in red blood cells of 0.6 micrograms per 
liter (mg/L). Assuming Angerer and his co-authors are correct and 
accounting for at least a 40-day delay in CHHPM's collection of blood 
samples, the air concentration to which the Qarmat Ali soldiers were 
exposed could be estimated to be approximately 80-200 times the current 
OSHA limit. Why did CHPPM fail to explore inconsistencies in its data 
with that of other literature?

    These limitations call for greater scrutiny of the CHPPM results. 
The samples drawn from some of the soldiers and workers at Qarmat Ali 
were taken a month after remediation measures were taken to limit the 
exposure. In its draft Toxicological Profile on Chromium, the Agency 
for Toxic Substances and Disease Registry (ATSDR) reports that the 
half-life of chromium in red blood cells is 30 days. In other words, 30 
days after the exposure has ended, we would expect to see only 50 
percent of the chromium in the volume of red blood cells that would 
have been there initially.
    Furthermore, the measurement of chromium in red blood cells is an 
insensitive method of detecting hexavalent chromium exposure. The 
measurement of chromium in the red blood cell only captures the 
hexavalent chromium that makes its way into the cell. It does not 
measure how much hexavalent chromium may have been inhaled and remained 
in the nose or lung or was reduced in the body to trivalent chromium 
which does not get into the red blood cell.
    It should be noted that NIOSH, in its draft update on hexavalent 
chromium states that biomarkers, which would include blood tests, are 
of uncertain value as early indicators of potential hexavalent 
chromium-related health effects. Nevertheless, CHPPM still put a great 
deal of emphasis on the red blood cell analyses from samples taken at 
least four weeks after possible exposure to hexavalent chromium. An 
analogy would be like giving a breathalyzer to a person three days 
after they were pulled over for erratic driving. The toxin would have 
been eliminated from the body in the intervening period.
    Given the limited usefulness of these red blood cell tests, they 
should not be used as a bottom line indicator of the hexavalent 
chromium exposure that the soldiers and workers experienced. And they 
certainly should not be extrapolated to other individuals who were 
exposed at Qarmat Ali. Nasal perforations, bloody noses, and skin 
irritation would be far more telling about the soldiers' and workers' 
exposure than measures of chromium in red blood cells taken a month 
after remediation has taken place.
    In summary, the symptoms that have been reported by the soldiers 
and civilian workers are consistent with what has been experienced by 
other workers exposed to hexavalent chromium. Judgment on whether these 
soldiers and civilian employees were exposed should not be based on 
measurements of chromium in red blood cells taken 30 days after 
remediation measures were taken, nor should such results be 
extrapolated to other individuals who were present at the facility.
                                 ______
                                 
      Post-hearing Questions Submitted by Hon. Daniel K. Akaka to 
                        Herman Gibb, Ph.D., MPH

    Question 1. In the Baltimore study, workers exhibited symptoms 
between 20 and 182 days. One-fourth of the workers who had cancer had 
worked at the facility for less than two months. The Army has stated 
that even soldiers, such as Russell Powell, who were at Qarmat Ali for 
extended periods of time, were not exposed for a long enough amount to 
produce any adverse or long term health effects. Given the exposure 
period of those in the Baltimore study and the symptoms and conditions 
those individuals exhibited in that amount of time, do you agree with 
the Army's assertion?

    Question 2. Do you believe, given Russell Powell's length of time 
at Qarmat Ali, that his symptoms can be attributed to his exposure?

    Question 3. Given the similarities between the illnesses and the 
symptoms exhibited by both the Baltimore workers and the Qarmat Ali 
soldiers, and considering that both groups had a similar period of 
exposure, is it reasonable that the same unique symptoms experienced by 
so many Qarmat Ali soldiers could be attributed to other factors? What, 
if any, environmental or otherwise, factors could be responsible for 
such conditions, experienced by a number of servicemembers within the 
same vicinity?

    Question 4. In Mr. Resta's testimony, he stated that blood tests 
alone were not the predominant indicators for exposure. Mr. Resta 
stated that the Army primarily relied on physical exams when making the 
final determination on exposure. Do you believe that a physical exam 
would provide a more accurate indication if an individual was exposed 
to sodium dichromate? What method of detection do you believe to be the 
most accurate?

    Question 5. In your research on sodium dichromate, have you ever 
observed a latency period between the time an individual was exposed to 
the chemical and the time it took symptoms or conditions to manifest 
themselves?

    [The Committee had not received the requested information 
by press time.]

    Chairman Akaka. Thank you very much, Dr. Gibb. Now we will 
receive the testimony of Mr. Powell.

         STATEMENT OF RUSSELL POWELL, FORMER U.S. ARMY 
                         STAFF SERGEANT

    Mr. Powell. Thank you, Mr. Chairman. I thank the Committee 
Members for having me testify here today and also a special 
thanks to the Veterans of Foreign Wars.
    My name is Russell Powell. I live in Moundsville, West 
Virginia. I started my military career in 1994, in the 1-505 
Parachute Infantry Regiment as a medic. Later through my 
military career, I became a flight medic in Panama and Fort 
Bragg.
    In 2001, I joined the West Virginia Army National Guard as 
a medic. In April 2003--or excuse me--March 2003, the 1092nd 
Engineer Battalion was deployed to Iraq. From April 2003 to 
June 2004, the 1092nd was assigned as security for KBR workers. 
When Charlie Company arrived at the plant, which was the Qarmat 
Ali Water Treatment Plant, it had been seriously pillaged and 
destroyed.
    There was a coating of orange-colored dust throughout the 
facility and at the time, no one knew or made any concerns of 
what the powder was. The orange dust was located in large bags 
that were ripped open throughout the facility. During my stay 
at Qarmat Ali, there were at least 10 dust storms. They would 
blow through the facility picking up dust and debris.
    At no time were myself or other soldiers or KBR workers 
offered any protective clothing, masks or respirators to keep 
us from the elements. During these storms or shortly after 
about 90 percent of the KBR workers and the soldiers would have 
severe nose bleeds, cough up blood, have a hard time breathing 
and experience nausea and burning sensations to their lungs and 
throat.
    After a week of being at the facility, several personnel 
began getting skin lesions on their hands, arms, faces and 
nostrils. Of course, we also had soldiers that developed 
deviated--or excuse me--perforated septums, which cause holes 
through their nose from one end of their nose to the other.
    As a medic, I felt pretty concerned for the safety and 
health of all the persons that were sitting at the Qarmat Ali 
Treatment Plant. I talked to one of the KBR workers and I asked 
him what is going on about everybody getting real sick, getting 
bloody noses. And one of the KBR workers said their supervisor 
said we are all allergic to the dust and sand.
    Later on, there was another dust storm and I was eating an 
MRE. The storm hit me when I started eating. My lungs started 
burning. My throat started burning and I started being real 
nauseated and sick. The same day they said Doc, you are not 
going out to the water treatment plant tomorrow; you just stay 
in and go to the infirmary and see one of the Navy doctors.
    Well I went to one of the Navy doctors at Camp Commando in 
Kuwait and he pretty much said oh, you are sick. You just got a 
viral infection. But I went to a bomb shell bunker and tried to 
give myself an I.V. because I knew I was--there was something 
really wrong. After I went to that bomb shell shelter and tried 
to administer an I.V., I do not really remember anything.
    I woke up in the hospital, The Kuwaiti Soldiers Hospital. 
There was a couple of Navy soldiers that found me and they 
said, I was just coughing up blood and delirious. Well, I spent 
a week at the Soldiers Hospital. My face and lips were burnt, 
yet I was not out--exposed to any sun. It was pretty much from 
the dust.
    I got out of the hospital, but--excuse me--at the hospital, 
the doctor said that they did not really know what caused my 
face and lips to be burnt as bad as they were. They went ahead 
and just gave me a bunch of antibiotics, sent me back to Qarmat 
Ali.
    When I got back to Qarmat Ali, there were a bunch of 
soldiers, a bunch of my soldiers complaining of the same 
symptoms that I had when I went to the Kuwaiti hospital. Of 
course, I gave them antibiotics because we did not have 
physician. We did not have a physician assistant, so I pretty 
much became the doctor for the battalion.
    In June 2003, Indiana National Guard soldiers relieved us 
from our duties from Qarmat Ali. At no time did any of the 
1092nd from the West Virginia National Guard get tested for any 
exposure to chemicals, blood drawn or anything; or even told 
about it. When I left Iraq in April 2004, I went to the VA 
Clinic in Clarksburg, West Virginia, and talked to them about 
my skin rashes, stomach problems, and nose bleeds. The doctors 
were unable to determine what was the cause of these problems.
    In 2009, I received a letter from the West Virginia 
National Guard stating that we were possibly exposed to sodium 
dichromate while serving at Qarmat Ali. The VA doctors believed 
this could be the cause of our health issues, but because they 
know little about sodium dichromate, they are still 
researching, trying to figure out the effects of it on the 
human body.
    I would like to thank Senator Rockefeller and his staff, 
and especially the VFW, for giving soldiers and veterans much 
needed support through the VA system in West Virginia. Once 
again, I thank all of you for having me here today.
    [The prepared statement of Mr. Powell follows:]

 Prepared Statement of Russell Powell, Former U.S. Army Staff Sergeant

    I'd like to thank you for having me here at this Senate hearing. My 
name is Russell Powell, I reside in Moundsville, West Virginia. I 
started my military career in January 1994; I was assigned to the 82nd 
Airborne Division as a paratrooper infantry medic. In 1997 I was 
reassigned as a flight medic at Howard Air Force Base Panama City, 
Panama. In 1999 I was again reassigned to 57th Dust off at Fort Bragg, 
North Carolina. August 2000, I was discharged from the army and in 
April 2001 I joined with 1092nd West Virginia Army National Guard as a 
medic. The 1092nd was deployed to Iraq in March 2003. In April 2003 to 
June 2004 1092nd Charlie Company was assigned as security for the KBR 
Contractors, my duties consisted of battalion medic and supplied 
defensive positions and cover fire if needed to protect KBR contractors 
at Qarmat Ali Water treatment plant in Basra, Iraq.
    When Charlie Company 2nd platoon arrived at the plant it was in 
total disarray and had been severely pillaged and destroyed. There was 
a coating of orange colored dust throughout the facility. At that time 
no one knew or made any concerns of what the powder was. The orange 
dust was located in large bags that were ripped open, causing the dust 
to be spread all over the facility. At times the orange dust was so 
thick there were at least two inches of dust on my boots. During my 
stay at the QA there were at least ten dust storms, they were like 
tornadoes blowing through the facility picking up the dust and other 
debris. At no time were we offered any kind of protective clothing, 
masks, or respirators to protect us from the elements. During these 
storms or shortly there after soldiers in the company, KBR workers and 
myself would have severe nose bleeds, coughing up blood, a hard time 
breathing, nausea, and/ or a burning sensation the lungs and throat. 
After a few weeks of being at the facility several personnel began 
getting lesions on their hands, arms, faces and nostril area. As a 
medic I felt very concerned for the safety and health of persons 
exposed. I questioned one of the KBR workers (I have forgotten his 
name), and he told me that his supervisors told him not to worry about 
it, that we were allergic to sand and dust. Shortly there after, there 
was another severe dust storm I ate an MRE (meals ready to eat) and my 
throat and stomach began to burn like nothing I have felt before, my 
nose began to bleed, and was nauseated. After this particular storm I 
was severely sick to the point that when we returned to Kuwait City, 
Kuwait (Camp Commando) I was told that I was not going out on the 
mission the following day.
    The following day I went to the Infirmary at Camp Commando, and was 
seen by a Naval Doctor. After a brief examination he dismissed me as 
being sick and prescribed me Motrin and Tylenol. Approximately thirty 
minutes later I went to a bombshell bunker to give myself an IV, a 
couple soldiers found me I was delirious and coughing up blood. I do 
not remember anything until waking up the following day in the Kuwait 
Soldiers Hospital. My face and lips were burnt and my throat was sore 
to the point I couldn't swallow anything. I was there for almost a week 
getting antibiotics intravenously. The doctors had no explanation why I 
was sick or why my face and lips were burnt so badly. The day I was 
released from the Hospital I returned to Qarmat Ali with Charlie 
Company 2nd platoon. Upon my return to QA numerous soldiers were 
complaining of the same symptoms I was experiencing. I prescribed those 
soldiers antibiotics, however the symptoms persisted. At the end of 
June 2003 the Indiana National Guard relieved us of our duties. Our 
unit moved into northern Iraq. The nose bleeds subsided a little, but 
the nausea was still present daily.
    After leaving Iraq in April 2004 I went to the VA Clinic in 
Clarksburg, WV to talk to the doctors about my skin rashes and lesions, 
stomach problems, and nose bleeds. The doctors were unable to determine 
what the cause is of these problems were. In 2009 I received a letter 
from the WV national Guard stating we were possible exposed to Sodium 
Dichromate while serving at QA, and the VA doctors believe that this 
could be what's causing my health issues, but because they know little 
about Sodium Dichromate they are researching and trying to figure out 
the affects of it on the human body. I know for a fact that Sen. 
Rockefeller is giving veterans and soldiers alike, much needed support 
through the VA system in WV.

    Once again I would like to thank you all of you for hearing my 
testimony.

    Chairman Akaka. Thank you very much, Mr. Powell, for your 
testimony. I would like to say thank you again to our first 
panel. Many of you have given heartfelt testimony regarding 
some very, very personal issues that have affected your lives.
    I know I speak for the entire Committee when I say that we 
appreciate your presence here today. I would like to ask my 
question to four of our witnesses, Mr. Partain, Mrs. 
Pennington, Ms. Paganelli and Mr. Powell.
    Are you satisfied with the military's response to each of 
the exposures you or your family member was affected by, 
including high-risk lists or high-risk health problems? Mr. 
Partain?
    Mr. Partain. As far as the military's response to my 
exposures at Camp Lejeune, I would say no. I was diagnosed with 
male breast cancer in April 2007. My wife found the disease 
when she gave me a hug before bed one night. Two months later, 
I discovered that I had been exposed in the womb while at Camp 
Lejeune. I had no knowledge of my exposures until then. It just 
happened that my father was watching a newscast and saw a 
hearing about Camp Lejeune and that is how I became aware of 
this.
    Chairman Akaka. Ms. Pennington?
    Ms. Pennington. Actually, we were disappointed with the 
doctors at Duke University for orally citing the reasons for my 
brother's aggressive AML. When pushed, again, they admitted it 
was definitely due to chemical exposure, but they could not 
prove it and there was some pushback that they received from 
the military there at Fort Bragg. I do not know the details to 
that. They would not elicit any further.
    I can tell you the Bumpus family, no, has not received any 
assistance from the VA or military because Matt ended his 
service 1 year after--or the disease came to light--1 year 
after his service. So, the VA has harshly denied the connection 
between the AML, his service in Iraq, and where he was 
stationed in Balad.
    So no, they are not receiving any benefits from the VA or 
military and are completely dissatisfied.
    Chairman Akaka. Thank you. Mrs. Paganelli?
    Mrs. Paganelli. Thank you. I would say on behalf of Atsugi 
residents, or past Atsugi residents, no, because I really 
strongly believe there needs to be an accurate registry and so 
many families are not informed. I just really would like there 
to be a registry for these families and benefits for those who, 
further down the line, need them; some acknowledgement for 
that. Thank you.
    Chairman Akaka. Thank you. Mr. Powell?
    Mr. Powell. I think the Army did, or the Department of 
Defense did kind of lack an acknowledgement that we were even 
exposed later--about 5 years later--after we returned home. It 
was kind of an eye opener I will tell you. I guess we go to the 
VA and the VA has no idea what is going on with us, and they 
still are kind of timid on what to say, whether it was exposure 
or anything like that. They just are just trying to back away 
from it.
    So, we are all pretty disappointed. We are on a registry, 
but the registry to us still does not say that you guys were 
exposed; and a lot of the soldiers who tried to put in claims 
for the chemical exposure got denied.
    Chairman Akaka. Dr. Gibb, how well do you think the Army 
understood the scientific literature associated with the 
exposure at Qarmat Ali?
    Mr. Gibb. I do not think they understood it very well at 
all. Their statements by CHPPM that--well, they put a great 
deal of emphasis on the blood tests and the blood tests at that 
period of time were essentially worthless.
    As to how much exposure they could have had, they could 
have had fairly high exposure that might not have even have 
shown up in the blood test. They made a statement in their 
report that some people exposed to very high exposures for more 
than 2 years had developed lung cancer, but that is not--I 
think at the time in 2003, the leading study, and I hope to say 
this with modesty, was my study on chromium--sodium dichromate 
exposure. That would have told them that we had people exposed 
for less than 2 years that developed lung cancer.
    And also the statement about that most of the--98 percent 
of the samples were within or below the limit of detection, yet 
they could tell you that the exposure was between 5 and 8 
micrograms per liter. I do not know how they could say that. I 
mean, I do not know what that means.
    I have shown that to other Ph.Ds and M.D.s; they cannot 
understand it. I mean, if M.D.s and Ph.Ds cannot understand 
what they are telling you in their fact sheet, how is the 
soldier who is not trained to understand these supposed to 
understand it?
    So, I think that the information--I mean, I have put 
together these kinds of fact sheets at the Environmental 
Protection Agency and press releases and it is important not to 
scare people unduly. But, it is also important to put the 
correct information out there and I do not think they did that.
    Chairman Akaka. Thank you, Dr. Gibb. I now turn to Senator 
Burr, for his questions and we will follow that with Senator 
Rockefeller.
    Senator Burr. Thank you, Mr. Chairman. Dr. Feigley, your 
subcommittee was asked, number 1, to review the adequacy of the 
methods used to assess risk, the uncertainties identified, the 
risks to susceptible subpopulations such as pregnant women, 
young children, the scientific validity of the conclusions 
drawn. Number 2, recommend, depending on the evaluation, 
research to fill data gaps and options for mitigating the risk 
associated with exposure to incinerator emissions.
    Was the NRC subcommittee asked to review the final NEHC 
report?
    Mr. Feigley. No, not to my knowledge. I will have to pass 
that off to some other folks back here from the NRC, but our 
committee was not asked, let me put it that way.
    Senator Burr. So, the subcommittee's recommendations--you 
do not know whether any or all of the recommendations were 
taken into account from the draft report to the final report?
    Mr. Feigley. I do not.
    Senator Burr. OK. Let me ask you, if you contracted with 
the NRC--if you were not on the subcommittee and you were going 
to contract with the NRC for that particular site, would you 
have limited the NRC review to the scope that the subcommittee 
was limited to?
    Mr. Feigley. No, and in fact, I think we say in the report 
that we thought that the Navy should have used the NRC to 
review their plans for doing their sampling. We recommended 
they do a comprehensive sampling at the base, a comprehensive 
risk assessment. However, I think they should have asked us 
to--us being NRC, not--I am not part of NRC, but I am just a 
volunteer. But I think they should have asked NRC to actually 
review their plans for doing the sampling because then I think 
a lot of things that we had--the negative things that we said 
about their report would have been said before they did the 
study and they could have corrected them.
    Senator Burr. Therefore, it is pretty difficult to believe 
that you could go back and reconstruct without reviewing in 
total the risks?
    Mr. Feigley. There are some bright spots in what we saw 
that we thought perhaps further analysis might have revealed, 
especially some of the air quality modeling and the correlation 
between air quality modeling and the measurements that they did 
on the facility that could have revealed some things.
    Senator Burr. Let me get into thresholds and then Dr. Gibb, 
I am going to turn to you for your prior work--the 26 years at 
EPA.
    Mr. Gibb. Twenty-nine.
    Senator Burr. Twenty-nine, excuse me. Thank you for that 
service. An observation question. Is the threshold for risk at 
EPA different than the threshold for risk at the NRC?
    Mr. Gibb. I do not have an answer to that question. I mean, 
there is----
    Senator Burr. Let me ask it in a different fashion. If it 
were different, would you find that to be a flaw? Shouldn't the 
threshold for risk at both--which both assess the risk on a 
human population and U.S. population--shouldn't that be the 
same?
    Mr. Gibb. That is a rather tricky question.
    Senator Burr. Well let me ask it in a more specific way. 
Should the NRC look at benzene differently than the EPA does?
    Mr. Gibb. I think the answer to that is no; I do not think 
they should look at it differently.
    Senator Burr. OK, I just wanted to clarify that. Now, Dr. 
Nuckols, before I ask you a question, I would like to ask the 
Chairman, after the NRC issued its report on Camp Lejeune 
earlier this year, other experts--including Camp Lejeune 
Community Assistance Panel, a group of five scientists, and the 
National Resource Defense Council--released documents 
criticizing the report. I would ask unanimous consent to 
include copies of those documents in the hearing record.
    Chairman Akaka. The documents will be included.
    [The information referred to can be found in the Appendix.]
    Senator Burr. In one of those documents I just mentioned, 
Dr. Nuckols, it was noted that the National Research Council's 
Hazard Evaluation in the Camp Lejeune report, and I quote, 
``did not take into account that benzene and vinyl chloride 
were contaminants in drinking water at Hadnot Point or Tarawa 
Terrace.''
    I guess I would ask you, is that accurate and can you 
explain benzene and vinyl chloride; what they are and what NRC 
sees as their hazard?
    Mr. Nuckols. First of all, hazard evaluation, in my mind, 
has a very specific definition and there is a portion of the 
report in which a hazard evaluation was conducted. Is that--I 
just want to make sure that is what you are referring to?
    Senator Burr. Eventually where I am going to get to is that 
the basis of what the NRC subcommittee found, and I am reading 
out of your testimony, it says, ``to evaluate the potential 
health effects to exposed residents, the committee undertook 
four kinds of reviews to determine what kinds of disease and 
disorders have been found to result from exposure to TCE and 
PCE, not to benzene or vinyl chloride.''
    So, the obvious thing is, did you take into account when 
you were assessing the risk to individuals exposed on the base 
to the groundwater contamination to the two chemicals of 
benzene and vinyl chloride?
    Mr. Nuckols. In the hazard evaluation that was conducted by 
a subset of the committee, which I think was in the toxicology 
subgroup that I mentioned, I do not think that benzene or vinyl 
chloride were considered.
    In the overall report, the charge, in my understanding and 
I think the majority of the committee, was the underlying words 
``a causative relationship.'' The process that we took toward 
that was--in my group, which is in my summary, I pointed out--
was to try to make a determination of the extent of chemical 
contamination, where it was, what chemicals, and so forth.
    In the initial work of the committee, a lot of focus was 
made on PCE and TCE because they had been the principal 
contaminants, the primary contaminants that were the focus of 
the ATSDR study and their risk assessment.
    Senator Burr. So, can I conclude from what you are saying 
that you did not assess in the same manner benzene and vinyl 
chloride as you did TCE and PCE?
    Mr. Nuckols. It was not included in the hazard evaluation. 
I am fairly certain of that. Where I was going with my response 
was that in the exposure assessment group we came across more 
information about benzene being--occurring--in the aquifer; 
that there were samples there that would lead us to believe 
that there was exposure.
    Our job, if you want to think of that group, that subgroup, 
was to provide chemicals to the toxicologists and the 
epidemiologists for their evaluation and we did, I think, 
include those, although they were not as rigorously examined as 
PCE and TCE.
    Senator Burr. Listen, I am in full agreement with you. The 
limitations that were on the NRC are prescribed in what you 
have been asked to look at and I think Dr. Feigley just 
confirmed that in another study. So, can I conclude that review 
of toxicology studies, epidemiological studies, and conduct of 
a hazard evaluation did not take place for benzene and vinyl 
chloride in the same fashion, if at all, as TCE and PCE?
    Mr. Nuckols. The procedure that was used by the 
epidemiologists and the toxicologists was to review published 
studies of whether there was causation between these chemicals 
and disease. They left it open pretty much to what was out 
there in terms of what we knew about the relationship.
    To my knowledge, both benzene and vinyl chloride were 
considered in that way. They were not considered in the hazard 
evaluation that is published in the report.
    Senator Burr. I would only point this out that--I think 
this is at the root of part of the misunderstanding, was it or 
wasn't it? I would even think that if it was, it would be in 
your testimony. It would be stated clearly in the report. But 
you only referenced TCE an PCE and there are these two other 
chemicals that I think Dr. Gibb would agree, are known 
carcinogens that under any study of the adverse health effects 
of contamination you could not exclude. And if you came to a 
conclusion that they play no part, it would be a need of the 
report to explain why because the EPA's own scientific 
information says that there is a direct cause to benzene and 
vinyl chloride contamination.
    Mr. Nuckols. Can I respond to that, sir? First of all, I 
think that if you end the report, we do specifically list 
benzene and vinyl chloride as being----
    Senator Burr. Present.
    Mr. Nuckols [continued]. Contaminant--well not just 
present, but contaminants of concern, chapter two. Read the 
conclusions of chapter two, Contaminants of Concern, and there 
is, in my mind, no place in the report that says these should 
not be studied; that they are not an issue. It is not there.
    There is, in fact, information about what studies are out 
there on benzene and vinyl chloride in--I think it is in the 
appendix to the study and that was because--and I agree, it was 
late coming on board in the time period that we were working on 
the report as to whether or not it was an issue of concern. 
ATSDR in their first risk analysis said that benzene was not of 
concern.
    But I think one of the important things that is overlooked 
in this report is that we have identified contamination and 
chemicals that were previously maybe not looked upon as being 
primary contaminants of concern at Camp Lejeune.
    Senator Burr. The Chairman has shown me great latitude and 
if the Chairman would allow me to ask one more question, I will 
not have to go to a second round. Unless the Chairman intends 
to go to a second round, I will wait.
    Chairman Akaka. I Intend to do a second round.
    Senator Burr. You--no, go ahead, Jay.
    Chairman Akaka. Go ahead. Continue with your question, 
Senator Burr.
    Senator Burr. I did not want to neglect Mike, since he is 
directly affected by Camp Lejeune. Mike, let me just ask you, 
what actions would you like to see Congress, the Department of 
Defense, and/or Veterans Affairs do with regard to the 
exposures you are faced with and others have been faced with at 
Camp Lejeune?
    Mr. Partain. Before I answer that, may I interject 
something on the previous conversation you were having with Dr. 
Nuckols?
    Senator Burr. Yes, sir.
    Mr. Partain. Dr. Nuckols was referring to ATSDR's work--
that they had relied on ATSDR, he started to say, I believe, 
regarding the public health assessment. One thing I would like 
to point out concerning both ATSDR's public health assessment 
and the work that the National Resource Council did with Camp 
Lejeune, was that they had incorrect data concerning the 
benzene and vinyl chloride.
    More importantly, ATSDR, in their public health assessment, 
did not address benzene and that was one of the reasons why 
that document was basically withdrawn from public view in April 
of this year. So, they did not evaluate benzene with the 
correct data and that data was not given to the NRC. They, even 
in their tables, have the incorrect levels for the--they omit 
the July 1984 readings.
    To answer your question, we would like to see a full 
disclosure of what transpired at the base relating to the 
drinking water contamination. To accomplish that would mean the 
full cooperation of the Department of the Navy and the U.S. 
Marine Corps by disclosing all documents, plus full funding of 
all ATSDR's initiatives concerning the Camp Lejeune studies.
    With the existence of documented exposure levels, any 
person who is now or was suffering from the effects of their 
exposures at Camp Lejeune, they should be giving medical care 
or compensation for their past suffering and disabilities. And 
for those who have lost loved ones, they should be afforded 
restitution.
    Senator Burr. Mr. Chairman, I want to again thank you for 
what I think has been a very insightful panel. I want to thank 
the witnesses for their very personal testimonies, the experts 
that we have, for their insight and knowledge, and the Chair 
for his indulgence. I apologize to Senator Rockefeller.
    Chairman Akaka. Thank you, Senator Burr, for your 
questions. Now let me call on Senator Rockefeller for his 
questions.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I will submit 
my statement for the record and go directly to questions.
    [The prepared statement of Senator Rockefeller follows:]

     Prepared Statement of Honorable John D. (Jay) Rockefeller IV, 
                    U.S. Senator from West Virginia

    I want to thank the Committee for convening this important hearing. 
We have a responsibility to make clear to the DOD just how important it 
is to prevent exposures when possible, and to work with the VA to 
immediately notify and provide care for our veterans if they have been 
exposed--as soon as possible, not years after the fact.
    I am very proud that a former Staff Sergeant and medic in the West 
Virginia Army National Guard, Russell Powell, is here today, willing to 
step up and talk about his personal experiences as hard as that may be. 
The fact that his West Virginia National Guard Unit was deployed to 
Basra to provide security for contractors at the Qarmat Ali water 
treatment plant is part of the tough job our troops face.
    The fact that they were not warned of or protected from exposure to 
Sodium Dichromate--a dangerous chemical--is an enormously serious 
problem.
    The exposure was not public in West Virginia until this year when I 
learned of the problem. I wrote both the Secretary of Defense and the 
Secretary of the Department of Veterans Affairs for information and a 
report on what was being done to help exposed veterans.
    We have been here before. In 1993, as Chairman of the Senate 
Committee on Veterans' Affairs, we investigated the possible causes of 
what was then referred to as ``Gulf War Syndrome.''
    I was deeply disturbed by senior Pentagon officials' dismissal of 
serious health concerns then, and I am enormously worried today, that 
we may continue to get that same approach from the Pentagon. Even after 
it evaluated the site at Qarmat Ali, the Department of Defense failed 
to notify exposed National Guard members on time.
    This much is clear: DOD and its contractors have failed to meet 
their responsibility to our men in uniform. They have failed to be 
honest and forthright about the risks. And they have failed to do 
everything within their ability to reach those exposed.
    Qarmat Ali took place in 2003: we still do not have all the answers 
and we still have not reached all of the guardsmen. Six years is simply 
unacceptable.
    While DOD couldn't find and notify many West Virginia guardsmen, my 
staff worked with a number of executive branch agencies in 
collaboration with Secretary Shinseki to try to forward critical 
information to exposed West Virginia Guard members they had on file.
    But it should not require a U.S. Senator and his dogged staff to 
get this information to the men and women who need it so urgently.
    However, VA testimony suggests that the Department is taking the 
Qarmat Ali exposure seriously and working to revise the testing in the 
VA registry and considering how it will handle claims for benefits and 
care. (See October 8, 2009, letter and Attachment from Secretary 
Shinseki that follows.) This is promising, and my staff and I will 
monitor each effort carefully to be sure the Russell Powells and their 
colleagues get the care and support suggested and earned.
    This has been a cornerstone of who I am as a person and as a 
legislator throughout my career and I will never stop the fight for our 
men and women who serve.

    With so much at stake, we must share the truth as soon as possible. 
Only then can we continue to track and learn about the illness to 
provide our veterans the care they have earned and deserve, the best 
care possible.
                                 ______
                                 
                              Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Rockefeller. I want to focus on you two, but I want 
to do it in a different fashion. Senator Burr's questions were 
so good because they were so specific--related to different 
toxins and the effect and what was included in this study and 
that study.
    What fascinates me but angers me so much is that as I 
said--and you will remember this, Russell, from our August 
hearing--is there is such a direct comparison between this and 
the Gulf War Syndrome: the denial on the part of the military, 
their refusal to not only respond to soldiers whose lives are 
being shredded, could not sleep, could not keep marriages, 
could not get jobs, could not read newspapers because they were 
being told to take a pill which had never been cleared by the 
FDA for animal use much less for human use to protect them from 
what they thought Saddam Hussein was going to do. And it turned 
out actually that it was the wrong pill anyway. It was for the 
chemical he did not have.
    But that is another matter. But the refusal--I want to get 
into the military culture. I know the military is in the next 
panel. I am not going to be here on the next panel. But you are 
a medic, Russell, and you are a good one. You have been through 
this, you come, you testify, and you tell us what you are going 
through; and you have seen the letter from Eric Shinseki that 
he sent this morning.
    Mr. Powell. Correct.
    Senator Rockefeller. Which has some promise to it. He says 
he is going to give full pulmonary tests, and in West Virginia 
we have discovered all of those people who were not on the 
registry or were not yet found. In Indiana, I am not sure they 
have. They have a lot more of them, but I am not sure they have 
discovered all of those.
    But when you got into that situation with the orange dust 
and being a medic with some stature, you went over to that 
place to lie down and try and give yourself an I.V. and all the 
rest of the story, it says something about a soldier's--well, 
first of all, it says something about the military's inability 
to deal with something that might either be embarrassing for 
them or for which they cannot explain, perhaps because they are 
busy fighting wars, which is a rather large task.
    On the other hand, there are people who are doctors and who 
have medical responsibilities in the military who are not 
fighting wars; they are taking care of soldiers. There is 
something which prevents--and I have heard this in other 
sessions about other types of problems--soldiers taking on the 
military even as they suffer.
    I want to talk about that for a moment. From your point of 
view--first of all, I understand the chain of command. I 
understand that from my point of view this is kind of 
redundant. You went through this in 2003?
    Mr. Powell. Correct.
    Senator Rockefeller. And nobody discovered what you had 
until 2009. What is the culture problem we are dealing with 
here?
    Mr. Powell. I do not think the Army knew fully--was fully 
aware of the chemicals being on the ground through KBR not 
actually providing them with that information. But the Army 
could have told us a little bit sooner whenever they did find 
out, in August 2003, but they did not. They did not tell any of 
the soldiers. There is a soldier that I talked to who is a 
government employee who just found out recently that he was one 
of the guys exposed to chemicals. He is a government employee 
and they were saying they could not find this gentleman. This 
is the Department of the Army saying they cannot find him.
    Well, one of the high-ranking officers from West Virginia 
was on an aircraft with him, this was a month or two ago, and 
still that individual--because I cannot really tell you what he 
does for the government, but he was talking to one of our 
generals. He told the general that he was in the 1092nd Charlie 
Company and the general did not say well maybe you might want 
to look at this or look at that. He was just dumbfounded until 
we linked up with that individual through e-mails while trying 
to find all of our soldiers.
    Because we are trying to do our best to find out where our 
people went and give them the heads up on their actual medical 
problems, assuming a lot of them are having medical problems 
and just didn't know why. When you go to the VA or anything 
like that, it is so horrible because you say you are a medic, a 
flight medic, they kind of look down on you in a sense because 
they say well, you already know everything Mr. Know-it-all. 
That is how most of the physicians act.
    We are not even trying to do that. We are saying hey, this 
is what is wrong with me. I am pretty sick. I am not faking the 
funk with you. I was doing medicine for a lot of years. I am 
not trying to get over on you.
    It is real frustrating because they are just kind of 
brushing us off.
    Now there are a few doctors that are really concerned and 
are actually trying to figure out the problems relating to 
those chemicals, but most of them at the VA just kind of brush 
me off. It is really a hard obstacle to get through.
    Senator Rockefeller. Dr. Gibb, do you have any thoughts 
about that? Why is it that people, strong men like Russell, 
cannot--they look down at a medic--some doctors are good, some 
doctors are bad or whatever?
    I mean, for heaven's sakes, they knew they were going to 
send you to this camp, to Qarmat Ali, and therefore, they had 
to have been there. Therefore, the fact of there being some 
orange dust must not have escaped them unless they were color 
blind. So, I do not understand that.
    There is a lack of thoroughness or a lack of concern, a 
lack of care. I mean, if you saw the orange dust, knowing what 
you now know and knowing what the world now knows 6 years 
later, it is not very complicated to me. They were entering 
into a risky environment and chose not to know about it, not to 
warn about it, not to take steps to clean it up or to do 
whatever.
    Now Dr. Gibb, do you have any thoughts on that?
    Mr. Gibb. I think they had a significant exposure there. I 
mean, some of the soldiers described it looking like orange 
powered donuts and it was all over the ground. Statements of 
the soldiers at the previous hearing indicated that it was 
everywhere.
    I think that--and the bags read sodium dichromate. It was 
not like guessing. So, they should have known and it should 
have been reported. Again, I do not think there was a good 
understanding of what sodium dichromate was or what its effects 
were. So, I think there was a significant exposure that should 
have been addressed immediately, as soon as they learned what 
it was.
    I think that there was just--I feel like it was dealt with 
irresponsibly. I cannot think of a better word.
    Senator Rockefeller. Let me be a little tougher about it 
then. Doesn't the military have a responsibility, particularly 
when you are not in a huge situation which varies a lot like 
the second world war or the first world war, you know, like 
those, instead you have a particular type of territory where 
there are certain factors which are common for all of that 
territory--Basra, I guess, was where you were--and then there 
is this orange dust. I do not understand that.
    I do not understand why, if there are doctors who are in 
charge of the health, are they not in the deployment decision 
process in any way? Are they left out until somebody does get 
sick? Is there anybody here who can answer that question?
    Mr. Gibb. Again, I think that the knowledge of industrial 
hygiene is critical. I mean, you could recommend pre-deployment 
physicals and post-deployment physicals and all those kinds of 
things, but if you do not understand what substances you are 
dealing with, those kinds of physicals are not going to get the 
kind of information that you need.
    So, I think this was a lack of understanding of the 
industrial hygiene, the environmental health, and then the 
follow-up to that was, it was just sort of like do not worry 
about it, it is OK. That, to me, is just--I do not want to say 
unconscionable, but I think it is--this is a very serious 
substance. This is a very potent carcinogen. This is a very 
irritating substance. You do not have to look very far to find 
information about the effects of sodium dichromate.
    It is not some arcane chemical that we do not know about. 
We have known about the carcinogenicity of sodium dichromate 
since the early 1950s when the Public Health Service did a 
study of all the chromium production plants in the United 
States and reported huge lung cancer risks from the substance 
and the irritation of it. So, it has been known for a long 
period of time.
    I think, first, not having the knowledge to say well, we 
have soldiers in the facility and they are using this 
particular chemical, it is called sodium dichromate. What is 
sodium dichromate? Then you have to take steps to address that. 
I mean, this particular situation with the thousands of bags 
was that of 100-pound bags broken out, open and the dust 
blowing all over the place and everybody reporting orange dust. 
That should have been cause to say, this is a serious 
situation; we need to do something right now.
    And then to follow up to say, well, sodium dichromate is 
not that bad. You have to be exposed for high concentrations 
for about 2 years to get lung cancer. Do not worry too much 
about it, the blood tests do not show anything. The blood tests 
essentially were worthless at that point.
    Blood tests might have even been worthless when they were 
being exposed because it takes a fair amount--it takes a large 
amount of hexavalent chromium to show concentrations in the 
blood. So, I think that the follow-up, the organization going 
into it, was inadequate. The follow-up was inappropriate. I 
mean, the soldiers deserve better than that.
    I think I would say what happened was a disservice to the 
soldiers. Disservice is putting it mildly. It was wrong.
    Senator Rockefeller. It is shocking. It is just shocking. I 
have said before, maybe the last time, the very first Veterans' 
Committee meeting I ever attended 25 years ago, there was a 
soldier who had been sent into that part of the Pacific where 
they were testing the atomic bomb. He described what it was to 
be dying having served your Nation, having followed orders way 
back then, when things were I guess a lot more primitive, but 
maybe not. He said it is just an amazing feeling to have your 
government say to you, well you cannot prove that your cancer 
was caused by your being in at that time, when we all know--and 
if you are a West Virginian like Russell Powell, you know if 
you have been in a coal mine for 10 years you have Black Lung; 
you just have it. You do not need proof of it, you have it. 
There is a presumption of it.
    But we make the soldier prove everything, and then along 
comes Agent Orange. I was at that hearing when Admiral 
Zumwalt--nobody was paying any attention to Agent Orange. 
People were dying all over the place of the same thing, cancer. 
But when Admiral Zumwalt came up there and testified and said 
that his son had died or was in the process of dying from 
cancer, oh, then everybody got really alert and we started 
making good, so to speak, on people who had Agent Orange 
exposure.
    That is the wrong way to do things. The military is meant 
to know that stuff. And then we had the Gulf War Syndrome, 
which the military took I think something like 17 years to 
admit that they were wrong. We did a lot of studies and a lot 
of investigation on that when I was sitting in Dan Akaka's 
seat. But they did not pay any attention.
    That same infuriating indifference to soldiers, meaning 
assuming that soldiers would be making excuses as opposed to 
soldiers having real medical problems that they had not taken 
the time to disclose because the order of battle may be 
presumed to be more important. But on the other hand, these are 
doctors and they are ignoring the symptoms. They are writing us 
letters saying, take an aspirin and go home, or you have a 
virus, go home, sleep, get some good sleep. It makes me mad.
    What scares me is that I do not know that the culture has 
changed. Now I get this letter from Shinseki, which you have 
seen, Mr. Powell, and I think you and I both think it is pretty 
good--that involved Guard members who have had an initial 
examination will be recalled and will have a complete exposure 
assessment as well as a more targeted physical examination and 
ancillary testing looking for indications of health outcomes 
that may be relevant to hexavalent chromium.
    Those who have yet to enroll in the Gulf War Registry--I 
like that part--will get this targeted examination, initially. 
They will also receive a chest radiograph and pulmonary 
function testing and that will be repeated every year and then 
every 5 years.
    So, I think the Veterans Administration--you know, I am a 
fan of Shinseki. I have no problems saying that. But he is on 
the receiving end of this. The doing in was with the military 
and I do not get why they do not learn. Maybe I am wrong, but 
until somebody shows me I am wrong, I am just mad.
    Please.
    Ms. Pennington. Senator Rockefeller, I would just like to 
add what I neglected to mention when Chairman Akaka asked me if 
we were satisfied with what the military and the VA did with 
Sergeant Bumpus and my brother, Staff Sergeant Ochs. I need to 
tell you that my brother, upon return from his third tour in 
Iraq in the end of April 2007, suffered from flu-like symptoms 
almost immediately.
    He went to Womack Hospital at Fort Bragg, NC, three times. 
The doctors did exactly what you just said. They said you have 
some type of virus. They sent him home with 800 milligrams 
Ibuprofen. So, it was not until September 2007 when he had to 
get special permission to be seen by a private hospital where 
the private hospital actually discovered that my brother had 
AML.
    I would also like to add that Sergeant Bumpus had a private 
doctor, Dr. Tim Grennan, do a chromosome analysis on the 
initial blood drawn before Matt underwent chemotherapy. He 
discovered chromosome mutations that would only happen if he 
was exposed to chemicals and this was something that you would 
see only after one receives chemotherapy.
    So, I just wanted to go on record and let you all know 
that. Thank you.
    Senator Rockefeller. Well, Mr. Chairman, I have over--well, 
the timer has just gone flat to 0.00, so I guess I am in real 
trouble. But those of us in Congress get military health care 
and we go down a few flights from here to get it. There are a 
lot of doctors and Bethesda Naval Hospital available to us for 
whatever.
    It would be sort of nice and sort of important if your 
family and friends seeing your situation all felt like you 
could get the same thing. I have no reason to think there is 
anything that we are doing here more important than what your 
loved ones were doing and what you were doing in terms of the 
welfare of the Nation. Dr. Miller, please.
    Dr. Miller. You know, I think when a soldier finds himself 
in a combat situation, there are a lot of unknowns and some 
things you cannot anticipate. But in the group that I have 
taken care of, there was a clear danger after it was identified 
and I thought that there was dissemination of inaccurate 
information to downplay what happened.
    For example, there was a memo sent out to the soldiers 
exposed in the 101st Airborne that said sulfur dioxide is not a 
problem. It has no known serious side effects and it is not a 
carcinogen. They had measurements that the levels were toxic, 
well above the military's baseline of 13 parts per million, and 
they found them as high as 120 parts per million.
    Then there was a second report out from the 62nd Medical 
Brigade Preventative Medical staff that said that you would 
only have problems if you were exposed to 400 to 500 parts per 
million, which would do us all in. I think that there are 
things that you cannot anticipate, but when you do identify 
them, you have to make sure that the disseminated information 
is accurate.
    Senator Rockefeller. OK, well I have gone way over my time, 
but I guess this letter, I do not know if it is available. I 
mean, it came in today. Ordinarily, I would be cynical and say 
well that is good timing, but I am not in this case because it 
is from General Shinseki and I think he is trying to do the 
right thing.
    There has always been a lack of coordination between the 
Department of Defense and the VA. One does everything on paper 
and the other does everything on IT medical records. It is a 
terrific health care system. I do not know how they coordinate. 
I do not know what has changed.
    Americans by nature react to episodes and then we sort of 
forget them. It is like--a little bit like when we go to war. 
We go to war, we win it, we tie, we lose it, or whatever; then 
we come home and sort of let everything military deteriorate. I 
just think in the case of the care of veterans, it would be 
nice if we had more activity on the front end rather than 
waiting to have the VA try to clean up what the military failed 
to do, and that is just my point of view.
    I thank the Chair and I thank all of you, a lot.
    Mr. Partain. Mr. Chairman, if I may.
    Chairman Akaka. Mr. Partain?
    Mr. Partain. When Senator Rockefeller was discussing the 
orange dust in Iraq at the facility out there and heard about 
the Atsugi Air Station in Japan, it befuddles the mind. It is 
almost like common sense: there is orange dust; someone should 
look into it. I know in our case at Camp Lejeune, our issue was 
solvents in our drinking water and in our research through the 
documents we came across an order, a Marine Corps order from 
the commanding general of the base, which identified organic 
solvents as a hazardous material and further stated that 
improper practices and disposal practices create hazards such 
as contamination of drinking water.
    From the very beginning, from the first public announcement 
in 1984, to the residents and personnel aboard Camp Lejeune, 
the Marine Corps has maintained that they were in violation of 
Federal and State regulations. What they have failed to tell 
the public and everybody was that they were in violation of 
their own orders.
    This order I am referring to dates back to 1974 and it is 
the third order in a series. We have not found the other two. 
They have not been produced, but we suspect they may go back to 
the early 1960s. It just almost seems like common sense. 
Organic solvents, they are listed in there as something that is 
hazardous, and then if you dispose of them improperly, they are 
going to end up being in the drinking water.
    Well that is exactly what happened at Camp Lejeune. Where 
is the common sense? Thank you.
    Chairman Akaka. Thank you very much. I want to thank the 
witnesses in the first panel for sharing your personal 
experiences with us today. Again, this will be helpful to the 
Committee and we look forward to dealing with these problems 
that have been mentioned.
    Thank you very much, again, and I will call up the second 
panel.
    [Pause.]
    Chairman Akaka. This hearing will be in order. I want to 
welcome our principal witness from VA, Dr. Michael Peterson, 
who is the Chief Consultant on Environmental Health for the 
Strategic Health Care Group at the Veterans Health 
Administration. He is accompanied by Dr. Stephen C. Hunt, the 
National Director for the Post-Deployment Integrated Care 
Initiative at VHA, and Bradley G. Mayes, the Director of the 
Compensation and Pension Service at the Veterans Benefits 
Administration.
    The next witness on the panel is Dr. Craig Postlewaite, 
Acting Director, Force Health Protection and Readiness Programs 
and Director, Force Readiness and Health Assurance at the 
Department of Defense. Next we have Dr. Paul Gillooly, who is 
the Public Health Assessor at Navy Marine Public Health Center.
    We also have Maj. Gen. Eugene Payne, Jr., the Assistant 
Deputy Commandant for Installations and Logistics for 
Facilities with the Marine Corps. Our final witness on the 
second panel is John Resta, Scientific Advisor, U.S. Army 
Center for Health Promotion and Preventative Medicine.
    I thank you all for being here this morning. Your full 
testimony will of course appear in the record. Mr. Peterson, 
will you please begin with your testimony?

    STATEMENT OF MICHAEL PETERSON, DVM, M.P.H., DRPH, CHIEF 
 CONSULTANT, ENVIRONMENTAL HEALTH, STRATEGIC HEALTHCARE GROUP, 
  OFFICE OF PUBLIC HEALTH AND ENVIRONMENTAL HAZARDS, VETERANS 
   HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Dr. Peterson. Good morning, Mr. Chairman, Ranking Member 
and Committee Members. Thank you for this opportunity to 
discuss what VA is doing to support veterans with environmental 
exposures that occurred during military service. As you 
indicated, I am accompanied by Dr. Hunt and Mr. Mayes this 
morning.
    VA recognizes that servicemembers sometimes face exposures 
to toxicants or materials in the course of their military 
service that can have deleterious health effects. We have 
developed a robust program within the Office of Public Health 
and Environmental Hazards to address this need by: identifying 
potential sources of exposure in at-risk veterans; informing 
veterans and health care providers; and offering treatment and 
care for service-connected conditions.
    My written testimony provides background information about 
initiatives within VA to address these concerns, explains how 
VA works with DOD to identify and respond to environmental 
hazards and describes the four specific exposures cited earlier 
and actions taken by VA in response.
    I would like to spend the few minutes I have addressing how 
VA and DOD collaborate on not just these exposures, but any 
possible environmental hazard and how we help veterans receive 
the health care and benefits they deserve. One of the many 
lessons that VA has learned from experiences with Agent Orange 
and Gulf War veterans illnesses is that information regarding 
possible exposures to environmental agents and other toxicants 
both within the combat theatre and other areas in which our 
troops operate must be received and acted upon by VA as early 
as possible.
    Up-to-date information on these situations is invaluable to 
VA's ability to identify veterans who may have been affected by 
an exposure, evaluate their individual risk of exposure, and 
for sequelae provide appropriate medial surveillance and 
mitigate untoward health effects that are known to be caused by 
these toxicants.
    In addition, where the possible outcomes are not known, it 
is important to perform epidemiological studies on exposed 
troops. This will better provide information than performing 
retrospective studies once it is determined that adverse health 
outcomes are being ascribed to a potential exposure.
    To this end, the joint DOD/VA Deployment Health Working 
Group was established. This working group reports to the Joint 
Executive Council through the Health Executive Council. The 
objective of this group is to identify and foster opportunities 
for sharing information and resources between VA and DOD in the 
areas of deployment health surveillance, assessment, follow-up 
care, health risk communication and research and development.
    Each year this working group discusses deployment-related 
concerns and develops strategies by which to address them. The 
Deployment Health Work Group meets monthly to discuss a wide-
ranging array of exposure issues, including those dating to the 
World War II era. The Deployment Health Work Group also 
actively seeks to discuss and recommend coordinated action to 
identify involved servicemembers, establish a determination of 
risks for this population and develop methods of outreach, risk 
communication, and where necessary, medical surveillance and 
appropriate health care for veterans with any condition that 
may have resulted from these exposures.
    Mr. Chairman, VA understands these issues are very 
important to you, all the Members of this Committee, and to 
veterans and their families. I can assure you VA is equally 
concerned and committed to working with DOD and other agencies 
to identify potential hazards, inform veterans of any risks to 
their health, develop appropriate responses, and deliver needed 
care and benefits to veterans and their families. Only through 
such cooperation will VA be prepared to deliver the proper 
health care and disability compensation benefits to those 
entitled.
    Before I conclude, I would like to tell you about a new 
study currently underway that VA is conducting to help assess 
and identify the environmental exposure risks faced by this 
latest generation of veterans. VA's National Health Study for a 
New Generation of U.S. veterans begins with 30,000 veterans 
deployed to OEF/OIF and 30,000 comparison veterans who were not 
deployed.
    This study includes veterans who served in each branch of 
service representing active duty, National Guard and Reserve 
members. Women are being over sampled to make sure they are 
represented and comprise 20 percent of the study. The study 
compares the deployed and non-deployed veterans in terms of 
chronic medical conditions, TBI, PTSD, and other psychological 
conditions, general health perceptions, reproductive health, 
pregnancy outcomes, functional status, use of health care, 
behavioral risk factors and VA disability compensation.
    This research will help us identify what conditions are 
disproportionally found within the deployed population, which 
can help us then provide an evidence base for health care 
treatment and possibly serve as presumption for benefits.
    Thank you again for the opportunity to testify. My 
colleagues and I are prepared to address any questions you or 
the Committee Members might have.
    [The prepared statement of Dr. Peterson follows:]

   Prepared Statement of Michael R. Peterson, DVM, MPH, DRPH, Chief 
Consultant, Environmental Health, Strategic Healthcare Group, Office of 
       Public Health and Environmental Hazards, Veterans Health 
          Administration, U.S. Department of Veterans Affairs

    Good morning, Mr. Chairman, Ranking Member and committee members. 
Thank you for this opportunity to discuss the work of the Department of 
Veterans Affairs (VA) in responding to certain exposures that occurred 
during military service, including respiratory exposures from an 
incinerator near the Naval Air Facility Atsugi, water contamination at 
Camp Lejeune, sodium dichromate at the Qarmat Ali Water Treatment 
Plant, and exposures to burn pits during the current conflicts. I am 
accompanied today by Dr. Stephen Hunt, National Director, Post-
Deployment Integrated Care Initiative, VA Puget Sound Health Care 
System, and Mr. Bradley Mayes, Director of Compensation and Pension 
Service, Veterans Benefits Administration.
    VA recognizes that servicemembers sometimes face exposure to 
toxicants or materials in the course of their military service that can 
have deleterious health effects. We have developed a robust program 
within the Office of Public Health and Environmental Hazards to address 
this need by identifying potential sources of exposure and at-risk 
Veterans, informing Veterans and health care providers, and offering 
treatment and care for service-connected conditions. My testimony will 
provide background information about initiatives within VA to address 
these concerns, explain how VA works with the Department of Defense 
(DOD) to identify and respond to environmental hazards, and describe 
the four specific exposures cited earlier and actions taken by VA in 
response.
      va programs specifically targeting exposure-related disease
    VA is very concerned about environmental health concerns of 
Veterans and offers a range of programs including health registries, 
special training for staff, and education materials including web-based 
information, fact sheets, and brochures. VA actively monitors and 
provides support to Veterans and their health care providers concerning 
a range of potential environmental exposures and outcomes, including 
Agent Orange, Gulf War Veterans' Illnesses, radiation, toxic embedded 
fragments including depleted uranium, thermal injuries, mustard gas, 
noise, vibration, and other physical exposures. More information about 
these programs specifically tailored to Veterans and health care 
providers can be found online at: http://www.publichealth.va.gov/
exposures/. VA notifies Veterans about these exposures through many 
different avenues. First, every VA medical center is required to have 
an environmental health clinician on staff. This person serves as a 
local resource for Veterans and clinical providers. In addition, the 
Transition Assistance Advisors (who work for the National Guard and 
receive training from VA) and Post-Deployment Integrated Care Clinics 
provide VA-wide expertise in a range of exposures and health outcomes 
commonly seen in returning Veterans. VA regularly provides letters, 
newsletters, brochures and other information to Veterans while 
maintaining registries specifically designed to track and inform 
Veterans with materials related to their unique health care needs.
    VA trains its providers to prepare to respond to the specific 
health care needs of all Veterans, which in turn helps providers inform 
Veterans of these risks. This training includes specific Clinical 
Practice Guidelines on post-combat deployment health and other issues. 
VA operates three War Related Illness and Injury Study Centers 
(WRIISCs) that provide specialized health care for combat Veterans from 
all deployments who experience difficult-to-diagnose or undiagnosed but 
disabling illnesses. Starting in 2002, the WRIISCs began serving as 
referral centers for Veterans with undiagnosed or difficult-to-diagnose 
complaints. Veterans referred to the WRIISCs are provided with a 
complete exposure assessment, outpatient or inpatient evaluation 
(including advanced neurological evaluations), and a detailed treatment 
plan, which is provided to the Veterans' VA primary care providers. 
Based on lessons learned from the Gulf War, VA realizes that concerns 
about unexplained illnesses could also emerge after other deployments, 
and we are building our understanding of such illnesses. Furthermore, 
as we recognize that many unexplained illnesses or symptoms may be 
related to exposure to toxicants during deployment, the WRIISCs now 
provide extensive exposure assessments to patients referred to them.
    Following the Gulf War, VA developed the Veterans Health Initiative 
(VHI) Independent Study Guides (ISG) for health care providers as one 
of many options to provide tailored care and support of Veterans. These 
study guides were principally designed for the clinical care of 
Veterans of the Gulf War era, but have proven highly relevant for 
treating Operation Enduring Freedom/Operation Iraqi Freedom (OEF/OIF) 
Veterans, since many of the hazardous deployment-related exposures are 
likely to be the same. VA developed ISGs for health care providers to 
deliver appropriate care to Veterans returning from Iraq and 
Afghanistan that cover topics such as gender and health care, 
infectious diseases of Southwest Asia, military sexual trauma, and 
health effects from chemical, biological and radiological weapons. 
Study Guides on Post Traumatic Stress Disorder (PTSD) and Traumatic 
Brain Injury (TBI) were also developed and made available for primary 
care physicians to increase understanding and awareness of these 
conditions. VHI ISGs are currently undergoing a comprehensive update to 
make them more relevant to busy providers and to modularize the content 
so that it is more accessible. The Office of Public Health and 
Environmental Hazards and the Employee Education System are working 
together on this project. VA recently brought on board an American 
Association for the Advancement of Science fellow with advanced degrees 
in post-secondary education and computer technology to spearhead this 
effort.
    VA has also initiated a large, long-term study to look carefully at 
a broad array of health issues that may affect OEF/OIF Veterans and 
their counterparts who served during the same time period. VA's 
``National Health Study for a New Generation of U.S. Veterans'' will 
begin with 30,000 Veterans deployed to OEF/OIF and 30,000 comparison 
Veterans who were not deployed.
    The study includes Veterans who served in each branch of service, 
representing active duty, Reserve, and National Guard members. Women 
are being over-sampled to make sure they are represented and comprise 
20 percent of the study, or 12,000 women. A combination of mail 
surveys, online surveys, telephone interviews, and in-person physical 
evaluations are used to collect data from Veterans.
    The study compares the deployed and non-deployed Veterans in terms 
of chronic medical conditions, Traumatic Brain Injury (TBI), Post 
Traumatic Stress Disorder (PTSD) and other psychological conditions, 
general health perceptions, reproductive health, pregnancy outcomes, 
functional status, use of health care, behavioral risk factors and VA 
disability compensation. VA has contracted with an independent Veteran-
owned research firm to collect the data.
Interaction and Information Exchange with DOD
    One of the many lessons that VA has learned from experiences with 
Agent Orange and Gulf War Veterans' Illnesses is that information 
regarding possible exposures to environmental agents and other 
toxicants, both within the combat theater and other areas in which our 
troops operate, must be received and acted upon by VA as early as 
possible. Up-to-date information on these situations is invaluable to 
VA's ability to identify Veterans who may have been affected by an 
exposure, evaluate their individual risk of exposure and for sequelae, 
provide appropriate medical surveillance, and mitigate untoward health 
effects that are known to be caused by these toxicants. In addition, 
where the possible health outcomes are not known, it is important to 
perform prospective epidemiological studies on exposed troops. This 
will provide better information than performing retrospective studies 
once it is determined that adverse health outcomes are being ascribed 
to a potential exposure.
    To this end, the Joint DOD/VA Deployment Health Working Group 
(DHWG) was established. This working group reports to the Joint 
Executive Council through the Health Executive Council (HEC). The 
objective of this group is to identify and foster opportunities for 
sharing information and resources between VA and DOD in the areas of 
deployment health surveillance, assessment, follow-up care, health risk 
communication, and research and development. Each year this working 
group discusses deployment-related concerns and develops strategies by 
which to address them. The DHWG meets monthly to discuss a wide-ranging 
array of exposure issues, including those dating to the World War II 
era. The DHWG also actively seeks to discuss and recommend coordinated 
action to identify involved servicemembers, establish a determination 
of risk for this population, and develop methods of outreach, risk 
communication and, where necessary, medical surveillance and 
appropriate health care for Veterans with any condition that may have 
resulted from these exposures.
    Now I will discuss in greater detail the four exposures about which 
the Committee asked for specific information.
Incinerator at Naval Air Facility Atsugi
    Naval Air Facility Atsugi, Japan is located about 25 miles from 
Tokyo at the site of a Japanese Air Force base which the U.S. took 
control of in 1945. In 1985, a private waste incinerator, Shinkampo 
Incinerator Complex (SIC), began operations immediately southeast of 
the community areas of the base. The incinerator burned a variety of 
liquid and solid industrial waste, municipal solid waste, and 
construction debris. The incinerator released a plume of smoke, ash, 
particulate material, and fumes at ground level over the community area 
of the base. Complaints by residents regarding air quality led to 
multiple health risk assessments between 1988 and 1999. These 
assessments demonstrated health risks related to the incinerator plume 
which resulted in efforts by representatives of the U.S. Government to 
close the incinerator. This was accomplished in 2001. It is estimated 
that over the 15 years of operation, 18,000 adults and 8,000 children 
could have been exposed, with a typical exposure duration of 3 years.
    The non-cancer health effects of primary concern are impairment of 
respiratory function from exposure to inhaled respiratory toxicants 
particularly among the resident children at the base. Permanent 
reduction in respiratory function can occur after several years of 
exposure to respiratory toxicants especially if exposure occurred 
before age 16. The final health risk assessment completed in 2002 by 
DOD noted an increased risk of cancer, above the U.S. background rate, 
among residents of Naval Air Facility Atsugi during incinerator 
operations.
    In 2007, Battelle Corporation was asked by the Department of the 
Navy to conduct a review of the various health risk assessments and 
recommend what, if any, population-based medical surveillance of 
residents of Naval Air Facility Atsugi might be warranted, as well as 
the parameters and expected outcomes from such screenings. Battelle 
published its report in June 2008. The only recommendation from that 
report was that a health registry be established for residents of Naval 
Air Facility Atsugi. All medical surveillance recommendations were 
limited to the juvenile population at the base.
    Because all of the recommendations in this detailed report address 
medical surveillance of a population not within VA's statutory 
authority, VA has not requested information regarding this cohort. Any 
Veteran who served at the Naval Air Facility Atsugi who may develop 
either a respiratory condition or cancer that competent medical 
authority ascribes to exposure at Naval Air Facility Atsugi would be 
eligible to submit a claim for direct service connection for the 
condition, provided they meet other eligibility criteria for benefits. 
VA will inform regional offices of the Naval Air Facility Atsugi 
situation and alert them to the possibility of disability claims from 
Veterans who were stationed there. All such claims will be evaluated on 
a case-by-case basis with evidentiary weight given to medical 
examinations and opinions from both private and VA physicians. In all 
cases, the benefit of doubt will be provided to the Veteran. VA's 
assessment of issues related to Naval Air Facility Atsugi continues to 
be coordinated through HEC and the Office of Public Health and 
Environmental Hazards and we continue to monitor study outcomes that 
could inform future policy decisions.
Water Contamination at Camp Lejeune
    From the 1950s through the mid-1980s, some persons residing or 
working at the U.S. Marine Corps Base Camp Lejeune were exposed to 
drinking water contaminated with volatile organic compounds. Two of the 
eight water treatment facilities supplying water to the base were 
contaminated with either tricholoroethylene (TCE) or 
tetrachloroethylene (perchloroethylene, or PCE). The Department of 
Health and Human Services' Agency for Toxic Substances and Disease 
Registry (ASTDR) estimated that PCE drinking water levels exceeded 
current standards from 1957 to 1987 and represented a potential public 
health hazard. The heavily contaminated wells were shut down in 
February 1985, but it is estimated that more than one million 
individuals may have been exposed.
    An ATSDR study begun in 2005 is evaluating whether children of 
mothers who were exposed while pregnant to contaminated drinking water 
at Camp Lejeune are at an increased risk of spina bifida, anecephaly, 
cleft lip or cleft palate, and childhood leukemia or non-Hodgkin's 
lymphoma. The results of this report have not yet been released. In the 
same year, a panel of independent scientists convened by ATSDR 
recommended the agency identify cohorts of individuals with potential 
exposure, including adults who lived or worked on the base and children 
who lived on the base (including those that may have been exposed while 
in utero), and conduct a feasibility assessment to address the issues 
involved in planning future studies at the base.
    In October 2008, the Department of the Navy issued a letter to 
Veterans who were stationed at Camp Lejeune while in military service 
between 1957 and 1987. This letter informed Veterans that the Navy had 
established a health registry 
and encouraged them to participate. Veterans who received the letter 
from the Navy may visit the following Web sites for the most current 
updates about Department o f N a v y a c t i o n s: h t t p : / / 
w w w . a t s d r . c d c . g o v / s i t e s / l e j e u n e / 
i n d e x . h t m l o r www.marines.mil/clsurvey/index.html. Veterans 
may also call the Department of Navy toll-free at (877) 261-9782.
    VA is providing Veterans with information about this issue and 
offering contact information and referrals to the Navy registry. In 
December 2008, VA issued a VA Health Care Fact Sheet on the 
contamination of the ground water at Camp Lejeune. On June 13, 2009, 
the National Research Council of the National Academies' Committee on 
Contaminated Drinking Water at Camp Lejeune released a report that 
indicated further research will unlikely provide definitive information 
on whether exposure resulted in adverse health effects. However, the 
report did find 14 conditions with limited or suggestive evidence of an 
association with exposure to PCE, TCE, or solvent mixtures. VA is 
convening a work group to evaluate the National Research Council's 
report and any other relevant scientific studies. This will contribute 
significantly to further policy decisions.
    VA does not operate a registry for this population and does not 
have special authority to enroll Veterans or their family members based 
upon this exposure. Veterans who are a part of this cohort may apply 
for enrollment if they are otherwise eligible, and are encouraged to 
discuss any specific concerns they have about this issue with their 
health care provider. Veterans are also encouraged to file a claim for 
VA disability compensation for any injury or illness they believe is 
related to their military service. VA environmental health clinicians 
can provide these Veterans with information regarding the potential 
health effects of exposure to volatile organic compounds and VA's 
WRIISCs are also available as a resource to providers.
    VA takes the Camp Lejeune matter very seriously and has informed 
all regional offices of the situation. Disability claims based on 
contaminated drinking water exposure at Camp Lejeune will be evaluated 
on a case-by-case basis with evidentiary weight given to medical 
examinations and opinions from both private and VA physicians. In all 
cases, the benefit of doubt will be provided to the Veteran.
Sodium Dichromate at Qarmat Ali Water Treatment Plant
    VA has been extremely proactive in its response to this exposure 
event. As you are aware, there are approximately 600 National Guard 
troops, primarily from four states (Oregon, South Carolina, West 
Virginia and Indiana), who may have been exposed to sodium dichromate 
(a source of hexavalent chromium) while serving at Qarmat Ali outside 
Basrah, Iraq.
    VA is obtaining the names and contact information of National Guard 
troops present at Qarmat Ali. We are also verifying the numbers of 
these Veterans who have either enrolled in care or received a Gulf War 
registry exam. We have already augmented the Gulf War Registry (GWR) to 
reflect service at Qarmat Ali. The involved Guard Members who have had 
an initial exam will be recalled to have a complete exposure assessment 
as well as a more targeted physical exam and ancillary testing to 
detect indications of health outcomes that may be related to hexavalent 
chromium. Those who have yet to enroll in the GWR will receive this 
targeted examination initially. They will also receive a chest 
radiograph and pulmonary function testing. This evaluation will be 
repeated periodically (every year for an exam and every 5 years for a 
chest radiograph). All of this testing can be done within the GWR's 
existing authority.
    Once we have made all the these modifications to the GWR, and have 
established the appropriate process for the involved VA medical 
centers, VA will send letters to each servicemember explaining the new 
process and details regarding how to receive an examination. Because 
this group of Veterans is relatively small and already identified, and 
because the health risks of exposure to hexavalent chromium are well 
established, VA believes this is the best cohort to develop its new 
program of targeted medical surveillance. VA hopes that experience with 
this program can be a model for other medical surveillance programs for 
returning Veterans who may have been exposed to environmental 
toxicants.
    VA has begun analyzing the available list of identifiable 
servicemembers to determine who has filed claims for disability 
benefits for any condition potentially related to toxin exposure. It is 
important to note that this analysis is still ongoing and is primarily 
focused on, but not limited to, diseases of the skin and respiratory 
system. On preliminary review, it appears that approximately 25 percent 
of potentially exposed members have filed claims for such conditions. 
This assessment takes into consideration all identifiable members of 
the Guard who have previously filed disability claims for such 
conditions and who have claims currently pending for such conditions. 
It also assumes that such claims were filed after exposure and related 
to exposure. This analysis has the potential to identify Veterans whose 
claims are based on disabilities resulting from exposure at Qarmat Ali 
and to provide regional office personnel with relevant historical 
information to assist with evaluating these claims.
    Many of these claims may have been adjudicated prior to VA's 
learning of potential toxin exposure at Qarmat Ali. Therefore, we are 
currently working on the best possible methods to educate our field-
station employees of the circumstances surrounding this incident, 
ensure those stations have easy access to all identifiable data on the 
potential exposure of National Guard members, and determine whether VA 
must readjudicate any claims that were previously adjudicated without 
such information.
Burn Pits and Other Environmental Exposures
    During a May 14, 2009 Deployment Health Work Group meeting, VA was 
apprised of 24 potential exposure incidents in OEF/OIF. This included 
various open burn pits for waste disposal, sulfur fires, non-potable 
water contamination, exposure to industrial waste, and others. DOD and 
VA have made significant progress in sharing information and assessing 
health risks. VA works diligently to obtain and interpret data from DOD 
and formulate appropriate responses to better serve combat Veterans.
    Exposure to open burn pits for solid waste disposal has created 
significant concern among Veterans and their families. The most widely 
publicized of these was the burn pit at Balad Air Base in Iraq. 
According to a May 2008 report from the U.S. Army Center for Health 
Promotion and Preventive Medicine (USA CHPPM), the amount of solid 
waste being burned was estimated at about 2 tons of material per day in 
the early stages of troop deployment and currently may be as much as 
several hundred tons per day. This 2008 risk assessment concluded that 
the overall risk estimate for 12 month exposure was low. It states that 
the risk for both cancer and non-cancer outcomes did not exceed 
Environmental Protection Agency guidelines for acceptable risk. 
Affected troops did report upper respiratory irritation due to burn 
pits. This outcome was expected. Because of uncertainty related to 
specific exposures, as well as questions about methodology and 
estimates, VA officials must rely on objective facts developed on a 
case-by-case basis. VA understands DOD tested air samples at Balad in 
2005, 2006, and 2007. USA CHPPM's May 2008 risk assessment was based on 
the air samples performed in 2007.
    VA anticipates that concerns about potential long-term health 
effects from exposure to pollutants generated from open pit waste 
burning used throughout the Iraq and Afghanistan theaters will be an 
ongoing issue for affected Veterans. VA has learned many lessons from 
previous conflicts wherein servicemembers were exposed to various 
toxins on the battlefield. In many of those situations, too much time 
lapsed between Veterans' exposure to such toxins and an easy path to 
the many VA benefits they had earned. After VA learned of potential 
exposure for servicemembers to burn pits, and to help address health 
concerns of Veterans and their families, VA began initiating a contract 
with the Institute of Medicine to provide a review of potential long-
term health effects from exposure to burn pit pollutants.
    In addition to these efforts, VA has started presenting one-day 
seminars to VA and non-VA providers on many of these exposures. These 
seminars give information regarding the nature of the exposures, their 
possible health outcomes, how to perform an exposure assessment for 
Veterans, appropriate medical surveillance, treatment options, and risk 
communication.
    VA is analyzing data on the number of Veterans from the first Gulf 
War, the Gulf War Era, and OEF/OIF, who have filed service connection 
claims for a variety of conditions, including respiratory and skin 
disabilities. This information will hopefully serve as a valuable tool 
to help VA observe any early, discernable trends such as increased 
disability claims for diseases potentially related to toxins. VA is 
currently exploring the best information to include in communication 
and how best to deliver such information to field employees responsible 
for adjudicating disability claims, specifically those related to 
toxins. This analysis is not yet complete.

                               CONCLUSION

    Mr. Chairman VA understands these issues are very important to you, 
all the Members of this Committee, and to Veterans and their families. 
I can assure you VA is equally concerned and committed to working with 
DOD and other agencies to identify potential hazards, inform Veterans 
of any risks to their health, develop appropriate responses, and 
deliver needed care and benefits to Veterans and their families. Only 
through such cooperation will VA be prepared to deliver the proper 
health care and disability compensation benefits to those entitled. 
Sharing this information is important because many factors may 
contribute to adverse, long-term health effects for servicemembers and 
Veterans.

    Thank you again for the opportunity to testify. My colleagues and I 
are prepared to address any questions you or the other committee 
members might have.
                                 ______
                                 
 Responses to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka 
 to Michael Peterson, DVM, MPH, DRPH, Chief Consultant, Environmental 
  Health, Strategic Healthcare Group, Veterans Health Administration, 
                  U.S. Department of Veterans Affairs

    Question 1. What proactive measures is your Department taking to 
notify the people on the Marine Corps' online health registry for Camp 
Lejeune that they may be eligible for VA benefits due to exposures?
    Response. VA and DOD have a Data Use Agreement (DUA) that permits 
VA to obtain the names on the Camp Lejeune, N.C., registry. VA received 
data from DOD in early March containing registry data as of February 
12, 2010. Information in the registry identifies individuals self-
reporting by name, address, and telephone number. The registry also 
contains a subset of approximately 45,000 names of the approximately 
157,000 names in the registry that were identified by the Defense 
Manpower Data Center (DMDC) as active duty members stationed at Camp 
Lejeune from 1975 to 1985. (Electronic records at DMDC are available 
only from 1975 forward) VA is developing recommendations for the 
Secretary based on the 2009 National Research Council Report. 
``Contaminated Water Supplies at Camp Lejeune, Assessing Potential 
Health Effects.'' The Secretary will consider all available evidence 
and recommendations in determining the content of any necessary future 
notification of Veterans.

    Question 2. Dr. Robert F. Miller testified concerning veterans who 
had been exposed to fumes from burn pits and other sources in Iraq. 
Veterans reporting shortness of breath had normal standard respiratory 
evaluations including chest x-rays, chest CT scans and pulmonary 
function testing. None of these routine tests could explain the cause 
for the soldiers' limitations. When Vanderbilt physicians performed 
surgical biopsies on 45 of 70 soldiers referred for unexplained 
shortness of breath on exertion, all except one demonstrated some form 
of bronchiolitis. Given these findings, what actions should be taken by 
VHA and VBA, including specialized testing and evaluations, when a 
veteran claims a disability due to shortness of breath after exposure 
to environmental toxins?
    Response. Any exposed Veteran who complains of shortness of breath, 
that has persisted or gotten worse since an exposure while in the 
military, should have a chest radiograph and complete pulmonary 
functions, including pre-and post bronchodilators and what is known as 
alveolar diffusion capacity (a lung function test). A high resolution 
CAT Scan (CT) may also be useful. According to a recent scientific 
symposium on this issue lung biopsy is only used after other diagnostic 
modalities have been exhausted. VBA will instruct Regional Office (RO) 
personnel that special methods must be followed when handling 
disability claims involving various conditions, including shortness of 
breath, from Veterans exposed to contaminants associated with hazardous 
material in Iraq and Afghanistan. VBA will issue this instruction in 
the form of a training letter, which is currently in concurrence. VA is 
also in the process of requesting from DOD data containing all known 
locations of burn pits in Iraq and Afghanistan so that VA can provide 
such information to all field stations.
    The exposure training letter will instruct RO personnel to specify 
that a medical examiner must conduct any reasonably feasible testing 
for a wide range of respiratory disabilities, including any form of 
bronchiolitis that may be the result of toxicants. Results must be 
provided in the examination report along with a medical opinion as to 
whether it is; ``at least as likely as not'' that any diagnosed 
respiratory system condition is related to such exposure.

    Question 3. Will VA be contracting with the Institute of Medicine 
to study the health effects of exposure to burn pits? If so, what is 
the timeline for that report?
    Response. The contract with the Institute of Medicine was signed on 
October 29, 2009. The contract will end on April 30, 2011, with a 
report due on that date.

    Question 4. If a recently-separated veteran seeks health care at VA 
and mentions that he was exposed to a burn pit or sodium dichromate, 
what happens? Is the result the same if the veteran is more than five 
years removed from active military service?
    Response. Necessary care and/or treatment would be provided to all 
eligible Veterans claiming exposure to a burn pit or sodium dichromate.
    Combat Veterans (within their five years of post discharge) will be 
enrolled upon application for enrollment/care and are eligible for 
cost-free hospital and treatment for conditions associated with the 
theater of operation. VA clinicians have wide latitude in determining 
if a Veteran's condition is associated with Veteran's combat service 
and thus, cost-free care. This decision does not require the same rigor 
or standards used for adjudication of a service-connected claim.
    Combat Veterans more than five years removed from their date of 
discharge from the military/release from active duty must meet the 
applicable eligibility and enrollment requirements that apply. Under 
current rules, this means that Veterans without other special 
eligibility factors whose income places them in Priority Group 8 above 
the current enrollment income threshold could not be enrolled or 
treated by VA. In such cases, VA would encourage the Veteran to file a 
claim for service-connected disability rating. If service-connection 
were granted, VA would offer enrollment and necessary treatment as 
required.
    If the Veteran served in Iraq (but not Afghanistan) even if they 
were not otherwise eligible for care they would be eligible for a Gulf 
War registry exam. Based upon the results of this exam, they would be 
referred to VBA to file a claim for service connection. Once service 
connection is established for any condition related to the exposure, 
they are eligible for further care. VHA and VBA are working together to 
establish a process for expedited service connection for these 
conditions. We anticipate that our model exposure-related assessment 
within the Gulf War registry will be available in spring 2010. The 
conditions which will be expedited based upon this exposure have been 
identified. If the model exposure-related assessment within the Gulf 
War Registry is ready by spring, then it is feasible that VBA can 
prepare rating-related training by summer 2010.
    The Deployment Health Working Group, a joint DOD/VA work group, has 
recently begun an effort to establish a permanent agreement between the 
VA and DOD that will permit the transfer of information from DOD to the 
VA whenever an exposure incident occurs. The outcome of this effort 
will be a listing of Soldiers, Sailors, Airmen and Marines exposed in 
any given incident.

    Question 5. What occurs when a veteran claims service-connection 
for a condition due to exposure to contaminated water at Camp Lejeune?
    Response. VA RO personnel were alerted to the Camp Lejeune 
contaminated water situation in the June 2009 C&P Service Bulletin and 
instructed to adjudicate each related claim on a case-by-case basis, 
with the benefit of any doubt provided to the Veteran. All available 
evidence related to the claim will be obtained. Service connection may 
be granted if the evidence shows: (1) a current chronic disability, (2) 
military duty at Camp Lejeune during the period of water contamination 
(as verified though Official Military Records), and (3) a medical nexus 
or relationship between the current disability and the service at Camp 
Lejeune. A statement of this medical nexus may be provided by a 
competent VHA or private medical examiner.
                                 ______
                                 
 Response to Post-hearing Questions Submitted by Hon. Richard Burr to 
   Michael Peterson, DVM, MPH, DRPH, Chief Consultant, Environmental 
  Health, Strategic Healthcare Group, Veterans Health Administration, 
                  U.S. Department of Veterans Affairs

    Question 1. At the hearing, I asked whether VA could create a 
special enrollment category for Veterans potentially affected by the 
contaminated drinking water at Camp Lejeune using the Secretary's 
general authority to provide needed health care to categories of 
Veterans not specified in the law and the question was to be taken back 
to VA General Counsel. What is the VA General Counsel's opinion on that 
question?
    Response. VA is required to establish and operate a system of 
annual patient enrollment, 38 U.S.C. 1705(a). The law requires that VA 
manage the enrollment of patients in accordance with the priorities set 
forth in section 1705(a)(1)-(8) but specifically authorizes VA to 
establish subpriorities within each statutory priority group. In 
accordance with the law, VA established an enrollment system by 
regulation in 38 CFR 17.36. The system provides subpriorities within 
the two lowest priority categories (7 and 8). VA currently enrolls all 
Veterans in priority 1-7 and the highest subpriorities of priority 8. 
VA could, in accordance with the regulatory process, revise its 
enrollment regulations to establish in priority 8 an additional 
subcategory for Veterans who are potentially affected by the 
contaminated drinking water at Camp Lejeune.

    Question 2. During the hearing, there was confusion about whether 
VA had, in fact, received from the Marine Corps the registry of names 
of former Camp Lejeune residents.
    A. Has this list been shared with VA? If so, when?
    Response. VA and DOD have a Data Use Agreement (DUA) that permits 
VA to obtain the names on the Camp Lejeune, NC, registry. VA received 
data from DOD in early March containing registry data as of February 
12, 2010. Information in the registry identifies individuals self-
reporting by name, address, and telephone number. The registry also 
contains a subset of approximately 45,000 names of the approximately 
157,000 names in the registry that were identified by the Defense 
Manpower Data Center (DMDC) as active duty members stationed at Camp 
Lejeune from 1975 to 1985. (Electronic records at DMDC are available 
only from 1975 forward.)
    B. If not, will VA work with the Marine Corps to obtain the 
registry so that VA can better identify the medical history of those 
who are already receiving VA health care and proactively outreach to 
those who are not?
    Response. See response to A above.

    Question 3. It is my understanding that there is an on-going 
initiative funded by the Department of Energy (DOE) that provides 
eligibility to former DOE workers to participate in a program that 
provides examinations and specialized testing for health effects that 
may be related to exposures they encountered during their time as 
employees or contractors to DOE. In addition, if health effects that 
could be linked to those exposures are identified, these former 
employers may be provided health care and the opportunity to file for 
compensation.
    A. Has VA discussed this program with the Department of Energy? If 
so, what have you learned from those discussions?
    Response. Subject matter experts in the Environment Agents Service 
in the Office of Public Health and Environmental Hazards, Veterans 
Health Administration are familiar with this program. The Environmental 
Health Strategic Healthcare Group has discussed this program with the 
medical director of The Building Trades Program. This program is the 
basis of the War Related Interactive Online Referral and Surveillance 
(WARRIORS) program. It is an initiative which is funded by VA's Office 
of Rural Health and will be utilized to assist rural physicians without 
access to VA expertise on these issues to perform a conflict/exposure 
specific evaluation to include history/examination, ancillary testing 
and recommended follow-up and consultation. The contractor for 
development of this program is in the process of being approved and an 
award is expected to be made by the end of FY2010.

    B. If no, are there lessons that VA could learn from further 
examining this DOE program?
    Response. See response to A above.

    Question 4. At the hearing, a VA representative testified that 
guidance to the field--in the form of a Fast Letter--would be sent 
regarding how to handle disability claims from Veterans who were 
stationed at Camp Lejeune during the period that the water was 
contaminated.
    A. Has that been done? Would you please provide a copy of the Fast 
Letter when it has been sent out?
    Response. VBA will instruct Regional Office (RO) personnel that 
special methods must be followed when handling disability claims 
arising from six separate exposure events including the Camp Lejeune 
contaminated water incident. The other events include burn pits used 
throughout Iraq, Afghanistan, and the Horn of Africa; high particulate 
matter levels throughout Iraq, Afghanistan, and the Horn of Africa; the 
2003 Iraqi sulfur fire incident; the 2003 sodium dichromate exposure 
incident at Qarmat Ali, Iraq; and, the Atsugi, Japan incinerator 
incident. VBA will issue this instruction in the form of a training 
letter. VA will provide the Committee a copy as soon as it is complete.
    The exposure training letter will consist of three elements. The 
first section will serve as an educational tool on each specific 
exposure, including the Camp Lejeune incident. The second section 
contains claims processing instructions that are specific to these 
exposures. Finally, the third section functions as an additional 
educational tool that VA adjudicators will use to alert Compensation 
and Pension (C&P) examiners to a Veteran's specific exposure 
incident(s) so that any subsequent examinations and/or medical opinions 
are fully informed.
    Through this process, all VBA employees involved in adjudicating 
claims, and C&P examiners, will become well aware of the details of 
each of the six exposure incidents, including the water contamination 
at Camp Lejeune.

    B. With respect to the other three exposures discussed at the 
hearing (Qarmat Ali, burn pits, Atsugi), has any guidance been sent to 
the field on how to adjudicate claims from potentially exposed 
veterans? If so, please provide copies of any such guidance and a 
timeline for when the guidance was provided to the field.
    Response. The October 2009 C&P Service Bulletin provided 
information to RO personnel on the environmental contamination history 
of Naval Air Facility (NAF) Atsugi, Japan and instructed them to handle 
any related disability claims on a case-by-case basis, with the benefit 
of any doubt provided to the Veteran. VBA is currently in the process 
of developing instructions for the field on methods for handling 
disability claims based on chromium exposure at Qarmat Ali, Iraq and 
exposure to the toxic contaminants associated with burn pit sites, as 
well as others in Iraq and Afghanistan.
    The information needed to assess these sites and the contaminants 
associated with them will require additional research and cooperation 
from the Department of Defense. VA received the names of National Guard 
members who were potentially exposed to toxins at Qarmat Ali, Iraq. We 
are generating requests for information related to additional 
exposures.
    VA also contracted with the Institute of Medicine to investigate 
the possible health outcomes of exposure to burn-pit emissions. When 
this research is completed, a Fast Letter and/or training letter will 
be released to the field. The November 2009 C&P Service Bulletin also 
provided basic information.

    C. If guidance has not been provided to the field with respect to 
any of these exposures, would you please provided a timeline for when 
you anticipate providing such guidance?
    Response. Guidance on handling Veterans' claims based on exposure 
at Camp Lejeune and NAF Atsugi has already been provided to the field 
through the C&P Service Bulletin. When additional research is completed 
in the next few months, Fast Letters and/or training letters will be 
released to the field providing information on handling claims based on 
all known exposure events in Iraq and Afghanistan.

    Question 5. At the hearing, we also heard testimony about a sulfur 
mine in Iraq that was set on fire in 2003. Would you please provide an 
update on what steps VA has taken to date with regard to that exposure 
incident?
    Response. Please see post-hearing Question 2 from Senator Akaka and 
VA's subsequent response. VA was made aware of this fire and potential 
exposures in March 2009. DOD has determined that bronchiolitis in 
Veterans with known exposure to the 2003 sulfur fire is ``plausibly'' 
related to such fire. The subject of the sulfur fire will be covered 
extensively in VBA's forthcoming training letter on hazardous exposures 
in Iraq and Afghanistan.

    Chairman Akaka. Thank you very much, Mr. Peterson. The 
chair calls for a slight recess and we will be right back.
    [Recess.]
    Chairman Akaka. The hearing will come to order. And now I 
call for the testimony of Dr. Postlewaite.

    STATEMENT OF R. CRAIG POSTLEWAITE, DVM, M.P.H., ACTING 
   DIRECTOR, FORCE HEALTH PROTECTION AND READINESS PROGRAMS, 
OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS), 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. Postlewaite. Good afternoon, sir. Thank you very much. 
Mr. Chairman, distinguished Members of the Committee, thank you 
for the opportunity to discuss the Department of Defense 
Occupational Environmental Health Program, our program to 
assess health risks associated with the environment in our 
workplaces.
    I am Dr. Craig Postlewaite, Acting Director of Force Health 
Protection and Readiness Programs for the Assistant Secretary 
of Defense for Health Affairs. I am also a veteran with 26 
years active duty service. Under my purview is the policy and 
oversight for the deployments--or for the department's 
Deployment Health Program. A key component of the Deployment 
Health Program is our Occupational and Environmental Health 
Program, or OEH, as I will refer to it.
    Its goal is to protect our personnel from accidental death, 
injury, or illness caused by hazardous, occupational, or 
environmental exposures. This includes preventing or minimizing 
short-term health effects, especially those severe enough to 
interfere with mission accomplishment and also any long-term 
effects that may affect our servicemembers' health and quality-
of-life in the years to follow.
    To prevent or limit hazardous exposures, both in peace time 
and in deployed settings, the Department applies a rigorous 
risk management program. Mr. Chairman, the Department's many 
fine OEH professionals take their responsibility seriously and 
are fully dedicated to protecting and preserving the health of 
our personnel by identifying hazards, ascertaining the 
significance of those health hazards in terms of risk, 
determining appropriate controls and communicating the risk 
information to commanders and affected personnel.
    Since 2001, our OEH professionals have collected over 
17,500 individual environmental samples throughout the U.S. 
Central Command Theatre of Operations, including nearly 10,000 
in Iraq, more than 3,500 in Kuwait and over 3,300 in 
Afghanistan. In the vast majority of cases, these samples 
indicate that U.S. personnel are not experiencing any exposures 
that would put their long-term health at risk.
    However, with the current technology and under war time 
conditions, it is not always possible to monitor the working 
locations of all servicemembers for all hazards, especially for 
those who operate outside of our base camps.
    While our focus continues to remain on exposure prevention 
and control, we realize that some hazardous exposures can and 
will occur despite our best efforts. And unfortunately, some 
individuals may develop short-term or long-term health effects 
as a result.
    First and foremost, we want to ensure that those affected 
individuals get the very best care and treatment they are 
entitled to through the Military Health System and the VA. 
Second, these fine veterans have our profound sympathies for 
the pain and suffering they and their families experience. They 
have earned our sincere gratitude for their service.
    Our Department of Defense Instruction, Occupational 
Environmental Health, DODI 6055.05, requires DOD to share 
hazard and exposure data with the VA to assist in the 
adjudication of veterans' disability claims. Such records also 
are valuable in establishing diagnosis and proper treatment.
    To ensure that VA is aware of individual hazardous 
exposures, all exposure-related information is to be entered 
into each individual's medical record so it will be available 
to the VA at time of treatment or claims adjudication.
    Once the DOD electronic exposure record becomes a reality--
and I discuss that more in my written testimony, hopefully it 
will be in the next few years--it will also be made available 
to the VA. For a number of years, the DOD and VA have 
collaborated through the DOD/VA Deployment Health Working 
Group, as Dr. Peterson mentioned. We use that forum to share, 
on a frequent basis, information related to exposures.
    While the Department of Defense is in-garrison and 
deployed, OEH programs have been quite effective in identifying 
and controlling chemical, biological, and physical hazards 
which our servicemembers or DOD civilians may encounter. We, of 
course, are fully committed to improving those programs 
wherever we can.
    Mr. Chairman, thank you for the opportunity to discuss the 
DOD's OEH program today. I appreciate it.
    [The prepared statement of Mr. Postlewaite follows:]

Prepared Statement of R. Craig Postlewaite, DVM, MPH, Acting Director, 
Force Health Protection and Readiness Programs, Office of the Assistant 
                 Secretary of Defense (Health Affairs)

    Mr. Chairman and distinguished Members of the Committee, thank you 
for the opportunity to discuss the Department of Defense's (DOD's) 
Occupational and Environmental Health (OEH) Program.
    The OEH program is an important component of the Department's 
efforts to enhance Force Health Protection. DOD understands the 
importance of anticipating, recognizing, evaluating, and controlling 
health hazards associated with exposure to chemical, physical, and 
biological hazards. Our goal is to protect our personnel from 
accidental death, injury, and illness caused by hazardous occupational 
or environmental exposures. This goal includes preventing and/or 
minimizing short-term health effects, especially those severe enough to 
interfere with mission accomplishment and, any long-term effects that 
may affect a Servicemember's health and quality of life in years to 
come.
    To prevent or limit hazardous exposures, both in peacetime and in 
deployed settings, the Department applies a rigorous risk management 
program. Mr. Chairman, the Department's many fine OEH professionals 
take their responsibilities seriously, and are dedicated to protecting 
and preserving the health of our personnel by identifying hazards, 
ascertaining the significance of any health or safety risks associated 
with the hazards, determining appropriate options to control the 
hazards, and communicating risk information to commanders and affected 
personnel.
    In the peacetime setting, the policies and procedures governing our 
OEH program are contained in DOD Instruction (DODI) 6055.05, 
``Occupational and Environmental Health.'' Our OEH policies and 
procedures for the deployed setting are established in three documents: 
DODI 6055.05; the Joint Staff memorandum, MCM 0028-07, ``Procedures for 
Deployment Health Surveillance''; and DODI 6490.03, ``Deployment 
Health.''
    Mr. Chairman, in August 2006, the Under Secretary of Defense for 
Personnel and Readiness issued updated policy guidance for deployment 
OEH in the revision to DODI 6490.03. This revision significantly 
strengthened requirements for deployment OEH surveillance, including 
OEH data reporting and archiving; medical record entries documenting 
exposures; deployment health risk communications; and established a new 
requirement to track and report once daily the locations for all 
deployed Servicemembers so environmental hazards at a particular 
location could be linked with the individuals who may have been exposed 
to them during the time those hazards existed.
    The deployment OEH program actually begins during our pre-
deployment preparation phase, when occupational and environmental 
hazard assessments for the current theater of operations, and any other 
theater of operation or deployed location as well, are conducted based 
on medical intelligence provided by the National Center of Medical 
Intelligence and other sources. Once in theater, we accomplish 
baseline, periodic, and incident-driven OEH surveillance by monitoring 
the air, water, soil, food, and disease-carrying vectors.
    Since 2001, we have collected more than 17,500 individual 
environmental samples throughout the U.S. Central Command Theater of 
Operations, including nearly 10,000 in Iraq, more than 3,500 in Kuwait, 
and more than 3,300 in Afghanistan. In the vast majority of cases, 
these data indicate U.S. personnel are not experiencing any exposures 
that would put their long-term health at risk. However, with the 
current technology, it is not possible, in a wartime environment, to 
monitor the working locations of all Servicemembers for all hazards, 
especially for those who operate outside of base camps.
    While our focus continues to remain on exposure prevention and 
control, we realize that some exposures can, do, and will occur despite 
our best efforts. In recognition of that reality, we revised DODI 
6490.03 and the Joint Staff memorandum on Deployment Health 
Surveillance to take steps to effectively address gaps that had 
hindered the assembly of electronic individual deployed longitudinal 
exposure records as called for by the President in August 1998 in 
Presidential Review Directive 5, ``A National Obligation, Planning for 
Health Preparedness for and Readjustment of the Military, Veterans, and 
Their Families after Future Deployments.''
    Today, the process of assembling individual longitudinal exposure 
records is labor intensive, but it can be done with available data. 
Over the next several years, we anticipate it will be possible to 
extract the medical record entries of all personnel who have received 
medical evaluation and care for confirmed exposures and also access an 
individual Servicemember's assignment history (dates and locations), 
including their peacetime, in-garrison assignments as well as their 
recent deployments. Their deployment histories will be used to retrieve 
archived OEH monitoring data for those deployment locations where 
exposures may have occurred, or existed, during the time the individual 
was deployed to that location. By merging deployment environmental 
monitoring data with the in-garrison occupational monitoring data and 
adding the medical record entries, we will be able to achieve the 
vision established by the President.
    In addition, the Department will be able to access population-at-
risk databases, such as the Personnel Blast and Contaminant Tracking 
System that records the names and other identifiers of personnel who 
have been involved in exposure incidents but may not have been affected 
severely enough to result in medical evaluation or treatment.
    Department of Defense Instruction 6055.05, ``Occupational and 
Environmental Health,'' requires DOD to share hazard and exposure data 
with the Department of Veterans Affairs (VA) to assist in adjudication 
of veterans' disability claims. Such records also are valuable in 
establishing diagnoses and treatment.
    To ensure that VA is aware of individual hazardous exposures, all 
individual exposure-related information is entered into each 
individual's medical record so it will be available to VA at the time 
of treatment or claims adjudication. Once electronic individual 
exposure records become a reality, they will be made available to VA.
    For several years, DOD and VA have collaborated through the DOD/VA 
Deployment Health Working Group, to focus on issues related to the 
post-deployment health of Servicemembers and veterans. Environmental 
and occupational exposures are a major focus of the group and discussed 
at nearly every monthly meeting.
    To reduce hazardous exposures or the resulting health impacts from 
potential exposures to deployed personnel, the Department provides all 
deploying Servicemembers comprehensive pre-deployment health threat and 
countermeasures briefings. Additionally, members also complete a pre-
deployment health assessment; provide serum samples; and obtain all 
necessary immunizations, preventive medications, and personal 
protective equipment they need prior to deployment.
    Following deployment, members provide an additional serum sample 
and complete a post-deployment health assessment within 60 days of 
return from deployment, followed by a post-deployment health 
reassessment within 90-180 days. In addition, personnel are referred to 
healthcare providers as necessary for the evaluation of any self-
reported OEH exposures or for other health concerns.
    For Operation Enduring Freedom and Operation Iraqi Freedom, we 
estimate that, on average, approximately four percent of deployed 
Servicemembers seek care for a non-battle related injury or illness 
each week. This is the lowest rate of disease and non-battle injuries 
ever recorded for a large operation in a time of war, and is a 
reflection, in part, of the effectiveness of Force Health Protection 
and OEH programs.
    Overall, the Department is pleased with both in-garrison/peacetime 
and deployed OEH programs that have been quite effective in identifying 
and controlling chemical, biological, and physical hazards. Of course, 
there is always room for improvement, and we are fully committed to 
bringing about those improvements.

    Mr. Chairman, thank you for the opportunity to discuss the DOD 
Occupational and Environmental Health Program with you. I would be 
pleased to answer any questions you may have.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
     Craig Postlewaite, DVM, M.P.H., Acting Director, Force Health 
Protection and Readiness Programs, Office of the Assistant Secretary of 
          Defense (Health Affairs), U.S. Department of Defense

    Question 1. What is the timeline for replacing burn pits with 
incinerators? Will all burn pits be closed?
    Response. U.S. Central Command (USCENTCOM) environmental 
operational guidance to its Service components in Iraq and Afghanistan 
is to eventually replace burn pits with incinerators. USCENTCOM 
Regulation 200-2 directs that when establishing expeditionary bases, 
``Develop a burn pit, landfill and/or incinerator operation to dispose 
of non-reusable solid waste. If a burn pit is used, develop a plan to 
transition to an incinerator as the camp matures and population 
increases.'' The regulation goes on to say, ``This will be done as soon 
as practical after the base is established.''
    In Iraq, to date, we have procured large commercial incinerators 
through Military Construction funding (MILCON) projects and, in most 
cases, turned them over to Logistics Civil Augmentation Program for 
daily operation. Because the MILCON process is slow, in Afghanistan, we 
purchased smaller incinerators (below MILCON threshold) through the 
Joint Acquisition Review Board process. Although procuring smaller 
units has required us to purchase more units, this process has allowed 
incinerators to arrive faster. More than 105 incinerators have been 
purchased or established at bases in both Iraq and Afghanistan, and 
have either replaced or significantly reduced the need for burn pits. 
However, to prevent the development and spread of disease carried by 
flies, rats, and other vermin, we will continue to require burn pits as 
a healthy and safe means of disposing of solid waste where camps are 
either immature or do not have the population to support an 
incinerator. Where feasible, landfill options or local commercial 
disposal are preferable alternatives to burn pits on U.S. bases but 
neither of these options are viable in our current operational 
environment. In Iraq, there are 23 solid waste incineration units in 
operation at major camps with two units under construction (these are 
separate and distinct from a similar number of medical waste 
incinerators and two units for hazardous waste, also in operation). The 
burn pit at Joint Base Balad was closed on October 1, 2009. United 
States Forces will continue to use burn pits at selected locations in 
Iraq until the final United States withdrawal of forces in 2011. In 
Afghanistan, there are 82 solid waste incinerators in the works, 
planned, or contracted for purchase and United States Forces--Army and 
USCENTCOM are developing requirements for additional incinerators. As a 
result of the drawdown in Iraq, USCENTCOM will transfer reusable 
incinerator equipment from Iraq to Afghanistan as it becomes available.

    Question 2. The number of servicemembers exposed to burn puts is 
high. How can health effects be properly monitored given the number 
affected?
    Response. The health of personnel in-theater is monitored at 
several levels:

    <bullet> At provider level, as individuals seek medical treatment 
at our in-theater medical treatment facilities and by medics deployed 
in the field. When a Servicemember is treated, the provider considers 
the cause of the illness. When an environmental factor may be 
responsible that is affecting several individuals, this information is 
elevated through command channels.
    <bullet> Individual diagnoses and symptoms are entered into the 
Servicemember's electronic medical record and sent to the Joint Medical 
Workstation, where population-based trends at the installation and in 
the theater can be identified to indicate if a problem requires 
investigation.
    <bullet> A health assessment questionnaire is provided (to those 
who deployed) at the conclusion of deployment and again at 90 to 180 
days after returning. This questionnaire offers the Servicemember the 
opportunity to identify any health concerns or problems experienced, 
and to identify any occupational or environmental exposure experienced 
or of concern. These questionnaires are reviewed by medical personnel 
to identify Servicemembers who warrant further evaluation or medical 
treatment.
    <bullet> Health outcome data, including any associated with the 
inhalation of burn pit smoke, is reviewed by the Armed Force Health 
Surveillance Center and the Department of Defense Deployment Health 
Research Center. Both organizations are examining the data closely to 
determine whether there may be any long-term health effects associated 
with smoke inhalation. While they have generated some preliminary 
assessments, it is too early to draw any conclusions until further 
studies are completed.

    We are aware that inhalation of the smoke from burn pits by our 
Servicemembers is responsible for mild, short-term health effects in 
some personnel to include red, watery eyes and irritation of the upper 
respiratory system and, in some cases, a cough. We also believe that, 
in a small number of people with either increased susceptibility to the 
smoke (genetic/family history, preexisting medical conditions) or 
combined burn pit smoke exposure with some other inhalation exposure, 
such as tobacco smoke, may be affected by more serious long-term health 
effects. The number of these people is quite small compared to the 
numbers exposed, so it is difficult to establish statistically solid 
relationships.

    Question 3. The Committee understands that there were four National 
Guard units--Indiana, West Virginia, Oregon and South Carolina--that 
were present at Qarmat Ali for a period of time. Please provide 
chronological data (timeline) on when each unit arrived, for what 
amount of time the unit was present, and when each unit left. In 
addition, please provide the approximate amount of personnel each unit 
had, and how many members of each unit were stationed at Qarmat Ali.
    Response. There were no U.S. Army units stationed at the Qarmat Ali 
water treatment facility. The U.S. Soldiers were based either in Kuwait 
or Basra, they provided individual protection details to KBR 
contractors. During the time a unit performed this mission, some 
soldiers may have been sent repeatedly to the Qarmat Ali facility, 
while others may have never been sent to the facility.
    The exact timelines for the mission support are not available, the 
approximate dates of the missions were:

          1st Battalion 162nd Infantry (Oregon Army National Guard)--
        started the personal security mission in April 2003, when KBR 
        began to conduct site visits and repairs. They continued the 
        mission until replaced by the Indiana Army National Guard in 
        the middle of June. After an overlap with the Indiana ARNG 
        Soldiers, the Oregon ARNG Soldiers moved to new missions at the 
        end of June. The unit supported the mission from Kuwait. Since 
        the actual work began at the site in May, the Oregon ARNG 
        Soldiers supported the mission for approximately six weeks. The 
        Oregon ARNG reported 278 soldiers were involved in this 
        particular mission. In 2003, when the Army conducted site 
        testing and medical evaluations, the unit reported 48 Soldiers 
        having been at the site.
          1092nd Engineer Battalion (West Virginia Army National 
        Guard)--From April until July 2003 the unit was assigned the 
        personal protection detail. The WV ARNG was based out of Kuwait 
        and chose to perform the mission by assigning the 
        responsibility to C Company for the entire period of the 
        mission. The WV ARNG period overlapped the Oregon and Indiana 
        ARNG mission change. In 2008, the unit reported having 124 
        Soldiers involved in the Project RIO mission.
          1st Battalion 152nd Infantry (Indiana Army National Guard)- 
        started the personal security mission in June 2003 when they 
        replaced the Oregon ARNG Soldiers. While the unit was based in 
        Kuwait, they chose to perform the mission by assigning it to 
        their C Company for the entire time. The C Company was moved to 
        Basra to be closer to the mission site. The Indiana ARNG 
        Soldiers performed the mission from June 2003 until December 
        2003. The Indiana ARNG reported 128 Soldiers involved in 
        mission. In 2003, when the Army conducted site testing and 
        medical evaluations, the unit reported 128 Soldiers having been 
        at the site.
          133rd Military Police Company (South Carolina Army National 
        Guard)--did not perform the personal protection mission. The SC 
        ARNG had a quick reaction force mission responsibility. Should 
        a unit in the area be engaged or need support, they would call 
        the 133rd and the 133rd would respond with rapid movement and 
        additional firepower. The SC ARNG Soldiers had this mission 
        from August 2003 until December 2003. The SC ARNG reported 
        having 142 Soldiers involved in the mission. In 2003, when the 
        Army conducted site testing and medical evaluations, the unit 
        reported 37 Soldiers having been at the site.

    In 2008, during the Army review of the incident, the units reported 
that soldiers not involved in the mission may have visited the site for 
a variety of administrative reasons. The ARNG headquarters of each 
state began a mission to contact each soldier to determine the exact 
number of soldiers who visited the site at Qarmat Ali between April and 
October 2003.

    Question 4. There have been several references made to 
correspondence between then-Secretary of Defense Cohen and then-
Ambassador Foley regarding the effects of the exposure from the 
Shinkampo Incineration Complex (SIC) near NAF Atsugi and possible 
courses of action by the Navy to protect the residents stationed there. 
Please provide copies of all correspondence between these individuals 
between 1985 and 2001 regarding NAF Atsugi.
    Response. [The Committee had not received the requested information 
by press time.]

    Question 5. The Department of Defense has stated that it is in the 
process of attaining the Social Security Numbers (SSNs) of soldiers 
from the four separate units that rotated through Qarmat Ali so that 
these individuals can be added to a database and their health effects 
can be analyzed. When do you expect this process to be complete? What 
will happen once this information is attained--who will it be shared 
with?
    Response. Gathering of information has been more difficult than 
anticipated and is taking longer than expected. More than 1,100 
Servicemembers were deployed to Iraq in the four units. Only about one 
third of those were known to have been directly involved in the mission 
that placed them at the Qarmat Ali facility (the site of the incident); 
the number of Servicemembers who may have had an incidental contact 
with the site (administrative visit, resupply effort, etc.) is unknown. 
The Army will count all unit members as potentially exposed until it 
confirms whether they were at the site. To complete this process, the 
Army will have to contact each individual. The Army's biggest challenge 
is to locate and contact those individuals who are no longer serving. 
Some have moved and not left forwarding contact information, others 
have not responded to attempts by the Army to contact them. Others are 
still in the Army, but are now deployed again to Iraq or Afghanistan. 
The Army continues to work this issue and will not stop until they have 
confirmed every individual who spent even a single day at the Qarmat 
Ali site. It is anticipated that there will be an initial transfer of 
SSNs that will occur by December 15, 2009, with monthly updates 
thereafter.
    The SSNs will be shared with two agencies: the Office of the 
Assistant Secretary of Defense for Health Affairs (OASD(HA)) and the 
Department of Veterans Affairs (VA). The VA will use the information to 
track the Servicemembers through a separate registry that they are 
establishing for this incident. The individuals will receive an entry 
level medical evaluation and regular medical evaluations to monitor 
their health and any issues that may arise from the exposure. The 
OASD(HA) will determine if any individuals were treated while in 
theater or after returning, and if any of those treatments were for 
conditions that may have been related to sodium dichromate exposure.

    Question 6. When will you provide the Department of Veterans' 
Affairs (VA) the data it has requested from you pertaining to veterans 
potentially exposed to chemicals at Camp Lejeune, so that VA can better 
determine care and compensation for these veterans?
    Response. The Veterans' Benefits Administration requested access to 
that data on October 21, 2009. The Deputy Commandant of the Marine 
Corps for Installations and Logistics will provide access to the 
requested data for the veterans possibly exposed to chemicals. The 
Marine Corps has contacted the VA and projects that access will be 
available in approximately three months (January 2010), depending on 
privacy act requirements and necessary permissions.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
 Craig Postlewaite, DVM, MPH, Acting Director, Force Health Protection 
    and Readiness Programs and Director, Force Readiness and Health 
                               Assurance

    Question 1. At the hearing, Mr. John Resta indicated that the 
Department of Defense (DOD) may be moving forward with additional air 
sampling and studies regarding the potential health effects of burn 
pits being used in Iraq and Afghanistan.

    A. Please provide additional details regarding any ongoing or 
planned air sampling related to burn pits.
    B. Is ongoing sampling being done near the living quarters of 
Servicemembers in Iraq?
    C. Would you please provide a timeline of when additional studies 
will be initiated and when we can expect the results?
    Response. Air sampling for particulate matter is conducted across 
Iraq and Afghanistan at locations with deployed preventive medicine 
personnel, which includes most of the larger United States base camps. 
Sampling for volatile organic compounds is also conducted. A multi-
Service group is developing a comprehensive air sampling strategy for 
United States Central Command, focusing on sites with significant air 
pollution sources such as burn pits. The group is considering potential 
air hazards, methods to collect samples in a deployed area, and how 
such data could be used to better characterize the air and estimate the 
health risk to deployed Servicemembers. The group's members will travel 
to six locations in Iraq and Afghanistan in early November 2009 to 
brief on historical air sampling results, discuss the current situation 
with medical personnel, and gain further understanding of the exposure 
situation and concerns. Upon return, they will update the draft 
strategy and present it to the Joint Environmental Surveillance Work 
Group Executive Committee in late November 2009 and to the Defense 
Health Board at the end of November 2009. Sampling is expected to begin 
by early 2010, assuming operational security conditions allow it.
    Air sampling locations are selected by deployed preventive medicine 
personnel based on their assessments of air hazards and the possible 
impact on the mission and potentially affected populations. These 
sampling locations frequently include living areas.
    Additional burn pit studies are expected to begin in early 2010. 
The actual dates may be affected by: equipment purchase and shipping, 
training, coordination of laboratory assistance, rotation schedules, or 
the operational situations at the locations of interest. Results are 
expected three to six months after the completion of field work.
    Epidemiologic studies to examine health outcomes that may be 
associated with smoke exposures have been initiated on behalf of the 
Armed Force Health Surveillance Center and the DOD Deployment Research 
Center, with two already completed. Each provided important data, but 
neither can be considered definitive in terms of whether any long-term 
health risks are present. A plan for additional studies to be 
accomplished has been outlined and several additional studies are 
underway. Some of these are hypothesis-generating studies that may 
require further studies. At this time, it is not possible to provide a 
firm date on when a determination can be made regarding the impact of 
breathing burn pit smoke on the incidence of chronic health conditions, 
but we should have a better idea by March 2010, when the planned 
studies are complete.

    Question 2. A February 2009 article in Inhalation Toxicology, 
written by employees from the United States Army Center for Health 
Promotion and Preventive Medicine, noted that authors of a 2005 journal 
article had ``conducted a survey of 15,000 military personnel deployed 
to [Operation Enduring Freedom/Operation Iraqi Freedom] and estimated 
that 69.1% reported experiencing respiratory illnesses, of which 17% 
required medical care,'' and that ``[t]he frequency of respiratory 
conditions doubled from a pre-combat period to a period of combat 
operations in this group.''

    A. What steps are being taken to ensure that possible respiratory 
illness is addressed in Post-Deployment Health Assessments?
    B. To what extent does the smoke from burn pits potentially 
contribute to respiratory health problems of deployed Servicemembers?
    Response. Post-Deployment Health Assessments that are accomplished 
within 30 days of returning to the Servicemember's home base or station 
and have a number of questions pertaining to smoke exposure and 
respiratory illness that each Servicemember is requested to answer:

    <bullet> Question #8, ``. . . cough lasting more than 3 weeks; 
trouble breathing more than 3 weeks; chest pain or pressure, and 
other'';
    <bullet> Question #16, ``Are you worried about your health because 
of exposure to chlorine gas, fog oils (smoke screen), garbage, 
industrial pollution, JP8 or other fuels, smoke from burning trash or 
feces, and other?'';
    <bullet> Page 6, Question #10, ``Do you have any other concerns 
about possible exposures or events?''; and
    <bullet> Question #11 (to be asked by a provider), ``Do you 
currently have any questions or concerns about your health?''

    Positive or ``yes'' answers to these questions are followed up by 
the healthcare provider to determine if a medical referral is needed, 
including for respiratory illness.
    The increase in respiratory conditions in-theater noted in the 
article was detected by analyzing the Post-Deployment Self Assessment 
data. Individuals' self-reporting of symptoms on questionnaires seems 
to increase from pre- to post-deployment, but the increase is not 
reflected in more objective measures of health status, namely health 
care encounters. The Army's Center for Health Promotion and Preventive 
Medicine has assessed the frequency of post-deployment inpatient and 
ambulatory care visits for respiratory conditions, and not found them 
to be associated with deployment (i.e., number of deployments and 
cumulative time deployed). The Department of Defense recognizes that 
exposure to burn pits smoke can cause acute, short-term and, (most 
often) mild respiratory health problems in Servicemembers. These 
symptoms include red, watery eyes, and mild upper system symptoms, 
(depending on the degree of smoke exposure) such as coughing and sinus 
congestion. It is possible that some individuals who have preexisting 
respiratory conditions may have those conditions aggravated by smoke 
exposures, or because of special susceptibilities, unique medical 
histories, or even as a result of combined exposures (such as use of 
cigarettes or cigars), could develop some type of chronic health 
effects. What is not known is what health conditions might fall into 
this category and how frequently such conditions may develop. The 
studies conducted to date have not demonstrated a significant increase 
on a population-wide basis in respiratory health outcomes after 
deployment. Additional epidemiologic studies are underway to identify 
any associated health conditions and the extent of any risks toward the 
development of long-term, chronic conditions.

    Chairman Akaka. Thank you very much, Dr. Postlewaite. And 
now we will receive the testimony of Dr. Gillooly.

 STATEMENT OF PAUL B. GILLOOLY, Ph.D., CAPT., MEDICAL SERVICE 
CORPS, U.S. NAVY (RET.), NAVY/MARINE CORPS PUBLIC HEALTH CENTER

    Mr. Gillooly. Chairman Akaka, distinguished Members of the 
Committee, I am Dr. Paul Gillooly, representing Navy Medicine. 
I am here to discuss Navy Medicine's efforts in evaluating the 
potential health risks for U.S. Navy personnel and their 
families living and working at Naval Air Facility Atsugi, 
Japan, from the operation of the adjacent privately-owned 
Shinkampo Incineration Complex referred to as the SIC.
    It is important to make clear our role in Navy Medicine is 
to conduct such studies when tasked and to act as advisors to 
Navy Line Officers, who as risk managers, make the final 
decisions with regard to implementing new policies or visions 
to existing policies in response to potential health threats in 
these situations.
    The incinerators were installed first in the early 1980s 
and burned municipal waste. Navy health concerns first arose 
around 1985 when the incinerator applied for and was granted a 
license to burn industrial waste. Navy Medicine's involvement 
began in 1994 and continued through the closing of the 
incinerator in 2001.
    Following the closure of the incinerator, we completed a 
comprehensive health risk assessment report in 2002. Navy 
Medicine conducted or sponsored three human health risk 
assessments, three epidemiological studies, and a medical 
screening study, all of which underwent high level external 
peer review. In addition, we coordinated the execution of a 
robust health and environmental risk communication plan.
    The first two screening health risk assessments conducted 
in 1994 and 1997 raised concerns for both cancer and non-cancer 
effects from exposure to the incinerator. In October 1997, the 
Bureau of Medicine and Surgery was tasked by Commander-in-
Chief, U.S. Pacific Fleet to conduct a comprehensive health 
risk assessment. The most significant results of the 
comprehensive risk assessment were as follows:
    The cancer risk for children under the age of six living on 
base for a 3-year tour of duty suggested that a child's 
exposure to contaminants from air and soil could potentially 
result in an additional lifetime cancer risk of 1.1 per 10,000. 
The calculated cancer risk for adults living or working on base 
for a 3- or 6-year tour of duty suggested that an adult's 
exposure to contaminants from air and soil falls within the 
EPA's acceptable cancer risk range of 1 in 10,000 to 1 in 
1,000,000.
    We worked closely with EPA throughout the life of this 
project, and EPA procedures and guidance were used in the 
development of the sampling plan, collection of the air quality 
data, quality assurance audits and procedures, and execution of 
the entire risk assessment methodology. This is an important 
point in that due to the absence of equivalent regulatory 
oversight by the Government of Japan, the U.S. Navy assumed 
that role. To ensure that equivalent standard of environmental 
protection we were committed to using the accepted and legal 
risk assessment methodology of the EPA.
    To respond to NAF Atsugi community concerns, Navy Medicine 
was given permission to conduct three health studies: a 
children's respiratory health study in 1998; a pregnancy loss 
or miscarriage study for women at NAF Atsugi, also in 1998; and 
a retrospective cohort study of disease just completed in 2009.
    There were no significant findings in either the children's 
respiratory study or the pregnancy loss study. The recently 
completed retrospective cohort study of disease was designed to 
determine if the incidence of disease associated with exposure 
to the emissions from the incinerator significantly differ for 
residents of NAF Atsugi from 1985 to 2001 when compared to a 
similar population in Yokosuka over that same time period.
    The study included over 5,600 active duty and over 11,000 
family members at NAF Atsugi former-resident cohort and found a 
significantly higher risk for dermal complaints, a non-cancer 
health effect, in the Atsugi population when compared to the 
Yokosuka population. No other area of analysis found 
significant differences in disease and illness incidence or 
health complaints.
    Navy Medicine then requested Battelle Memorial Institute, 
an external independent private agency, to review all available 
Navy Atsugi health risk assessment data and make 
recommendations for possible additional medical screening. 
Battelle stated: ``The conclusion of all previous evaluations 
are remarkable for their consistency. Residents of NAF Atsugi 
were exposed to ambient air and soil contaminants due primarily 
to emissions from the Shinkampo Incinerator Complex that were 
sufficient to produce an incremental increase in lifetime risk 
of cancer and increase the risk of respiratory non-cancer 
effects. However, since the incremental risk was relatively 
small, it would not be scientifically meaningful to provide 
broad medical screening for all potential exposed personnel.''
    In April 1998, at the direction of the Assistant Secretary 
of the Navy for Manpower and Reserve Affairs, Navy Medicine 
developed a comprehensive risk communication and health 
consultation plan. This plan addressed the means for providing 
information to the community, establish procedures for 
providing formal risk communication to everyone onboard NAF 
Atsugi and personnel negotiating orders to Atsugi, and 
implemented health consultations and documentation describing 
the potential exposure conditions at NAF Atsugi.
    In coordinating with the VA, the primary process followed 
by DOD and Navy Medicine is to ensure the VA is aware of 
individual hazards exposures and that the information is 
entered into the medical records of those affected, so it is 
available to the VA at the time of treatment or claims 
adjudication.
    This process was initiated for NAF Atsugi base residents 
beginning around 1995 to 1998 timeframe and continued until the 
incinerator closed in 2002. In June 2009, following a brief by 
Navy Medicine, the DOD/VA Deployment Health Working Group 
agreed the VA would receive a list of all affected active duty 
personnel stationed at NAF Atsugi from 1985 to 2001. This 
collection of information will aid in any future outreach or 
surveillance activities for this population as indicated.
    Presently, Navy Medicine, through the Navy and Marine Corps 
Public Health Center, has developed a Web site that provides 
all publicly available documents related to NAF Atsugi and a 
frequently asked questions section as a means of providing 
information to former Atsugi residents, their health care 
providers, and the VA. This Web site also has a link allowing 
any VA medical care provider the opportunity to contact a Navy 
physician directly for any additional information on health 
issues related to the NAF Atsugi exposures.
    Mr. Chairman, distinguished Members of the Committee, thank 
you for the opportunity to share with you Navy Medicine's 
efforts in evaluating exposures from the incinerator at NAF 
Atsugi.
    [The prepared statement of Mr. Gillooly follows:]

 Prepared Statement of Paul Gillooly, Ph.D., Captain, Medical Services 
   Corps, U.S. Navy (Retired) Navy/Marine Corps Public Health Center

    Chairman Akaka, Senator Burr, distinguished Members of the 
Committee: I am Dr. Paul Gillooly, representing Navy Medicine, to 
address Navy Medicine's efforts in relation to potential health risks 
for U.S. Navy personnel and their families living and working on Naval 
Air Facility (NAF) Atsugi, Japan, from the operation of the adjacent, 
privately owned, Japanese Shinkampo Incineration Complex (SIC).
    Navy Medicine conducted or sponsored three human health risk 
assessments, three epidemiological studies and a medical screening 
study.

                        HEALTH RISK ASSESSMENTS

    At the request of the Commanding Officer (CO), NAF Atsugi, in 1994, 
the Navy Environmental Health Center (NEHC) conducted a screening human 
health risk assessment (HRA) with data collected in July, August and 
September 1994 by Naval Facilities Engineering Services Center (NFESC). 
The assessment was considered to be a screening assessment because the 
air quality data collected by NFESC was not intended for human health 
risk assessment purposes but for compliance purposes, as it was 
collected over a limited period of time, of short duration and air was 
the only medium sampled. Groups of chemicals sampled included Volatile 
Organic Compounds (VOCs); Polycyclic Aromatic Hydrocarbons (PAHs); 
Organochlorine pesticides and Polychlorinated Biphenyls (PCB); Dioxins 
and Furans; and metals and particulates. The screening assessment was 
released in October 1995 and can be found at http://www-
nmcphc.med.navy.mil/downloads/ep/Atsugi/NAF%20ATSUGI%
20SCREENING%20RISK%2095%20image.pdf. This screening HRA indicated that 
the air quality at NAF Atsugi could raise the additional lifetime 
cancer risk to levels higher than the U.S. Environmental Protection 
Agency's (USEPA's) acceptable lifetime cancer risk range (i.e., 1 in 
10,000 to 1 in 1,000,000 additional cases of cancer) for children 
(under the age of six) spending a normal three-year tour of duty at NAF 
Atsugi. This risk assessment is based on the interpretation of the 
National Contingency Plan 40 CFR Part 300 (2003) Subpart E--Hazardous 
Substance Response Section 300.430 Remedial Investigation/Feasibility 
Study (d) Feasibility Study (2)(i)(a)(2). Current EPA regulatory risk 
assessment procedures estimate cancer risks as additional lifetime 
incidence. The screening risk assessment also indicated concerns for 
non-cancer health effects, related to trimethyl benzenes and chromium.
    The Commander in Chief, U. S., Pacific Fleet (CINCPACFLT) requested 
NEHC to conduct another screening HRA with 1997 air quality data 
collected by Earth Tech under contract to Naval Facilities Engineering 
Command Pacific. The data was collected to address compliance issues, 
as a result of the SIC owner's request to the Government of Japan to 
modify the operating permit to allow for an increase in operating hours 
and throughput. The second screening HRA supported the first with 
regard to indicating a similar level of concern for calculated cancer 
risk and concern for non-cancer health effects in the exposed 
population. It can be found at http://www.nmcphc.med.navy.mil/
downloads/ep/Atsugi / SCREENING % 2 0 LEVEL % 2 0 AIR_
TECHNICAL%20MEMO%20NOV%2098.pdf.
    In October 1997, the Bureau of Medicine and Surgery (BUMED) was 
tasked by Commander in Chief U.S. Pacific Fleet, to conduct a 
comprehensive HRA. Sampling for the assessment was conducted from March 
1998 until July 2000. Eight groups of air pollutants were monitored, 
including: acid gases; aldehydes and ketones; dioxins; PCBs and 
pesticides; particulate matter (PM10 and PM2.5) and heavy metals, 
mercury, VOCs, and semi-volatile organic compounds (SVOCs). In soil, 
sampling was conducted for metals; pesticides and PCBs; SVOCs; and 
dioxins. Sampling was conducted to collect representative data that is 
spatially and temporally distributed over various seasons and various 
weather and incinerator operating conditions. The results of the 
comprehensive health risk assessment were as follows: http://www.
nmcphc.med.navy.mil/downloads/ep/Atsugi/
Complete_Health_Risk_Assessment.PDF.
    <bullet> The cancer risk for children (under the age of 6) living 
on base for a 3-year tour of duty suggested that a child's exposure to 
contaminants from air and soil during a 3-year tour of duty could 
potentially result in an additional lifetime cancer risk of 1.1 per 
10,000.
    <bullet> The calculated cancer risk for adults living or working on 
base for a 3 or 6-year tour of duty suggested that an adult's exposure 
to contaminants from air and soil falls within the cancer risk range of 
1 in 10,000 and 1 in 1,000,000.
    <bullet> Eight groups of air pollutants were monitored, including: 
acid gases; aldehydes and ketones; dioxins; PCBs and pesticides; 
particulate matter (PM10 and PM2.5) and heavy metals, mercury, VOCs, 
and semi-volatile organic compounds (SVOCs). In soil, sampling was 
conducted for metals; pesticides and PCBs; SVOCs; and dioxins
    <bullet> Potential adverse non-cancer health effects that may be 
related to concentrations of chemicals in the air such as irritation of 
the eyes and upper respiratory system, headaches, and skin rash are 
short lived and directly related to exposure. Health effects related to 
some of the individual chemicals that cause respiratory effects may be 
reversible when an individual leaves NAF Atsugi. However, there is some 
concern that repeated long-term exposure to chemicals, in combination 
with others, might result in long-term, non-cancer health effects.
    <bullet> Because risk assessments use many assumptions and 
estimates, the final risk numbers always contain some uncertainty. 
Because of this, the numbers need to be interpreted with caution. The 
true risk numbers may be higher or lower; however, they are likely 
lower because there were many conservative assumptions and estimates 
used in the risk assessment to be health protective, as it was based on 
an upper bound risk. In the U.S., risk assessment results similar to 
those found at NAF Atsugi may, in some contexts, result in additional 
USEPA regulatory action. Legal and political action initiated by the U. 
S. Department of Justice eventually resulted in the closure of the 
Shinkampo Incinerator Complex in 2001.

                     EPIDEMIOLOGICAL HEALTH STUDIES

    To respond to NAF Atsugi community concerns, NEHC conducted three 
health studies, a Children's Respiratory Health Study (children at 
Yokosuka, Japan, and those on and off-base at Atsugi), a Pregnancy Loss 
Study for Women at NAF Atsugi, and a Retrospective Cohort Study of 
Disease.
Children's Respiratory Study
    The Children's Respiratory Study was designed to determine if air 
pollutants from the Shinkampo incinerator were affecting the 
respiratory health of children. Between 7 May 1998 and 5 June 1998, 127 
fifth and sixth grade children who attended Atsugi or Yokosuka DOD 
schools volunteers participated in a health study. The study can be 
found at: http://www-nmcphc.med.navy.mil/downloads/ep/Atsugi/
Complete_Health_Risk_Assessment.PDF.
    There were two primary goals of this study. The first was to 
determine if there were differences in respiratory health between 
children who live or go to school at NAF Atsugi and similar children 
who live at Yokosuka. The second goal was to identify whether the 
children who live or go to school at Atsugi have more respiratory 
symptoms on days when they were exposed to higher levels of pollutants 
from the SIC.
    Given the limits of this study, we were not able to document 
differences in the respiratory health of children living on or off base 
at NAF Atsugi versus those at Yokosuka.
Pregnancy Loss Study
    The Pregnancy Loss Study, designed to describe the rate of 
miscarriage at NAF Atsugi and other naval facilities in Japan, was 
conducted in the summer of 1998. The researchers examined hospital and 
clinic records for Navy personnel or their dependents who were pregnant 
and living in Japan at some point between June 1995 and May 1998. 
Information used to calculate the miscarriage rates came from three 
different sources, Delivery Logs at Naval Hospital Yokosuka (NHY), 
Pathology records at NHY and the Prenatal Log at the Atsugi Branch 
Medical Clinic. The study can be found at: http://www-
nmcphc.med.navy.mil/downloads/ep/Atsugi/
Complete_Health_Risk_Assessment.PDF.
    A total of 1862 pregnancies with known outcomes from NHY (including 
Atsugi, Yokosuka, Sasebo and Iwakuni) were examined. There were 1701 
live births and 130 miscarriages between June 1995 and May 1998. The 
corresponding miscarriage rate for this period was 7.1%. The rate at 
NAF Atsugi, determined from review of the prenatal log during the same 
period, was 8.8%. Statistically, there is no difference between the 
overall NH Yokosuka rate and the Atsugi rate. This rate was based on 
the examination of 353 total pregnancies, with 322 live births and 31 
miscarriages.
    Within study constraints, the results of the study indicated that 
the risk of miscarriage at NAF Atsugi was comparable to Yokosuka,
Retrospective Cohort Study of Disease
    In March 2007, Navy and Marine Corps Public Health Center (NMCPHC), 
formerly NEHC, was requested by the Navy Bureau of Medicine and Surgery 
(BUMED) to investigate the long-term health effects that might be 
associated with exposure to SIC emissions. NMCPHC reviewed the HRA to 
determine the appropriate diseases to study based on chemicals 
identified in the environmental sampling results. Target organs and 
illnesses were selected based on published environmental exposure 
literature from USEPA and peer reviewed literature. Using this 
information, the Atsugi Health Study was designed to determine if 
incidence of disease associated with exposure to the emissions of the 
SIC significantly differ for residents of NAF Atsugi from 1985 to 2001 
when compared to a similar population over the same time period. The 
study can be found at: http://www-nmcphc.med.
navy.mil/downloads/ep/Atsugi/Complete_Health_Risk_Assessment.PDF.
    The study included over 5,600 active duty and over 11,000 family 
members in NAF Atsugi former-resident cohort. Current medical 
information was available for 24% of active duty and 28% of dependents 
compared to 19% and 25% for comparison population. Outcomes were 
studied for 11 cancer types and non-cancer outcomes for ocular, dermal, 
and respiratory disorders.
    The results of the study found a significantly higher risk for 
dermal complaints, a non-cancer health effect, in the Atsugi population 
when compared to the Yokosuka population. No other area of analysis 
found significant differences in disease and illness incidence or 
health complaints. None of the types of cancer considered as possible 
associated with exposure to SIC pollution had significantly different 
risk ratios between the populations.
Medical Screening Study
    Navy Medicine, via the Navy and Marine Corps Public Health Center, 
requested Battelle Memorial Institute, an external private agency, 
independent from the Navy, to review the health risk assessment data 
and make recommendations for possible additional medical screening. 
Battelle Memorial Institute was requested to answer a specific question 
with supporting evidence: ``For those who lived aboard NAF Atsugi 
during the time of incinerator operation, what, if any, additional 
population-based medical screening might be indicated? Provide the 
medically supported basis for that determination.'' Furthermore, if 
additional population-based medical screening is indicated, recommend 
screening parameters, include the standard used and the expected 
outcome such screening would have on the population's health.
    As background for those not familiar with population-based medical 
screening, the U.S. Preventive Services Task Force (USPSTF), 
established in 1984 under the U.S. Department of Health and Human 
Services, has routinely published recommendations for primary care 
practitioners on what medical screening or testing should be provided 
to apparently healthy persons based on age, sex and risk factors for 
disease. These are general medical screening recommendations that are 
appropriate for any and all members of the U.S. population that are in 
the recommended screening group. These provide early detection of 
diseases ranging from cancer to mental health conditions. The 
recommendations can be accessed at: http://www.ahrq.gov/clinic/
prevenix.htm.
    From the Battelle report's Executive Summary: ``The conclusion of 
all previous evaluations are remarkable for their consistency: 
residents of NAF Atsugi were exposed to ambient air and soil 
contaminants [based on chemicals analyzed for the 2002 human health 
risk assessment], due primarily to emissions from the SIC, that were 
sufficient to produce an incremental increase in lifetime risk of 
cancer and increase the risk of respiratory non-cancer health effects. 
However, since the incremental risk was relatively small, it would not 
be scientifically meaningful to provide broad medical screening for all 
potentially exposed personnel.'' Because of the authors' opinion that 
there is no epidemiologic study protocol, with or without medical 
testing, capable of detecting the small number of cancers that could 
possibly have been caused by an environmental exposure from the 
incinerator against the normal background of cancer incidence in the 
human population, no additional screening or testing is recommended for 
disease that is not already evident.

                             COMMUNICATIONS

Communication with NAF Atsugi Population
    In April 1998, at the direction of Assistant Secretary of the Navy 
for Manpower and Reserve Affairs (ASN(M&RA)), NEHC developed a 
comprehensive risk communication and health consultation program. This 
was coordinated with the Bureau of Medicine and Surgery, NAF Atsugi, 
Branch Medical Clinic Atsugi, Commander Naval Forces Japan, Bureau of 
Naval Personnel and Commander in Chief, U.S. Pacific Fleet. The plan 
established procedures for providing formal risk communication to 
everyone onboard NAF Atsugi and personnel with orders to Atsugi. One-
on-one health consultations were conducted for all adults extending for 
more than six years on station, all adults who had children under the 
age of six, those with chronic respiratory conditions and pregnant or 
nursing women. A standard entry was made in medical records that 
described potential exposure conditions at NAF Atsugi.
    The program required that Navy Detailers mention the air quality 
issue and refer military members to medical and base points of contact 
for further information. It required overseas medical screeners discuss 
the health risks and provide a focused health consultation for 
individuals with orders to NAF Atsugi and a provide a fact sheet 
addressing potential risks of living and working at NAF Atsugi. A 
phased approach was established to inform individuals of potential 
risks to adults and children living or working at NAF Atsugi.
    A Health and Environmental Risk Communication Plan addressed the 
means for providing information to the community (e.g., base newspaper 
articles, public availability sessions, fact sheets, web sites, library 
repositories).
    Several different medical record forms were used at NAF Atsugi to 
respond to concerns from NAF Atsugi military personnel and their 
families about medical documentation and full disclosure of their 
potential exposure and possible health effects. All forms were placed 
in personnel and family permanent health records. Branch Medical Clinic 
Atsugi, with Bureau of Medicine and Surgery's approval, developed a 
medical record form that listed the maximum sampling concentrations 
measured in 1994 for 12 chemicals exceeding USEPA or New York State 
ambient air quality standards during the air quality study. These 
chemicals included: sulfur dioxide, nitrogen dioxide, hydrochloric 
acid, carbon tetrachloride, benzene, dioxins, cadmium, mercury, nickel, 
chromium, arsenic and respirable particulates. (http://www-nmcphc.
med.navy.mil/downloads/ep/Atsugi/Appendix_A_appendices.pdf) Cancer 
risks were also provided on this form. Beginning 1 March 1996, this 
form was inserted in medical records of all individuals that requested 
the documentation.
    During health risk communication and consultation at NAF Atsugi, 
which began in June 1998, a revised form was completed for every 
individual at NAF Atsugi and those with orders to NAF Atsugi. This new 
form documented full disclosure of potential exposures and possible 
health effects, related to environmental conditions, for each military 
member and family member based upon their medical history. The new form 
was signed by each adult family member (18 years and older) to 
acknowledge receipt of risk communication. The sponsor or spouse signed 
the new form for children under the age of 18. Additionally, all 
servicemembers and family members over the age of 17 indicated that 
they received a risk communication briefing by signing an 
``Administrative Remarks NAVPERS 1070/613 (Rev. 10-81),'' commonly 
referred to as a ``Page 13'' entry to be retained in their military 
record. Prior to detachment from NAF Atsugi, another medical form was 
completed to document arrival and departure dates and locations of 
residence, schools attended and employment, while assigned to NAF 
Atsugi.
Communication with the Department of Veterans Affairs (VA)
    The primary process followed by the DOD and Navy Medicine to ensure 
the VA is aware of individual hazardous exposures is to ensure all 
individual exposure-related information is entered into individual 
medical records of those affected so it is available to the VA at the 
time of treatment or claims adjudication. This process was initiated 
for NAF Atsugi base residents beginning in the 1995-1998 timeframe and 
continued until the incinerator closed in 2001. Navy Medicine follows 
the DODI 6055.05, ``Occupational and Environmental Health,'' Paragraph 
2.c., ``Data Sharing,'' which requires DOD to share hazard and exposure 
data with the VA to assist in adjudication of veterans' disability 
claims. However, there is no specific policy that identifies the 
conditions or circumstances that require notification to the VA of 
possibly harmful exposures.
    Presently, Navy Medicine, through the Navy and Marine Corps Public 
Health Center (NMCPHC) has developed a Web site that provides all 
publicly available documents related to NAF Atsugi and a Frequently 
Asked Questions (FAQ) section as means of providing information to 
former Atsugi residents, their health care providers, and the VA. These 
documents include the two health risk assessments from 1995 and 1998 
and the final comprehensive health risk assessment from 2002, which 
along with other studies and reviews, provides the necessary 
information from which the VA can adjudicate filed claims from military 
members stationed at NAF Atsugi. The Web site also has a link allowing 
any VA medical care provider the opportunity to contact a Navy 
physician directly for any additional information on health issues 
related to the NAF Atsugi exposures.
    For several years, DOD and VA have collaborated in the DOD/VA 
Deployment Health Working Group, which focuses on post-deployment 
health of Servicemembers and veterans. This working group has a major 
focus on environmental and occupational exposures, and it discusses 
these issues at nearly every monthly meeting. These issues have 
specifically included the Atsugi incinerator. In the case of the 
personnel who were stationed at Atsugi, Japan, the DOD/VA Deployment 
Health Work group received a briefing on the incinerator-generated 
exposures in June 2009 by the BUMED Occupational Medicine Program Head.
    In June 2009, following a brief by Navy Medicine, the DOD/VA 
Deployment Health Working Group agreed the VA would receive a list of 
all affected Active Duty personnel stationed at NAF Atsugi from 1985-
2001. These data come to the Navy and Marine Corps Public Health Center 
from the NAF Atsugi Retrospective Cohort Study of Disease, a cohort 
epidemiology investigation that utilized personnel records from the 
Defense Manpower Data Center to assemble the two cohorts for analysis. 
There were 5,635 Active Duty servicemembers identified from the Defense 
Manpower Data Center personnel records as being stationed at NAF Atsugi 
from 1985-2001. This collection of information will aid in any future 
outreach or surveillance activities for this population as indicated.

                          MEDICAL SURVEILLANCE

    After the Shinkampo Incinerator Complex shut down in 2001, outreach 
and health consultation activities centered on the specific 
environmental health exposures for the NAF Atsugi base population, were 
discontinued. The final health risk assessment performed by the Navy 
Environmental Health Center (NEHC), forwarded for release in 2002, did 
not reveal any major changes in the types of materials that posed risk 
to base residents nor the potential consequences to their health as 
determined in the 1995 and 1998 health risk assessments. Excess cancer 
risk was considered to be one new cancer above baseline per 10,000 
individuals who as adults stayed more than 6 years at NAF Atsugi or as 
child under six years of age stayed longer than 3 years. For 
perspective, this excess cancer risk is approximately the same for 
adults who live in Denver as opposed to another city at sea level due 
to increased exposure to naturally occurring ionizing radiation at the 
higher altitudes.

    Mr. Chairman, distinguished Members of the Committee, thank you for 
the opportunity to share with you Navy Medicine's efforts in relation 
to exposures at NAF Atsugi.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Daniel K. Akaka to Paul 
  B. Gillooly, Ph.D., CAPT, Medical Services Corps, U.S. Navy (Ret.), 
                 Navy/Marine Corps Public Health Center

    Question 1. Please provide the best estimate of the size of the 
population that was at Atsugi between 1983 and 2001. Of this 
population, how many were servicemembers and how many were dependents, 
both adult and children? Please also provide the ages of the children.
    Response. Due to past Navy initiatives at paperwork reduction, 
archive/disposal rules and available storage space, there is limited 
data available. Review of NAF Atsugi's primary mission reflected no 
major operational revisions during this time period and therefore the 
number of personnel on base would have remained fairly constant. 
Snapshot reviews of Command History, Housing Department files, and 
School records reflect the estimated population averages and 
demographics as follows:

    Officers Authorized...........................................   373
    Enlisted Authorized........................................... 2,532
    U.S. Civilians Authorized (U.S.C.S.)..........................   273
    NAFI Assigned.................................................   271
    Japanese Nationals (Master Labor Contract).................... 1,298
    Dependents on base............................................ 1,866
    Dependents off base...........................................   610

    Total servicemembers.......................................... 2,905
    Dependents on/off base........................................ 2,476

    NAF Atsugi only maintains an Elementary School. Junior and Senior 
Schools are offsite. School attendance records are not available 
between the years of 1993-2001. Children ages are not available, but 
school grades are provided (from which approximate ages can be 
extrapolated). Based on attendance files from 2006 to 2009 the 
following average enrollments numbers are:

    Pre-School....................................................    18
    Kindergarten..................................................    85
    1st Grade.....................................................    88
    2nd...........................................................    85
    3rd...........................................................    78
    4th...........................................................    66
    5th...........................................................    70
    6th...........................................................    51

    Question 2. Is there a study that can be done that will provide 
more accurate data than those done in the past? What would that look 
like?
    Response. The safety and health of our personnel deployed overseas 
is our number one priority. Therefore, a comprehensive human health 
risk assessment was conducted which included accurate and extensive 
ambient air, indoor air, and soil sampling in areas where our military 
and civilian members and their families lived, worked, and played.
    The June 2002, comprehensive ambient air samples were conducted 
approximately once every 6 days between April 1998 and June 1999. Five 
different ambient air locations and seven indoor air locations were 
sampled. A total of 344 ambient air samples and 67 indoor air samples 
were collected. During each sampling event, wind speeds and directions 
were also taken in order to correlate this data with ambient air 
findings. In March 1998, extensive soil samples were collected across 
the base.
    To ensure that the best science was used in the health risk 
assessment, Navy Medicine requested that the US Environmental 
Protection Agency (USEPA) and the National Academies of Science (NAS) 
review and comment on the draft comprehensive health risk assessment.
    USEPA scientists reviewing this health risk assessment generally 
concurred with the study design, methodologies, and conclusions. The 
NAS made positive comments regarding their confidence in the sampling 
techniques, data collected, and meteorological monitoring. Both made 
recommendations for the final report.
    Consequently, Navy Medicine made changes to the draft comprehensive 
health risk assessment report in response to USEPA and NAS comments and 
recommendations. The final comprehensive risk assessment report, dated 
June 2002, includes additional information and revisions in response to 
their comments and recommendations. The final report includes Navy 
Medicine responses to comments received from USEPA (Appendix B--51 
pages) and the NAS (Appendix C--98 pages), which follows this response. 
Navy Medicine expended approximately an additional nine months, 
responding to these recommendations and incorporating changes to the 
comprehensive health risk assessment, to ensure the best science 
possible was used in support of our Navy community.
    Last, the Agency for Toxic Substances and Disease Registry (ATSDR) 
reviewed the health risk assessment and provided the following 
statement: ``Based on the level of detail presented in the Navy's 
assessments and the reviews of those documents, especially those 
performed by the National Research Council [NAS], we concluded that 
additional public health assessment activities by ATSDR are not 
necessary as they would not provide an evaluation that is any more 
definitive than those that have already been conducted.''

                              Attachment B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Attachment C

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 3. Why did the Navy wait so many years before acting 
against the SIC operation?
    Response. The incinerator operation was located outside the fence 
line of NAF Atsugi on the sovereign territory of the host Nation. The 
operation began as a small burn pit and grew to a full scale 
incinerator over the years. The Navy was very proactive and began 
monitoring plant operations and air sampling as early as September 
1988, followed by the conduct of the Navy Medicine Comprehensive Health 
Risk Assessment . The Navy shared the data with the GoJ via USFJ, and 
pursued solutions through the Host government at the highest levels of 
DOD, the State Department, and other official channels [Justice 
Department] until the GoJ finally took action on the issue and the 
operation was subsequently closed in 2001.

    Question 4. On what date did the Navy require SF600s to be placed 
in servicemembers' medical records?
    Response. Beginning in March 1996 and ending sometime after the 
incinerator was shut down in May 2001, several different SF600s were 
developed for inclusion in medical records of individuals assigned to 
Naval Air Facility Atsugi.
    <bullet> The first SF 600 developed, listed the maximum sampling 
concentrations measured in 1994 for 12 chemicals exceeding USEPA or New 
York State ambient air quality standards during the air quality study 
conducted by Naval Facility Engineering Services Center. Cancer risks 
were also provided on this SF600. Beginning 1 March 1996, this SF 600 
was inserted in medical records of all individuals that requested the 
documentation.
    <bullet> In February 1998, BUMED sent an Administrative Message 
regarding overseas screening for NAF Atsugi Japan indicating 
``Effective immediately, for all family members being screened for 
overseas assignment for NAF Atsugi, place an overprinted SF600 
articulating the situation in the individuals health records text for 
the SF600 follows: ``To be retained permanently in the health record. 
This SF600 is to document full disclosure of potential environmental 
exposures for all personnel and their families who are assigned to NAF 
Atsugi. Authority: Chief BUMED 262200ZFebruary 98.
    <bullet> In May 1998, Commander in Chief, U.S. Pacific Fleet sent 
an Administrative Message regarding ``Risk Communication and Health 
Consultation Plan for Naval Activities Onboard Naval Air Facility 
Atsugi Japan.'' The message addressed the implementation of a 
Comprehensive Risk Communication and Health Consultation Plan.
    <bullet> In July 1998, BUMED sent an updated Administrative Message 
regarding overseas screening for NAF Atsugi Japan to address this 
``Detailed Comprehensive Risk Communication and Health Consultation 
Plan for NAF Atsugi.''
    The comprehensive health risk communication and consultation at NAF 
Atsugi began in June 1998. A revised SF 600 was developed to be 
permanently retained in the medical records for every individual at NAF 
Atsugi and those with orders to NAF Atsugi. The purpose of the SF600 
was to document potential exposures and possible health effects, 
related to environmental conditions, for each military member and/or 
family member based upon their medical history. An SF600 overprint was 
to be completed at the time of the member's Departure Health 
Consultation to document the history on where servicemembers and family 
members lived, worked, or attended school or day care while at NAF 
Atsugi.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
Paul B. Gillooly, Ph.D., CAPT, MSC, USN (Ret.), Public Health Assessor, 
                 Navy Marine Corps Public Health Center

    Question 1. The Shinkampo Incineration Complex operated near Naval 
Air Facility (NAF) Atsugi from 1985 to 2001.
    A. During that time, were there any recommendations made within the 
Navy to relocate military families stationed at Atsugi?
    B. If any such recommendation was made, where did the 
recommendation originate in the Navy and what was the final disposition 
of the recommendation?
    Response. Relocation of families was considered, but was regarded 
as a significant morale issue for a forward-deployed air wing. At a 
point during the time period, families were provided notice of the 
concerns surrounding the Shinkampo Incineration Complex prior to moving 
to Atsugi NAF and had the option of curtailing their tour. USFJ was 
fully engaged in the Shinkampo issue, and consistently raised the 
Shinkampo problem at Joint Committee meetings with the Government of 
Japan.

    Question 2. In June 2009, the Navy and Marine Corps Public Health 
Center released an ``Executive Summary for NAF Atsugi Health Study,'' 
which compared health outcomes experienced by NAF Atsugi residents with 
health outcomes of individuals stationed at another base in Japan. 
According to that summary, ``[c]entral nervous system, liver and kidney 
damage were not included [in the study] for their non-cancer effects 
because the available literature was felt to be inadequate regarding 
the very low levels reported'' in the Navy's 2002 Human Health Risk 
Assessment. However, the medical records of former NAF Atsugi residents 
contain a form explaining that they were exposed to 12 emissions that 
exceeded the Environmental Protection Agency's ambient air quality 
standards.
    A. Is the Navy aware that the Agency for Toxic Substances and 
Disease Registry has found that exposure to some of those chemicals, 
such as carbon tetrachloride, may cause liver, kidney, and central 
nervous system damage?
    Response. Yes, the Navy is aware that the Agency for Toxic 
Substances and Disease Registry (ATSDR) publishes a list of reported 
health effects from studies that include some of the chemicals that 
were also found in the NAF Atsugi Health Study. These documents were 
reviewed when determining the health effects to include in the NAF 
Atsugi Study. ATSDR also reported levels of exposure at which these 
effects might be observed in humans, but these levels were much greater 
than those reported in the Navy's 2002 Human Health Risk Assessment. 
The presence of a chemical is not sufficient to associate it as the 
cause of disease. The studies cited by ATSDR were mostly occupational 
and had exposures much higher than those measured, during the NAF 
Atsugi, Japan Human Health Risk Assessment, dated June 2002.
    As stated in the full report of the NAF Atsugi Health Study 
(Paragraph V.A.2), the ambient air concentrations measured in Atsugi 
were primarily compared to the concentrations reported by the US 
Environmental Protection Agency (USEPA). If the USEPA did not have a 
current risk assessment, other sources were used for the health effects 
comparison. As an example, the mean ambient air concentration for 
carbon tetrachloride was reported to be 0.616 micrograms per cubic 
meter of air (ug/m3). For comparison to the levels reported by USEPA 
and in the literature, the mean value had to be converted to parts per 
million (PPM). Based on the atomic mass of carbon tetrachloride, 0.616 
ug/m3 converts to 0.1 PPM (at 20 degrees centigrade and 1 atmosphere of 
pressure). When this level is compared to the studies cited in the 
ATSDR Toxicological Profile for Carbon Tetrachloride, no non-cancer 
health effects were observed in humans.
    B. What steps does the Navy intend to take to ensure that these or 
other relevant health effects are considered in investigating the long-
term health effects that might be associated with the exposures at NAF 
Atsugi?
    Response. Navy Medicine has not been tasked to investigate the 
long-term effects for residents of Atsugi when the incinerator was 
operating. Navy Medicine does not have full access to the medical 
information for persons once they leave active service.

    Question 3. The Navy testified that a Department of Defense and 
Department of Veterans Affairs working group ``agreed the VA would 
receive a list of all affected Active Duty personnel stationed at NAF 
Atsugi from 1985-2001'' and that this information ``will aid in any 
future outreach or surveillance activities for this population.''
    A. In addition to maintaining a Web site with information related 
to NAF Atsugi, what future outreach activities and public 
communications does the Navy intend to use to ensure that former NAF 
Atsugi residents are aware of the environmental exposures related to 
the Shinkampo incinerator?
    Response. The Navy Marine Corps Public Health Center (NMCPHC) web 
page is BUMED's primary means of communicating the information to those 
with questions and concerns.
    The maintenance and updating NMCPHC's Web site is Navy Medicines 
primary means of communicating this information. Further communication 
plans fall outside of Navy Medicine's purview.
    B. Has the Navy already shared with VA the names of individuals who 
were stationed at NAF Atsugi between 1985 and 2001? If not, when will 
those names be provided to VA?
    Response. As mentioned during the hearing, Navy Medicine has 
presented the pertinent information before the DOD/VA Deployment Health 
Working Group focusing on environmental exposures on 11 June 2009. The 
VA is aware of the type of information Navy Medicine has available, but 
to date no official request from the VA has been received by Navy 
Medicine.

    Chairman Akaka. Thank you very much, Dr. Gillooly, for your 
testimony, and now we will receive the testimony of General 
Payne.

  STATEMENT OF MAJOR GENERAL EUGENE G. PAYNE, JR., ASSISTANT 
 DEPUTY COMMANDANT, INSTALLATIONS AND LOGISTICS (FACILITIES), 
                HEADQUARTERS, U.S. MARINE CORPS.

    General Payne. Senator Akaka, Senator Burr, thank you for 
the opportunity to appear before you and participate in this 
hearing regarding past drinking water exposures at Marine Corps 
Base Camp Lejeune.
    My name is Major General Gray Payne and I am the Assistant 
Deputy Commandant for Installations and Logistics for 
Facilities. In that regard, I am responsible for Marine Corps 
facilities and services issues on all of our installations, to 
include environmental protection.
    The health and welfare of our Marines, sailors, their 
families, and our civilian workers are a top priority for the 
Marine Corps. The Marine Corps is and always has been a very 
large family and we all know people, including myself, who are 
stationed or worked at Marine Corps Base Camp Lejeune during 
their military careers.
    The Marine Corps is deeply concerned with all the military 
and civilian families who are experiencing or have experienced 
any health issues. We understand that there are those who 
believe their health concerns may be a result of time spent at 
Camp Lejeune. The Marine Corps consists of war fighters and 
those who directly support war fighters. We have no public 
health experts.
    Accordingly, we rely on the expertise of the scientific 
organizations like the Agency for Toxic Substances and Disease 
Registry, or ATSDR, and the National Academies National 
Research Council, or NRC, to inform our understanding of this 
issue. We have provided over $14.5 million in funding and have 
exhausted countless man hours and direct support of research 
initiatives. Unfortunately, the studies completed to date have 
not determined whether or not there is an association between 
the past contamination and adverse health effects.
    We would like nothing more than to have those hard 
questions answered. So, we will continue to support and 
cooperate with the Department of Veterans Affairs, the ATSDR, 
and the NRC in an effort to get answers for those of our Marine 
Corps family who may have been exposed to volatile organic 
compounds in drinking water at Camp Lejeune in the past.
    Sir, you have my written statement, so in the interest of 
time, I will conclude my remarks, and I am certainly available 
to answer any questions you may have.
    [The prepared statement of General Payne follows:]
  Prepared Statement of Major General Eugene G. Payne, Jr., Assistant 
    Deputy Commandant for Installations and Logistics (Facilities), 
                    Headquarters, U.S. Marine Corps.

    Senator Akaka, Senator Burr, distinguished Members of the 
Committee; thank you for the opportunity to appear before you and 
participate in this hearing regarding past drinking water exposures at 
Marine Corps Base Camp Lejeune. My name is Major General Gray Payne and 
I am the Assistant Deputy Commandant for Installations and Logistics 
for Facilities. I am responsible for Marine Corps facilities and 
services issues on our installations, to include environmental 
protection.
    The health and welfare of our Marines, Sailors, their families, and 
civilian workers are a top priority for the Marine Corps. The Marine 
Corps is and always has been a large family, and we all know people, 
including myself, who were stationed or worked at Marine Corps Base, 
Camp Lejeune during their military careers. The Marine Corps is deeply 
concerned with all the military and civilian families who are 
experiencing or have experienced any health issues and we understand 
that there are those who believe their health concerns may be a result 
of time spent at Camp Lejeune. The Marine Corps consists of war-
fighters, and those who directly support war-fighters. We have no 
epidemiological experts, and accordingly we rely on the expertise of 
scientific organizations like the Agency for Toxic Substances and 
Disease Registry (ATSDR) and the National Academies, National Research 
Council (NRC) to inform our understanding of this issue. We have 
provided over $14.5 million in funding and have exhausted countless 
man-hours in direct support of research initiatives. We will continue 
to support and cooperate with the Veterans Administration, the ATSDR 
and the NRC in an effort to get answers for those of our Marine Corps 
family who may have been exposed to volatile organic compounds (VOC) in 
drinking water at Camp Lejeune.

                          HISTORY OF DISCOVERY

    It is important to keep in mind that the 
events surrounding this situation occurred over 25 years ago. 
Environmental standards and regulations have changed dramatically over 
the intervening years as a result of advances in scientific knowledge 
and increased public awareness. The events at Camp Lejeune must be 
considered in light of the scientific knowledge, regulatory framework, 
and accepted industry practices that existed at the time, rather than 
in the context of today's standards.
    Trichloroethylene [TCE] and tetrachloroethylene [PCE] were 
discovered in the Camp Lejeune drinking water in the early 1980's. The 
circumstances that led up to the discovery are as follows. In 1981, 
Camp Lejeune officials became aware that VOCs were interfering with the 
analysis of potable water samples that were being collected in 
preparation for the implementation of future drinking water standards 
for Total Trihalomethanes (TTHM). Sampling conducted by a Navy 
contractor revealed that another chemical present in the water sample 
was interfering with the analysis; however, the type of chemical and 
source were unknown. Base personnel continued to sample the water for 
TTHMs over the next several years using various laboratories with 
varying results. Through targeted sampling in 1982, two of Camp 
Lejeune's eight public drinking water systems were determined to be 
contaminated by two chemicals--TCE and PCE. TCE and PCE are chemicals 
commonly found in degreasing agents and dry cleaning solvents 
respectively. It is important to note that there were no drinking water 
regulations in place for TCE, PCE, benzene, or vinyl chloride at the 
time of discovery. In the early 1980's, the Naval Assessment and 
Control of Installation Pollutants (NACIP) program, a precursor to the 
Department of the Navy (DON) Installation Restoration Program, was 
already in the process of identifying contaminated sites on Base for 
further sampling and investigation. Plans were in place to sample 
potable wells near the identified contaminated sites. It was these 
sampling events that identified, between late 1984 and early 1985, 
individual wells that contained groundwater impacted with TCE and PCE 
and other VOC's such as benzene. As the Base received sampling data on 
impacted wells, the wells were promptly removed from service. A 
separate investigation by the State of North Carolina in 1985 revealed 
leaks from an off-base dry cleaner had contaminated the wells near the 
Tarawa Terrace housing area. The Hadnot Point water system was 
contaminated by on-base sources. As referenced above, no drinking water 
standards for TCE or PCE were in place at the time of discovery, and 
all impacted wells were voluntarily removed from service promptly by 
Base direction in late 1984/early 1985. Initial regulation of these 
volatile organic compounds under the Safe Drinking Water Act did not 
begin until 1987. Final regulations on the chemicals were in force in 
1989 and 1992, respectively.

                              NOTIFICATION

    Camp Lejeune first notified military personnel and family members 
about the impacted drinking water on December 13, 1984, through an 
article appearing in Camp Lejeune's newspaper, The Globe. Camp Lejeune 
also distributed a public notice to residents of Tarawa Terrace on 
April 30, 1985. In May 1985, Camp Lejeune issued a press release 
announcing the water contamination problem and explaining the steps 
being taken to restore water services to the affected base residents. 
Jacksonville Daily News and Wilmington Morning Star printed stories on 
the situation on May 11 and 12, 1985.
    In 2000, ATSDR requested assistance from the Marine Corps to reach 
additional participants for a survey they were conducting. At the time, 
the number of participants was approximately 6,500. ATSDR needed over 
12,000 for a statistically valid study. The Marine Corps played an 
active role in assisting ATSDR in identifying participants eligible for 
the survey through both targeted and global notifications. In January 
2000, Camp Lejeune held an ``open house'' with base residents and the 
Jacksonville community to discuss issues about the drinking water 
previously discovered to contain VOCs. In August 2000, Headquarters 
Marine Corps sent a message to all Marines worldwide in an effort to 
reach potential ATSDR survey participants. In addition, articles were 
published in numerous base newspapers including the Quantico Sentry, 
Camp Lejeune Globe, and Camp Pendleton Scout, which have a large 
readership of both active duty and retired military members. Camp 
Lejeune also solicited participants for the ATSDR survey by sending a 
press release to other military base publications. In November 2000, 
Headquarters Marine Corps held a press brief at the Pentagon asking 
media to assist in helping to reach survey participants. On January 25, 
2001, Headquarters Marine Corps sent a second message to all Marines 
worldwide in an effort to reach potential ATSDR survey participants. In 
February 2001, regional media outreach efforts began, and outlets 
reached included:

    (A) TV Stations--1027 outlets
    (B) Daily Newspapers--1373 outlets
    (C) Weekly Newspapers--1171 outlets
            Total: 3571 media outlets contacted.

    In 2001, Headquarters Marine Corps requested approval from the 
Department of Defense to release to the ATSDR the Social Security 
numbers of potential survey participants. In July 2001, Headquarters 
Marine Corps received approval from DOD for a limited release of Social 
Security Number information covered by the Privacy Act to the ATSDR in 
order to support the ATSDR's survey participant location efforts. Based 
on extensive data searches by Headquarters Marine Corps, contact 
information for the names of potential survey participants was 
identified and forwarded to the ATSDR.
    The FY08 National Defense Authorization Act mandated that the 
Secretary of the Navy attempt to directly notify former residents of 
Camp Lejeune of their potential exposure to the chemicals. The Act also 
required that ATSDR develop a health survey to be included with the 
notification letter. On Sept. 14, 2007, the Marine Corps posted a link 
to the registration database on its Web site (www.marines.mil/clsurvey) 
so that former Camp Lejeune residents and workers as well as interested 
parties can be placed on a contact list to receive notification and 
information regarding this important issue. The call center became 
operational September 17, 2007 and is used as another tool to locate 
former residents and workers and register them to receive additional 
updates to the ongoing studies. In addition to direct notifications, 
the Marine Corps continues to use various general communication venues 
to reach former base residents and workers to encourage them to 
register. This general notification has included articles and/or 
advertisements in: newspapers such as USA Today; periodicals such as 
Time and Newsweek; internet advertisements on general consumer Web 
sites such as WebMD and Weather.com.; military related Web sites such 
as the Leatherneck, U.S. Navy Institute, and the Vietnam Veterans 
Association; internet search engines such as Yahoo! and Google; and 
radio broadcasts. As of September 28, 2009, more than 140,000 
individuals have been registered with the Marine Corps.

                        ATSDR HEALTH INITIATIVES

    All military installations on the National Priorities List of 
hazardous waste sites, including Camp Lejeune which was listed in 1989, 
undergo a Public Health Assessment conducted by the ATSDR to determine 
if there are any current or past health concerns resulting from past 
practices.
    In 1992, the Agency for Toxic Substances and Disease Registry 
(ATSDR) made its first of many site visits to Camp Lejeune as part of 
its statutory duty to conduct a public health assessment (PHA). In 
1997, the ATSDR published its PHA for Camp Lejeune. In the PHA, the 
ATSDR stated that the Volatile Organic Compound-impacted water would 
not likely harm adults. (Earlier this year ATSDR withdrew the PHA from 
their Web site in part because it believes that the statement was 
overly reassuring.). The ATSDR recommended, however, an epidemiological 
study of former Camp Lejeune residents to determine what effect, if 
any, the VOCs may have had on the health of prenatal children. This 
population was considered by the ATSDR to be the most susceptible 
population to health impacts from VOCs. In support of this 
recommendation, a health study began in 1999 as a survey to determine 
whether or not a statistically significant study population could be 
reached for a case control study. In January 2002, the ATSDR closed its 
survey with 12,598 eligible participants, and began its analysis of 
survey results. In July 2003, the ATSDR released a progress report of 
the survey and concluded that a follow-on case control/epidemiological 
study was warranted. The Marine Corps actively participated in 
publicizing this report through a press release, a Web cast by the 
Deputy Commandant for Installations and Logistics, and by posting 
survey information on the Marine Corps Camp Lejeune drinking water web 
page. ATSDR also determined in 2003 that extensive water modeling would 
be needed at Camp Lejeune in support of the case control study. That 
water modeling continues today and is currently projected to be 
complete in September 2011. The case control study will be completed 
sometime thereafter.
    In 2005, the Marine Corps hired a contractor to perform a 
comprehensive search of Camp Lejeune to provide a better confidence 
level that all potentially relevant documents had been found. ATSDR and 
other interested parties have been provided access to all documents 
that were found. In addition, we have been working with agencies 
outside of the Marine Corps to ask them to provide information that may 
be under their control.

                 INDEPENDENT REVIEWS AND INVESTIGATIONS

    Three independent reviews have been conducted of the actions taken 
by Marine Corps personnel on this matter: an Independent Drinking Water 
Fact-Finding Panel chartered by the Commandant of the Marine Corps, an 
EPA Criminal Investigation Division investigation, and a Government 
Accountability Office review.
    In 2004 the Fact-Finding Panel determined that Camp Lejeune 
provided drinking water at a level of quality consistent with general 
water industry practices in light of the evolving regulatory 
requirements at the time.
    In 2005 the EPA concluded that there had been no violations of the 
Safe Drinking Water Act, no conspiracy to withhold information, falsify 
data, or conceal evidence.
    In 2007 the GAO issued a report that describes efforts to identify 
and address the past contamination, activities resulting from concerns 
about possible adverse health effects and government actions related to 
the past contamination. The report had no findings or recommendations 
for the Marine Corps.
    In accordance with the 2007 National Defense Authorization Act, the 
Marine Corps contracted with the National Academy of Sciences--NRC to 
review the evidence regarding potential associations between exposure 
to contaminated drinking water at Camp Lejeune and adverse health 
effects in prenatal children, children, and adults. The NRC review 
report concluded that while former Camp Lejeune residents and workers 
were exposed to unregulated solvents, there are no conclusive 
associations between adverse health effects and exposure to the 
impacted water at the base. The report opined that further study was 
unlikely to provide definitive information about the health effects of 
such exposure. The report noted that the highest levels of either TCE 
or PCE measured in the mixed-water samples at Camp Lejeune were much 
lower than the lowest dose that caused adverse effects in the most 
sensitive strains of species of laboratory animals. The review 
concluded, however, that even though adverse effects were unlikely, 
they could not be ruled out completely and that the DON (and other 
policymakers) should move forward with responses they deem appropriate 
based on available information.
    We are aware of ongoing assessment activities currently being 
undertaken by the US EPA and remain interested in that process.

            COORDINATION WITH DEPARTMENT OF VETERANS AFFAIRS

    As part of the Marine Corps robust outreach and notification 
campaign we have worked extensively with various Veterans Affairs 
offices. In 2007 and 2008 we sent notification and registry posters to 
a total of 210 VA centers in all 50 states as well as the US 
Territories and Washington, DC . We also sent copies of posters in 2007 
and 2008 to VFW District Offices and Military Treatment Facilities in 
all fifty states, US Territories and Washington, DC. In addition, in 
March of this year, we worked with VA public affairs to alert VA 
program directors and other executives of new information about the 
water contamination issue via an email release. In particular, this 
email release provided information on the pending release of the 
National Research Council research. VA personnel were asked to directly 
contact HQ USMC public affairs for additional information and 
assistance.

                               CONCLUSION

    I have received letters from, and have personally spoken with 
individuals who feel that they have been harmed by Camp Lejeune water. 
Their stories are very sad, and my heart goes out to them. The Marine 
Corps has done and is doing everything it can for them, recognizing 
that we are not scientists or health care professionals, and neither 
can we address claims for compensation. What we can do, have done, and 
commit to continuing to do is to cooperate with the Veterans 
Administration, the ATSDR, the NAS, and other appropriate agencies and 
scientific organizations as they address the scientific and medical 
issues, and keep our Marine family informed of any progress.
                                 ______
                                 
Response to Post-Hearing Question Submitted by Hon. Daniel K. Akaka to 
  Major General Eugene G. Payne, Jr., Assistant Deputy Commandant for 
  Installations and Logistics (Facilities), Headquarters, U.S. Marine 
                                 Corps.

    Question 1. Please provide us with a detailed breakdown of the 
number of servicemembers and family members who lived or worked on Camp 
Lejeune between 1957 and 1987. Specifically, please detail the number 
of active duty servicemembers, spouses, children, and number of babies 
born to servicemembers during that time period.
    Response. Unfortunately, detailed data for servicemembers and 
family members who lived or worked on Camp Lejeune between 1957 and 
1987 does not exist. The Marine Corps can only make crude estimations 
extrapolated from the limited available data using assumptions that 
will likely produce conservatively high estimations. We estimate that 
at Camp Lejeune between 1957 and 1987 there were:


    <bullet> As many as 630,000 servicemembers.
    <bullet> As many as 60,000 spouses.
    <bullet> As many as 60,000 dependent children.
    <bullet> As many as 30,000 births.
    <bullet> Total population estimate = 500,000-800,000

Note: These estimates do not include Marine Corps Air Station New 
River. Data from the Defense Manpower Data Center (DMDC), Camp Lejeune 
housing, Camp Lejeune schools, and Agency for Toxic Substances and 
Disease Registry (ATSDR) studies were used to produce these estimates.

    Question 2. How many servicemembers who were on active duty between 
1957 and 1987 at Camp Lejeune are still on active duty?
    Response. The Marine Corps does not maintain such data. We have 
contacted the Defense Manpower Data Center to see if an estimate is 
possible.

    Question 3. When did the Marine Corps know about TCE and PCE 
contaminants in the water at Camp Lejeune, and what did the Marine 
Corps do about it?
    Response. Volatile organic compounds (TCE, PCE, benzene and others) 
were discovered in the drinking water at Camp Lejeune in the early 
1980's.
    In 1981, Camp Lejeune officials first became aware that VOCs were 
interfering with the analysis of potable water samples that were being 
collected in preparation for the implementation of future drinking 
water standards.
    In 1982 and 1983, continued testing identified two VOCs of primary 
concern--trichloroethylene (TCE), a metal degreaser, and 
tetrachloroethylene (PCE), a dry cleaning solvent--in two water systems 
that served base housing areas, Hadnot Point and Tarawa Terrace. 
Notably, TCE and PCE were not regulated under the Safe Drinking Water 
Act until 1989 and 1992 respectively. Additional testing at the same 
sources, but later in time, resulted in variances on the level of 
contaminants discovered within the water. Navy Assessment and Control 
of Installation Pollutants (NACIP) program plans were already in place 
to identify contamination sites and to sample potable wells near such 
sites.
    In 1984, the source of contamination was found when the NACIP 
program identified VOCs in some of the individual wells serving the 
Hadnot Point and Tarawa Terrace water systems. As impacted wells were 
identified, they were promptly removed from service.
    Following the initial discovery of contamination in the wells in 
1984, the Base Commanding General sent a notification letter to 
residents, and the Public Affairs Office ran an article in the Base 
newspaper and held a press event with local media.
    As more information became available through further studies the 
Marine Corps' outreach efforts broadened to the national population.
    The Marine Corps has collaborated with the ATSDR from the beginning 
of its studies to determine the extent of the contamination, and 
whether adverse health effects may have resulted from it. For example, 
in 1999, the Marine Corps conducted an outreach/mass media campaign to 
assist the ATSDR in locating potential participants for the scientific 
study. This study population included parents that were pregnant while 
living in on-base housing from 1968-1985. To assist ATSDR with its 
recruiting efforts for the study, the Marine Corps distributed 
announcements to more than 3,500 media outlets (TV, daily & weekly 
newspapers), as well as releasing two (2) separate worldwide Marine 
Messages. The USMC has and will continue to actively help with outreach 
for ATSDR's studies. Collaboration with ATSDR continues to the present 
day.
    Additionally, the Congress at Public Law 109-364, Section 318 
directed the Navy to request a review by the National Academies' 
National Research Council (NRC) to address the scientific evidence on 
whether reported adverse health effects can be associated with past 
contamination of the water supply at Camp Lejeune. This recently 
published study (released June 13, 2009) by the NRC, an independent 
Council of scientific experts, addressed TCE and PCE as the primary 
contaminants of concern. A copy of the report can be obtained at http:/
/nationalacademies.org/morenews/20090613.html.
    Among other things, the NRC report stated that it ``cannot be 
determined reliably whether diseases and disorders experienced by 
former residents and workers at Camp Lejeune are associated with their 
exposure to past contaminants in the water supply because of data 
shortcomings and methodological limitations, and these limitations 
cannot be overcome with additional study.'' In addition, the report 
states that the results of their comparison of the lowest dose of TCE 
and PCE at which adverse effects were observed in animal studies 
against approximated doses to former residents measured in mixed water 
``suggest that the highest levels of either TCE or PCE measured in the 
mixed-water samples at Camp Lejeune were much lower than the lowest 
dose that caused adverse effects in the most sensitive strains and 
species of laboratory animals.''
    Three independent reviews have been conducted of the actions taken 
by the Marine Corps at the time (2004 Drinking Water Fact-Finding 
Panel, an EPA Criminal Investigation Division investigation, and the 
2005 Government Accountability Office review).
    The Fact-Finding Panel determined that Camp Lejeune provided 
drinking water at a level of quality consistent with general water 
industry practices in light of the evolving regulatory requirements at 
the time.
    The EPA Criminal Investigation Division concluded that there had 
been no violations of the Safe Drinking Water Act, no conspiracy to 
withhold information, falsify data, or conceal evidence regarding 
violation of any law.
    The GAO report describes efforts to identify and address the past 
contamination, activities resulting from concerns about possible 
adverse health effects and government actions related to the past 
contamination, and the design of the current ATSDR study, including the 
study's population, timeframe, selected health effects, and the 
reasonableness of the projected completion date.
    Additional information on the Fact-Finding Panel, the EPA 
investigation, and the GAO report are available at: www.marines.mil/
clwater.
    Finally, the Marine Corps is working to notify anyone who lived or 
worked at Camp Lejeune prior to 1987 of the historic drinking water 
issue. To identify and inform these individuals, the Marine Corps 
developed an outreach response using multiple forms of communication 
and media.

    <bullet> Distributed print articles to more than 10,000 newspapers 
nationwide
    <bullet> Created radio spots distributed to more than 6,500 radio 
stations
    <bullet> Developed online advertising for consumer- and military-
related Web sites, including Yahoo, Google, WebMD, Vietnam Veterans of 
America and Leatherneck and Gazette Web site
    <bullet> Placed advertising in national publications, including USA 
Today, Time and Newsweek
    <bullet> Placed advertising in military-related publications, such 
as Leatherneck, Gazette and Semper Fi.
    <bullet> Provided posters and print announcements distributed to VA 
facilities nationwide
    <bullet> Distributed posters to all US-based commissaries
    <bullet> Conducted interviews with newspaper and broadcast 
journalists
    <bullet> Created a Web site providing a compilation of information 
on the historic drinking water issue and links to other sites with 
related information

    In addition, the Marine Corps has worked with the Internal Revenue 
Service to locate former Marines who have lived or worked on Camp 
Lejeune 1987 and before. The IRS used its database to mail an estimated 
150,000 letters from August 1 to October 1, 2008.
    Currently, approximately 145,000 former residents are registered, 
and the Marine Corps encourages anyone who has not registered to do so 
by calling 877-261-9782 or online at https://clnr.hqi.usmc.mil/clwater/
index.html.

    Question 4. When did the Marine Corps notify residents of Camp 
Lejeune about the water contamination, and in what form did that 
notification occur?
    Response. Following the initial discovery of contamination in the 
wells in 1984, the Base Commanding General sent a notification letter 
to residents, and the Public Affairs Office ran an article in the Base 
newspaper and held a press event with local media.
    As more information became available through further studies the 
Marine Corps' outreach efforts broadened to the national population.
    The Marine Corps has collaborated with the ATSDR from the beginning 
of its studies to determine the extent of the contamination, and 
whether adverse health effects may have resulted from it. For example, 
in 1999, the Marine Corps conducted an outreach/mass media campaign to 
assist the ATSDR in locating potential participants for the scientific 
study. This study population included parents that were pregnant while 
living in on-base housing from 1968-1985. To assist ATSDR with its 
recruiting efforts for the study, the Marine Corps distributed 
announcements to more than 3,500 media outlets (TV, daily & weekly 
newspapers), as well as releasing two (2) separate worldwide Marine 
Messages. The USMC has and will continue to actively help with outreach 
for ATSDR's studies. Collaboration with ATSDR continues to the present 
day.
    Finally, the Marine Corps is working to notify anyone who lived or 
worked at Camp Lejeune prior to 1987 of the historic drinking water 
issue. To identify and inform these individuals, the Marine Corps 
developed an outreach response using multiple forms of communication 
and media.

    <bullet> Distributed print articles to more than 10,000 newspapers 
nationwide
    <bullet> Created radio spots distributed to more than 6,500 radio 
stations
    <bullet> Developed online advertising for consumer- and military-
related Web sites, including Yahoo, Google, WebMD, Vietnam Veterans of 
America and Leatherneck and Gazette Web site
    <bullet> Placed advertising in national publications, including USA 
Today, Time and Newsweek
    <bullet> Placed advertising in military-related publications, such 
as Leatherneck, Gazette and Semper Fi.
    <bullet> Provided posters and print announcements distributed to VA 
facilities nationwide
    <bullet> Distributed posters to all US-based commissaries
    <bullet> Conducted interviews with newspaper and broadcast 
journalists
    <bullet> Created a Web site providing a compilation of information 
on the historic drinking water issue and links to other sites with 
related information

    In addition, the Marine Corps has worked with the Internal Revenue 
Service to locate former Marines who have lived or worked on Camp 
Lejeune 1987 and before. The IRS used its database to mail an estimated 
150,000 letters from August 1 to October 1, 2008.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
  Major General Eugene G. Payne, Jr., Assistant Deputy Commandant for 
  Installations and Logistics (Facilities), Headquarters, U.S. Marine 
                                 Corps.

    Question 1. The term ``organic solvents'' has been used since the 
1970s to reference organic liquids, such as Volatile Organic Compounds. 
When Major General Payne was asked at the hearing whether he knew if 
the specific term ``organic solvents'' in Camp Lejeune Base Order 
5100.13B had changed over the years since the order was published, 
Major General Payne indicated that he was not knowledgeable on that 
issue.
    A. Was Major General Payne stating that, in his official capacity, 
he should not be expected to know the purpose or relevant details of 
Camp Lejeune Base Order 5100.13B, a Marine Corps order that has been 
referenced in formal requests for information to the Marine Corps by 
Members of Congress and an order that was cited during Senator Burr's 
recent meeting with the Commandant of the Marine Corps regarding the 
Camp Lejeune water contamination?
    B. Was Major General Payne stating that the Marine Corps does not 
know and understand the formal definition of the term ``organic 
solvents'' or have access to environmental experts who know and 
understand the formal definition of the term ``organic solvents'' as it 
appears in Camp Lejeune Base Order 5100.13B, an order that detailed the 
procedures for the proper disposal of chemicals and hazardous waste on 
Camp Lejeune?
    C. Does the Marine Corps agree that the term ``organic solvents'' 
includes Volatile Organic Compounds (see the definition from National 
Institute of Occupational Safety and Health)? If the Marine Corps does 
not agree that ``organic solvents'' include Volatile Organic Compounds, 
what types of chemicals was the Marine Corps referencing when using the 
specific term ``organic solvents''?
    Response. Major General Payne was asked to speculate on the 
accepted definition of the term ``organic solvent'' circa 1974, how the 
authors of Camp Lejeune Base Order 5100.13B defined that term when they 
wrote the Order in 1974, and whether the definition of that term had 
changed over the years since the order was published. Major General 
Payne is neither a scientist, nor a subject matter expert on ``organic 
solvents,'' nor a historian. Accordingly, he properly declined to 
answer the questions. To the more specific question: today, does the 
term ``organic solvents'' include VOCs; as we understand the definition 
today, we believe that VOCs are properly categorized as organic 
solvents.

    Question 2. The Marine Corps maintains a Camp Lejeune Water Study 
database for the former residents of Camp Lejeune. The registry now 
contains over 144,000 registrants.
    A. How many of the registrants are military veterans who once 
served on Camp Lejeune?
    Response. The Marine Corps does not put any stipulations on who is 
allowed to register with the Camp Lejeune Historic Drinking Water 
Registry; therefore, anyone interested in receiving additional 
information and notifications may request to be placed in the registry.
    The registry does not require registrants to identify if they are 
Military veterans. Using several assumptions, the Marine Corps 
estimates that as of October 29, 2009; approximately 87,000 registrants 
may be Military veterans who once served at Camp Lejeune, NC.
    B. How many of the registrants are former dependents or family 
members of veterans who once served on Camp Lejeune?
    Response. The Marine Corps again uses several assumptions in 
estimating the number of registrants who may be former dependents or 
family members of veterans who once served at Camp Lejeune, NC. We 
estimate that approximately 58,000 individuals in the registry fall 
into this category.
    C. Does the Marine Corps plan to share the names of those 
individuals with VA so that it may use that information to better treat 
veterans already enrolled in VA's health care system or proactively 
outreach to those not yet enrolled?
    Response. The Marine Corps has contacted the VA and has begun the 
process to transfer information from our database to the VA.
    1. The Marine Corps has established contacts that will make the 
official request for the data.
    2. The Marine Corps has provided the VA with a data dictionary in 
order for them to determine what available information they need to 
accomplish their task.
    3. The Marine Corps will follow the Federal statute that requires 
placing a notice in the Federal Register to update the System of 
Records Notice (SORN) associated with the Camp Lejeune database in 
order to share the data with the VA.
    The Marine Corps will continue to collaborate with the VA in order 
to identify the most appropriate manner in which to transfer the data.

    Chairman Akaka. Thank you very much, General Payne. Mr. 
Resta, your testimony, please.

   STATEMENT OF JOHN J. RESTA, SCIENTIFIC ADVISOR, U.S. ARMY 
      CENTER FOR HEALTH PROMOTION AND PREVENTIVE MEDICINE

    Mr. Resta. Good afternoon, Senator Akaka, Senator Burr. 
Thanks for the opportunity for me to speak today about the 
occupational environmental health exposures in military 
operations.
    My name is John Resta. I serve as Scientific Advisor for 
the U.S. Army Center for Health Promotion and Preventive 
Medicine, also known as the CHPPM. Our workforce at the CHPPM 
is dedicated to keeping soldiers healthy. One of our primary 
responsibilities is to provide deployed commanders assistance 
in identifying, assessing, and countering occupational and 
environmental health hazards.
    During military operations, soldiers, sailors, airmen, 
Marines, and civilian employees who also deploy may encounter 
numerous occupational and environmental health hazards that 
have the potential to cause illness and injury. In our written 
statement, we provided the Committee specific details on what 
actions we have taken to address these hazards at the Qarmat 
Ali Water Treatment Plant and the Joint Base Balad Burn Pit 
with an emphasis on the results of the medical evaluations and 
health risk assessments we have conducted to date.
    These risk assessments have relied on numerous medical 
examinations, clinical lab tests, exposure questionnaires, and 
thousands of occupational and environmental samples. At Qarmat 
Ali, we concluded from the medical evaluations conducted on the 
soldiers and Department of Army civilians who served at the 
site during the assessment period that no significant exposure 
to sodium dichromate had occurred. These results, coupled with 
the occupational environmental samples that were collected, 
indicate that all soldiers and Department of Army civilians who 
served at the site at any time are unlikely to experience 
future adverse health effects.
    This conclusion was validated by the Defense Health Board 
following their review of the health risk assessment. The 
Defense Health Board is an independent advisory panel made up 
of nationally recognized medical and scientific experts from 
academia and industries. Our burn pit health risk assessments 
have concluded that smoke exposures could lead to short-term, 
reversible irritant health effects.
    Smoke from burning trash and other wastes, especially in 
combination with hot, dry, dusty conditions, cause temporary 
irritation of the eyes, nose and throat in most people, 
regardless of their health condition. However, no environmental 
monitoring to date collected at Joint Base Balad has identified 
a risk for future adverse health effects.
    It is possible that combinations of some exposures, such as 
smoke from the burn pits, high levels of airborne dust, and 
cigarette smoking, may increase the risk of chronic health 
conditions in a small number of people. We have no direct 
evidence of this at this present time. We will be monitoring 
the air quality at Joint Base Balad in concert with the Air 
Force and the Navy over the next year, even though municipal 
solid waste incinerators have largely replaced open burning 
there.
    We are continuing to communicate the findings and 
limitations of these risk assessments to our soldiers and other 
servicemembers in an understandable form. We have challenges in 
this endeavor. For example, it is often difficult to answer the 
fundamental question, will I get sick?
    Current health risk assessment science does not adequately 
address the health risks from combined exposures like burn pit 
smoke, nor can it determine whether a disease that has multiple 
causes and develops over a long period of time in an individual 
was caused by a specific exposure. We continue to seek more 
innovative methods to assess health risks and are working with 
both the National Academy of Sciences and the Defense Health 
Board.
    We continue to address our soldiers' health concerns and 
are working to ensure that they and their health care providers 
are informed about these incidents.
    Mr. Chairman, thank you for the opportunity to be here 
today and discuss our role in these important actions. I look 
forward to answering any questions you or the Committee might 
have. Thank you.
    [The prepared statement of Mr. Resta follows:]

  Prepared Statement of John J. Resta, Scientific Advisor, U.S. Army 
          Center for Health Promotion and Preventive Medicine

    Chairman Akaka and distinguished Members of the Committee, thank 
you for inviting me here today to speak about occupational and 
environmental health exposures in military operations and the efforts 
of my organization, U.S. Army Center for Health Promotion and 
Preventive Medicine (USACHPPM), in preventing disease and non-battle 
injuries to our Soldiers and deployed civilian employees.
    The USACHPPM is a subordinate command of the U.S. Army Medical 
Command. USACHPPM's military and civilian personnel are experts in more 
than 50 public health disciplines. They include occupational and 
environmental medicine physicians, public health and occupational 
health nurses, epidemiologists, industrial hygienists, environmental 
engineers, health risk assessors, chemists, toxicologists and many 
others. We provide consultative services in these disciplines through a 
worldwide network, with our headquarters at Aberdeen Proving Ground, 
Maryland, and five subordinate commands at Landstuhl, Germany; Camp 
Zama, Japan; Fort George G. Meade, Maryland; Fort Sam Houston, Texas; 
and Fort Lewis, Washington. Since Operation Desert Storm in 1991, the 
USACHPPM has been providing technical assistance and support to 
deployed preventive medicine units and personnel who conduct 
occupational and environmental health surveillance activities. This 
continues through our current efforts in support of Operations Iraqi 
Freedom and Enduring Freedom.
    Today, I'd like to speak with you about two specific occupational 
and environmental health exposures, the potential exposures to sodium 
dichromate at the Qarmat Ali Water Injection Facility in Iraq and the 
exposures to smoke from the open burning of solid waste in Iraq, 
Afghanistan and the Horn of Africa.

                  QARMAT ALI WATER INJECTION FACILITY

    On September 15, 2003, the 1st Battalion, 152nd Infantry from the 
Indiana National Guard notified the Combined Forces Land Component 
Command-Surgeon (CFLCC-Surgeon) of its concerns regarding the site 
contamination at the Qarmat Ali Water Injection Facility. The Qarmat 
Ali facility was being repaired as part of Task Force Restore Iraqi Oil 
(TF-RIO) by an Army Corps of Engineers contractor. Within a day of 
notification, the site was placed off-limits and the CFLCC-Surgeon 
requested assistance from the USACHPPM in assessing the health risks 
associated with potential exposures to sodium dichromate. By this time, 
the contractor had started encapsulating the contaminated areas on the 
site. The DOD Inspector General is currently conducting a review of 
Army actions regarding the exposure of personnel to sodium dichromate 
at Qarmat Ali.
    On September 30, 2003, a USACHPPM team comprised of an 
occupational-environmental medicine physician, environmental 
scientists, engineers, and industrial hygienists arrived at Qarmat Ali 
and started an Occupational and Environmental Health Survey and Risk 
Assessment, which they completed on October 24, 2003. This assessment 
included environmental samples from the soil, air, and living and 
working areas as well as medical examinations of the Soldiers and 
Department of Army civilians assigned to the site. No medical exams 
were provided to civilian contractors because occupational health for 
contractor employees is the employing contractor's responsibility.
    The USACHPPM team conducted environmental soil, air and surface-
wipe sampling, to include ambient air monitoring of the location and 
breathing-zone monitoring of USACHPPM team and military security team 
members. Soil sample results were below the Military Exposure 
Guidelines for hexavalent chromium and total chromium in all onsite 
areas, but were over the guidelines in one offsite area where exposure 
was not expected. The USACHPPM team recommended that the contractor 
perform further containment to encapsulate those areas. The average 
concentrations for hexavalent chromium and total chromium in the air 
were below the one-year Military Exposure Guidelines. In fact, no 
hexavalent chromium was detected in any breathing-zone air sample. The 
survey's surface-wipe sample results for hexavalent chromium dust 
indicated that the interior of the contractor trailer located at the 
Qarmat Ali Water Injection Facility compound was contaminated with 
hexavalent chromium dust. The USACHPPM team recommended moving the 
trailer to the boundary of the compound and completely decontaminating 
it.
    Medical examinations were administered to 137 of the 161 
potentially exposed Soldiers and DOD civilians in the 1st Battalion, 
152nd Infantry from the Indiana National Guard and TF-RIO from the U.S. 
Army Corps of Engineers. There were 14 members who were not available 
for evaluation and 10 who declined all or part of the testing. The 
exams were conducted within 30 days of the last potential exposure at 
the site and within 120 days of site encapsulation. They included 
administering exposure (i.e., how long, how often a person would have 
been onsite) and symptom questionnaires as well as specific clinical 
medical tests tailored to assess chromium exposure. The people who were 
examined were the people who, according to their answers to the 
questionnaire, had the most potential for exposure in terms of time 
frequency and locations visited at the water treatment plant. The 
Soldiers were there before encapsulation (arriving in June 2003) as 
well as after encapsulation.
    The comprehensive medical exams provided consisted of a medical 
history, a general physical exam, blood and urine testing (including 
red blood cell and serum chromium levels, complete blood counts, serum 
chemistries, liver and renal function tests, and routine urine 
analysis). Ancillary testing included chest x-rays and spirometry 
testing. Previously published information that the Soldiers and DOD 
civilians only received serum and urine analysis for chromium is 
incorrect.
    Less than 30 percent of the people examined reported symptoms, and 
the symptoms that were reported were symptoms that could have a variety 
of causes. Eye or throat irritation was the most common symptom 
reported. None of those examined exhibited symptoms of over-exposure to 
chromium. All of the people tested had normal blood levels; more than 
half of the chromium blood tests were actually below the detection 
limit of the test. If a significant inhalation exposure to hexavalent 
chromium (the element of sodium dichromate that has been shown to be a 
lung carcinogen in studies of industrial workers exposed to high levels 
for more than two years) had occurred, elevated levels of chromium 
would have remained in the red blood cells for at least 120 days 
following exposure. Red-blood-cell testing of potentially exposed 
people occurred within 30 days of their last expected exposure and 
within 120 days of site encapsulation. Analysis of the blood testing 
for chromium was done at the Armed Forces Institute of Pathology in 
Washington, DC. Whole blood testing was chosen because other medical 
tests (serum, urine) weren't sensitive enough to detect chromium 
exposures beyond 30 days. The recent disclosures of severe symptoms by 
Soldiers (i.e., coughing up blood, chrome holes, etc.) were not 
reported to the risk assessment team in October 2003. The extent of 
these concerns cannot be determined with any objective data at this 
point, though we are attempting to locate medical records of 
servicemembers present at the site prior to the USACHPPM's arrival to 
determine if any specific medical conditions may have been linked to 
these Soldiers' service at the site.
    The USACHPPM concluded that these medical results indicated that no 
significant exposure to sodium dichromate had occurred, and that the 
symptoms reported could be related to existing personal medical 
conditions and desert environment-related exposures, such as heat, 
sand, dust and wind. Based on the medical team's evaluation of medical 
and exposure assessment results, specific long-term follow-up 
surveillance of these people as a group was not recommended because the 
potential for long-term health effects caused by assignment to duty at 
the site was unlikely.
    The Soldiers and DOD civilians located at the site were provided 
fact sheets about the potential exposures during the assessment and at 
a town hall meeting (open forum) with a question-and-answer session. 
Town halls were sponsored by unit leadership for all interested 
Soldiers and DOD civilians. The results of each person's medical exams, 
to include the whole blood test results were placed in the individual, 
hard-copy deployment medical records, along with a description of the 
potential exposure on a Standard Form 600 (Chronological Record of 
Medical Care Medical Record). The Army confirmed that the test results 
did in fact reach the Soldiers' hard-copy records. Potentially exposed 
Soldiers and DOD civilians were also instructed to direct healthcare 
providers to this information in their medical records and to raise any 
remaining concerns about this incident during their post-deployment 
health assessments. Medical follow-up for those Soldiers who have 
health concerns is available through the military medical system or the 
Department of Veterans Affairs, depending on the military status of the 
Soldier.
    Based on the limited adverse health findings of the assessment, the 
survey team felt that there was limited benefit to conducting a medical 
evaluation on Soldiers that had relocated from the site prior to the 
arrival of the USACHPPM assessment team. The assessment team determined 
that units from the 1st Battalion, 162nd Infantry from the Oregon Army 
National Guard and 133d Military Police Company of the South Carolina 
Army National Guard were present at the site prior to the team's 
arrival. Soldiers from these units were asked to complete an exposure 
and symptom survey, either directly through unit town hall meetings or 
through medical providers at their new locations if they had relocated 
to another area. For these past-exposed Soldiers, there were no unit 
records available to document who served at the site and for how long. 
The completed surveys, along with a fact sheet for medical providers, 
was to be placed in Soldier medical records by the unit as 
documentation of potential exposure to sodium dichromate and for 
reference in case of future health concerns.
    Throughout the assessment, the USACHPPM team ensured that the 
operational commanders were kept apprised of the assessment findings 
and conclusions, to include daily situational reports to the CFLCC 
medical cell and briefings to the commanders of the four deployed and 
potentially exposed units/groups (1st Battalion, 152nd Infantry, of the 
Indiana Army National Guard; 133rd Military Police Company of the South 
Carolina Army National Guard; 1st Battalion of the 162nd Infantry of 
the Oregon Army National Guard; and Task Force Restore Iraq Oil of the 
U.S. Army Corps of Engineers). A formal Occupational and Environmental 
Health Survey and Risk Assessment report containing all of the results 
and recommendations was submitted to CFLCC on January 15, 2004.
    This report was initially classified in accordance with U.S. 
Central Command guidance; an unclassified report was published on 
January 10, 2009. At the time, DOD, Army, Joint Staff and U.S. Central 
Command Force Health Protection policy did not include a procedure for 
reporting deployment exposures or other operational public health 
information to non-deployed, rear area units such as the Indiana 
National Guard State Adjutant General or the U.S. Army Forces Command. 
This policy is being reevaluated at this time.
    In addition to medical record information that is available to 
Department of Veterans Affairs (DVA) providers, the Deputy Assistant 
Secretary of Defense, Force Health Protection and Readiness has 
facilitated our collaboration with the DVA. In December 2008, DVA 
personnel reviewed a copy of the classified Occupational and 
Environmental Health Survey and Risk Assessment report. A copy of the 
declassified report was provided to the DVA in January 2009, and a 
presentation was made to the DOD/VA Deployment Health Working Group in 
May 2009.
    The medical response to this incident was exemplary. The site was 
placed off-limits within a day of notification to the Combined Forces 
Land Component Command Surgeon. The USACHPPM deployed a team to theater 
within two weeks of request. The methodology and results of the 
USACHPPM assessment were reviewed, validated and cited as exemplary by 
the Defense Health Board, an independent review entity made up of 
medical and scientific professionals from academia and industry.

                               BURN PITS

    As far back as Operation Joint Endeavor in Bosnia in 1996, military 
preventive medicine personnel recognized that while open burning of 
solid waste is sometimes an operational necessity during combat 
operations, it should be used to the minimum extent possible based on 
the operational situation. When open burning operations are necessary, 
they should be located as far downwind of personnel as possible.
    In 2004, the USACHPPM deployed a response team to Camp Lemonier in 
Djibouti to assess the potential health risks from the burn pit smoke 
from an off-post burn pit located about 1.5 miles south of Camp 
Lemonier. At this location, the local population open-burned all of the 
solid waste from the surrounding area, to include the U.S. operations 
on Camp Lemonier. There was a solid waste incinerator present, but it 
was not in use at the time. The assessment consisted of advanced air 
sampling from volatile organic compounds, polyaromatic hydrocarbons, 
dioxins/furans and particulate matter less than 10 microns in diameter. 
The assessment concluded that the operational health risk estimate was 
moderate due to the elevated presence of acrolein and aluminum. 
Deployed preventive medicine teams have conducted several rounds of 
additional sampling at this location since. The operational health risk 
from acrolein was found to be low and was only detected above Military 
Exposure Guidelines sporadically.
    In 2005, the burn pit operations at the Joint Base Balad were 
initially sampled by deployed preventive medicine teams. From their 
results, the USACHPPM concluded that additional sampling was needed to 
fully characterize the site. The USACHPPM and the U.S. Air Force School 
of Aerospace Medicine jointly performed both an operational health risk 
assessment and a long-term health risk assessment based on large-scale 
sampling events at Joint Base Balad in 2007. The sampling plan focused 
on burn pit emissions. Other potential and/or known sources of air 
emissions including airfield operations, diesel generators, ground 
vehicle operations, and naturally blowing sand and dust were also 
collected in the samples. The long-term health risk assessment was 
conducted using the U.S. Environmental Protection Agency (USEPA) 
standard health risk assessment methodology. The USEPA method is 
specifically designed to focus on people who may be the most sensitive 
to the effects of a particular exposure; therefore, it is considered to 
be very protective.
    Using the USEPA method, the potential for short-term, reversible, 
irritant health effects to U.S. personnel was identified. Smoke from 
burning trash and other waste, especially in combination with hot, dry, 
dusty conditions, can cause temporary irritation of the eyes, nose and 
throat in some people, regardless of their health condition. However, 
no environmental monitoring data collected at Joint Base Balad to date 
have identified an increased risk for long-term health conditions. It 
is possible, however, that combinations of some exposures, such as 
smoke from burn pits, the high levels of airborne dust, and/or tobacco 
smoke in smokers, may increase the risk of chronic health conditions in 
a small number of people, although we have no direct evidence of this 
at the present time. Due to anecdotal concerns raised about possible 
dioxin exposures at Joint Base Balad, the USACHPPM conducted a pilot 
study in cooperation with the Centers for Disease Control and 
Prevention, National Center for Environmental Health Laboratory (CDC-
NCEH). Serum samples of Balad veterans from the DOD's Serum Repository 
were randomly selected for dioxin analysis at the CDC-NCEH. Both pre- 
and post-deployment samples were selected from the sera of personnel 
who had been deployed to Joint Base Balad at least twice for at least 
one year per deployment. The analyses did not find elevated levels of 
dioxin in the sera, as would be expected if personnel had been 
breathing elevated concentrations of dioxin during their deployments.
    The USACHPPM and U.S. Air Force School of Aerospace Medicine have 
authored various risk communication products, including fact sheets and 
briefing slides, so that Service Members are aware of the results of 
sampling and health risk assessments as they are completed. The fact 
sheets can be found on both the USACHPPM Web site and in Department of 
Defense Deployment Health and Family Readiness Library.
    To improve on the lessons we've learned from this situation, we 
authored guidance on the use, operation and location of burn pits that 
was published in Headquarters, Department of the Army, Technical 
Bulletin, Medical 593, Guidelines for Field Waste Management, September 
2006. This guidance is straightforward. The preferred method of solid 
waste disposal is incineration. Open burning should only be used in 
emergency situations until approved incinerators can be obtained. The 
potential use of improper burning methods can lead to significant 
occupational and environmental health exposures to deployed troops. We 
recommend that burn pit operations be conducted as far downwind as 
possible (at least 450 feet) from troop locations and living areas. 
Hazardous waste, batteries and medical waste should not be burned.
    The USACHPPM and U.S. Air Force School of Aerospace Medicine 
briefed the Department of Defense/Department of Veterans Affairs 
Deployment Health Working Group in March 2009 on the burn pit health 
risk assessments at Joint Base Balad. The meeting focused on the air 
quality surveillance efforts at Joint Base Balad, Iraq, which included 
sampling for a range of toxic chemicals potentially produced by open 
burning of solid waste. We discussed the short- and long-term health 
effects expected based on the analyzed chemicals, data gaps, and 
possible future efforts to better characterize potential burn pit smoke 
exposures. We also addressed the DVA's questions arising from various 
misleading media accounts of burn pits and burn pit exposures. Since 
that time we have been consulting with the DVA on their inquiries into 
the extent of burn pit operations and the results of air sampling at 
other burn pit locations in the U.S. Central Command area of 
responsibility.
    The USACHPPM, U.S. Air Force School of Aerospace Medicine, and the 
Navy and Marine Corps Public Health Center are jointly developing an 
air surveillance program for contingency operations, with a focus on 
locations with burn pits. The sampling plan will be coordinated with 
the Defense Health Board with the goal of identifying a field-expedient 
sampling strategy that is considered representative and defensible. The 
USACHPPM also is collaborating with the U.S. Army Engineer School 
Directorate of Environmental Integration to update Army deployment 
environmental management doctrine.
    As a result of its assessments at Balad and Qarmat Ali, the 
USACHPPM continues to modify, update and expand deployment occupational 
and environmental health surveillance and preventive medicine 
activities from our experiences and lessons learned. Specific 
surveillance lessons learned from the Qarmat Ali Water Injection 
Facility and Joint Base Balad incidents include:

    <bullet> Producing, disseminating and archiving both classified and 
redacted deployment occupational and environmental health surveillance 
reports on both classified and unclassified networks.
    <bullet> Ensuring that our military and civilian personnel who 
deploy to active theaters of operation for deployment occupational and 
environmental health incidents are continually trained and up to date 
on personal deployment requirements.

    Mr. Chairman and distinguished committee members, my thanks for 
inviting me to speak with you about the U.S. Army Center for Health 
Promotion & Preventive Medicine's role in environmental surveillance 
and health assessment of potential sodium dichromate exposures and 
open-pit burning in overseas contingency operations. Thank you for 
holding this hearing and for your enduring support of servicemembers 
serving across the globe. I look forward to your questions.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
    John J. Resta, Scientific Advisor, U.S. Army Center for Health 
                  Promotion and Preventative Medicine

    Question 1. The Army has stated that there is no evidence that 
exposure to sodium dichromate at Qarmat Ali will cause adverse or long 
term health effects, and that symptoms can be attributed to other 
factors. What other, environmental or otherwise, factors could be 
responsible for such conditions?
    Response. During the CHPPM evaluation in 2003, Soldiers from the 1-
152nd IN BN (INARNG) and DA Civilian employees from Task Force Rio were 
questioned regarding symptoms (symptoms are complaints) and observed 
for signs (signs are visible findings on examination). In the desert 
environment of Iraq and Kuwait, the symptoms reported by the Soldiers 
were a common experience for Soldiers in the country. Of the total 
population, about 77% did not report symptoms and 23% reported 
symptoms. The symptoms that they complained of were irritative or 
inflammatory in nature, and included irritation of the nose (9%), 
throat (7%), eyes (6%), lungs (4%), skin (1.4%), sinuses (1.4%), and 
general/other (3%). Overall, there was a low incidence of each 
individual symptom, with nasal symptoms being the most common.
    These symptoms are non-specific, meaning that they are not specific 
to a single etiology or cause. As stated in the report, irritation of 
the eyes, nose and throat are not uncommon in a dry and dusty desert 
environment, due to heat, sand, dust, and wind. In a survey performed 
by Roop, et al on the prevalence of symptoms during deployment, 50% of 
non-asthmatics reported cough, and 55% reported allergy symptoms while 
deployed. (See ``Military Medicine Volume 172 Number 12 Dec 2007'') In 
addition to these environmental factors, the differential diagnosis (or 
list of other possible medical conditions to consider) for these 
symptoms are myriad.
    Common causes of irritation and inflammation symptoms of the upper 
and lower airways are many, and include asthma, allergic rhinitis 
(``hay fever''), chronic bronchitis (tobacco), emphysema, 
bronchiectasis, and infections (such as the common cold, influenza, 
pneumonia, tuberculosis, or whooping cough).
    With irritation of the eyes, possible medical conditions to 
consider would include conjunctivitis, which is inflammation and 
irritation of the conjunctiva, the mucous membrane that lines the 
eyelids. Conjunctivitis can be caused by many things, such as allergy, 
viral infections or bacterial infections, sicca (dry eye), irritation 
from excessive heat or cold or chemical solutions, or exposure to 
ultraviolet rays or foreign bodies.
    Skin irritation and inflammation can be caused by allergies (drugs, 
foods), common scaling disorders such as atopic dermatitis (eczema, 
allergic component), psoriasis (genetic basis), seborrheic dermatitis 
and dandruff (may be reaction to yeasts), fungal infections of the skin 
(ringworm, jock itch, athlete's foot), and intertrigo (caused by effect 
of heat, moisture and friction). Other common causes are allergic 
contact dermatitis (due to irritants such as soap or detergents or an 
allergen such as poison ivy) and folliculitis due to infection, 
irritants, perspiration, and rubbing of fabrics on the skin.

    Question 2. The Committee is aware that following notification by 
the Commander of the Indiana National Guard in late September 2003, an 
Army team arrived at Qarmat Ali to assess contamination of the site, to 
conduct an exposure assessment and to evaluate any potential health 
effects. Please comment on the methodology used to determine any 
potential risk associated with exposure, the amount of testing that was 
conducted and for what period of time the testing occurred.
    Response. Soil sampling, ambient air monitoring (including 
breathing zone monitoring), and surface wipe sampling were conducted by 
the USACHPPM Team as part of the Deployment Occupational and 
Environmental Health Survey and Occupational Health Risk Assessment 
from 30 Sep-2 Nov 2003. Samples were collected by trained personnel 
that included certified industrial hygienists, environmental scientists 
with over two decades of contamination site assessment experience and 
enlisted preventive medicine technicians. Sampling and laboratory 
analytical methods were derived from those used during contaminated 
site and workplace assessments developed by the Environmental 
Protection Agency (EPA) and National Institute for Occupational Safety 
and Health. Sample results were compared to the one-year Military 
Exposure Guidelines (MEGs) for air and soil. MEGs are concentrations 
for chemicals in air, water and soil that are used to assess the 
significance of an exposure to a contaminant. They represent a 
concentration above which certain types of health effects may begin to 
occur in a population after an exposure of a specified duration. They 
are guidelines and not health standards. When these guidelines are 
exceeded, they serve as an action level for additional investigation/
study. They have been derived from existing regulatory guidance 
published by the EPA, Occupational Safety and Health Administration and 
other Federal agencies. Additional information can be found in USACHPPM 
Technical Guide 230, Chemical Exposure Guidelines for Deployed Military 
Personnel available at http://chppm-ww.apgea.army.mil/documents/TG/
TECHGUID/TG230.pdf and the Reference Document (RD) 230 Chemical 
Exposure Guidelines for Deployed Military Personnel available at http:/
/chppm-www.apgea.army.mil/documents/TG/TECHGUID/TG230RD.pdf. Risks were 
estimated by determining the hazard severity and exposure potential in 
accordance with Army Composite or Operational Risk Management Guidance. 
Additional information can be found in USACHPPM Technical guide 248, 
Guide to Deployed Preventive Medicine Personnel on Health Risk 
Management available at http://chppm-www.apgea.army.mil/documents/TG/
TECHGUID/TG248.pdf. These were reviewed by the National Academy of 
Sciences Committee on Toxicology in 2004. This review is available at 
http://www.nap.edu/catalog.php?record_id=10974#toc.
    Soil Sample Results. A total of 60 soil samples were collected in 
different areas of the Qarmat Ali site from 7-12 Oct 2003. Only one 
offsite area tested above the One-Year MEG for Total Chromium or 
Hexavalent Chromium [Cr VI] in soil. However, four areas of the site 
tested above the MEG for polychlorinated biphenyls (PCBs). The severity 
of this exposure was estimated to be Negligible due to the short 
exposure durations.
    Air Sample Results. Eighty three breathing zone samples were 
collected 7-12 October 2003, 43 were analyzed for Cr VI and 40 for 
Arsenic, Chromium (Total), Lead and Selenium. Twenty eight area air 
samples were collected between 8-11 October 2003 and analyzed for 
Antimony, Arsenic, Beryllium, Cadmium, Chromium (Total), Lead, 
Manganese, Nickel, Vanadium, Zinc and Particulate Matter Less than 10 
microns (PM10).
    The survey's breathing zone and general area air sample results for 
heavy metals, to include Cr VI were well below the Cr VI MEG.
    The majority of the sample results for PM10 exceeded the 1-year MEG 
of 70 micrograms/cubic meter. Although these results indicate that on-
site personnel may have been exposed to concentrations greater than the 
MEG, they are consistent with PM10 concentrations experienced in and 
around US base camps located throughout Southwest Asia.
    However, these sample results only estimated exposure conditions at 
the time of the survey (i.e., some post-containment of sodium 
dichromate-contaminated grounds had occurred, light winds blowing in an 
easterly direction, and limited oil well water injection operations) 
rather than past conditions (i.e., pre-containment of sodium 
dichromate-contaminated grounds and potentially high winds) and future 
conditions (i.e., potentially high winds blowing in a westerly 
direction and full-scale oil well water injection operations). Air 
concentrations prior to encapsulation were modeled using the EPA's 
Particulate Emission Factors model used in hazardous waste site 
restoration. This model indicated that Soldiers present at the site 
prior to encapsulation could have been exposed to Cr VI at 
concentrations greater than the MEG but lower than the OSHA Permissible 
Exposure Limit. The one year-MEG for Cr VI was much lower than the OSHA 
Permissible Exposure Limit in place at the time.
    Surface Wipe Sampling. The survey's surface wipe sample results for 
Cr VI dust indicated that the interior of the contractor trailer 
located on the site was contaminated with Cr VI dust. These results 
also indicated a lesser degree of Cr VI dust cross-contamination from 
the Qarmat Ali Water Injection Facility (WIF) compound to the TF RIO 
work trailer (located in contractor's Pioneer Camp near the Basra 
International Airport). Although no occupational and/or environmental 
exposure limits currently exist for Cr VI dust, personnel living and 
working in the contractor trailer may have been overexposed to Cr VI 
dust unless properly protected. Recommendations were made to relocate 
the Qarmat Ali Industrial WIF's KBR trailer nearer to the western 
boundary of the compound, and thoroughly decontaminate the trailer with 
soap and water prior to reoccupation. The study also recommended that 
the work and living areas of personnel known to have been on the Qarmat 
Ali WIF compound be cleaned with soap and water to remove any cross-
contamination residue.
    Medical Evaluations. The comprehensive medical exams provided by 
the USACHPPM SMART-PM team consisted of a medical history, a general 
physical exam, blood and urine testing (including red blood cell and 
serum chromium levels, complete blood counts, serum chemistries, liver 
and renal function tests, and routine urine analysis). Ancillary 
testing included chest x-rays and spirometry (pulmonary function) 
testing.
    No nasal perforations or ulcerations were noted in any of the 
individuals examined. To evaluate exposure above the permissible levels 
in workplace settings, urine is tested before and at the end of the 
shift, or the end of the workweek, and increases are noted. This is 
because individuals can have different levels in their urine based on 
age, sex, smoking, and diet. As stated above, for these individuals, 
urine measurement would not have been sufficient to assess their 
exposure, and there were no available pre-exposure urines for 
comparison. The decision to test whole blood (plasma, serum and red 
blood cells) was made with this understanding, and reference values 
were obtained from the literature and the laboratory at the Armed 
Forces Institute of Pathology for comparison purposes. Most of these 
blood tests were below the detection limit of the laboratory test, and 
100% of the tests were within ``normal'' reference ranges identified in 
the literature. Based on the collected information, there did not 
appear to be a concern that overexposure had occurred. Individuals were 
therefore at negligible risk for any long-term health effects from 
chromium exposure.
    The medical evaluations supported the low to negligible overall 
long-term health risk, with only sporadic potentially-related minor 
health effects being observed.

    Question 3. The Army has stated that a number of soldiers who were 
present at Qarmat Ali had the opportunity to be given a medical exam 
and have blood work tested for any abnormal levels of chromium. Results 
of this testing showed that blood chemistry for chromium was average. 
Given the Army has stated that it did not know National Guard Units 
from West Virginia, Oregon and South Carolina were present at the time 
of this testing and only tested those in the Indiana National Guard 
Unit, how can testing of the Qarmat Ali population be conclusive if a 
number of the Qarmat Ali population were not surveyed or tested?
    Response. The Army assessment team provided comprehensive medical 
testing to those Soldiers and DA Civilian employees who were present at 
the site during the assessment. The Army knew of the presence of the 
South Carolina and Oregon Army National Guard at the site. The West 
Virginia Army National Guard unit (1092nd Engineer Battalion) was the 
only unit whose presence at the site was not known during the site and 
medical evaluation in 2003.
    The Soldiers from the 1-152nd IN BN (INARNG) and DA Civilian 
employees from Task Force Rio reported the highest average time on the 
site. Soldiers that had served at the site prior to the assessment 
team's arrival from the 1-162nd IN BN (ORARNG) and the 133d MP (SCARNG) 
and had already departed were provided an exposure survey to estimate 
their overall exposure duration and frequency. These units were asked 
about the period of time that they spent at the site and they reported 
an average time on site of approximately 8.6 hours. Soldiers from the 
1-152nd IN BN (INARNG) reported that they had spent on average147 hours 
on site. They did not show any specific signs of overexposure to 
chromium and the medical evaluations and site testing determined that 
they were not at an increased risk for future health effects. Since the 
1-162nd IN BN (ORARNG) and the 133d MP (SCARNG) spent significantly 
less time on site than the IN NG units, the assessment team concluded 
that their exposure was considerably less than that experienced by the 
1-152nd IN BN (INARNG) and any risk of future health effects was also 
minimal. This conclusion was validated by the Defense Health Board in 
their October 2008 review of the risk assessment
    There was no official record of the presence of the 1092nd Engineer 
Co (WVARNG) provided to the assessment team. The presence of the 1092nd 
Engineers was identified during site visits to the 1-152nd IN BN and 1-
162nd IN BN. Interviews with Soldiers from the 1092nd Engineers by a 
team from the office of the Assistant Secretary of the Army for 
Manpower and Reserve Affairs suggests that these soldiers were exposed 
for a similar duration and at a similar level to the 1-152nd IN BN 
(INARNG) Soldiers. Unfortunately, there is no testing that can be 
administered this long after exposure to determine the risk of future 
health effects for these Soldiers.

    Question 4. The Army has stated that on average, soldiers spent 147 
hours at Qarmat Ali. Given that any information in the surveys was 
self-reported, how can the Army guarantee the accuracy of these 
statements, in regard to the amount of time that was spent at Qarmat 
Ali? Were official unit records used to validate information that was 
given in soldiers' statements?
    Response. There was no official system of records in place at the 
time of the incident that would independently document the amount of 
time a Soldier is present at a site. Current policy now requires 
recording a Soldier's duty location during a deployment once daily. 
Exposure duration and frequency for Soldiers of the 1-152nd IN BN 
(INARNG) were determined from exposure questionnaires completed by 
individual Soldiers. This is a common technique used in the field of 
Industrial Hygiene. Only the Soldiers of the 1-152 IN BN (INARNG) 
reported the average exposure of 147 hours. The Soldiers of the South 
Carolina and Oregon Army National Guard units reported considerably 
less average exposure (8.6 hours).

    Question 5. The Army has stated that all results of the 
aforementioned testing were included in the medical records of soldiers 
who participated. In addition, the Army has said that these soldiers 
were encouraged to discuss their results along with any health 
concerns, on their post-deployment health assessments and with their 
health care providers. Have these soldiers' medical records, in regard 
to any testing done in relation to potential exposure to sodium 
dichromate, been shared with any other organization or been added to 
any exposure database? Has any additional testing for sodium dichromate 
exposure been conducted on these individuals? Are these individuals 
currently being monitored?
    Response. All occupational and environmental sample results from 
the site assessment have been provided to the Department of Veterans 
Affairs (VA) to include a by-name list of whole-blood chromium 
monitoring results for those Soldiers eligible for VA medical care. 
Since early 2009, the DOD Deputy Assistant Secretary of Defense, Force 
Health Protection and Readiness, has assisted in facilitating the 
USACHPPM attending and participating at quarterly scheduled DOD/VA 
Deployment Health Working Group meetings. On 14 May 2009, the USACHPPM 
presented a briefing to the Working Group entitled ``Operation Enduring 
Freedom and Operation Iraqi Freedom Deployment OEH Incidents.'' This 
briefing contained a section on the Qarmat Ali Water Injection Plant 
incident.
    The Assistant Secretary of the Army, Manpower and Reserve Affairs, 
in coordination with the National Guard Bureau has conducted extensive 
outreach to Army National Guard units who were at the site but were not 
evaluated. As of late September 2009, 1164 Soldiers were estimated to 
have deployed with the units who served at the site, 863 of these 
Soldiers have been contacted by their State Joint Force Headquarters, 
informed about the incident, and encouraged to enroll in the VA 
registry; 258 had enrolled in the registry; and 154 were reported to 
have had completed medical examinations provided by the VA.
    The VA has established a separate registry for this incident. All 
of the Soldiers from this incident currently enrolled in the VA's Gulf 
War Registry will be added to this registry. As part of this 
enrollment, the VA will provide routine follow up examinations, to 
include x-rays, to monitor the Soldiers involved in the incident. The 
ARNG Joint Force Headquarters in each state will retain the medical 
records of the Soldiers to ensure that a second record of the exposure 
is maintained and available to the Soldiers.
    There has not been additional testing done for sodium dichromate 
exposure. There are no medical tests that can detect exposure this long 
after the incident.

    Question 6. The Committee is aware that in 2004, a report was 
issued by the Army with findings and recommendations in regard to the 
situation at Qarmat Ali and that report was subsequently sent to the 
Defense Health Board. Other than commenting that ``the standard of care 
was exceeded'' what other recommendations, comments or concerns did the 
Defense Health Board express with respect to this report? Was the 
report shared or critiqued by any other independent medical or 
scientific body, such as the Institute of Medicine?
    Response. The Defense Health Board (DHB) provided 14 specific and 
general observations and recommendations on the study. These included 
such observations that while environmental contamination was present at 
the site, all available evidence indicates a low level of personal 
exposure and no expectation of future health effects. They also 
observed that Soldiers who were similarly exposed but not studied 
should be reassured that this finding applies to them as well. They 
also recommended that information about the incident be conveyed to 
medical providers and included in the involved Soldiers' permanent 
record and that this incident be used to train personnel in the best 
practices to address future similar incidents.
    We did not seek additional outside review due to the time available 
and the fact that the chair of the DHB review also serves as the 
Chairman of the National Academy of Sciences Committee on Toxicology.
    Detailed information on the DHB review is available at: http://
www.health.mil/dhb/recommendations/2008/
DHB%20Review%20of%20USACHPPM%20Assessment%
20at%20Qarmat%20Ali%20Final%20Report.pdf.

    Question 7. In Dr. Gibb's testimony, he noted that there were 
several data inconsistencies in CHHPM's report. Specifically, CHHPM's 
report cited test results that showed that 98 percent of blood samples 
showed chromium levels within a range of 4 to 5 micrograms per liter in 
one area of the report, then CHHPM stated that nearly all results were 
below the limit of detection in another area of the report. How do you 
account for these inconsistencies in data in CHHPM's report?
    Response. Dr. Gibbs's testimony contained a factual error. The 
CHPPM report states on page 15 that ``The majority of test results were 
below the detection limit of the test method'' and ``All the results, 
to include the earlier tests done by KBR, were within the first 
reference range (0.2 to 10.0 mg/L) and 98% of the results were within 
the second reference range (4 to 5 mg/L).'' Of the 135 tests done, 73 
were below the level of detection of 0.5 mg mg/L, with the remaining 
ranging from 0.5 mg/L to a maximum of 8.7 mg mg/L. All were below 10 
mg/L, meaning all were within the first range. Only two results (7 mg/L 
and 8.7 mg/L) were above 5 mg/L. It is common within the field of 
occupational medicine for results to be called ``within normal limits'' 
or within the normal range as long as they are not above the upper 
limit of the range. Dr. Gibbs incorrectly concluded that CHPPM had 
claimed that the results were between 4 to 5 mg/L.

    Question 8. What type of surveillance, medical and otherwise, does 
the Army provide in areas where burn pits currently exist?
    Response. Army preventive medicine personnel conduct initial 
occupational and environmental health surveillance to determine what 
potential environmental hazards may exist at a given location. These 
may include: toxic industrial chemicals and toxic industrial materials 
from local sources that may be in the air, water, or soil; ionizing 
radiation; non-ionizing radiation; physical hazards such as extreme 
noise, heat and cold, and altitude; food-, water-, vector-, and 
arthropod-borne threats; endemic diseases; and any by-products of US 
forces activities (noise, smoke from burn pits, exhaust, etc.). The 
results are documented in a site-specific Occupational and 
Environmental Health Site Assessment. Identified hazards are assessed 
for potential impact on the mission and for long-term health concerns. 
The hazards are eliminated, reduced or otherwise controlled as feasible 
within mission constraints. Surveillance is conducted when hazards 
cannot be eliminated and a decision is made by commanders to accept the 
health risks associated with the exposure situation. Surveillance 
relating to burn pits can include ambient air sampling, surface soil 
sampling, and reviewing medical encounter data.
    Soldiers (and other Servicemembers) are asked to discuss any 
concerns that they have about burn pits or other environmental 
exposures with a health care provider as part of their mandatory post-
deployment health assessment process. This assessment is a two-step 
process that occurs within 30 days of their return from a deployment 
and again within 6 months after their return from deployment. Specific 
information on this program and the survey forms is available at http:/
/afhsc.army.mil/Documents/DOD_PDFs/DODI_6490_03.pdf

    Question 9. When will additional environmental assessments from 
burn pit sites, in addition to the one already done at Balad, be 
conducted?
    Response. A tri-service group is developing an air sampling 
strategy for the CENTCOM AOR, focusing on sites with significant air 
pollution sources such as burn pits. The group is considering potential 
air hazards, methods to collect samples in a deployed area, and how 
such data could be used to better characterize the air and the health 
risk to deployed Service Members. Personnel from the group are 
traveling to 6 locations in Iraq and Afghanistan in early November 2009 
to brief command personnel on historical air sampling results, discuss 
the current situation with medical personnel, and gain further 
understanding of the exposure situation and concerns. Upon return, the 
draft sampling strategy will be updated and presented to the Joint 
Environmental Surveillance Work Group Executive Committee in late 
November 2009. It will then be reviewed by the Defense Health Board at 
the end of November 2009. Sampling is expected to begin in early 2010, 
assuming that operational security considerations are sufficient to 
allow this to occur safely.

    Question 10. What other environmental exposures is the Army 
currently monitoring?
    Response. Currently, Army preventive medicine personnel are 
conducting occupational and environmental health surveillance to 
determine what potential environmental hazards and risks exist at all 
large US Base Camps in Iraq and Afghanistan. Surveillance includes 
periodic sampling of ambient air quality, potable and non-potable water 
sources, and contaminated soil. The results are documented in a site-
specific Occupational and Environmental Health Site Assessment. Since 
2001, more than 17,000 environmental samples have been collected 
throughout the CENTCOM Area of Operations with almost 10,000 in Iraq, 
more than 3,500 in Kuwait, and 3,300 in Afghanistan.

    Question 11. What preventative measures are taken by the Army 
before it sends soldiers into areas where there are potential 
environmental hazards?
    Response. The preventive measures undertaken by the Army prior to 
deployment are addressed in Army Regulation (AR) 11-35, Deployment 
Occupational and Environmental Health Risk Management, Headquarters 
Department of the Army, 16 May 2007. These include an assessment of 
occupational and environmental health hazards such as industrial 
chemicals, hazardous noise levels, or radiation or other hazard present 
or being generated by local national agricultural, industrial, or 
commercial activities. Ideally, these assessments are completed pre-
deployment as part of an Occupational and Environmental Health Site 
Assessment or an Environmental Baseline Study prior to the 
establishment of a forward operating base or other deployment location. 
These considerations are included in the Army composite risk management 
process to balance mission risks when developing contingency and 
operational plans. Operational planners attempt to identify these 
hazards as part of the overall intelligence preparation of the 
battlefield but they are often unable to obtain the needed data prior 
to US Forces occupation of a site. As a result, a primary component of 
the DOD/Army Deployment Occupational and Environmental Health Risk 
Management program is the principle of hazard recognition and 
avoidance. Commanders at all levels are required, by DOD, Joint Staff 
and Army Policies, to ensure that Occupational and Environmental Health 
hazards are identified and assessed during periodic monitoring as part 
of their overall composite risk management plan for the operation, 
similar to the risks from combat, CBRN attacks, and physical safety 
hazards.
                                 ______
                                 
  Response to Post-Hearing Questions by Hon. Richard Burr to John J. 
    Resta, PE, MS, Scientific Advisor, U.S. Army Center for Health 
                   Promotion and Preventive Medicine

    Question 1. At the hearing, Mr. John Resta indicated that the 
Department of Defense may be moving forward with additional air 
sampling and studies regarding the potential health effects of burn 
pits being used in Iraq and Afghanistan.
    A. Please provide additional details regarding any on-going or 
planned air sampling related to burn pits.
    Response. Air sampling for Particulate Matter is being conducted 
across Iraq and Afghanistan at locations with deployed preventive 
medicine personnel which includes most of the larger US base camps. 
Sampling for volatile organic compounds (VOCs) is also being performed 
because of burn pits and other sources of VOCs at the base camps such 
as generator and vehicle exhaust.
    A tri-service group is developing a comprehensive air sampling 
strategy for the CENTCOM Area of Responsibility, focusing on sites with 
significant air pollution sources such as burn pits. The group is 
considering potential air hazards, methods to collect samples in a 
deployed area, and how such data could be used to better characterize 
the air and estimate the health risk to deployed Service Members. 
Personnel from the group are traveling to 6 locations in Iraq and 
Afghanistan in early November 2009 to brief command personnel on 
historical air sampling results, discuss the current situation with 
medical personnel, and gain further understanding of the exposure 
situation and concerns. Upon return, the draft strategy will be updated 
and presented to the Joint Environmental Surveillance Work Group 
Executive Committee in late November 2009. It will then be presented to 
the Defense Health Board at the end of November 2009 for their review 
and comment. Sampling is expected to commence by early 2010 assuming 
operational security conditions are adequate to allow this to occur 
safely.
    B. Is on-going sampling being done near the living quarters of 
servicemembers in Iraq?
    Response. Air sampling locations associated with burn pit smoke are 
selected by deployed preventive medicine personnel based on their 
assessment of air hazards and their impact on the mission and 
potentially affected populations. These sampling locations frequently 
include living areas.
    C. Would you please provide a timeline of when additional studies 
will be initiated and when we can expect the results?
    Response. As discussed above, additional burn pit studies would be 
expected to begin in early 2010. The actual dates may be affected by: 
equipment purchase and shipping, training, coordination of laboratory 
assistance, personnel rotation schedules, and/or the operational 
situation at the locations of interest. Results would be anticipated 3-
6 months after the completion of field work.

    Question 2. A February 2009 article in ``Inhalation Toxicology'' 
written by employees from the U.S. Army Center for Health Promotion and 
Preventive Medicine noted that authors of a 2005 journal article had 
``conducted a survey of 15,000 military personnel deployed to 
[Operation Enduring Freedom/Operation Iraqi Freedom] and estimated that 
69.1% reported experiencing respiratory illnesses, of which 17% 
required medical care,'' and that ``[t]he frequency of respiratory 
conditions doubled from a pre-combat period to a period of combat 
operations in this group.''
    A. What steps are being taken to ensure that possible respiratory 
illness is addressed in post-deployment health assessments?
    Response. Soldiers (and other Servicemembers) are asked to discuss 
any health concerns that they have about burn pits or other 
environmental exposures with a health care provider as part of their 
mandatory post-deployment health assessment process which is a two-step 
process that occurs within 30 days of their return from a deployment 
and again within 6 months after their return from deployment. Specific 
information on this program and the survey forms is available at http:/
/afhsc.army.mil/Documents/DOD_PDFs/DODI_6490_03.pdf.
    The increase in respiratory conditions in theatre noted in the 
article occurred during deployment by analyzing these post-deployment 
self assessment data. Soldiers' self-reporting of symptoms on 
questionnaires seems to increase from pre-to-post-deployment, but the 
increase is not reflected in more objective measures of health status, 
namely health care encounters. CHPPM has assessed the frequency of 
post-deployment inpatient and ambulatory care visits for respiratory 
conditions, and not found them to be associated with deployment (i.e. 
number of deployments and cumulative time deployed).
    B. To what extent does the smoke from burn pits potentially 
contribute to respiratory health problems of deployed servicemembers?
    Response. It is not possible to state to what extent any one 
exposure contributes to ``respiratory health problems of deployed 
servicemembers.'' It is recognized that exposure to burn pits smoke can 
cause acute, short-term and, most often, mild respiratory health 
problems in servicemembers such as red, watery, and mild upper system 
symptoms, depending on the degree of smoke exposure, such as coughing 
and sinus congestion. It is also suspected that a fairly small number 
of personnel who may have preexisting respiratory conditions may have 
those conditions aggravated by smoke exposures, or because of special 
susceptibilities, unique medical histories, or possibly even as a 
result of combined exposures (such as use of open burning and smoking 
cigarettes or cigars, etc.) could develop some type of chronic health 
effects. What are not known is what conditions might fall into this 
category and how frequent such conditions may develop. Epidemiologic 
studies are underway to identify any associated conditions and the 
extent of any risks toward the development of long-term, chronic 
conditions. The studies conducted to date have not demonstrated a 
significant increase in respiratory health outcomes post-deployment. 
Additional epidemiologic studies are underway to identify any 
associated health conditions and the extent of any risks toward the 
development of long-term, chronic conditions.

    Question 3. In his testimony, Mr. Resta indicated that the U.S. 
Army Center for Health Promotion and Preventive Medicine and the U.S. 
Air Force School of Aerospace Medicine ``performed both an operational 
health risk assessment and a long-term health risk assessment based on 
large-scale sampling events at Joint Base Balad'' and that ``no 
environmental monitoring data collected at Joint Base Balad to date 
have identified an increased risk for long-term health conditions.''
    A. Can you explain the extent to which the presence of particulate 
matter was considered in reaching that conclusion about long-term 
health conditions?
    Response. The risk assessment conclusions for the burn pit health 
risk assessments were based on the chemical test results and did not 
consider particulate matter (PM) exposures primarily because a CENTCOM-
wide PM characterization study was in progress during the time of the 
risk assessments and the potential health effects of PM exposures are 
not well understood. USACHPPM has requested that the National Academy 
of Sciences evaluate the existing PM data set and provide 
recommendations on assessing the health risks from exposures to PM. 
This evaluation is ongoing and expected to be completed in 2010.
    B. What impact do open burn pits potentially have on particulate 
matter levels?
    Response. Products of combustion include particulate matter, which 
is a broad term for particles which can be inhaled and include acid 
aerosols, metals and other compounds. Thus, burn pits add particulate 
matter to the surrounding air and potentially raise particulate matter 
levels. However, PM levels at Balad and across the region are naturally 
much higher than those found in the US. The year-long sampling effort 
for the CENTCOM-wide PM characterization study showed PM levels at 
Balad were similar to other locations in the region, some of which had 
burn pits and some that did not.
    C. Would you explain the findings that were published in 
``Inhalation Toxicology'' in February 2009 with regard to the health 
effects of exposure to particulate matter (article entitled ``Potential 
Health Implications Associated with Particulate Matter Exposure in 
Deployed Settings in Southwest Asia'') and what impact those findings 
may have on your conclusions regarding the long-term health risks 
associated with open burn pits?
    Response. The article was a review of some of the health effects 
associated with particulate matter, and specifically, what has been 
published regarding potential relationship of particulate matter in 
military populations. Based on the literature to date, no clear 
consensus regarding long-term health risks associated with particulate 
matter in deployed settings has emerged. Thus, the article discusses 
potential health risks. The article identifies burn pits as a potential 
source of particulate matter, and notes that burning and products of 
combustion may contribute to long-term health effects.

    Chairman Akaka. Thank you very much, Mr. Resta.
    My first question is for all of the DOD witnesses. I am 
really interested in the timeline for each of the exposures. 
So, General Payne, tell me about Camp Lejeune. When did the 
Marine Corps first learn about some potential problems there 
and when were your VA partners and servicemembers first 
notified about that?
    General Payne. Sir, there was an indication, I am told, in 
approximately 1979 that there were VOCs that were interfering 
with the testing of the water. But our ability to determine the 
specific chemicals involved took several years.
    Once we found out the specific chemicals, the specific 
wells, we began shutting down those wells in late 1984. The 
first notification was through the base newspaper and I have no 
idea, sir, why that route was chosen. Looking back from 2009, 
it seems to me to be a very inadequate response and an 
inadequate notification, quite frankly. I cannot speak for why 
the decision was made at that time in late 1984 and again in 
1985 to use that means of notification of the potentially 
affected residents.
    Chairman Akaka. The same question I would like to ask of 
Dr. Gillooly. Can you share the timeframe for Atsugi?
    Mr. Gillooly. Yes sir. As mentioned in my introductory 
remarks, the incinerators were constructed in the early 1980s. 
They were burning municipal waste. They applied for a permit to 
burn industrial waste in 1985. I think that was when the first 
concerns arose. There were some studies done by other 
organizations within the Navy, not Navy Medicine, in the late 
80s and early 1990s. We were not involved in those studies.
    We were tasked, or asked rather, in 1994 to come in and 
look at what had been done and at that point, we had done a 
screening risk assessment. So, that is when we first became 
aware of the air emission problems, then wrote a fact sheet and 
began some risk communication on base at that time.
    We followed that up in 1997 with another screening risk 
assessment using data that was primarily collected, not by us, 
but for compliance purposes, and each time we recommended that 
we go to a full comprehensive risk assessment study that would 
involve a year-long study of the air pollutants. In other 
words, we would sample for the whole year.
    As you are aware, the Department of Justice filed suit, I 
believe, in 1999-2000, against the incinerator complex and it 
was closed in 2001.
    Chairman Akaka. When were your VA partners notified about 
this or the other servicemembers?
    Mr. Gillooly. Pardon? Could you repeat that, please? I did 
not hear that. When was----
    Chairman Akaka. Yes. When was this information passed on to 
VA?
    Mr. Gillooly. Well, to my understanding, this year. In 
fact, there was a formal presentation to the VA about the 
Atsugi retrospective cohort epidemiological studies. So, I 
think, to my knowledge, that is the first formal presentation 
to the VA.
    Chairman Akaka. Mr. Resta, your timeline in Qarmat Ali and 
the burn pits, when did the problems come to light and when 
were your servicemembers and VA notified?
    Mr. Resta. For Qarmat Ali, my organization became aware of 
it on 15 September 2003, when we were contacted by the 
Coalition Forces Land Component Command, also known as CFLCC. 
CFLCC, on about the same day, also put the site off limits for 
all U.S. military personnel.
    We deployed and arrived on 30 September, started our field 
work, completed our study in November 2003, and published a 
report in January 2004, which was classified at the time in 
accordance with CENTCOM classification guidance. Between 2005 
and 2007 there were several informal contacts between members 
of my organization and various physicians within the VA asking 
questions about the incident.
    The first formal data transfer was of the classified report 
in December 2008, and then we subsequently prepared an 
unclassified report that was provided to them in January 2009.
    In terms of burn pits, our first involvement with burn pits 
occurred in 2004 at Camp Lemonier in Djibouti on the Horn of 
Africa, where we conducted our first study.
    We identified the risks at Balad as part of an occupational 
and environmental health site assessment in the 2006 timeframe, 
we started conducting environmental sampling there in 2007. 
That environmental sampling continues with certain periodicity 
today, and we started providing informal--at the technical 
level between physicians--information on that to the VA 
probably as early as 2007.
    We provided formal information to the VA in May of this 
year. They have gotten all the data to date that we have--all 
the sampling data that we have on Joint Base Balad to date.
    Chairman Akaka. Thank you. Let me ask Dr. Postlewaite if 
you have any further comments on this.
    Mr. Postlewaite. I think the timelines are accurate, sir. I 
have nothing to add to that.
    Chairman Akaka. Dr. Peterson, what happens when information 
about exposures arrives at VA's doorsteps; and Dr. Hunt, do you 
begin to assess the health of a veteran who has served in an 
area where exposure is known to have occurred?
    Dr. Peterson. Mr. Chairman, I would reference my opening 
statement about the DOD/VA Deployment Health Work Group. As 
other witnesses have explained on the DOD side, that has become 
the venue in the last few years of both discussions related to 
exposures and a venue for the transfer of information to 
include things like lists of potential people exposed.
    When through that working group the VA is notified, we have 
a discussion with others at the Health Work Group, and 
internally to VA, concerning the appropriate course of action. 
What do we feel based on work done by DOD up to that particular 
period of time in terms of exposure, how much of a risk is 
there?
    We identify methods by which to communicate with both 
veterans and providers that the exposure has occurred and what 
they need to be concerned about from a provider's perspective; 
from the prospective of care and where necessary, we begin to 
conduct medical surveillance and provide appropriate health 
care as authorized under statutory authority.
    I think Dr. Hunt can provide us a very interesting 
perspective in terms of what you have asked him to do and also 
to kind of balance out what I said in terms of when that 
information is provided to our providers in the field, when 
veterans become aware and start asking questions, how those 
questions are addressed, and how the care is handled at that 
point.
    So, I will ask Dr. Hunt to address that.
    Chairman Akaka. Dr. Hunt?
    Dr. Hunt. First, I would like to thank the Chairman and 
Ranking Member for the invitation to come speak with you today, 
as well as the staffers. I commend you on the work that you are 
doing.
    I feel like I am sitting here with 3,000-3,500 veterans 
that I have seen over the years. I am a primary care physician, 
occupational environmental medicine trained, and have done many 
hundreds of Gulf War registry exams, Agent Orange exams, 
Project SHAD exams, and ionizing radiation exams. I have sat 
with many of these veterans and feel like I will try to 
represent today their needs and their experiences.
    I cannot get the stories out of my head that Stacy told 
today and Laurie and Russell. I think of Senator Burr's 
friends, Jerry and David. Day in and day out, I sit with these 
individuals that have concerns about environmental agent 
exposures. I feel like there are two very important kind of 
paths that these situations take.
    If we have a situation like Qarmat Ali, Camp Lejeune, where 
we have what seemed to be fairly clear exposure incidents, I 
feel like we are putting in place both through the work in the 
DOD and CHPPM and the Office of Public Health Environmental 
Hazards with our risk centers, a very nice approach that--I 
wish Senator Rockefeller was still here because it is still not 
where we want it to be. But we are really moving in the 
direction of being able to take care of these incidents in a 
way that more quickly provides relief for these veterans and 
their families.
    Many of the people that we see--I think of Senator Burr's 
comments--have situations where we still do not have the 
answer, or situations where we are waiting for science. 
Tuesday, going to clinic, I ran into a Gulf War veteran that I 
had not seen for 6 or 7 years. I had done his initial Gulf War 
registry exam back in 1994 or 1995. Hadn't seen him for a long 
time. He was doing great. He had been down to Florida. He was 
being seen in a VA down there.
    We had a short chance to talk and I thought, he is really 
doing well, this fellow. When he first came in, he had 
medically unexplained symptoms, as 20 percent of the veterans 
from the first Gulf War did. We still do not know exactly what 
that is about. We still do not fully understand it.
    But what we do know is that there are many things we can do 
to help these veterans before we fully understand everything 
that is going on in terms of direct associations between 
exposures and health problems.
    So I guess to answer your question, what we try to do when 
a veteran comes in is to first of all acknowledge their 
service, acknowledge their sacrifice, take a step back from the 
chief concern about the exposure and the health concerns and 
reassure them that we will be spending time on that, but to 
take a step back and look at the greater context of their needs 
and their situation, particularly combat veterans.
    These exposures in combat particularly are a part of a very 
complex matrix of exposures that have to do with environmental 
agents, psychological traumas, sleep deprivation, and all the 
other potentially deleterious experiences a person has in 
combat.
    So, we try to assess kind of the full spectrum of risks 
that this person has been exposed to. We try to put the 
assessment of their environmental exposures in the context of 
that overall risk. We try to get the services set up that they 
need, including getting them service connected, getting them 
benefits, getting them the support that they need so that even 
before we know the answers to is this particular symptom 
related to this particular exposure, there are a lot of things 
we can do to help them get back on track and get back on their 
feet, particularly combat veterans.
    Chairman Akaka. Thank you very much, Dr. Hunt. Senator 
Burr, your questions.
    Senator Burr. Thank you, Mr. Chairman. I apologize to the 
witnesses that I was not here to hear the testimony, but I have 
tried to go over it as best I could.
    Let me go to you, Dr. Peterson, and to any of your 
colleagues from the VA that feel appropriate to potentially 
answer. The Navy sent out letters to veterans stationed at Camp 
Lejeune between 1957 and 1987, encouraged them to participate 
in the health registry. To date, roughly 140,000 individuals 
have responded and it is reasonable to conclude that many 
responded because they are in fact suffering from health 
problems and are worried they could be linked to the service at 
Camp Lejeune.
    Has the Navy or the Marine Corps volunteered to share the 
names, addresses of those individuals with the VA potentially 
so the VA could let them know whether they are eligible for VA 
care? In other words, have they provided the registry to the 
VA?
    Dr. Peterson. Yes, in fact, the VA is providing veterans 
with information about this issue and offering contact 
information and referrals to a registry that the Navy has 
established in the past. So we have--the Navy has been 
proactive in----
    Senator Burr. The 140,000-plus name registry has been 
provided to the VA?
    Dr. Peterson. Yes.
    Senator Burr. OK. Has the VA proactively gone after those 
140,000 individuals to counsel them relative to their potential 
benefits within the VA system?
    Dr. Peterson. We make the benefits aware to all of our 
veterans in a variety of ways. We have not specifically 
targeted that group. What has happened, coincidentally, with 
working issues like informing our veterans and going after them 
and indicating what benefits there are available to them, we 
have also----
    Senator Burr. They have responded to a Navy/Corps 
notification that they were at Camp Lejeune over a period of 
time where they potentially were exposed to toxic substances in 
the water. That list of people who responded and said, I 
acknowledge I was there, I might have a concern, has been 
supplied to the VA, but we do not do anything proactive from a 
standpoint of the VA to reach out to those individuals?
    Dr. Peterson. No, we do reach out proactively. I guess the 
point I am trying to make is while we are in the process of 
beginning to do that, we are also finding out that the National 
Research Council has produced a document, as was talked about 
earlier on the first panel, that indicates from their findings 
that we need to move forward in terms of research. Having been 
accomplished, there is no more research that indicates any more 
studies need to be done. This is a finding of the commission.
    Senator Burr. Dr. Peterson, seriously, I do not want to get 
into the NRC results with the Veterans Administration. I look 
at the VA from the standpoint of the agency mandated to provide 
service, health care service specifically, and you have thrown 
me a curve ball because the VA says and the Marine Corps says 
they have never--the Marine Corps says they have never given 
the VA registry the registry, and the VA says they have never 
gotten the registry.
    For you to tell me that you have the registry is something 
new.
    Dr. Peterson. OK. Brad, did you want to answer that?
    Senator Burr. Mr. Mayes, would you like to clarify that?
    Mr. Mayes. Senator--I think I turned it off there. I am not 
aware and I can speak for what we have done in the Benefits 
Administration, that we specifically have the names to conduct 
the outreach. We have been made aware of the situation at 
Lejeune.
    What we have done on the benefits side of the house is we 
have gone out and tried to make our field personnel sensitive 
that you are going to start seeing veterans coming into our 
regional offices----
    Senator Burr. Let me ask a real specific question.
    Mr. Mayes. Yes, sir.
    Senator Burr. To whoever would like to take it. Have you 
taken whatever list you think has been provided for you and 
compared it to the veterans that are enrolled within the VA 
system to see who might already be enrolled, receiving services 
from the Veterans Administration, where it would be extremely 
beneficial to that veteran for their doctor to know that they 
were potentially exposed to toxic substances at Camp Lejeune in 
their treatment?
    Mr. Mayes. Sir, the short answer is I do not think we have 
the registry with all of the names. So to my knowledge, we have 
not matched that up.
    Senator Burr. Well, let me go to the logical next question.
    Mr. Mayes. I know what it is.
    Senator Burr. Isn't that essential to the performance of 
your job, the delivery of health care to individuals, just if 
we limit it for a second to the ones who qualify for VA 
benefits? I mean, Dr. Hunt, I know exactly what you were saying 
earlier. Having as much information about the individual you 
are treating gives you specific insight as to the treatment 
therapies that you might pursue, knowing where they were 
exposed to the same thing if it is two--if it is one place 
versus the other might give you insight.
    Based upon others you have seen, to me, it seems like an 
issue that the VA would actually be proactive with the Corps 
and the Navy, saying, we need this to do our job. The more 
information we get, the more effective we can be at the 
treatment of these individuals.
    Let's forget the ones that do not know whether they qualify 
today. Does that--am I right there?
    Dr. Hunt. [Nodding affirmatively.]
    Senator Burr. I take the shaking of the head in the 
affirmative--OK. Dr. Peterson, in your testimony, you state 
that the VA does not have special authority to enroll Camp 
Lejeune veterans and their family members in the VA health care 
system.
    As you know, I have introduced legislation that would 
explicitly authorize the VA to care for veterans and family 
members that show illnesses that might be the result of their 
time at Camp Lejeune. It appears to me that the VA could create 
a special enrollment category for those affected veterans using 
the Secretary's general authority to provide needed health care 
to categories of veterans not specified in law.
    Does the VA have such legal authority?
    Dr. Peterson. I can't answer that question without asking 
general counsel. I do not know. I do not know.
    Senator Burr. Could I ask you to take that to the general 
counsel?
    Dr. Peterson. I would be happy to, sir.
    [See Question 1 in post-hearing questions by Senator Burr.]
    Senator Burr. I think you will find out the answer to that 
is affirmative.
    Dr. Peterson. OK.
    Senator Burr. And if that is the case, and I will not pose 
this in the form of a question, I will pose it in the form of a 
statement. Why would we rather wait to see if I pass 
legislation versus initiate the authority of the Secretary to 
create through that general authority the coverage for 
individuals that we fear might have a condition which is the 
result of having served at Camp Lejeune during a period that 
the groundwater was contaminated to a degree yet to be 
determined, OK?
    Mr. Mayes, I cut you off earlier and this question might go 
to the heart of it, and I will let you answer in a complete 
statement. If veterans who were stationed at Camp Lejeune, have 
evidence that they have one of the diseases that might be the 
result of that contaminated water, how does VA evaluate a 
disability claim for an individual who might fall into that 
matrix?
    Mr. Mayes. Yes sir, I think I understand the question. At 
the present time, we need evidence, of course, that they have a 
disease and then we would put them at Camp Lejeune, which we 
would certainly not question if they were at Camp Lejeune 
during the affected period, that they were clearly exposed to 
whatever was in the water--they would be drinking and bathing 
and using the water.
    And then we would be looking for a medical nexus opinion 
between the disease and exposure to some toxic substance that 
might have been in the water. At the present time, that is 
required for service connection in those particular cases.
    Senator Burr. If I happen to visit any VA facility in the 
country, how familiar would that person who sees that veteran 
coming in--that doc in that facility--be about Camp Lejeune 
potential contamination if in fact they found somebody that met 
that criteria; would the average person out there even know 
anything about it?
    Mr. Mayes. The average adjudicator out there should know 
about it, Senator. We have a monthly call with all of our field 
managers that manage those veteran service centers that 
adjudicate those claims. It was in June that we made all of 
those managers aware that this was an issue.
    We had anecdotal evidence that people were coming in and 
filing claims, that they needed to be sensitive to this and 
then, in fact, they had to sympathetically view those claims, 
order an exam if it is necessary, but at the end, they would 
still need the disease exposure at Lejeune and then that nexus 
opinion.
    Senator Burr. I take for granted somewhere there exists a 
memorandum stating that information to them?
    Mr. Mayes. Sir, we have not put it in a formal, what we 
call a fast letter, which would be guidance. We do document--we 
do document what we say on those calls.
    Senator Burr. I feel fairly confident you will after this 
hearing.
    Mr. Mayes. Yes, sir.
    Senator Burr. Therefore, I would like you to send me a copy 
of it when you do.
    Mr. Mayes. Will do, Senator.
    Senator Burr. For the purposes of the Committee.
    Mr. Mayes. Yes, sir.
    Dr. Hunt. Senator?
    Senator Burr. Yes, sir?
    Dr. Hunt. On the clinical side, we--that information is 
being disseminated. Two weeks ago we had a conference on post-
combat care in the VA. There were 3,000 people that attended 
from around the country. It is the biggest conference the VA 
has ever had.
    There were several sessions at the conference that were 
done by the Office of Public Health Environmental Hazards, 
including one talking about Camp Lejeune and these other four 
exposure incidents as well. Also, we have monthly conference 
calls for this post-deployment in-grade care initiative and the 
one next month is done by the War-Related Illness and Injury 
Study Centers to further disseminate information to clinicians 
in the field about Camp Lejeune and these other exposure 
incidents.
    There is also a monthly conference call through the 
Environmental Hazards Group where they discuss this too. So, 
clinicians certainly are getting the word about these veterans. 
So, if they come in, at least clinicians are increasingly aware 
of.
    Senator Burr. Thank you for that, Dr. Hunt, and thank you 
for noticing that I blurred the line between disability back to 
medical care, unintentionally, but I am glad that I did so that 
you could sort of fill me in on that.
    Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr. This 
question to Dr. Hunt builds on what Senator Burr was asking 
about.
    VA has said that records are shared between DOD and VA for 
purposes of adjudicating claims, but what about for the purpose 
of providing health care? The bottom line is, can a VA doctor 
look at a veteran's health record and tell what environmental 
hazards they were exposed to during their deployment?
    Dr. Hunt. One of the advantages of having been in the 
system for a period of time is knowing how absolutely absent 
that sort of communication was in the past. There is no 
question that we are moving forward with bidirectional health 
information exchange, with remote data access.
    I confirm the chart when I am seeing a patient. I can click 
on remote data. I can get data from Fort Lewis or from military 
treatment facilities and among those data are information from 
the Post-Deployment Health Reassessment, PDHRA, which has 
information on exposure, and that is very useful for sure.
    So we are increasingly gaining access to those sorts of 
records that are very helpful.
    Chairman Akaka. On the question of Qarmat Ali, Dr. 
Postlewaite, in your written testimony you called DOD's 
response to the exposures at Qarmat Ali exemplary. How would 
you characterize DOD's efforts to prevent exposures there? 
Specifically, how did your program help soldiers and workers at 
the water treatment plant?
    Mr. Postlewaite. Thank you, Senator. Actually, that 
testimony you quoted is Mr. Resta's, but I would like to take 
an opportunity to address your question, if I may. The word 
``exemplary'' that was used in that testimony was a quote from 
the Defense Health Board when they reviewed the Army medical 
response to Qarmat Ali. They found it to be timely based on the 
minimal time since notification.
    The Army was able to put together a team of experts, 
including occupational health physicians, get them into 
theater. This was in 2003. This is a very difficult time 
because we were very much engaged in hostilities at that time. 
This is out away from the base camp, where there wasn't lots of 
protection.
    But nevertheless, the leadership said go for it and they 
were pulled in very, very quickly. The environmental assessment 
was done very quickly, as well as the medical assessment. We 
felt that under very extraordinary circumstances it was a very 
timely response.
    Chairman Akaka. Dr. Postlewaite and Mr. Resta, Dr. Gibb 
stated that the symptoms that have been reported by soldiers 
and civilian workers at Qarmat Ali are consistent with what has 
been experienced by other workers similarly exposed. He also 
said that blood samples were not taken until 1 month after 
remediation measures were taken to limit the exposure and that 
kind of delay does not allow for an accurate measure of 
exposure.
    How confident are each of you that you have properly 
identified servicemembers' risk of exposure at Qarmat Ali?
    Mr. Postlewaite. This is a very complex situation with 
Qarmat Ali, Senator Akaka. Again, in 2003 when this occurred, 
the Army came in very quickly, did the assessments on the 
individuals that were currently assigned there at Qarmat Ali, 
became aware of some units that had been there previously, felt 
after the environmental assessment was done, taking a look 
around the area, interviewing the troops and during that time, 
I think as is in the reports that you all have read, there were 
some symptoms noted primarily related to dried nasal membranes 
and upper respiratory kinds of symptoms that would be very 
consistent with the desert environment.
    At that point in time, the team had no knowledge at all of 
these severe effects that have been coming out in the media 
over the last year since KBR raised these issues. That was not 
brought up at the time. So, based on the information that was 
available when those assessments were done, including the blood 
chromium, which we felt was the correct test because it 
measured the chromium in the red blood cells (which stays 
around longer), the hexavalent chromium that you would find in 
the serum, based on symptoms and based on the physical exams 
that were given, and based upon the blood samples that were 
drawn at the time, we felt very confident that we had fully 
assessed the situation and that there were no reasons to 
suggest long-term health effects.
    As I said, we now have additional information and we are 
certainly reopening our book on this to take a closer look and 
we are very interested in what the VA physical exams will show 
for these individuals to see whether those health symptoms that 
they were experiencing may be consistent with these exposures.
    This caught us very much by surprise because we did not 
have all that information. We had an individual this morning, 
the medic that spoke to us, who indicated that he took care of 
treatment for a number of the people in his unit, which was 
very valiant of him, but it may have prevented some of that 
information related to health effects from actually getting 
back to the medical facility where people could start putting 
two and two together to identify a real problem.
    So, there are a lot of complex issues to this that are not 
easily navigated.
    Chairman Akaka. Mr. Resta?
    Mr. Resta. If I could just add a few things, sir, is that 
the physician that ran this response is a board-certified 
occupational medicine physician who works in industrial 
situations for the Army and is well versed in occupational 
medicine.
    Through his physical examinations and ancillary testing--
not solely blood chrome levels, but including pulmonary 
function tests, chest x-rays and things like blood and urine 
and liver functions and the like that are outside of my area of 
expertise--he concluded that the symptoms that veterans or 
soldiers at that point were complaining about, the signs that 
he observed, were not consistent with hexavalent chromium 
exposure.
    Dr. Gibb's testimony had a few factual errors in it, which 
makes me believe we need to share some information with him. 
The blood chemistries that we did for chromium, 73 of 135, were 
less than the level of detection, which was 0.5 micrograms per 
liter, not 5 to 6 micrograms per liter, as he testified.
    Twenty-one of 135 were in excess of 1.0 micrograms per 
liter with a maximum detected of 8.7 micrograms per liter. And 
these are well within U.S. national averages. At the time we 
were using a national average range of 0.1 to 10 micrograms per 
liter. But the blood tests alone--just to clear up potential 
confusion--the blood test alone was not the sole determination 
of whether or not a significant exposure had occurred. It was 
predominately the physical examination by the occupational 
medicine physician. And so I just wanted to clear that up.
    Chairman Akaka. Before I yield to Senator Burr, I would 
like to ask this question on burn pit exposures. Dr. 
Postlewaite----
    Mr. Postlewaite. Yes, sir.
    Chairman Akaka. We have heard stories about servicemembers 
experiencing medical difficulties due to service near burn pits 
in Iraq and Afghanistan. For several years now we have known 
this. What active measures does your office take to ensure the 
environmental safety of our servicemembers around the areas of 
these burn pits?
    Mr. Postlewaite. Yes, sir. Burn pits, as you probably know, 
were utilized at a number of camps within Iraq and also 
Afghanistan for an expedient means to dispose of waste that was 
generated at those camps, so that the waste itself would not 
generate a health hazard.
    Unfortunately, some of these burn pits were located quite 
close to the camps, in some cases, upwind of the camps. Some of 
that was due to the fact with hostilities in the area the 
commanders did not feel like they could locate them very far 
away from the installations without putting their people at 
risk.
    In other cases, the burn pits were located in the 
periphery, but as the base grew in size, the population 
expanded around it. As a result, we have a number of situations 
like this in-theater. The largest burn pit in theater, Balad 
Air Base, at the time was the one that was most easily studied. 
We could study it without putting people out in the far reaches 
of the territory where their protection would have been an 
issue.
    We felt that, because it was the largest burn pit, this one 
would be a good one to study in depth because we felt it would 
be representative of the others. There were over 400 air 
samples that were taken at Balad Air Base in 2007, constituted 
the data necessary for a risk assessment as well as an 
addendum.
    Both the addendum and the risk assessment looking at all 
the substances that were analyzed did not indicate a health 
risk. We took that information, that risk assessment, and had 
it reviewed by the Defense Health Board because we wanted 
third-party validation that our interpretation was correct.
    Nevertheless, we do feel like some people probably have 
suffered some untoward health effects as a result of it. We do 
not feel like the numbers are large based on the total numbers 
of people that probably were exposed to smoke throughout the 
theater. In fact, the Post-Deployment Health Assessments that 
were mentioned earlier, I believe the figure that I saw last 
was about 56 percent of all the individuals deployed actually 
checked that square on the Post-Deployment Heath Assessment.
    So, it was a very wide exposure. We have looked at our 
health outcome data from our returning veterans. We just are 
not seeing any significant elevations of the kinds of 
conditions that we would expect as a result of exposure to the 
smoke. But with that said, we are continuing to peel back the 
layers of the onion, if you will. We are doing site-specific 
studies on just the troops who were at Balad, for example, to 
see if their health experience was any different.
    Right now we do not have any strong evidence to suggest 
that this smoke affected large numbers of people, but we really 
do feel like some people probably had increased 
susceptibilities. They may have had combined exposures. They 
may have had previous health conditions which would place them 
at greater risk.
    So, we will not say that nobody is suffering from these 
exposures.
    Chairman Akaka. Let me follow up with Mr. Resta. According 
to your testimony, the risks of burn pits were recognized as 
far back in Bosnia in 1996. Were the soldiers located near burn 
pits in Iraq and Afghanistan issued any protective gear or 
warned in any way of the potential harms associated with burn 
pits?
    Mr. Resta. I am not aware that there was any specific 
personal protective equipment that was ever issued to any 
soldiers. I have heard anecdotes, stories of soldiers who were 
immediately downwind pulling guard duty wearing dust masks and 
things like that to essentially try to reduce the smell per se. 
But I am not aware that we have ever issued anything there.
    In terms of notification, once we got the results of the 
first risk assessment, we tried, again, to communicate those 
risks to the people present at Balad via various town hall 
meetings, fact sheets, and the like. The challenge of doing 
that in such a large operational setting is that a lot of the 
people who had previously been there were no longer there, new 
people were there, and the situation and conditions had 
actually changed.
    That is one of the reasons that we embarked on additional 
sampling and continue to do that today even while we are 
operating incinerators, which in the last report I received has 
reduced the amount of open burning by over 90 percent.
    Chairman Akaka. Thank you. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. General Payne, 
welcome, and let me say for the record upfront, when this 
controversy at Camp Lejeune existed you were not in your 
capacity today.
    Now, I have in my hand, as do probably numerous people, 
Base Order 5100.13B which is entitled, ``Safe Disposal of 
Contaminants and Hazardous Waste,'' specifically prohibiting 
the improper disposal of, and I quote, ``organic solvents'' and 
defined improper practices as those, and again I quote, 
``create hazards such as contamination of drinking water.''
    Now in your testimony, I interpreted what you said to mean 
the Marine Corps did not violate any regulations. I guess I 
have to ask, is not complying--how does not complying with the 
base order square with that?
    General Payne. Sir, again, looking back with the lens of 
2009, you look at that and one just shakes their head as to how 
this happened based on the timeframes. I think that you have to 
start with understanding that even in 1984, when we started 
closing the wells in early 1985, when we concluded, that was 
still long before these chemicals were regulated.
    TCE and PCE were not even regulated until 1989 and 1992, 
respectively. I can only surmise, sir, because I was not 
involved in the decisionmaking at that time, I can only surmise 
that we simply did not understand the ramifications of that 
contamination.
    Senator Burr. But would you agree with me pertinent words 
here are ``organic solvent?'' I mean, there is a little room 
for poisonous chemical waste or other unsuitable compounds; 
either organic solvents or compounds, the definition of organic 
solvent has not changed. Would you agree with me on that?
    General Payne. Sir, I am not a scientist. I am a war 
fighter, so I really cannot answer that.
    Senator Burr. OK.
    General Payne. Whether it has changed, whether we knew what 
that meant at the time, and whether that definition has 
changed, I'm sorry, sir.
    Senator Burr. Well, we both cannot reconstruct the 
personnel or the decisions that were made at the time and I 
think in an effort to try to provide a fresh start, my hope is 
that we can identify that we have done some things wrong in the 
past and that now it is time to make the commitment to get the 
information we need to know how to go forward.
    Let me, if I could, turn over to Dr. Gillooly.
    General Payne. And we concur with that, sir.
    Senator Burr. Thank you, sir. Why was the--I take for 
granted, you are the Public Health Center?
    Mr. Gillooly. Yes, sir, Navy-Marine Corps Public Health 
Center.
    Senator Burr. Did that used to be called the Navy 
Environmental Health Center?
    Mr. Gillooly. Yes, sir.
    Senator Burr. So, you have changed your name?
    Mr. Gillooly. Yes, sir.
    Senator Burr. OK, I just wanted to make sure I asked the 
right person the right question. Why was NRC not asked to 
review a broader set of risks?
    Mr. Gillooly. We had the NRC review our previous two 
screening health risk assessments in 1995 and 1997. They more 
or less agreed with our findings and conclusions for those.
    Senator Burr. The 2000 draft that they reviewed, they 
found--they raised several questions. How did you incorporate 
into the final rule what they raised?
    Mr. Gillooly. Sir, we took their recommendations seriously. 
We worked approximately 6 more months just working those 
issues, incorporating where we could their primary issues about 
reducing the uncertainty and better characterization of the 
health risks. We provided to them a 100-page report that listed 
point-by-point which of those items we could actually do that 
were practicable at that point in time and they were included 
in the final report.
    Senator Burr. But several of the issues were structural 
problems with the way you conducted your analysis throughout 
the thing. I am not sure how you could go back and remediate 
that unless it was to guess.
    Mr. Gillooly. Well, I think I should back up. Number 1 is, 
when we first asked the National Resource Council to look at 
the report, typically you have an opportunity to discuss with 
them what you intend to do onsite and we were not able to 
because the Department of Justice had litigation ongoing.
    So, issues such as challenges and limitations of trying to 
do a risk assessment overseas from a source that was privately 
owned outside the fence were very real. For example, the gold 
standard would be to get on that stack, that incinerator stack 
and measure the pollution coming out of the stack. We did not 
do that.
    Senator Burr. Adopting that rationale would tell me that 
you would lean heavier on a contractor versus a DOD arm to 
actually conduct more of the study.
    Mr. Gillooly. Well, it is a team approach. We had both 
contractors and----
    Senator Burr. OK. Why would the NRC not be asked to look at 
the final report before it was published?
    Mr. Gillooly. All I can tell you is the Navy Bureau of 
Medicine and Surgery forwarded the final draft report to the 
Commander in Chief, U.S. Pacific Fleet, for release. What 
happened after that I cannot comment on. In fact, I was 
surprised today when Dr. Feigley indicated he had not seen 
that.
    Senator Burr. Mr. Resta, in your testimony, first 
paragraph, excuse me, first paragraph of burn pits, you said it 
should be used to minimum extent possible based on the 
operational situation. When open burning operations are 
necessary, they should be located as far downwind of personnel 
as possible.
    That would suggest that there is a human risk to those burn 
pits. Am I making the right assumption?
    Mr. Resta. Yes sir, you are. Breathing smoke is not 
healthy.
    Senator Burr. Then share with me this. Earlier this year, 
in the Defense Authorization Bill, I offered an amendment to 
study the issue of burn pits. The Committee rejected my 
amendment and said, due to objections from the Department of 
Defense.
    Share with me any rational reason why the Department of 
Defense would not want to know whether burn pits had more than 
just smoke inhalation problems for our troops.
    Mr. Resta. I certainly cannot speak for the Department of 
Defense given where I am located, the Department of Army. I can 
hypothesize that perhaps our objections were that we are 
already working with the National Academy of Sciences on that 
very issue.
    I would have to really take that for the record to find out 
what exactly we forwarded up there.
    Senator Burr. Take that back for the record.
    Mr. Resta. Yes, sir.
    [The information requested during the hearing follows:]

Response to Request Arising During the Hearing by Hon. Richard Burr to 
John J. Resta, PE, MS, Scientific Advisor, U.S. Army Center for Health 
                   Promotion and Preventive Medicine

    The Department of Defense (DOD) concurred in principle with the 
amendment, but due to the short timeline and lack of specificity, the 
amendment was not implementable. It is not possible to accomplish all 
the environmental monitoring indicated, have all the samples analyzed, 
and perform the necessary risk assessments, nor determine all health 
effects from burn pits within 180 days. Further hindering compliance, 
the 15 military installations or facilities required to be included in 
the report were not specified. These gaps caused the DOD to object to 
the proposed amendment.

    Senator Burr. I think even though you are in a very 
specialized area, I would think that you would be consulted on 
a decision like that.
    Mr. Chairman, I have a ton more questions. I would like 
unanimous consent to be able to provide written questions and 
to get answers because one, we have been here a long time and I 
know you have things to do. These witnesses have been here for 
a long time. But I do want to make one observation.
    Chairman Akaka. Yes, Senator Burr. I have some questions 
too. We will certainly----
    Senator Burr. OK, may I make one observation?
    Chairman Akaka [continuing]. Send them for the record.
    Senator Burr. This Committee has struggled to try to make 
seamless the handoff of active duty troops to our Veterans 
Administration from the standpoint of the health care needs of 
our veterans.
    Today I have come to the conclusion that our problem is far 
worse than just working with DOD on the electronic medical 
records making this is a seamless process where when you go 
into a new health care system they know exactly what you have 
been exposed to, they know exactly where you have been, they 
can assess what your health needs are based upon where you have 
served and what you might have been exposed to.
    Today I found that it is much worse because even where we 
identify things that potentially could cause long-term health 
conditions to our active duty Reserve and called-up Guard, 
there is not an attempt to download that information to where 
we know these individuals will be, at some point, receiving 
their health care.
    I sort of paint everybody on one side and I also paint 
everybody on the VA side for not screaming about the need to 
get this information. We have made tremendous progress between 
VA and DOD to try to get electronic medical records that are 
seamless.
    If, in fact, exposure to burn pits has some potential 
downstream effects, then I want to make sure a VA doctor knows 
exactly where that person was so that they can see them and 
treat them based upon what their exposure might be. If they 
were at Camp Lejeune for those years, that information is 
absolutely essential to the VA side to take care of them.
    If they were exposed to an incinerator--and it really does 
not matter what the conclusion of the report was, that is 
pertinent information to a medical doctor who is making a 
decision about an individual based upon what he sees and what 
he reads. And if he only has what he sees, the care cannot be 
as complete as if he matches that with what he reads.
    So, I would hope on both sides of this table that the VA 
would become proactive in asking for the information that is 
pertinent to delivering care to these warriors on the active 
duty side, that we understand this is not about minimizing the 
potential effects of what we are in charge of. It is about 
making sure that we get the most pertinent information to all 
the people that can affect the best long-term quality-of-life 
for the individuals that may or may not have been affected.
    Again, I thank all of you for your testimony. Thank you, 
Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Burr. This has 
been a great hearing. In closing, I again want to thank all of 
our witnesses for appearing today and for your responses as 
well.
    To the veterans and family members of veterans affected by 
the exposures discussed today, I truly appreciate your 
willingness to share your stories with the Committee. I 
understand that these deeply personal matters are sensitive and 
are not always easy to speak so freely about.
    As Chairman, I am committed to ensuring that VA continues 
to study the health effects related to these exposures and that 
VA adapts to meet the treatment needs of individuals affected 
by toxin exposures.
    As I mentioned in my opening statement, in order for VA to 
do this DOD must first determine who was exposed and what they 
were exposed to and the health consequences of such exposure. 
The information must then be shared with VA. This Committee is 
not charged with direct oversight of DOD. That falls to the 
Armed Services Committee. However, this Committee shares the 
responsibility for oversight where the roles of DOD and VA 
intersect and we share several members, including me and 
Senator Burr.
    To quote President Obama, ``We cannot let burn pits and 
other exposures be this generation's Agent Orange.'' We have a 
responsibility to ensure that the newest era of veterans 
receive the highest quality of care and prevent the tragic 
stories we have heard today from happening again.
    I thank you again for sharing your comments and thoughts 
and without question, it is going to be helpful to what we are 
trying to do to help the veterans of our country.
    This hearing is now adjourned.
    [Applause.]
    [Whereupon, at 1:37 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


           Prepared Statement of Paul C. Akers, BS, MS, MD, 
                       Camp Lejeune, NC (1954-60)

    My name is Paul C. Akers, M.D., and as you know from my preliminary 
information, I am a Marine Corps dependent, the son of MSgt. Paul A. 
Akers (deceased). I was born on August 3, 1945, at Miramar (Marine 
Corps Air Station). My family was stationed at Quantico, VA; El Toro, 
CA; Cherry Point, NC; and at Santa Ana, CA, prior to being stationed at 
Camp Lejeune, NC.
    While we were stationed at Camp Lejeune, we lived in Tarawa Terrace 
II at 2505 Bougainville Drive (1954-59) and at 3040 Saipan Drive (1959-
60). My sister and I attended base schools on Brewster Avenue, all 
schools being on one campus and encompassing grades one through twelve. 
My father was head of the meat department at the commissary and he was 
also assigned to Camp Geiger, ITR and other locations during our stay 
at Camp Lejeune. My mother was a housewife, and volunteered as a Grey 
Lady in the library of the Camp Lejeune Naval Hospital. The 
neighborhood students rode to school and to extracurricular 
destinations on USMC buses driven by enlisted Marine personnel. We 
played little-league baseball at a field adjacent to Tarawa Terrace I 
and little-league football on a field at Camp Geiger. Camp Lejeune High 
School teams practiced at the school but held their games in the 
outfield of the base baseball field or at the base football field, and 
they played basketball games at the base field house. Baseball games 
were played at the high school. Children played in the woods around 
Tarawa Terrace; the neighborhood boys played pick-up games on a make-
shift diamond beneath a water tower in the complex.
    Families drank, bathed in, cooked with, and ate food prepared with 
this water. In addition, families watered the flowers and lawns, washed 
their clothes, and children played in wading pools filled with this 
water. There were swimming pools on base, but I do not know the source 
of the water used to fill them. They were closed periodically during 
the summers due to polio outbreaks. Not only was Hospital Point the 
location for the base hospital, but it was also the site for social 
events, such as oyster roasts, birthday parties, etc. In the early 
1950's, my family was stationed at Cherry Point MCAS, and I was sent to 
Camp Lejeune Naval Hospital to have my tonsils taken out. My mother was 
diagnosed with metastatic breast cancer in the mid-1950's; she had 
found a lump in her breast about a week or two before her diagnosis. 
Adm. Joseph L. Yon, M.D. was her surgeon. She had positive lymph node 
biopsies and underwent a radical mastectomy and subsequent radiation 
therapy. I was in the third or fourth grade at the time of her 
diagnosis. My mother died May 27, 1960 in the Naval Hospital in 
Quantico, Virginia. She and my father are both buried in Arlington 
National Cemetery. At the time of my mother's death, I was fourteen, 
and my sister was twelve.
    My sister died with metastatic malignant melanoma on June 2, 2009, 
after having been diagnosed in early May, 2009. She was sixty-two years 
old at the time and had previously had some Gyn atypia as well. I was 
diagnosed with stage 4, non-Hodgkins lymphoma on April 29, 2009, and am 
currently undergoing treatment. Except for my mother, my sister, and 
myself, there is no history of malignancy on either side of our family.
    As a physician and as a scientist, I am concerned on both a 
personal and professional level. Three of the major contaminants in the 
Camp Lejeune Water Study are classified as carcinogens and capable of 
causing the cancers that have been reported in my family. As a 
practicing physician, I would be highly concerned for my patients and 
would monitor their health statuses closely immediately after becoming 
aware of their exposure to the above-mentioned carcinogens. Believing 
the exposure was related to their duty stations--Camp Lejeune, El Toro, 
and other sites--I feel that the U.S. Government should assume the 
responsibility for monitoring these people's health statuses and their 
associated medical. Since the exposure occurred during their service to 
the military (Marines, Navy, civilian base employees and dependants), 
the logical location for such monitoring and any subsequent related 
health care would be at a local VA hospital with all related expenses 
covered by the Veterans Administration. Validation of exposure 
potential may be obtained by review of the service or employee records.
    I regret that I will be unable to deliver this testimony in person; 
however, as I mentioned earlier, I am still undergoing treatment and 
have an intrathecal methotrefate treatment scheduled for October 7, 
2009. If I may provide any additional information, either in person or 
in writing, please do not hesitate to contact me.
                                 ______
                                 
       Prepared Statement of The Agency for Toxic Substances and 
                        Disease Registry (ATSDR)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  CONTAMINATED DRINKING WATER AND HEALTH EFFECTS AT MARINE BASE CAMP 
  LEJEUNE: FINAL PLANS OF THE AGENCY FOR TOXIC SUBSTANCES AND DISEASE 
                                REGISTRY
                              AUGUST 2009

                           Executive Summary

    ATSDR has been assessing the human health risks from hazardous 
substances at U.S. Marine Corps Base Camp Lejeune since the late 1980s. 
The agency conducted public health assessments, initiated a variety of 
epidemiological studies, and employed state-of-the-art computational 
tools (modeling) to reconstruct exposures to volatile organic compounds 
(VOCs) from drinking water systems. In 1997, ATSDR characterized the 
VOC drinking water pollutants as a ``past public health hazard,'' a 
position ATSDR continues to maintain. Since then, ATSDR has focused on 
epidemiological studies designed to measure the occurrence of illness 
and death among the service men and women and their families exposed to 
the contaminated drinking water.
    Several documents or reviews of ATSDR's work have been completed 
during the past 14 months. ATSDR finalized An Assessment of the 
Feasibility of Conducting Future Epidemiologic Studies at USMC Base 
Camp Lejeune in June, 2008. ATSDR later held an April, 2009 Expert 
Panel to assess ATSDR's plans for historical reconstruction of drinking 
water contamination at Hadnot Point and Holcomb Boulevard. In June, 
2009 the National Research Council (NRC) issued a report, Contaminated 
Water Supplies at Camp Lejeune--Assessing Potential Health Effects.  
This document considers this information and defines ATSDR's plans for 
completing our research activities at Camp Lejeune.
    Tarawa Terrace exposure modeling: ATSDR will use its modeling to 
generate semi-quantitative exposure estimates for the planned 
epidemiologic studies rather than limit the use of the historic 
reconstruction to exposed/unexposed. ATSDR believes that the models 
provide a reliable means for assigning individuals to multiple exposure 
categories useful in epidemiologic studies. ATSDR's approach is 
supported by two previous expert panels that focused on exposure 
reconstruction efforts.
    Hadnot Point exposure modeling: ATSDR will apply simpler modeling 
techniques for Hadnot Point and Holcomb Boulevard then those used for 
Tarawa Terrace. The Hadnot Point area is significantly larger than the 
Tarawa Terrace area and contains multiple contaminant source locations. 
Applying the complex numerical models used at Tarawa Terrace to the 
entire Hadnot Point area would be time consuming, costly, and add 
another level of uncertainty to the water modeling analysis. This 
approach is supported by both the NRC report and the ATSDR 2009 expert 
panel.
    Reanalysis of birth outcomes study: ATSDR will proceed with its 
planned reanalysis of the birth outcomes study to correct for errors in 
exposure classification. To avoid further exposure misclassification, 
ATSDR will await the completion of the historic exposure reconstruction 
of the Hadnot Point drinking water system.
    Birth defects and childhood cancer studies: ATSDR will complete its 
case-control study of birth defects and childhood cancers. The analysis 
will proceed expeditiously once the historic exposure reconstruction of 
the Hadnot Point drinking water system is completed.
    Further epidemiological studies: ATSDR has proposed mortality and 
morbidity studies. The morbidity study will be based upon a ``health 
survey'' that would solicit information about diagnosed illnesses 
(e.g., cancer) from former service men and women and their families. 
ATSDR plans to move forward as quickly as possible to conduct the 
mortality study which has adequate study power and can be completed in 
a relatively short time period. ATSDR recognizes that a scientifically 
valid morbidity study based upon a health survey is time consuming and 
costly. The utility of the health survey depends upon high 
participation rates and the ability to secure objective confirmation of 
reported medical conditions. ATSDR will alter its plans for the health 
survey by using a phased approach, evaluating participation rates and 
diagnosis verifiability in advance of a complete survey of all eligible 
participants. ATSDR will define scientifically sound criteria for 
evaluating the results of the first phase, and for deciding upon the 
feasibility of a complete survey.
    ATSDR concludes that the portfolio of epidemiologic studies is not 
only scientifically useful, but also a service to the community of 
service men and women and their families exposed to contaminated 
drinking water at USMC Base Camp Lejeune.

                           Table of Contents

Executive Summary..................................................... 1
Table of Contents..................................................... 4
I. History and Purpose................................................ 5
II. Science and Service............................................... 6
III. Partnerships and Oversight....................................... 7
IV. ATSDR Camp Lejeune Portfolio...................................... 8
V. The NRC Recommendations............................................12
VI. Implementation and Timeline.......................................21
VII. References.......................................................22

                         I. HISTORY AND PURPOSE

    ATSDR has been assessing the human health risks from hazardous 
substances at U.S. Marine Corps Base Camp Lejeune since the late 
1980's. The agency conducted public health assessments, initiated a 
variety of epidemiological studies, and employed state-of-the-art 
computational tools (modeling) to reconstruct exposures to volatile 
organic compounds (VOCs) from drinking water systems. In 1997, ATSDR 
characterized the VOC drinking water pollutants as a past public health 
hazard, a position ATSDR continues to maintain. Since then, ATSDR has 
focused on epidemiological studies designed to measure the occurrence 
of illness and death among the service men and women exposed to the 
contaminated drinking water. ATSDR has enlisted four different Expert 
Panels and a Community Assistance Panel to help guide the development 
of this work.
    Several documents or reviews of ATSDR's work have been completed 
during the past 14 months. ATSDR finalized An Assessment of the 
Feasibility of Conducting Future Epidemiologic Studies at USMC Base 
Camp Lejeune in June, 2008. ATSDR later held an April, 2009 Expert 
Panel to assess ATSDR's plans for historical reconstruction of drinking 
water contamination at Hadnot Point and Holcomb Boulevard. In June, 
2009 the National Research Council (NRC) issued a report, Contaminated 
Water Supplies at Camp Lejeune--Assessing Potential Health Effects. 
ATSDR has carefully evaluated these reports, comments from the Camp 
Lejeune Community Assistance Panel, and comments from additional 
scientists and an environmental non-governmental organization. ATSDR's 
plans take into consideration the underlying science, our commitment to 
serving communities exposed to hazardous substances, and address the 
comments and concerns of the reviewers.

                        II. SCIENCE AND SERVICE

    ATSDR has a unique mandate to conduct human health research related 
to community exposures to hazardous substances. Although our knowledge 
of the relationships between chemical exposures and human health is 
often based upon studies of highly exposed workers or animal toxicology 
testing, there remains a pressing need to know whether lower level 
exposures, away from the workplace, cause human illness. ATSDR 
identified the drinking water contamination at Marine Base Camp Lejeune 
as an opportunity for conducting this type of research.
    ATSDR recognizes the importance of setting appropriate expectations 
for our research. Our research studies must be of high quality. ATSDR 
research should contribute to the understanding of the human health 
effects of hazardous exposures such as VOCs in drinking water. While no 
single study can be conclusive, our research should add information to 
the overall weight-of-evidence regarding associations between hazardous 
exposures and human health outcomes.
    Our science serves a secondary, service-related, function: the 
right to know. At Camp Lejeune, hundreds of thousand of men and women 
lived and worked providing service to their country. Many were 
unknowingly exposed to VOCs in their drinking water. Beyond 
contributing to our general knowledge about these hazardous substances, 
ATSDR research studies will provide information that former service men 
and women of Camp Lejeune want to know about the health risks from 
these past exposures.
    ATSDR believes conditions are appropriate to continue research at 
Camp Lejeune. ATSDR's research should help inform policy decisions that 
respond to the health concerns of the service men and women exposed to 
contaminated drinking water. However, the development of these policies 
need not await the results of ATSDR research. The policy decisions 
should be based a weight-of evidence assessment of all relevant human 
and animal studies and consider authoritative assessments that have 
previously been published. Policies should be flexible enough to 
incorporate new information, such as the results from the ATSDR 
studies.

                    III. PARTNERSHIPS AND OVERSIGHT

    ATSDR serves the men and women who lived at Camp Lejeune while the 
drinking water was contaminated. Our work at Camp Lejeune would not be 
possible without the support and partnership of multiple people and 
organizations. Although no single person or group represents this 
diversity of people, many former marines have become active partners by 
serving on our Community Assistance Panel (CAP). The Department of Navy 
and United States Marine Corps have dedicated significant resources and 
efforts to assist ATSDR. Both groups have been instrumental in helping 
us understand the complexity and history of Camp Lejeune's drinking 
water systems. The quality of our efforts would have suffered without 
the dedicated interest and help from these people.
    ATSDR recognizes the value of objective scientific review. Over the 
years ATSDR has assembled four separate expert panels as we developed 
our epidemiological studies and computer-based models of drinking water 
contamination. Two panels have addressed the historic reconstruction of 
contaminated drinking water at Camp Lejeune: first the Tarawa Terrace 
system and second the Hadnot Point and Holcomb Boulevard systems. A 
third expert panel focused on whether or not ATSDR should conduct 
epidemiologic studies of the Camp Lejeune population beyond studies of 
birth outcomes, birth defects, and childhood cancers. The fourth expert 
panel provided advice to ATSDR on scientific approaches to a 
congressionally mandated health survey. The NRC report provides an 
additional opportunity for objective external review. In addition, 
protocols and reports of ATSDR's work have routinely been peer-reviewed 
by experts outside the Agency.

                    IV. ATSDR CAMP LEJEUNE PORTFOLIO

    ATSDR's work at Camp Lejeune is briefly described below for 
background purposes.
    <bullet> 1990: Public Health Assessment for ABC One-Hour Cleaners, 
Jacksonville, Onslow County, North Carolina. The first assessment 
related to Camp Lejeune focused on the contamination of ground water by 
tetrachloroethylene released from the ABC One-Hour Cleaners. This 
assessment found that PCE, detected in onsite and offsite wells, was 
the primary contaminant of concern.
    <bullet> 1997: Public Health Assessment for U.S. Marine Corps Base 
at Camp Lejeune, Military Reservation, Camp Lejeune, Onslow County, 
North Carolina. This assessment formed the basis for future public 
health research, including the ongoing water modeling, exposure 
reconstruction, and epidemiological studies. Although the drinking 
water section of the report needs to be updated, the report contains 
valuable and accurate historical information about nine other exposure 
pathways. ATSDR concluded in this report that exposures from VOCs in 
the drinking water at Camp Lejeune were a past public health hazard. 
ATSDR plans to reassess the drinking water pathway once the historic 
reconstruction efforts are completed.
    <bullet> 1998: Volatile Organic Compounds in Drinking Water and 
Adverse Pregnancy Outcomes, United States Marine Corps Base, Camp 
Lejeune. In 1995, ATSDR began a study of a variety of adverse pregnancy 
outcomes at Camp Lejeune in relation to drinking water VOC exposure. 
The study analyzed live births to women residing in base family housing 
when they delivered during the period January 1, 1968, through December 
31, 1985. Birth certificates were studied from 6,117 
tetrachloroethylene (PCE)-exposed women, 141 short-term 
trichloroethylene (TCE)-exposed women, 31 long-term TCE-exposed women, 
and 5,681 unexposed women. Associations between PCE and the study 
outcomes were observed in two potentially susceptible subgroups: 
infants of mothers 35 years of age or older and infants whose mothers 
had histories of fetal deaths. ATSDR also reported a reduction of birth 
weight for gestational age in male babies within the long-term TCE-
exposed group. ATSDR later identified an error in the exposure 
classifications used in this study. ATSDR is planning to reanalyze this 
study with updated exposure information.
    <bullet> 2005: Expert Peer Review Panel Evaluating ATSDR's Water-
Modeling Activities in Support of the Current Study of Childhood Birth 
Defects and Cancer at U.S. Marine Corps Base Camp Lejeune, North 
Carolina. Analyses of Groundwater Resources and Present-Day (2004) 
Water-Distribution Systems. ATSDR requested a panel of nine experts to 
provide input on the Agency's groundwater resources and water-
distribution system modeling activities conducted from March-December 
2004 at U.S. Marine Corps Base, Camp Lejeune, North Carolina. Overall, 
the experts indicated that this was an important study to conduct and 
were impressed with the quality of work performed to date. The 
panelists noted specific principal issues that needed to be addressed, 
and made recommendations for ATSDR's next steps. ATSDR has since 
followed the advice of the panel members.
    <bullet> 2005: Report of the Camp Lejeune Scientific Advisory 
Panel. In February 2005, ATSDR asked a panel of experts for advice 
regarding additional epidemiological studies related to people's 
exposure to contaminated drinking water at Camp Lejeune. The panel 
discussed a large range of possible adverse health impacts that could 
be related to short- and long-term exposure to TCE and other VOCs in 
the drinking water of Camp Lejeune. Several of these would be extremely 
challenging to study, and may not be feasible subjects for 
investigation, such as studies of effects that could involve medical 
evaluation of hundreds of individuals now living in widely scattered 
locations. There was agreement, however, that a study of mortality 
outcomes would be feasible (assuming the availability of adequate 
personal identifiers) and that a cancer incidence study might be 
feasible. Before embarking on full-scale studies however, the members 
recommend that ATSDR conduct one or more feasibility or pilot studies.
    <bullet> 2007: Analyses of Groundwater Flow, Contaminant Fate and 
Transport, and Distribution of Drinking Water at Tarawa Terrace and 
Vicinity, U.S. Marine Corps Base Camp Lejeune, North Carolina: 
Historical Reconstruction and Present-Day Conditions. Two of three 
water-distribution systems that have historically supplied drinking 
water to family housing at U.S. Marine Corps Base Camp Lejeune, North 
Carolina, were contaminated with VOCs. Tarawa Terrace was contaminated 
mostly with tetrachloroethylene (PCE), and Hadnot Point was 
contaminated mostly with trichloroethylene (TCE). Because limited 
measurements of contaminant and exposure data are available to support 
the epidemiological study, ATSDR used modeling techniques to 
reconstruct historical conditions of groundwater flow, contaminant fate 
and transport, and the distribution of drinking water contaminated with 
VOCs delivered to family housing areas. Based on probabilistic 
analyses, the most likely dates that finished water first exceeded the 
current maximum contaminant level (MCL) for PCE ranged from October 
1957 to August 1958 (95 percent probability), with an average first 
exceedance date of November 1957. Exposure to drinking water 
contaminated with PCE and PCE degradation by-products stopped after 
February 1987 when the Tarawa Terrace water treatment plant was closed.
    <bullet> Ongoing: Exposure to VOCs in Drinking Water and Specific 
Birth Defects and Childhood Cancers, United States Marine Corps Base 
Camp Lejeune, North Carolina. ATSDR has undertaken a study to determine 
if children born during 1968-1985 to mothers who were exposed to VOC-
contaminated drinking water at Camp Lejeune at any time during the 
pregnancy were more likely to have specific birth defects or childhood 
cancers. The birth defects include spina bifida, anencephaly, and cleft 
lip and/or palate. The childhood cancers include leukemia and non-
Hodgkin's lymphoma. The study design for the case-control study was 
completed in 2004 and underwent peer-review. Case-control interviews 
and the medical records confirmation phase of the study are complete. 
The study is awaiting completion of the water modeling.
    <bullet> 2008: An Assessment of the Feasibility of Conducting 
Future Epidemiological Studies at USMC Base Camp Lejeune. ATSDR 
released a feasibility assessment of conducting future epidemiological 
studies at the base. ATSDR visited the Naval Health Research Center 
(NHRC), the Defense Manpower Data Center (DMDC), and the DOD Education 
Activity storage facility at Fort Benning, Georgia, to determine 
whether available databases could identify adults and children who 
lived at the base, or civilians who worked at the base, during the 
period when drinking water was contaminated with VOCs. ATSDR also 
convened a panel of epidemiologists with experience in military and 
occupational cohort studies to provide recommendations on future 
studies (Appendix A of the report). ATSDR concluded that a mortality 
study and a cancer incidence study are feasible. Available DOD 
personnel databases can identify active duty Marines and naval 
personnel and civilian employees stationed at the base during the 
period when the Hadnot Point and Tarawa Terrace drinking-water systems 
were contaminated with VOCs. ATSDR also concluded that it may be 
feasible to include in the cancer incidence study those who 
participated in the ATSDR 1999-2002 survey and those who will 
participate in the congressionally mandated Navy/Marine Corps health 
survey scheduled for 2009. These studies should have sufficient 
statistical power to detect moderate excesses (e.g., standardized 
mortality ratios [SMRs] <2.0) in specific cancers among those exposed 
to the contaminated drinking water (see Appendix B). ATSDR completed 
internal clearance of the feasibility assessment and released it to the 
public.
    <bullet> 2009: Expert Panel Assessing ATSDR's Methods and Analyses 
for Historical Reconstruction of Groundwater Resources and Distribution 
of Drinking Water at Hadnot Point, Holcomb Boulevard and Vicinity, U.S. 
Marine Corps Base, Camp Lejeune, North Carolina. ATSDR convened a panel 
of 13 groundwater modeling, water-distribution system analysis, and 
epidemiological experts to help the agency evaluate the information, 
data, and modeling methods to be applied to Hadnot Point, Holcomb 
Boulevard, and vicinity at Camp Lejeune. The panel provided specific 
recommendations. Individual experts stated that the project was 
worthwhile and agreed that it would be possible for ATSDR to 
reconstruct potential historical exposures for the proposed 
epidemiological studies.

                  V. THE JUNE 2009 NRC RECOMMENDATIONS

    The National Research Council released its report, Contaminated 
Water Supplies at Camp Lejeune--Assessing Potential Health Effects, in 
June 2009. The summary recommendations directed at ATSDR, and a summary 
of our science-based position regarding these recommendations, are 
described below.
    NRC Recommendation 1: For the purpose of epidemiologic studies, the 
results of the Tarawa Terrace historical reconstruction can be used to 
characterize people as being exposed or unexposed on the basis of date 
and location of residence or workplace. The monthly estimates imply 
more accuracy than is appropriate and should not be used to 
characterize exposure of individual people.
    ATSDR will use its modeling to generate semi-quantitative exposure 
estimates for the planned epidemiologic studies rather than limit the 
use of the historic reconstruction to exposed/unexposed. ATSDR believes 
that the models provide a reliable means for assigning individuals to 
multiple exposure categories useful in epidemiologic studies. ATSDR's 
approach is supported by two previous expert panels that focused on our 
exposure reconstruction efforts.
    The usefulness of the Tarawa Terrace model-estimated monthly 
average PCE concentrations has been clearly demonstrated by its 
concordance with measured PCE concentrations in water samples taken 
from the Tarawa Terrace water treatment plant prior to distribution to 
its customers (i.e. finished water samples). A ``goodness of fit'' 
comparison between the model calibrations and measurements of finished 
Tarawa Terrace water lead ATSDR, as well as our drinking water panel of 
experts, to conclude that the modeled monthly estimates can be used to 
create reasonably accurate exposure categories for the epidemiological 
studies.
    The use of an exposed/unexposed classification for past drinking 
water contamination would result in a significant loss of important 
scientific information. ATSDR reviewed the distribution of modeled 
monthly drinking water exposures at Tarawa Terrace and documented that 
significant variability of exposure exists across the study population. 
Children in the birth defect and childhood cancer study who received 
drinking water from Tarawa Terrace during the first month of gestation 
were exposed to estimated average monthly drinking water contamination 
levels that range from 3 ppb to 182 ppb. A similar distribution is seen 
for mothers who lived at Tarawa Terrace and were included in the birth 
outcome study.
    The use of an exposed/unexposed classification system would 
inaccurately assess risk and potentially miss an observed effect if one 
truly exists. It is important to utilize all relevant information in 
the exposure assessment so that exposure categories can be created that 
are as homogeneous as possible with respect to risk. The NRC report (p. 
29) acknowledged this point when it emphasized the importance of 
correctly classifying the magnitude of exposure, differentiating 
``between those who are exposed at magnitudes that could result in 
adverse health effects (sensitivity) and those who are exposed at lower 
magnitudes (specificity).'' Moreover, an important research question is 
whether the risk for a disease increases with increasing exposure. This 
question cannot be addressed using an exposed vs. unexposed 
classification.
    Recommendation 2: Because any groundwater modeling of the Hadnot 
Point system will be fraught with considerable difficulties and 
uncertainties, simpler modeling approaches should be used to assess 
exposure from the Hadnot Point water system. Simpler modeling will not 
reduce the uncertainty associated with the estimates, but they have the 
advantage of providing a broad picture of the timeframe and magnitude 
of exposure encountered by people who used water from that system more 
quickly and with less resources than complex modeling exercises.
    ATSDR will apply simpler modeling techniques for Hadnot Point and 
Holcomb Boulevard then those used for Tarawa Terrace. The Hadnot Point 
area is significantly larger than the Tarawa Terrace area and contains 
multiple contaminant source locations. Applying the complex numerical 
models used at Tarawa Terrace to the entire Hadnot Point and Holcomb 
Boulevard areas would be time consuming, costly, and add another level 
of uncertainty to the water-modeling analyses. This approach is 
supported by both the NRC report and the ATSDR 2009 expert panel. The 
information from the models will be used in all of ATSDR's 
epidemiological studies to classify individuals into categories of 
exposure and provide a service to the affected community.
    The models needed to reliably estimate water concentrations for 
Hadnot Point and Holcomb Boulevard will be developed specifically to 
address issues for these areas. If available, better field 
characterization and details will be added to conceptual models to 
improve understanding of both hydraulics and transport at selected 
sites where potential exposure was high. ATSDR will use locally-refined 
grids to model selected sites of interest. ATSDR will select and 
develop simulation tools based on site-specific conditions, 
characteristics, and requirements.
    Recommendation 3: The Committee recommends that ATSDR go forward 
with reanalyzing its study of birth outcomes to correct for errors in 
exposure classification without awaiting the results of groundwater 
modeling of the Hadnot Point system. . . . Reanalyses should include 
development of a detailed written analysis plan.
    Despite the Committee's concerns about the statistical power of the 
study of birth defects and childhood cancer, it recommends that the 
study be completed as soon as possible.
    ATSDR will proceed with its planned reanalysis of the birth 
outcomes study to correct for errors in exposure classification. To 
avoid further exposure misclassification, ATSDR will await the 
completion of the historic exposure reconstruction of the Hadnot Point 
drinking water system. ATSDR will complete its case-control study of 
birth defects and childhood cancers. The analysis will proceed 
expeditiously once the historic exposure reconstruction of the Hadnot 
Point drinking water system is completed. ATSDR has developed a 
detailed analysis plan for these studies.
    ATSDR believes that due to significant variability of exposures 
among people at Hadnot point and Holcomb Boulevard, it is essential to 
complete the simpler water modeling for Hadnot Point. Monthly average 
contaminant levels will likely vary depending on when contaminated 
wells were operating. In addition, exposure will vary because of the 
transfer of water from Hadnot Point to Holcomb Boulevard during the dry 
spring-summer months.
    The birth outcome study cannot be reanalyzed without awaiting the 
Hadnot point water-modeling results. The previous analysis considered 
the drinking water supplied in Holcomb Boulevard uncontaminated, even 
though the area had originally been supplied contaminated water from 
Hadnot Point. The Hadnot Point water models must be completed to 
accurately classify exposures in Holcomb Boulevard during those years. 
Once, an acceptable historic dose-reconstruction of exposures at 
Holcomb Boulevard and Hadnot Point become available the epidemiological 
data will be analyzed.
    Recommendation 4: The Committee found that although ATSDR did 
consider the major issues bearing on the feasibility of the proposed 
studies and proposed reasonable approaches to conducting the studies, 
there remain serious, unresolved questions about the feasibility and 
ultimate value of the studies. . . . the Committee concluded that most 
questions about whether exposures at Camp Lejeune resulted in adverse 
health effects cannot be answered definitively with further scientific 
study. New studies should be undertaken only if their feasibility and 
promise of providing substantially improved knowledge on whether health 
effects have resulted from water exposure at Camp Lejeune are 
established in advance.
    ATSDR has proposed mortality and morbidity studies. The morbidity 
study will be based upon a ``health survey'' that would solicit 
information about diagnosed illnesses (e.g., cancer) from former 
service men and women and their families. ATSDR plans to move forward 
as quickly as possible to conduct the mortality study which has 
adequate study power and can be completed in a relatively short time 
period. ATSDR recognizes that a scientifically valid morbidity study 
based upon a health survey is time consuming and costly. The utility of 
this survey depends upon high participation rates and the ability to 
secure objective confirmation of reported medical conditions. ATSDR 
will alter its plans for the health survey by using a phased approach, 
evaluating participation rates and diagnosis verifiability in advance 
of a complete survey of all eligible participants. ATSDR will define 
scientifically sound criteria for evaluating the results of the first 
phase, and for deciding upon the feasibility of a full study. To 
determine whether a full research study can be conducted, ATSDR will 
conduct a pilot study, contacting a 10% sample (35,000 to 40,000) of 
those targeted for the health survey and evaluate the ability to locate 
participants, achieve an adequate participation rate, and confirm self-
reported diseases. ATSDR will mail a health survey to the remaining 90% 
of the study group to assure compliance with congressional authorizing 
language. If the pilot study demonstrates adequate response rates and 
medical confirmation, the same methods will be extended to the entire 
population. ATSDR will develop algorithms to determine the needed 
participation rate and diagnosis verification rate to assure valid 
results, and will evaluate the pilot study accordingly. If 
participation rates and medical confirmation are inadequate for a 
scientifically valid health survey, ATSDR will analyze and report the 
survey results without costly efforts to improve participation and 
assure medical confirmation.
    ATSDR has confirmed that adequate personnel data to establish a 
study cohort are available from the Defense Manpower Data Center's 
databases. These are the primary sources of data on former active duty 
and civilian employees for the mortality study and the health survey. 
These data contain names, social security numbers and dates of birth as 
well as other information such as rank, job duties, and length of 
employment or active duty service, and a unit code that places active 
duty men and women within Camps Pendleton and Lejeune. These data are 
sufficient for conducting a National Death Index search for the 
mortality study and initiating the search to contact people for the 
health survey.
    ATSDR has assessed the statistical power of the proposed mortality 
and morbidity studies. Statistical power is the probability of finding 
an exposure-disease association if an association does exist. The study 
power calculations were included in the study protocols which were not 
reviewed by the NRC committee. The study power estimates for the cancer 
mortality endpoints are adequate. The study power estimates for the 
health survey are also considered adequate, the health survey 
calculations are based upon a 65% participation rate which may be 
optimistic. The statistical power calculation on comparisons between 
Camp Lejeune and the general population showed that an SMR of 1.6 could 
be detected for kidney cancer with 90% power and a type 1 error (a 
error) of .10. For the comparison with Camp Pendleton, and assuming a 
similar cancer rate at Pendleton as for the general population, an SMR 
of 2.0 can be detected with 90% power and incorporating a 10 year 
latency. Lower SMRs can be detected with 90% power for other cancers of 
interest such as non-Hodgkin's lymphoma, leukemia, lung, colon/rectal, 
liver, and brain cancer. [Note: Because the U.S. rate for each cancer 
is based on very large numbers, the variability in the rate is ignored 
in power/sample size calculations. However, the variability in the rate 
for each cancer at Camp Pendleton must be taken into account in the 
power/sample size calculations. The result is that the SMR or SIR that 
can be detected with a specified sample size, latency, type 1 error, 
and type 2 error will be higher for the comparison between Camp Lejeune 
and Camp Pendleton than it will be for a comparison between Camp 
Lejeune and the U.S. population.] Statistical power was evaluated for 
the morbidity study protocol that was approved by the CDC IRB and peer-
reviewed. Comparing Camp Lejeune with Camp Pendleton, assuming a 65% 
participation rate, incorporating a 10 year latency period, and using a 
type 1 error of .10 and a type 2 error of .10 (i.e., 90% power), an RR 
of <1.6 can be detected for kidney cancer incidence. Lower RRs can be 
detected for non Hodgkin's lymphoma, lung, and colon/rectal cancer.
    Selection bias in the health survey is possible even with a 65% or 
higher participation rate. The degree to which bias might influence the 
study results is related to disease prevalence. Rare diseases are more 
easily influenced by low participation than common diseases. Although a 
high participation rate decreases the likelihood of bias, a low 
participation rate does not guarantee that bias will occur. On the 
other hand, low participation rates do diminish study power and 
decrease the overall confidence in study results.
    The health survey will utilize several approaches to achieve 
adequate participation rates to reduce the likelihood of selection 
bias. To enhance participation rates in the Camp Lejeune and Camp 
Pendleton populations, ATSDR proposes to have the Commandant of the 
USMC sign the letter that accompanies the survey encouraging 
participation. The Commandant's endorsement will ensure that active 
duty and retired Marines and their families perceive the study as 
legitimate. The selection of Camp Pendleton as a comparison population 
should also help to reduce the likelihood of selection bias. Both bases 
have had problems with toxic waste sites and are likely to have similar 
workplace exposures. To motivate populations at both bases to 
participate in the survey, all mailings will encourage those who 
experienced any environmental or workplace exposures to participate. 
The health survey will utilize a standard methodology that has been 
demonstrated to enhance participation rates in mailed surveys (the 
Dillman method). Participation will be made convenient by giving 
respondents the choice of completing a hard copy or web-based survey, 
and the survey instrument will be of optimum length to address the 
research questions of interest without overburdening the respondent.
    ATSDR recognizes the importance of accurately ascertaining adverse 
health outcomes. For the mortality study, a standard approach will be 
used: vital status will be determined using an algorithm that utilizes 
several national databases and the National Death Index will be used to 
identify causes of death. For the morbidity study, only health outcomes 
confirmed by medical records or cancer registrations will be evaluated 
in the analyses. ATSDR plans to utilize all 50 state cancer registries, 
the VA cancer registry, and the DOD cancer registry to confirm self-
reported cancers identified from the health survey. ATSDR will obtain 
confirm disease status by obtaining medical records for non-cancer 
outcomes of interest.
    ATSDR has been meeting with state cancer registries that are funded 
by CDC's National Program of Cancer Registries (NPCR) and National 
Cancer Institute's Surveillance and Epidemiology End Results (NCI 
SEER). ATSDR also has had discussions with the VA and DOD cancer 
registries. All are supportive of working with ATSDR to confirm self-
reported cancers from the health survey. In addition, a major 
consideration in the selection of a contractor for the health survey 
will be the demonstrated ability of the contractor to obtain medical 
records for disease confirmation.

                    VI. IMPLEMENTATION AND TIMELINE

    ATSDR is moving ahead as planned with its portfolio of activities, 
dependent upon funding from the Department of Navy. ATSDR will provide 
an updated 2010 Annual Plan of Work based on this final plan. ATSDR 
hopes to proceed with the Mortality Study immediately if the research 
contract can be awarded in FY2009. The health survey cannot begin 
before FY2010 because of limitations with the planned funding mechanism 
and the decision to conduct a pilot study. A revised time-line will be 
developed for the morbidity study that is based upon the health survey. 
The pilot phase of the health survey is likely to begin sometime after 
March 2010.

                            VII. REFERENCES

    Agency for Toxic Substances and Disease Registry. Preliminary 
Public Health Assessment for ABC One-Hour Cleaners, Jacksonville, 
Onslow County, North Carolina. Atlanta GA: U.S. Department of Health 
and Human Services; 1990. Report No.: NCD024644494.
    Agency for Toxic Substances and Disease Registry. Public Health 
Assessment for U.S. Marine Corps Base at Camp Lejeune, Military 
Reservation, Camp Lejeune, Onslow County, North Carolina. Atlanta, GA: 
U.S. Department of Health and Human Services; 1997. Report No.: 
NC6170022580.
    Agency for Toxic Substances and Disease Registry. Volatile Organic 
Compounds in Drinking Water and Adverse Pregnancy Outcomes, United 
States Marine Corps Base, Camp Lejeune. Atlanta, GA: U.S. Department of 
Health and Human Services; 1998.
    Agency for Toxic Substances and Disease Registry. (ATSDR) 2005a. 
Report of the Camp Lejeune Scientific Advisory Panel. June 24, 2005. 
http://www.atsdr.cdc.gov/sites/lejeune/panel--report.html
    Agency for Toxic Substances and Disease Registry. (ATSDR) 2005b. 
ATSDR Response to the Report of the Camp Lejeune Scientific Advisory 
Panel. 2005. http://www.atsdr.cdc.gov/sites/lejeune/panel--report--
response.html
    Contaminated Water Supplies at Camp Lejeune--Assessing Potential 
Health Effects. National Research Council. June 2009.
    Maslia ML. Expert Peer Review Panel Evaluating ATSDR's Water-
Modeling Activities in Support of the Current Study of Childhood Birth 
Defects and Caner at U.S. Marine Corps Base Camp Lejeune, North 
Carolina. Atlanta, GA: Agency for Toxic Substances and Disease 
Registry; 2005.
    Maslia ML, Sautner JB, Faye RE, Suarez-Soto RJ, Aral MM, Grayman 
WM, Jang W, Wang J, Bove FJ, Ruckart PZ, Valenzuela C, Green JW Jr, and 
Krueger AL. Analyses of Groundwater Flow, Contaminant Fate and 
Transport, and Distribution of Drinking Water at Tarawa Terrace and 
Vicinity, U.S. Marine Corps Base Camp Lejeune, North Carolina: 
Historical Reconstruction and Present-Day Conditions--Chapter A: 
Summary of Findings. Atlanta, GA: Agency for Toxic Substances and 
Disease Registry; 2007.
    Sonnenfeld N, Hertz-Picciotto I, and Kaye WE. Tetrachloroethylene 
in Drinking Water and Birth Outcomes at the U.S. Marine Corps Base at 
Camp Lejeune, North Carolina. American Journal of Epidemiology. 
2001;154(10):902-908.
                                 ______
                                 
Prepared Statement of The Camp Lejeune Community Assistance Panel (CAP)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
  Prepared Statement in Response to National Research Council Report 
                            on Camp Lejeune

    We are disappointed and dismayed at the report titled, 
``Contaminated Water Supplies at Camp Lejeune--Assessing Potential 
Health Effects,'' released by the National Research Council (NRC) on 
Saturday, June 13, 2009. This report was two years in preparation by 
scientists, many of whom we know and respect, that reached puzzling and 
in some cases erroneous conclusions. We are aware of the complex 
situation regarding availability and access to data, and each of us has 
participated in committees advising the Agency for Toxic Substances and 
Disease Registry (ATSDR) about how to move forward with health studies. 
It is our view that the Marines and their families who were exposed to 
dangerous chemicals in the Camp Lejeune drinking water over several 
decades deserve to know if this exposure has had an effect on their 
health. The most direct way to assess this is to conduct valid 
epidemiologic studies of those who lived or worked there, and we urge 
ATSDR to continue their efforts to carry these to conclusion. The 
overall judgment about the impact of the chemicals on health can then 
be informed both by the general scientific literature the NRC reviewed, 
plus findings from directly relevant studies of the exposed population.
    Specific areas where we disagree with the NRC report include their 
assessment of the water distribution modeling, their assessment of the 
risk caused by exposure to two of the principal contaminants (TCE and 
PCE), and the likelihood of conducting meaningful epidemiologic studies 
in this setting. We view the water modeling undertaken by ATSDR and its 
consultants as ``state-of-the-art'' and worth carrying through to 
completion so that it can be used in the on-going and proposed health 
studies. There may be uncertainties about specific levels of exposure 
for individual households or people, but these can be described in the 
study results. We also agree with the National Toxicology Program that 
TCE and PCE are ``reasonably anticipated to be human carcinogens'' and 
reject the characterization of the evidence as ``limited/suggestive'' 
as presented in the NRC report. We note that this characterization of 
solvent mixtures actually steps back from previous work done by the 
National Academy of Sciences Institute of Medicine in 2003. Finally, we 
disagree with the thrust of the NRC report that it is unlikely that 
scientifically informative epidemiologic studies of the Camp Lejeune 
population can be done. The NRC doubts that ``definitive'' answers can 
come from any study, but this sets the bar too high--no one study can 
provide definitive answers, and all studies must be considered in the 
light of other scientific evidence. From our experience in other 
settings, we believe that useful studies of the Camp Lejeune population 
are possible and furthermore that the Marines and their families 
deserve our government's best efforts to carry them out.
    For these reasons, we urge the ATSDR to consider this particular 
NRC report in the context of other expert advice they have received 
during the past decade and the competent work already done by agency 
staff. Since the NRC report is at such variance with the 
recommendations of other water modeling and epidemiologic experts, we 
believe it should not stand as the final word.
            Sincerely,
                                   Ann Aschengrau, Sc.D., 
                                       Professor, Associate Chair of 
                                       the Department of Epidemiology, 
                                       Boston University School of 
                                       Public Health
                                   Richard Clapp, D.Sc., MPH, 
                                       Professor, Boston University 
                                       School of Public Health
                                   David Ozonoff, MD, MPH, 
                                       Professor and Chair Emeritus of 
                                       the Department of Environmental 
                                       Health, Boston University School 
                                       of Public Health
                                   Daniel Wartenberg, Ph.D., 
                                       Professor, Environmental and 
                                       Occupational Medicine, Robert 
                                       Wood Johnson Medical School
                                   Sandra Steingraber, Ph.D., 
                                       Scholar in Residence, Ithaca 
                                       College
                                 ______
                                 
       Prepared Statement of David A. Briscoe, U.S. Marine (Ret.)

    Good morning, my name is David Briscoe and I served my country 
faithfully for 8 years in the United States Marine Corps. I spent 7 of 
those 8 years at Camp Lejeune and for 3 of the 7 years I lived in base 
housing with my family. What I didn't know was the fact that the tap 
water that served both my place of duty and my home was highly 
contaminated with PCE, TCE, DCE, vinyl chloride, benzene, toluene, 
ethylbenzene, and xylene.
    Five and one-half years following my honorable discharge from the 
USMC, I was diagnosed with adenocystic carcinoma of the right pallet. I 
had a surgical resection performed at the Baltimore VA hospital and 
multiple postoperative radiation treatments in Washington, DC. I would 
later require 25 hyperbaric oxygen treatments at various treatment 
facilities because of poor healing believed to have been caused by the 
radiation therapy.
    Following my cancer surgery and treatments my family and I moved 
back to Onslow County, NC, which is my wife's original home. It was 
shortly after this relocation that I became aware of the contamination 
in the drinking water at Camp Lejeune. It was at this time that I began 
pursuing my VA benefits related to service connection because of my 
exposure to the high levels of contamination in the tap water on the 
base. The period of time which my exposure to these chemicals took 
place, the Department of the Navy and United States Marine Corps 
officials knew of their existence in our tap water (see attachment A, 
B, C, & D). In a September 1985 Raleigh News and Observer article (see 
attachment E) related to the contamination aboard Camp Lejeune, Robert 
Alexander, a base environmental engineer, was quoted as saying, ``Of 
all the contamination sites aboard the base, no people had been 
directly exposed to any of the pollutants.'' Then on 25 February 1988, 
the Assistant Chief of Staff, Facilities Marine Corps Base, Camp 
Lejeune, NC, Colonel Thomas J. Dalzell was interviewed by the base 
newspaper the ``Globe.'' (see attachment F) The title of this article 
was ``HAZARDOUS WASTES AND THEIR EFFECTS EXPLAINED.'' During this 
interview, Col. Dalzell was asked many questions, but two of these 
questions along with the Colonel's responses really stood out. The 
dialog was as follows:

        Question. Is my health or the health of my family in any 
        danger?
        Response. No, it's not. All the wells which we get our raw 
        water out of are continually tested and the wells that were 
        identified as being contaminated have been closed off. All the 
        other wells with water coming out contain no health problems at 
        all to any individual who is living or working aboard Camp 
        Lejeune or anyone in the local community.

        Question. What about prior to 1983?
        Response. At that time, we were not aware of any of these 
        particular compounds that might have been in the ground water 
        and we have no information that anyone's health was in danger 
        at that time.

    Both of these authority figures were fully aware of the fact that 
no less than four laboratories had identified contaminants in Camp 
Lejeune's tap water as early as October 1980. On 10 August 1982, 
Grainger Analytical Laboratory in Raleigh, NC, wrote a letter to the 
Commanding General of Camp Lejeune warning him that what they had 
discovered in the base's drinking water was ``more important from a 
health stand point'' than what the water was initially being tested 
for. In their letter, Grainger laboratory went on to identify and 
quantify the contaminants they discovered. Both of these men knowingly 
lied to the tens of thousands of Marines, Sailors, their family members 
and civilian employees whose health and safety these men were 
entrusted.
    Once the Department of the Navy (DON) and United States Marine 
Corps (USMC) claims that ``no people had been exposed to any 
pollutants'' was proven wrong, they began a new campaign of dis/
misinformation related to regulatory standards for these chemicals. 
They (DON/USMC) then began stating ``we had violated no state or EPA 
standards regarding these specific chemicals in drinking water.'' While 
there is an ounce of truth in this claim, because there were no state 
or USEPA standards regulating the presence of these chemicals in public 
water supplies at that period of time, they (DON/USMC) had detailed, 
explicit regulations/standards for both drinking water and the 
chemicals which had contaminated Camp Lejeune's water supply dating as 
far back as 1963 (see attachments G, H, I). I have learned that when 
dealing with the DON/USMC in this situation that it isn't so much as 
``what they say'' which counts, it is what they ``don't say!''
    Based upon what is known regarding the Camp Lejeune drinking water 
issue, there is absolutely no reason that it took me 8 years to acquire 
the VA benefits which I so rightfully deserved and am now receiving 
(See attachment J). It is quite obvious that the DON/USMC publicly 
misrepresented the human exposures and their own regulatory 
responsibilities at the base and there is absolutely no reason for any 
veteran who served at Camp Lejeune during the contamination period who 
is suffering health consequences to be denied his or her service-
connected VA benefits. Absolutely NONE!
                                 ______
                                 
                   Prepared Statement of Candy Little

    MY LATE HUSBAND GEORGE AND I WERE STATIONED AT CAMP LEJEUNE FROM 
1970-1972. THERE WE CONCEIVED A DAUGHTER, MICHELLE, MY PREGNANCY WAS 
NORMAL UNTIL SEPT. 14, 1972, WHEN OUR LIVES WERE CHANGED FOREVER. 
MICHELLE WAS STILLBORN, CAUSE OF DEATH, INTRA UTERINE ASPHYXIA 
PLACENTAL INSUFFICIENCY, AND NO ONE HAD ANY ANSWERS TO GIVE US.
    WE HAD 2 SONS NOT CONCEIVED AT CAMP LEJEUNE AND THEY ARE BOTH 
HEALTHY.
    TRAGEDY STRUCK AGAIN WHEN I WAS 5 MONTHS ALONG WITH OUR YOUNGEST 
SON, GEORGE WAS DIAGNOSED WITH ACUTE LYMPHOSITIC LEUKEMIA, CANCER OF 
THE BLOOD AND BONE MARROW, WHAT THEY CALL A CHILD'S DISEASE. HE 
SUFFERED TERRIBLY. HE RECEIVED CHEMOTHERAPY PLUS HE HAD TO ENDURE TESTS 
ON HIS BONE MARROW, WHICH MEANT A NEEDLE INSERTED INTO HIS RIBS TO 
EXTRACT HIS BONE MARROW FOR TESTING. ON JAN. 15, 1977 HE DIED, JUST 5 
DAYS BEFORE OUR SON TURNED 1, HE WAS 25 YEARS OLD. I NOW FOUND MYSELF A 
WIDOW WITH 2 SMALL CHILDREN, I WAS 23 YEARS OLD.
    MY HEALTH PROBLEMS BEGAN IN 1989, IT STARTED WITH MY BACK AND I 
HAVE BEEN IN EXCRUCIATING PAIN EVER SINCE. I AM THANKFUL I HAVE A 
WONDERFUL HUSBAND WHO DOES EVERYTHING HE CAN TO HELP ME. HE HAS TAKEN 
ME TO NUMEROUS DOCTORS OVER THE PAST 20 YEARS.
    MY MEDICAL HISTORY IS LONG AND COMPLICATED. JUST A FEW THINGS WRONG 
ARE, THAT AFTER 18 YEARS I WAS FINALLY GIVEN A NAME TO MY PROBLEM, 
FYBROMYALGIA, ALSO FAILED BACK SYNDROME, WHICH INCLUDES 3 FAILED BACK 
SURGERIES, FAILED SPINAL COLUMN STIMULATOR, MIGRAINE HEADACHES (TWICE A 
DAY), PLUS BONE AND MUSCLE DETIORATION, I HAVE 2 METAL DISCS IMPLANTED 
INTO MY BACK TO MAKE MY DISCS THE SAME SIZE PLUS TRY TO RELIEVE THE 
PAIN IN MY LEFT LEG DUE TO THE FACT THAT THE COLLAPSED DISC SAT THERE 
FOR 10 YEARS, SO NOW I HAVE PERMENANT NERVE DAMAGE. I ALSO HAVE 2 
TITANIUM SCREWS FUSED TO MY SPINE.
    I'VE HAD 24 DOCTORS OVER THE YEARS, MOST BAFFLED AS TO THE SEVERITY 
OF MY PAIN. I HAVE ALSO HAD 9 SURGERIES IN THE PAST 20 YEARS. THIS IS A 
LONG TIME TO BE IN CONSTANT PAIN. I AM NOW BEING TREATED WITH MORPHINE, 
I'VE BEEN ON IT SINCE 1999. I ALSO TAKE A TOTAL OF 41 PILLS A DAY, 
THAT'S DOWN FROM 68 PILLS BACK IN 2003. IN 2004 I LOST ALL OF MY TEETH 
DUE TO BONE DETIORATION, MY DENTURES NEVER FIT PROPERLY AFTER THAT, I 
HAD 4 FAILED SURGERIES ON MY MOUTH TO REPAIR 2 HOLES LEFT WHEN MY 
MOLARS WERE PULLED. IN 2006 I FINALLY HAD A SUCCESSFUL SURGERY AND THE 
HOLES WERE FILLED, AND I FOUND A DENTIST THAT COULD REPAIR MY DENTURES 
SO I COULD WEAR THEM.
    AS YOU CAN SEE, MY LIFE HAS NOT BEEN EASY, BUT MY STORY, SAD AS IT 
IS, THERE ARE THOUSANDS OF PEOPLE OUT THERE WITH STORIES JUST AS SAD 
AND TRAGIC AS MINE, PLUS THOUSANDS MORE THAT DO N0T KNOW ABOUT THIS 
STORY AT ALL.
    IN MY OPINION ALL OF THE ABOVE MEDICAL PROBLEMS ARE CAUSED BY THE 
CONTAMINATED WATER AT CAMP LEJEUNE. I FEEL THIS IS A VERY IMPORTANT 
STORY, ONE THAT SHOULD BE TOLD. WE NEED THE HELP FROM THE MEDIA TO 
BRING THIS STORY TO LIGHT.
    DURING THE 60'S AND 70'S OUR YOUNG SOLDIERS WERE FIGHTING A WAR IN 
VIETNAM AND LITTLE DID WE KNOW WHAT THE DEVISTATING EFFECTS AGENT 
ORANGE WOULD HAVE ON OUR YOUNG SOLDIERS AND THEIR FAMILIES.
    THE MARINES HAS A MOTTO: ``WE TAKE CARE OF OUR OWN'', IT SHOULD BE 
``MARINES KILLING MARINES''. I HOPE YOU WILL CONSIDER HELPING US, WE 
SURE COULD USE IT. IT'S TIME THIS GOVERNMENT ``TOOK CARE OF IT'S OWN''.
    THERE IS A WEB SITE I HAVE REGISTERED ON. IT'S 
WWW.WATERSURVIVORS.COM WHEN YOU'VE LOST A LOVED, ESPECIALLY A CHILD, NO 
MATTER HOW MANY YEARS HAVE GONE BY YOU NEVER FORGET THEM.
    I'M SO THANKFUL FOR THE LOVED ONES IN MY LIFE, MY HUSBAND, MY SONS, 
BUT ESPECIALLY OUR 6 BEAUTIFUL GRANCHILDREN. IT GOES TO SHOW YOU THAT 
NO MATTER HOW MUCH TRAGEDY ENTERS YOUR LIFE, THERE IS ALWAYS A BRIGHT 
LIGHT AT THE END OF THE TUNNEL.
    THANK YOU,
            SINCERELY,
                                              CANDY LITTLE,
                                                        DALTON, MA.
                                 ______
                                 
                                                   October 8, 2009.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.
      Subject: Hearing on the VA/DOD Response to Certain Military 
                               Exposures

    Dear Mr. Chairman: We thank you for holding hearings regarding 
military exposures to hazardous agents. We understand the hearings 
focus on a few locations your Committee has concerns about regarding 
potential health hazards. We are providing very brief comments for your 
consideration and the record. We request that you pursue actions to 
mitigate health problems arising from hazardous exposures at US 
military bases.
    Marines and others who serve anticipate hazardous conditions will 
occur. While efforts should be made to minimize hazards, some 
activities are inherently dangerous and even lethal. We realize that 
knowledge of chemical hazards was neither as extensive nor widespread 
in past decades. But the degree of hazard is clearly indicated by the 
130 current and former military bases that are federally-designated 
Superfund sites (Attachment 1). This designation requires extensive 
proof of hazardous chemical contamination. Carcinogenic, neurotoxic, 
and mutagenic chemicals were used during military duties (e.g., jet 
fuels and other fuels, degreasing solvents) without personal protective 
gear. Burn pits and other operations created additional toxic airborne 
chemicals, and often the soil, dust, and water on bases were 
contaminated. The burden of exposure and disease is only now being 
fully realized.
    El Toro is one of many bases operated to serve US defense needs, 
manned by people who put their lives on the line to protect and defend 
our citizens. The prevalence of hazards on bases is illustrated by the 
example shown in Attachment 2. Many veterans have difficulty locating 
information on chemicals that they were exposed to, if they know that 
the information exits. Medical evaluations of their exposures and 
illnesses that may result in a Nexus statement are very expensive. Yet 
this is required to receive essential medical care and disability 
support. This process is indefensible given the substantial medical 
science available to the VA on chemical hazards.
    While we welcome an opportunity to provide additional information, 
for the sake of brevity we request that your Committee carefully 
consider and prompt the VA to take the following actions essential to 
preserving the health of Veterans:

    <bullet> Disclosure hazardous agents used on military bases, with 
information on potential health effects of the agents
    <bullet> For those highly exposed to hazardous agents, provision of 
medical monitoring and access to tests for early diagnosis of diseases 
related to hazardous agents
    <bullet> Medical care and disability for those with medical 
conditions related to their military service

    Valuing the service provided by Veterans requires the VA and DOD's 
participation in basic public health outreach and services. This will 
provide the Veterans the best opportunity for good health, improve the 
economic viability of their families, and it is fundamentally the right 
and just thing to do. We are submitting these comments as Marines, 
family members of Marines, and health professionals working with 
Marines who served at the El Toro Marine Base in Irvine California.
            Respectfully submitted by the following individuals,
                                   Robert O'Dowd,
                                       Somerdale, NJ, Marine Veteran, 
                                       Former Financial Manager, 
                                       Defense Logistics Agency
                                   James Davis,
                                       Garden Grove, CA, Founder and 
                                       President of Veterans for 
                                       Change, Son of Marine
                                   Mary Davis,
                                       Garden Grove, CA, Former Judge 
                                       Advocate General (JAG) employee, 
                                       Wife of Marine
                                   Tim King,
                                       Salem, OR, Marine Veteran, 
                                       Journalist
                                   Bonnie King,
                                       Salem, OR, Wife of Marine 
                                       Veteran, Journalist
                                   Johnny P. Barron,
                                       Desoto, TX, Marine Veteran, Sr. 
                                       Systems Programmer
                                   Dr. Kathleen Burns,
                                       Lexington, MA, Director, 
                                       Sciencecorps
                                   Dr. Philip Leveque,
                                       Forensic Toxicologist, Molalla, 
                                       OR
                                   Dr. Michael Harbut,
                                       Chief, Center for Occupational 
                                       and Environmental Medicine, 
                                       Royal Oak, MI, Chair, Science 
                                       Committee, Michigan Agent Orange 
                                       Commission, 1987-1988''
                                   Dr. Daniel Teitelbaum,
                                       Denver, CO, Adjunct Professor, 
                                       Colorado School of Public Health 
                                       & University of Colorado at 
                                       Denver
Attachments
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 Jacksonville, NC, October 8, 2009.
Hon. Daniel K. Akaka,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman, Ranking Member Burr, and other Members of the 
Senate Veterans' Affairs Committee: Thank you for taking the time to 
read my statement for the record regarding the toxic exposure at NAF 
Atsugi, Japan.
    We cannot undo the fact that for nearly 18 years, roughly 3,000 
families, every year, lived on NAF Atsugi Japan and was exposed to 
hundreds of toxic chemicals, including dioxin, volatile organic and 
inorganic chemicals, lead, benzene, mercury, cadmium, arsenic, 
trichloroethylene (TCE) Polychlorinated Biphenyls (PCBs), and other 
lethal toxins that exceeded Maximum Contaminant Levels (MCL), but we 
can support our Military Veterans', their families and provide them 
adequate health care and benefits.
    For all that is human and right, please STOP allowing the 
Department of Navy (DON) to investigate itself. After the incinerator 
was shut down in 2001, the Navy did not take any action to notify 
personnel, provide information to US Department of Veterans Affairs 
(VA) or assist with health concerns until 2007, when former residents 
starting questioning their exposure at NAF Atsugi, Japan.
    After my husband was diagnosed with Renal cell carcinoma (RCC): 
kidney cancer, in his early 40's, I started questioning Navy Medicine 
about the chemicals we were exposed to at NAF Atsugi, Japan, almost a 
decade earlier.
    On 14 February 2007, the Navy and Marine Corps Public Health Center 
(NMPCHC) sent a team from Portsmouth, VA to Camp Lejeune, NC to meet 
with my husband and I. The members of this team included Captain 
Gillooly, Verona Walker, CDR Mohon, and Mary Ann Simmons. Capt. 
Gillooly and Ms. Walker worked on the Atsugi contamination issues and 
had a wealth of knowledge regarding the toxic exposure.
    The DON continues to minimize the specifics surrounding this issue, 
another example, and I can give many, of this is the fact that the 2008 
NAF Atsugi Health study eliminated the Central nervous system, liver 
and kidney damage in their report. This is because the NMCPHC concluded 
that the available literature was felt to be inadequate regarding the 
low levels reported in the Final Health Assessment in 2002.
    However, let met point our specific facts, the Standard Form (SF) 
600 that Navy Medicine added to our medical records in late 1997 stated 
we were exposed to 12 toxic chemicals that exceeded USEPA and New York 
State ambient air quality standards. I have provided some of the 
toxicological profiles as determined by the Agency for Toxic Substances 
and Disease Registry (ATSDR) ToxFAQs<SUP>TM</SUP> for your reference 
for a few of those chemicals:

    <bullet> Carbon Tetrachloride: High exposure to carbon 
tetrachloride can cause liver, kidney, and central nervous system 
damage.
    <bullet> Mercury: Exposure to high levels of metallic, inorganic, 
or organic mercury can permanently damage the brain, kidneys, and 
developing fetus.
    <bullet> Trichloroethylene (TCE): Breathing large amounts of 
trichloroethylene may cause impaired heart function, unconsciousness, 
and death. Breathing it for long periods may cause nerve, kidney, and 
liver damage.
    <bullet> Cadmium: Long-term exposure to lower levels of cadmium in 
air, food, or water leads to a buildup of cadmium in the kidneys and 
possible kidney disease.
    <bullet> Dioxin: (VA provides benefits for those exposed to Agent 
Orange) Dioxins are believed to affect the growth regulation of cells. 
It can cause transient mild liver damage (hepatotoxicity), Peripheral 
nerve damage (neuropathy), Respiratory cancers, Multiple myeloma 
(malignant tumor of the bone marrow), Prostate cancer, Porphyria 
cutanea tarda (liver dysfunction and photosensitive skin lesions), Type 
2 diabetes, Neurobehavioral development effects in infants.

    As you can see, from the data, it was documented in past studies 
that former NAF Atsugi residents were being exposed to high levels of 
toxic chemicals that have been categorized by ASTDR to specifically 
damage our central nervous system, kidneys and liver.
    Why did the NMCPHC removed these illnesses from the study? The only 
answer could be to continue to cover up how ill former Atsugi resident 
truly are with toxic related diseases and cancers.
    Additionally, the Agency for Healthcare Research and Quality has 
determined that there are no screening recommendations for kidney or 
liver disease. For the NMCPHC not to recommend these tests along with 
the U.S. Preventative Services Task Force guidelines for routine 
preventive care is a grave mistake and potentially life threatening for 
to many former Atsugi residents!
    The Committee of Toxicology (COT) stated in the Review of the US 
Navy's Human Health Risk Assessment of the Naval Air Facility at 
Atsugi, Japan (2001) that there was, ``The issue of plume-warning 
properties has not been addressed. Many contaminant concentrations are 
higher indoors than outdoors'' (but the NAVY told us to go inside when 
the plum covered the base).
    One step that was provided by the NEHC was to have our children 
wash their hands after being outside, however the COT states, ``Washing 
of hands, forearms, face, tools, toys, and so on, after outdoor 
activities that result in direct contact with soil or dust is good 
advice and practice, but risk reduction by such measures has not been 
determined (Pioneer 2000; p. 93).''
    The COT also recommended that NEHC use both approaches, to 
(surveillance) especially where data are already available. 
Surveillance can be either active or passive. However no health 
surveillance was performed by the DON.
    In 2008, the NMPCH contract Battelle Memorial Institute to see if 
an additional population-based medical screening might be indicated.
    The NMPCHC has a public Web site about NAF Atsugi, posted in 2007, 
available for former Atsugi residents with some study information, 
however, the Web site has not been widely publicized and many former 
Atsugi residents does not know of its existence.
    Battelle recommended that children who were under 16 Respiratory 
Heath screening. The NMCPHC stated that NAF Atsugi children were 
compared to those living at Yokosuka failed to show any difference, so 
retesting any children who were under the age of 16 while living at NAF 
Atsugi was unnecessary. (The study states that untrained people were 
used to administer the test to the children and it appeared that some 
of the children were encouraged to blow harder.)
    Battelle recommended for a Neuro-Behavioral outreach program from 
effects of lead exposure; The NMCPHC stated that there was a lead 
screening program in place at NAF Atsugi for much of the time that the 
SIC was in operation and that only 2 children had elevated lead levels 
out of 650 test from 1993-2001, therefore no additional counseling is 
required. (Even though, during a meeting with NMCPHC health officials, 
on 14 February 2007 while discussion as to why all children's lead 
levels were not tested as there was significant evidence to warrant 
testing for all children, CDR Mohon stated that it was determined that 
most the residential population utilized for the elevated blood test 
were children who lived at Navy Support Facility (NSF) Kamiseya.
    Another recommendation was to evaluation of Current NAF Atsugi Soil 
Contamination. Soil sampling was conducted and heavy metals and dioxin 
levels were confirm to still be present in NAF Atsugi, Japan soil. Is 
NAF Atsugi still a health risk to residents?
    Although I did petition for ATSDR to provide further studies on NAF 
Atsugi, Japan, the petition was denied. It was deemed not necessary as 
the DON has already concluded by 1995, ``that there was sufficient and 
compelling evidence showing that VOC, PBCs, Pesticides, PAHs, dioxins 
and furans, particulars and heavy metals were released to the air at 
levels that exceeded EPA health risk based guidelines while the 
incinerator was in operation s from 1983-2001.
    In June 2009 the NMCPHC published a long-term health effect that 
might be associated with the exposure of the SIC. The study admittedly 
has several faults or bias, which are as follows:

    <bullet> Misclassification of Exposure,
    <bullet> Occupational differences,
    <bullet> Case identification (Clinical classification of disease),
    <bullet> Overseas screening differences for respiratory illnesses,
    <bullet> Environmental awareness,
    <bullet> Selection of the comparison group,
    <bullet> The Loss of follow up and that medical data for all 
persons in the study were not consistently available.

    Even though they knew there were latency health risks, the NMCPHC 
did not produce an Atsugi registry until 2009. CDR McMillian, BUMED, 
has stated me that the data from the current NAF Atsugi Health Study 
will be used as registry. Unfortunately, the registry is inadequate 
data because of the lost of follow-up participates. The initial total 
active duty and family members included in the 2009 study for NAF 
Atsugi were 16804 people; however at the end of the study only 4504 
people remained. This number also does not include more than half the 
people who were stationed at NAF Atsugi between 1983-2001, nor does it 
include civilian personnel and their dependents, children who were 
conceived but not born at NAF Atsugi and the medical data was not 
available for the entire study.
    Additionally, former Atsugi resident have is the fact that the 
Selection of the comparison group was, Commander Fleet Activities 
Yokosuka, Japan (CFAY) because it shared the same environmental 
characteristics as Atsugi resident except for the exposure of the SIC.
    CFAY was not an appropriate selection because of the soil 
contamination which included high levels of mercury and arsenic in the 
underground soil, discovered in 2001 within the residential area, where 
new high rises were being built. Additionally, in 1988 heavy metal 
contamination was discovered at Yokoula's berth 12, which lead to the 
groundwater near berth 12 to have lead contamination that was 250 times 
the Japan environmental quality standards in 1993-1994 timeframe.
    Although the NMCPHC study states that there are significantly 
higher risks for dermal complains among the NAF Atsugi population, and 
Atsugi residents had higher incidents of liver cancer diagnoses, but 
the differences were not statistically significant than CFAY residents.
    We also believe that the types of cancers and diagnosis codes 
allowed in the study were too vague, as it has been documented that 
Atsugi residents were exposed to over 200 toxic chemicals, to included 
Dioxin, which is already been recognized by the DVA for those exposed 
to agent orange.
    I have asked the DON, several times for a list of cancer types and 
the numbers associated with cancer, however, I was informed by per CDR 
McMillian via email on October 6, 2009, that all my questions and or 
request now have to be sent through the Surgeon General, VADM Adam 
Robinson.
    Why can the NMPHC not find cancer cases in the case study when I 
can find 59 cases of cancer in roughly 750 former residents? This 
includes, but is not limited to 8 cases of Brain cancer, 7 cases of 
Cervical Cancer, 6 cases of Thyroid cancer, 3 Leukemia and 3 Lymphoma. 
Other cases such as Kidney, Lung, Skin and Soft-tissue sarcoma's which 
has been linked to dioxin.
    The Navy's track record regarding the SIC emissions clearly 
demonstrates a gross lack of concern for the long-term health and 
welfare of US military personnel and their families. Would it not be 
financially feasible and cost effective to contact former residents and 
ask them what cancers and illnesses they are suffering from? Remember 
the DON has already spent over 18 million on this subject. It is an 
abuse of power and a waste of government funding to continue to allow 
the DON to investigate this complex and life threatening issue.
    There is no reason not to recognize well-established toxic links, 
illnesses and cancers to certain diseases that ASTDR has already 
documented, specifically the chemicals that exceeded MCLs at NAF 
Atsugi, Japan!
    How many chances does the NMPCH have to get it right? The NMCPHC 
are professionals who primary jobs are to spin and embellish the truth 
about chemicals exposures with the DON, and when the questions get 
tough, they cutoff all communication. They continue to make the same 
mistakes, as military dependents are at risk today as I type this 
statement. Dependents are being exposed to toxins at Naval Support 
Activity (NSA) Naples and the NMCPHC is busy with their usual efforts 
of ``risk communication.'' It is time that someone puts a stop to 
exposing military families to toxic waste!
    According to DOD 4165.63M, DOD Housing Management dated September 
1993, ``The Installation Commanders Shall: (C1.4.6.1.) Provide 
excellent living conditions for all military personnel, eligible 
civilians, and their families and (C1.4.6.9) Protect members and their 
families from environmental and safety hazards in housing areas.'' It 
is evident that the DON failed to adhere to this specific Department of 
Defense (DOD) Directive, as the DON had full knowledge that toxic 
chemicals, which exceeded MCL, were being release by the SIC and 
polluting the residential area, which was confirmed to adversely affect 
NAF Atsugi's residents health and well-being, especially our children.
    Finally, the Navy stated in 1998 in a Q&A sheet that if resident 
felt they were sicken by the SIC, they should file a claim. The results 
of our claims are as follows:

    <bullet> The statue of limitations for timely filing of the claim 
was two years from the date of the incident and the claim was not 
received until almost a decade after the Parulis family left Atsugi. 
The lawsuit in 2000 and the purchase and closure of the facility in 
2001 should have provided notice of the problems associated with the 
facility. The claim for injuries was not filed until 2008.
    <bullet> The discretionary function defense protects the United 
States for decisions that are not required or mandated by law, but 
rather involve some element of judgment. This means that the United 
States Navy cannot be liable for its actions in this instance.

    I formally request that Navy to notify, mass media/mailing, all 
those stationed at NAF Atsugi, Japan from 83-01 and record what type of 
disease/cancers which have been associate with all and any chemicals 
that were recorded to be over the levels of Maximum Contaminant Level 
(MCL) for air, soil and drinking water that was documented at NAF 
Atsugi, Japan. This should be done in a timely manner and not prolonged 
or put off as the Navy wishes.
    Thank you for all your support in this matter, please contact me 
should you require further data. I have posted numerous DON studies and 
various supporting documentation at www.atsugi-incinerator-group.com
            Best Regards,
                                            Shelly Parulis,
                                                  Jacksonville, NC.
                                 ______
                                 
                     Prepared Statement of Sam Sims

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
